   United States Department of Agriculture
   Office of Inspector General




Department of Agriculture's Consolidated
Financial Statements for
Fiscal Years 2012 and 2011




                                             Audit Report 50401-0003-11
                                             November 2012
                          United States Department of Agriculture 

                                   Office of Inspector General 

                                    Washington, D.C. 20250 





DATE:           NOV 1 5 2012
AUDIT
NUMBER:       5040 1-0003-11

TO:            Jon M. Holladay
               Deputy ChiefFinancial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy Donaldson
               Audit Liaison Officer
                                       1
FROM:          Phyllis K. Fong
               Inspector General

SUBJECT:       Department of Agriculture' s Consolidated Financial Statements for
               Fiscal Years 2012 and 2011


This report presents the results of our audits of the Department of Agriculture' s consolidated
financial statements for the fiscal years ending September     2012 and 2011. The report
contains an unqualified opinion on the financial statements, as well as the results of our
assessment of the Department's internal control over financial reporting and compliance with
laws and regulations. Your response is included in its entirety in exhibit D.

In accordance with Departmental Regulation 1720-1 , please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommended actions for which management decision has not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Opinion on the Consolidated Financial Statements .............................................3
Internal Control Over Financial Reporting ..........................................................4
Compliance and Other Matters ..............................................................................5
Responsibilities .........................................................................................................5
Findings and Recommendations.............................................................................7
   Section 1: Material Weaknesses in Internal Control Over Financial
   Reporting ...............................................................................................................7
       Finding 1: Improvements are Needed in Overall Financial Management
       ...........................................................................................................................7
       Finding 2: Improvements are Needed in Information Technology
       Security and Controls ......................................................................................8
   Section 2: Significant Deficiency in Internal Control Over Financial
   Reporting ...............................................................................................................9
       Finding 3: Controls Over Financial Reporting Can Be Strengthened ......9
             Recommendation 1 ..................................................................................10
             Recommendation 2 ..................................................................................10
             Recommendation 3 ..................................................................................11
   Section 3: Noncompliance with Laws and Regulations .................................12
       Finding 4: Lack of Substantial Compliance with FFMIA Requirements
       .........................................................................................................................12
Abbreviations .........................................................................................................13
Exhibit A: Audit Reports Related to the Fiscal Year 2012 Financial
Statements ...............................................................................................................14
Exhibit B: Summary of Prior Year Recommendations .....................................15
Exhibit C: Status of Prior Year Noncompliance Findings ................................18
Exhibit D: Agency Response .................................................................................19
Exhibit E: Agency Financial Report ...................................................................20
Executive Summary
Department of Agriculture’s Consolidated Financial Statements for
Fiscal Years 2012 and 2011 (Report 50401-0003-11)

Purpose
Our audit objectives were to determine whether (1) the consolidated financial statements present
fairly, in all material respects, in accordance with accounting principles generally accepted in the
United States of America, the assets, liabilities, and net position, net cost, changes in net
position, and combined budgetary resources; (2) the internal control objectives over financial
reporting were met; (3) the Department complied with laws and regulations for those
transactions and events that could have a direct and material effect on the consolidated financial
statements; and (4) the information in the Agency Financial Report was materially consistent
with the information in the consolidated financial statements.

We conducted our audits at the financial offices of various Department of Agriculture (USDA)
agencies and the Office of the Chief Financial Officer located in Washington, D.C., and its
National Finance Center located in New Orleans, Louisiana. We also performed site visits to
selected agencies’ field offices.

Results in Brief
In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of USDA, as of September 30, 2012 and 2011, and its net
costs, changes in net position, and budgetary resources for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

Our consideration of the internal control over financial reporting identified three significant
deficiencies. Specifically, we identified weaknesses in USDA’s:

   ·   overall financial management,
   ·   information technology security and controls, and
   ·   controls over financial reporting.

We determined that the first two significant deficiencies are material weaknesses.

Our consideration of compliance with laws and regulations disclosed substantial noncompliance
relating to the Federal Financial Management Improvement Act of 1996.




                                                                       REPORT 50401-0003-11       1
Key Recommendations
As discussed in its Federal Managers’ Financial Integrity Act Report on Management Control,
the Department has plans to address the majority of the items discussed in the report. Therefore,
our recommendations are limited to actions needed to correct abnormal balances and ensure
more timely processing of certain intragovernmental transactions.

Agency Response
The Department concurs with the findings in the report. It generally agrees with the
recommendations in the report and will develop corrective action plans with milestones to
address the findings within 60 days.

OIG Position
Management decision should be achievable upon review of the plans for corrective action.




2    REPORT 50401-0003-11
Independent Auditor’s Report
Jon M. Holladay
Deputy Chief Financial Officer
Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the Department of
Agriculture (USDA), as of September 30, 2012 and 2011, and the related consolidated
statements of net cost; changes in net position; and the combined statements of budgetary
resources (hereinafter referred to as the “consolidated financial statements”) for the fiscal years
then ended. The objective of our audits was to express an opinion on the fair presentation of
these consolidated financial statements. In connection with our fiscal year 2012 audit, we also
considered USDA’s internal control over financial reporting and tested USDA’s compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements that could
have a direct and material effect on these consolidated financial statements.

The following sections discuss our opinion on USDA’s consolidated financial statements; our
consideration of USDA’s internal control over financial reporting; our tests of USDA’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements; and management’s, as well as our, responsibilities.

The Findings and Recommendations section presents the material weaknesses and a significant
deficiency in internal control and instances of noncompliance with laws and regulations, as of
and for the year ended September 30, 2012. Exhibit A of this report presents the audit reports
related to the fiscal year 2012 financial statements. Exhibit B summarizes the current year status
of prior year audit recommendations. Exhibit C provides an update to previously reported
instances of noncompliance with laws and regulations. USDA’s response is presented in its
entirety in exhibit D.

Opinion on the Consolidated Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of USDA, as of September 30, 2012 and 2011, and its net
costs, changes in net position, and budgetary resources for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

USDA made certain reclassifications to prior year amounts to conform to current year
presentation on the Combined Statement of Budgetary Resources. In accordance with new
guidance effective for fiscal year 2012, as discussed in Note 1, the Combined Statement of
Budgetary Resources was reclassified to better align with the new Standard Form 133, Report on
Budget Execution and Budgetary Resources. Also as discussed in Note 1, USDA reclassified
“Distributed Offsetting Receipts” on the Combined Statement of Budgetary Resources.

Accounting principles generally accepted in the United States of America require that the
information in the Management’s Discussion and Analysis (MD&A), Required Supplementary
Stewardship Information, and Required Supplementary Information sections be presented to
supplement the basic financial statements. Such information, although not a part of the basic
financial statements, is required by the Federal Accounting Standards Advisory Board which
                                                                     REPORT 50401-0003-11        3
considers it to be an essential part of financial reporting for placing the basic financial statements
in an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards
generally accepted in the United States of America, which consisted of inquiries of management
about the methods of preparing the information and comparing the information for consistency
with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audit of the basic financial statements. We do not express an
opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

The information in the Other Accompanying Information section is presented for purposes of
additional analysis, and is not a required part of the financial statements. This information has
not been subjected to the auditing procedures applied in the audits of the consolidated financial
statements and, accordingly, we express no opinion on it.

Internal Control Over Financial Reporting

Our consideration of the internal control over financial reporting was for the limited purposes
described in the Responsibilities section of this report and would not necessarily identify all
deficiencies in the internal control over financial reporting that might be significant deficiencies
or material weaknesses.

Significant deficiencies are deficiencies, or a combination of deficiencies, in internal control that
are less severe than a material weakness, yet important enough to merit attention by those
charged with governance. Material weaknesses are deficiencies or a combination of deficiencies
in internal control, such that there is a reasonable possibility that a material misstatement of the
consolidated financial statements being audited will not be prevented, or detected and corrected
on a timely basis. Because of inherent limitations in any internal control, misstatements due to
error or fraud may occur and not be detected.

In our fiscal year 2012 audit, we noted certain matters involving the internal control over
financial reporting, and its operation, that we consider to be significant deficiencies.
Specifically, we identified weaknesses in USDA’s:

    ·    overall financial management,
    ·    information technology (IT) security and controls, and
    ·    controls over financial reporting.

We determined that the first two deficiencies are also material weaknesses. These deficiencies
are discussed in this report in Findings and Recommendations, Sections 1 and 2.

We did not identify any material weaknesses that were not disclosed in USDA’s Federal
Managers’ Financial Integrity Act of 1982 (FMFIA) Report on Management Control.




4       REPORT 50401-0003-11
Compliance and Other Matters

We performed tests of USDA’s compliance with selected provisions of applicable laws and
regulations, as described in the Responsibilities section of this report. Our tests disclosed one
instance of noncompliance with laws and regulations that is required to be reported under
government auditing standards and the Office of Management and Budget (OMB) Bulletin 07-
04, as amended. Specifically, the results of our tests of the Federal Financial Management
Improvement Act of 1996 (FFMIA) disclosed instances, described in more detail in Finding 4 in
the Findings and Recommendations section of this report, where USDA’s financial management
systems did not substantially comply with Federal Financial Management System Requirements,
applicable Federal Accounting Standards, and the U. S. Standard General Ledger (SGL) at the
transaction level.

Additionally, during fiscal year 2012, we identified instances of noncompliance with the
requirements of the Improper Payments Elimination and Recovery Act of 2010 (IPERA),
regarding the design of program internal controls related to reporting improper payments. A
separate report will be issued with further details on the Department’s compliance with IPERA.1

Furthermore, as noted in its MD&A, the Department reported that one agency was not compliant
with certain requirements of the Code of Federal Regulations relating to the management of
grants.

Responsibilities
Management’s Responsibilities

USDA’s management is responsible for (1) preparing the consolidated financial statements in
conformity with accounting principles generally accepted in the United States of America;
(2) establishing, maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the FMFIA are met; (3) ensuring that USDA’s financial
management systems substantially comply with FFMIA requirements; and (4) complying with
applicable laws and regulations.

Auditor’s Responsibilities

Our responsibility is to express an opinion on the fiscal years 2012 and 2011 consolidated
financial statements of USDA based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in government auditing standards, issued by the Comptroller
General of the United States; and OMB Bulletin 07-04, Audit Requirements for Federal
Financial Statements, as amended. Those standards and OMB Bulletin 07-04, as amended,
require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit



1
    IPERA amended the “Improper Payments Information Act of 2002,” Public Law 107-300.


                                                                           REPORT 50401-0003-11   5
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of USDA's internal control over financial reporting. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements, assessing the accounting principles used and significant estimates made by
management, and evaluating the overall financial statement presentation. We believe that our
audits provide a reasonable basis for our opinion.

In planning and performing our audits, we considered USDA' s internai control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin 07-04, as
amended and government auditing standards. We did not test all internal controls as defined by
FMFIA. The objective of our audit was not to provide an opinion on USDA' s internal control.
Consequently, we do not provide an opinion on internal control over financial reporting, nor on
USDA's assertion on internal control included in its MD&A.

As part of obtaining reasonable assurance about whether the consolidated financial statements
are free of material misstatement, we performed tests ofUSDA's compliance with certain
provisions of laws and regulations, contracts and agreements, and Governmentwide policy
requirements, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts. We also obtained reasonable
assurance that USDA complied with certain provisions of other laws and regulations specified in
OMB Bulletin 07-04, as amended, including requirements referred to in FFMIA, except for those
that, in our judgment, were clearly inconsequential. We limited our tests of compliance to the
provisions described in the preceding sentences and did not test compliance with all laws and
regulations applicable to USDA. However, providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express such an
opmwn.

USDA' s response to the findings in our audit is included in its entirety in exhibit D. We did not
audit the response and, accordingly, express no opinion on it.

This report is intended solely for the information of the management of USDA, OMB, the
U.S. Government Accountability Office and the U.S. Congress, and is not intended to be, and
should not be, used by anyone other than these specified parties.



Phyllis K. Fong
Inspector General

November 14, 2012




6     REPORT 50401-0003-11
Findings and Recommendations

Section 1: Material Weaknesses in Internal Control Over Financial
Reporting

Finding 1: Improvements are Needed in Overall Financial Management
During fiscal year 2012, USDA made further improvements in its financial management. For
example, exhibit B describes actions taken by the Department relating to obligations,
intradepartmental transactions, and accounting functions for one agency. Also, the Department
continued implementation of its Financial Management Modernization Initiative (FMMI) to
improve financial performance through a modern financial system that provides maximum
support to the Department and its agencies. However, we noted areas where further
improvements are needed for two component agencies.

· In fiscal year 2012, we again attempted to perform an audit of the Natural Resources
Conservation Service’s (NRCS) Financial Statements.2 NRCS was again unable to provide
sufficient evidential matter in support of certain transactions and account balances, as presented
in the NRCS consolidated financial statements, as of and for the year ended September 30, 2012.
This includes beginning balances, current year activity, and associated disclosures related to
accounts receivable, easements, advances, accounts payable and accruals, benefit liabilities,
capital lease liability, net position, unobligated balances, budgetary transfers, and property, plant,
and equipment. Our audit work identified issues related to processes and internal controls
supporting key account balances and financial reports.

In its FMFIA Report on Management Control for 2012, the Department identified the NRCS
weaknesses as a financial management system non-conformance with the objectives of FMFIA.

· We continue to report a material weakness for the Commodity Credit Corporation (CCC)
relating to funds control management specific to recording obligations at the transaction level.
Although CCC has made significant progress, CCC has not yet achieved full funds control and
still does not record certain obligations (budgetary entries) at the transaction level. This
deficiency does not allow CCC to perform an automated and real time funds control at the time
contracts are fully executed (obligated).

In its FMFIA Report on Management Control for 2012, the Department identified CCC’s funds
control management as a financial management system non-conformance with the objectives of
FMFIA.

Because of recommendations already made to CCC and NRCS in other audit reports, we are
making no further recommendations in this report.




2
    Report 10401-0002-11, NRCS’ Financial Statements for Fiscal Year 2012 (November 2012).

                                                                            REPORT 50401-0003-11   7
Finding 2: Improvements are Needed in Information Technology Security
and Controls

We performed an independent evaluation of the Department’s IT security program and practices,
as required by the Federal Information Security Management Act of 2002 (FISMA). 3 Although
improvements continue to be made in the Department’s IT security, our FISMA report notes that
many long-standing weaknesses remain. Our fiscal year 2012 FISMA report provides details on
the material weaknesses we continued to note in the design and effectiveness of the Department’s
overall IT security program.

We also performed a review of the control structure of the Office of the Chief Financial
                                                                                   4
Officer/National Finance Center (OCFO/NFC) located in New Orleans, Louisiana. OCFO/NFC
sustained an unqualified opinion on its control environment.

In its FMFIA Report on Management Control for 2012, USDA again reported an overall IT
material weakness relating to deficiencies in the internal control design and operating
effectiveness for logical access controls/personnel security and configuration management. As
noted in its FMFIA report, the Department indicated that 2012 accomplishments include:

    ·     the Office of the Chief Information Officer (OCIO) realignment to streamline and
          strengthen its organizational capability to effectively manage the overall IT security
          program,
    ·     continued implementation and operation of enterprise level security devices, and
    ·     continued implementation of the identity credentialing and access management program
          for logical and physical access control.

The Department has additional corrective actions planned in fiscal year 2013.

Because of recommendations made in our FISMA audits, we are making no further
recommendations in this report.




3
 Report 50501-0003-12, U.S. Department of Agriculture, Office of the Chief Information Officer, Fiscal Year 2012
Federal Information Security Management Act (November 2012).
4
 Report 11401-0004-11, Statement on Standards for Attestation Engagements No. 16 Report on Controls at the
National Finance Center (September 2012).


8       REPORT 50401-0003-11
Section 2: Significant Deficiency in Internal Control Over Financial
Reporting

Finding 3: Controls Over Financial Reporting Can Be Strengthened
During our audit, we noted that controls relating to certain financial management practices could
be strengthened. Two items discussed below, unliquidated obligations (ULO) monitoring and
abnormal balance reviews, were included in our audit report last year as part of the material
weakness over financial reporting.
· Our review of inactive ULOs 5 disclosed that substantial improvements have been made by
agencies to effectively monitor and review ULOs. In its FMFIA Report on Management Control
for 2012, USDA downgraded its long-standing material weakness (relating to the lack of
consistent review and follow-up on ULOs) to a significant deficiency. The Office of Inspector
General also is downgrading the weakness in this audit report. However, opportunities to
strengthen controls over reviewing ULOs remain.

We statistically selected 100 ULOs from 13 agencies and offices for which no activity had
occurred for over 1 year.6 We determined that four ULOs were invalid because no future
expenditures were expected. In addition, we found one ULO balance was a valid obligation that
would have been paid off in prior fiscal years if it had been properly monitored.

We also performed a review of the June 30, 2012, obligation certifications required by the
Department. We determined that all three of the agencies selected for review inappropriately
certified to the validity of their balances. Documentation provided to support agencies’ reviews
and certifications showed incomplete and inaccurate reviews were performed.

The U.S. Department of the Treasury’s (Treasury) annual closing guidance (Treasury Bulletin
2012-06, 2012 Yearend Closing, dated July 5, 2012) requires an annual review of ULOs.
Departmental Regulation 2230-1, Reviews of Unliquidated Obligations, dated April 21, 2009,
further requires quarterly reviews and certifications as to the validity of ULO balances from
agency Chief Financial Officers (CFO).

Ineffective monitoring and reviewing, as well as inappropriately certifying to the validity of
obligation balances, resulted in invalid obligations remaining open. Invalid obligations
improperly restrict the availability of funding authority. This also increases the risk of misstating
obligations as of yearend.

· In fiscal year 2011, the Department issued updated guidance to USDA agencies to improve
the process for reviewing, researching, and timely implementing action to correct abnormal
balances. The Department further updated this bulletin on October 4, 2012. Although the

5
 An obligation is a binding agreement that will result in outlays, immediately or in the future. Budgetary resources
must be available before obligations can be incurred legally.
6
    Statistical selection from activity as of August 18, 2012.


                                                                                  REPORT 50401-0003-11             9
Department continued to emphasize the process for addressing abnormal balances, we again
                              7
identified abnormal balances in the USDA fiscal yearend trial balance that were not fully
researched and corrected. For fiscal year 2012, we noted 77 abnormal account balances, totaling
about $971 million (absolute value) at yearend. We noted some of these abnormal balances were
due to reimbursable activities for which appropriate expenditures had occurred, but collection
was outstanding. According to the Department, the existence of an abnormal balance indicates
that transactions or adjustments may have been posted in error. In addition, abnormal balances
increase the risk of material misstatement on the financial statements.

· Our review disclosed that Intra-Governmental Payment and Collection (IPAC) transactions
were not always fully processed in a timely manner.8 As of fiscal yearend, over 3,900 IPAC bills
were not fully processed, and over 2,000 bills had remained unprocessed for more than 60 days.
In order for IPAC bills to fully process, all details are required from the agencies, including valid
funding obligation document information. We noted that the unprocessed transactions were
recorded in FMMI, but remain in suspense until the bills are able to be fully processed.

We also understand that approximately 1,500 bills continue to require research to determine if
they were accurately processed. In April 2012, OCFO identified about 2,600 records that were
manually noted as processed in FMMI, but were reflected as unprocessed according to the
tracking tool. Because these bills are older, OCFO has assigned them a lower priority for
researching, focusing on newer bills first.

We were informed that the prior IPAC tracking tool did not function with FMMI.9 As a result,
significant manual intervention was required in the reconciliation and tracking of IPAC bills.

Untimely processing of IPAC bills increases the risk of inaccurate financial reporting.

Recommendation 1
Continue to analyze the abnormal balances to identify and implement the actions needed to
correct those balances, to include providing oversight to ensure reimbursable activities are timely
billed for collection.

Recommendation 2
Continue to develop and implement effective steps to timely process IPAC transactions.




7
    A balance that deviates from the standard balance as defined by Treasury’s SGL.
8
 The primary purpose of the IPAC system is to provide a standardized interagency fund transfer mechanism for
Federal program agencies. IPAC facilitates the intra-governmental transfer of funds, with descriptive data, from one
Federal program agency to another.
9
 FMMI began replacing the prior financial management system in fiscal year 2010. As of the end of fiscal year
2012, one agency remains to be converted to FMMI.


10         REPORT 50401-0003-11
Recommendation 3
Issue detailed guidance to agencies relating to processing IPAC bills and provide training to
ensure agencies fully understand their roles, as well as the detailed data requirements for
successful processing.




                                                                   REPORT 50401-0003-11         11
Section 3: Noncompliance with Laws and Regulations

Finding 4: Lack of Substantial Compliance with FFMIA Requirements
FFMIA requires agencies to annually assess whether their financial management systems comply
substantially with (1) Federal Financial Management Systems Requirements (FFMSR),
(2) applicable Federal accounting standards, and (3) SGL at the transaction level. In addition,
FISMA requires each agency to report significant information security deficiencies, relating to
financial management systems, as a lack of substantial compliance under FFMIA. FFMIA also
requires auditors to report in their CFO Act financial statement audit reports whether financial
management systems substantially comply with FFMIA’s system requirements.

During fiscal year 2012, USDA evaluated its financial management systems to assess
compliance with FFMIA. The Department reported that it was not substantially compliant with
FFMSR, applicable accounting standards, SGL at the transaction level, and FISMA
requirements. As noted in its MD&A, USDA continues working to meet the FFMIA and
FISMA objectives.

In its FFMIA report, the Department reported noncompliance with FFMSR and FISMA for
multiple agencies relating to logical access controls/personnel security and configuration
management.

Additionally, in its FFMIA report, the Department noted noncompliances for two of its
component agencies, described below.


     1. CCC was not compliant with the SGL at the transaction level. CCC has completed the
        development of a fully integrated funds control system, the Electronic Funds
        Management System (eFMS), within the Farm Service Agency/CCC core financial
        management system. This system is integrated with CCC’s general ledger system at the
        transaction level. eFMS provides management with timely information to monitor and
        control the status of budgetary resources recorded in the general ledger. Work continues
        to implement programs into eFMS for full funds control at the transaction level. CCC
        plans to correct the deficiency by September 30, 2014.

     2. NRCS did not comply with FFMSR, Federal accounting standards, and SGL at the
        transaction level. Corrective actions are scheduled for completion by November 30,
        2013. In addition, deficiencies were noted in application access controls, configuration
        management support systems access, and management of user access.

Because of actions planned by the Department and recommendations made in other audits, we
are making no further recommendations in this report.




12      REPORT 50401-0003-11
Abbreviations

CCC............................. Commodity Credit Corporation
CFO ............................. Chief Financial Officer
eFMS ........................... Electronic Funds Management System
FAS ............................. Foreign Agricultural Service
FFMIA ........................ Federal Financial Management Improvement Act of 1996
FFMSR ........................ Federal Financial Management Systems Requirements
FISMA ........................ Federal Information Security Management Act of 2002
FMFIA ........................ Federal Managers’ Financial Integrity Act of 1982
FMMI .......................... Financial Management Modernization Initiative
IPAC ........................... Intra-Governmental Payment and Collection
IPERA ......................... Improper Payments Elimination and Recovery Act of 2010
IT ................................. information technology
MD&A ........................ Management’s Discussion and Analysis
NFC ............................. National Finance Center
NRCS .......................... Natural Resources Conservation Service
OCFO .......................... Office of the Chief Financial Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
RMA ........................... Risk Management Agency
SGL ............................. Standard General Ledger
Treasury ...................... U.S. Department of Treasury
ULO ............................ Unliquidated Obligations
USDA.......................... Department of Agriculture




                                                                         REPORT 50401-0003-11   13
Exhibit A: Audit Reports Related to the Fiscal Year 2012
Financial Statements
The following is a list of reports which are related to the Office of Inspector General’s audit of
the Department of Agriculture’s fiscal year 2012 financial statements.


       Audit Number       Audit Title                                     Release Date
                          Federal Crop Insurance Corporation/Risk
                          Management Agency’s
       05401-0002-11                                                      November 2012
                          Financial Statements for
                          Fiscal Years 2012 and 2011
                          Commodity Credit Corporation’s                  November 2012
       06401-0002-11      Financial Statements for
                          Fiscal Years 2012 and 2011
                          Forest Service’s Financial Statements for
       08401-0002-11                                                      November 2012
                          Fiscal Years 2012 and 2011
                          Natural Resources Conservation Service’s
       10401-0002-11                                                      November 2012
                          Financial Statements for Fiscal Year 2012
                          Statement on Standards for Attestation
       11401-0004-11      Engagements No. 16 Report on Controls at        September 2012
                          the National Finance Center
                          Food and Nutrition Service’s
       27401-0002-21      Financial Statements for                        November 2012
                          Fiscal Years 2012 and 2011
                          Office of the Chief Information Officer,
       50501-0003-12      Fiscal Year 2012 Federal Information            November 2012
                          Security Management Act
                          Rural Development’s Financial Statements
       85401-0002-11                                                      November 2012
                          for Fiscal Years 2012 and 2011
                          Review of Selected Controls at the
       88401-0001-11                                                      September 2012
                          National Information Technology Center




14     REPORT 50401-0003-11
Exhibit B: Summary of Prior Year Recommendations

Report 50401-0001-11, Department of Agriculture’s Consolidated Financial Statements for
Fiscal Years 2011 and 2010, dated November 15, 2011.

Finding 1: Improvements are Needed In Overall Financial Management

Recommendation 1
Provide additional oversight of the accounting functions at the Foreign Agricultural Service
(FAS) to ensure that the objectives of internal control over financial reporting are maintained.

Departmental Status
As of October 24, 2012, the Department considers that the corrective actions related to this
recommendation have been completed. During fiscal year 2012, the Department met regularly
with FAS to discuss the status of deliverables for Federal Managers’ Financial Integrity Act of
1982 (FMFIA), as well as for the Office of Inspector General’s (OIG) financial statement audit.
The Department also reviewed FAS’ FMFIA assurance statement and corrective action plans.

OIG Results
Closed. OIG did not report as a control weakness for fiscal year 2012.

Recommendation 2
Provide additional oversight and training to ensure agencies are following Departmental policy
in identifying and reconciling intradepartmental transactions.

Departmental Status
In September 2012, the Office of the Chief Financial Officer (OCFO) provided a draft bulletin
on the reconciliation of intradepartmental transactions and discussed it with agency accountants.
OCFO is in the process of issuing the guidance in final and then will close this recommendation.

OIG Results
Closed. OIG did not report as a control weakness for fiscal year 2012.




                                                                    REPORT 50401-0003-11           15
Exhibit B: Summary of Prior Year Recommendations

Report 50401-70-FM, U.S. Department of Agriculture’s Consolidated Financial Statements
for Fiscal Years 2010 and 2009, dated November 15, 2010.

Finding 1: Improvements Are Needed In Overall Financial Management

Recommendation 1
Provide additional oversight to ensure that agencies are properly reviewing, researching, and
timely implementing action to correct abnormal balances.

Departmental Status
During fiscal year 2011, the Department issued the OCFO Bulletin 11-02, Controls Over
Abnormal Balances, to update Departmental guidance to its agencies to improve the process for
reviewing, researching, and timely implementing action to correct abnormal balances. This
bulletin was updated on October 4, 2012. The Department’s estimated completion date for this
recommendation is November 30, 2012.

OIG Results
The weakness continues to exist, as discussed in Finding 3. OIG downgraded to a significant
deficiency.

Report 50401-67-FM, U.S. Department of Agriculture’s Consolidated Financial Statements
for Fiscal Years 2009 and 2008, dated November 16, 2009.

Finding 1: Improvements Are Needed In Overall Financial Management

Recommendation 1
Provide additional oversight to ensure agencies (1) properly monitor and review obligation
balances, (2) provide valid certifications based on complete and accurate reviews as required by
Departmental Regulation 2230-001, and (3) understand the importance of responding to requests
for bills or additional information in a timely manner.

Departmental Status
During fiscal year 2012, the Department worked with agencies to complete cleanup of
obligations recorded in the Foundation Financial Information System and the Financial
Management Modernization Initiative. In addition, the Department continued to monitor
obligations via monthly corrective actions status reports. The Department estimates that all
corrective actions will be completed in fiscal year 2013.


16     REPORT 50401-0003-11
Exhibit B: Summary of Prior Year Recommendations

OIG Results
This weakness continues to exist, as discussed in Finding 3. However, OIG downgraded to a
significant deficiency.

Report 50401-65-FM, U.S. Department of Agriculture’s Consolidated Financial Statements
for Fiscal Years 2008 and 2007, dated November 14, 2008.

Finding 1: Improvements Are Needed In Overall Financial Management

Recommendation 1
Provide additional oversight to ensure that general ledgers reflect valid obligations and that
agencies perform the required reviews timely and effectively.

Departmental Status
See Departmental status for Recommendation 1 of Report 50401-67-FM, U.S. Department of
Agriculture’s Consolidated Financial Statements for Fiscal Years 2009 and 2008, dated
November 16, 2009.

OIG Results
The weakness continues to exist, as discussed in Finding 3. OIG downgraded to a significant
deficiency.




                                                                    REPORT 50401-0003-11         17
Exhibit C: Status of Prior Year Noncompliance Findings

Report 50401-0001-11, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2011 and 2010, dated November 15, 2011.

Finding 3: Lack of Substantial Compliance with Federal Financial
Management Improvement Act of 1996 (FFMIA) Requirements

Reported Noncompliance
The Department reported a lack of substantial compliance with the FFMIA requirements. The
Department reported that it was not substantially compliant with the Federal Financial
Management Systems Requirements (FFMSR), applicable accounting standards, the U.S.
Government Standard General Ledger (SGL) at the transaction level, and the Federal
Information Security Management Act (FISMA) of 2002 requirements.

Status
In fiscal year 2012, the Department continued to report substantial noncompliance with FFMSR,
applicable standards, SGL at the transaction level, and FISMA requirements, as discussed in
Finding 4.




18     REPORT 50401-0003-11
Exhibit D: Agency Response




                             REPORT 50401-0003-11   19
Exhibit E: Agency Financial Report




                      USDA
           AGENCY FINANCIAL REPORT
            FISCAL YEARS 2012 and 2011
             FINANCIAL STATEMENTS
               PREPARED BY USDA
         SECTIONS 1 AND 3 ARE UNAUDITED




20   REPORT 50401-0003-11
Agency Financial Report
     Fiscal Year 2012
Non-Discrimination Statement
The U.S. Department of Agriculture (USDA) prohibits discrimination against its customers. If
you believe you experienced discrimination when obtaining services from USDA, participating
in a USDA program, or participating in a program that receives financial assistance from USDA,
you may file a complaint with USDA. Information about how to file a discrimination complaint
is available from the Office of the Assistant Secretary for Civil Rights.

To file a complaint of discrimination, complete, sign, and mail a program discrimination complaint
form, available at any USDA office location or online at www.ascr.usda.gov, or write to:

USDA
Office of the Assistant Secretary for Civil Rights
1400 Independence Avenue, S.W.
Washington, D.C. 20250-9410

Or, call toll free at (866) 632-9992 (voice) to obtain additional information, the appropriate
office, or to request documents. Individuals who are deaf, hard of hearing, or have speech
disabilities may contact USDA through the Federal Relay service at (800) 877-8339 or
(800) 845-6136 (in Spanish).

USDA is an equal opportunity provider, employer, and lender.

Persons with disabilities who require alternative means for communication of program
information (e.g., Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at
(202) 720-2600 (voice and TDD).

Only Federal employees participated in the preparation of the performance and financial
information contained in this report.




Fiscal Year 2012 Agency Financial Report
About This Report
Historically, USDA has published consolidated financial and performance management reporting
via the Performance and Accountability Report (PAR). Starting in fiscal year (FY) 2012, the
Department will use an Agency Financial Report (AFR), an alternative approach to the PAR.
The Office of Management and Budget (OMB) Circular No. A-136, “Financial Reporting
Requirements,” Section II, “Performance and Accountability Report or Agency Financial
Report,” describes this alternative. This circular states that agencies may choose either to
produce a consolidated PAR or a separate AFR and Annual Performance Report (APR), and a
Summary of Performance and Financial Information (SPFI).

The Agency Financial Report (AFR) is a report on the agency end-of-fiscal-year financial
position that includes, but is not limited to, financial statements, notes to the financial statements,
and a report of the independent auditors. The AFR also includes a performance summary. The
AFR will be issued on November 15, 2012.

The Annual Performance Report (APR) is a detailed report on USDA's progress toward
achieving the strategic goals and objectives described in the agency’s strategic plan and annual
performance plan, including progress on agency priority goals. The report will be delivered to
Congress on February 15, 2013.

The Summary of Performance and Financial Information (SPFI) includes the most relevant
performance and financial information in a brief, user-friendly format that is easily understood
by a reader with little technical background in these areas. This report was previously known as
the Citizen’s Report. The goal of this summary is to increase accountability of agency heads and
program managers. It will make the financial and performance information more transparent and
accessible to Congress, the public, and other key constituencies. The report will be issued on
February 15, 2013.

The AFR, APR, and SPFI will be posted on the USDA Web site.




                                             150th Anniversary | United States Department of Agriculture
This page intentionally left blank
TABLE OF CONTENTS


                                          Table of Contents
Message from the Secretary ........................................................................................................ iii

Section 1: Management's Discussion and Analysis ...................................................................1
     USDA Overview ....................................................................................................................... 1
     USDA Organization Chart ........................................................................................................ 2
     Mission Areas and Departmental Management ........................................................................ 3

     Performance Goals, Objectives, and Results ............................................................................ 5
         Agency Priority Goals......................................................................................................... 5
         Strategic Goals, Objectives, and Annual Performance Goals............................................. 6
         Agency Strategic Goals....................................................................................................... 6
         Future Demands, Risks, Uncertainties, Events, Conditions, and Trends ........................... 9

     Analysis of Financial Information and Highlights.................................................................. 11
        Financial Statement Highlights ......................................................................................... 11

     Analysis of Systems, Controls, and Legal Compliance .......................................................... 18
        Management Assurances .................................................................................................. 18
        Federal Managers’ Financial Integrity Act Report on Management Control ................... 19
        Compliance with Laws and Regulations........................................................................... 22
        Federal Financial Management Improvement Act Report on Financial
        Management Systems ....................................................................................................... 27
        Financial Management Systems Strategy ......................................................................... 28

     Other Management Information, Initiatives, and Issues ......................................................... 29
        Federal Financial Management System Requirements ..................................................... 29
        American Recovery and Reinvestment Act Activities ..................................................... 32
        Eliminating Improper Payments ....................................................................................... 33
        Debt Management ............................................................................................................. 34
        Limitations of the Financial Statements ........................................................................... 34

Section 2: Financial Information ...............................................................................................35
     Message from the Deputy Chief Financial Officer ................................................................. 35
     Notes to the Consolidated Financial Statements..................................................................... 42
     Required Supplementary Stewardship Information .............................................................. 111
     Required Supplementary Information................................................................................... 121




                                                                          Fiscal Year 2012 Agency Financial Report                         i
Section 3: Other Accompanying Information ........................................................................131
     Schedule of Spending ........................................................................................................... 131
     Response to Management Challenges .................................................................................. 133
     Summary of Financial Statement Audit and Management Assurances ................................ 149
     Improper Payments ............................................................................................................... 151
     Inspector General Act Amendments of 1988: Management’s Report on Audit
     Follow Up ............................................................................................................................. 179

Acronyms ....................................................................................................................................186




ii         150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions



Message from the Secretary
In fulfillment of its duty to the people, the President, and Congress, the
U.S. Department of Agriculture (USDA) respectfully submits the Fiscal
Year (FY) 2012 Agency Financial Report.

This year, we have had an opportunity to remember the rich history of the
Department, which celebrated its 150th anniversary in 2012. On
May 15, 1862, President Abraham Lincoln signed into law an Act of Congress establishing
USDA. Two and a half years after he established the Department, in what would be his final
annual message to Congress, Lincoln called USDA “The People’s Department.”

President Lincoln knew the importance of agriculture to our prosperity — particularly at a time
when about half of all Americans lived on farms. We believe that the values shared by folks in
our small towns and rural communities are at the heart of our American values.

As the United States has changed and evolved over the years, at USDA, we have not lost sight of
Lincoln’s vision. Through our work on food, agriculture, economic development, science,
natural resource conservation, and a host of other issues, the Department has impacted the lives
of generations of Americans.

Like any organization, it is an imperative that USDA to always ensure that we are serving our
customers to the greatest possible extent. This fiscal year at the Department of Agriculture has
been defined by the efforts of our hardworking employees to continue delivering services to
Americans at a record pace — even in a time of reduced operating budgets and staffing
constraints in many agencies.

This year, we had to take a hard look at the ways in which we do business — because, like any
American family, or any business, USDA must ensure that we are executing our mission while
balancing our checkbook. This year, the Department continues our efforts to look forward to the
future, ensuring that USDA is a 21st century service provider and employer, while managing a
Department of nearly 100,000 employees to deliver services to Americans across the country.

In January, USDA responded to these needs by announcing a “Blueprint for Stronger Service”
that is aimed to modernize the Department, reduce red tape, improve the experience of USDA
customers, and help bring the Department’s operating costs within the budget and staffing
constraints predicated by decreasing congressional appropriations.

Meanwhile, USDA’s employees have worked hard to manage the challenges we face, always
sharing a commitment to provide the best possible service for producers, communities, and
American families. Our employees have achieved historic results since 2009, and this year has
been no different.




                                                     Fiscal Year 2012 Agency Financial Report         iii
USDA implements safety net programs authorized by Congress to help keep American
agriculture secure from the market and weather uncertainties that our farmers and ranchers face
every day. This year, the Department’s response to the drought that is sweeping across much of
America stands as one important example of our commitment. USDA implemented a number
of administrative actions to help drought-stricken producers by expediting assistance for
farmers and ranchers who were struggling.

Many of the Department’s programs and policies were authorized under the Food, Conservation,
and Energy Act of 2008 ("2008 Farm Bill") through September 30, 2012. A great number of these
critical programs impact millions of Americans. They cover farm commodity and price support,
conservation, research, nutrition, food safety, and agricultural trade. As of October 1, 2012,
USDA's authority or funding to deliver many of these programs has expired. This occurrence has
left the Department with far fewer tools to help strengthen American agriculture and grow a rural
economy that supports 1 in 12 American jobs. Authority and funding for additional programs are
set to expire in the coming months. USDA is working hard to keep producers and farm families
informed regarding those programs that are no longer available to them.

Our farmers and ranchers are the leading stewards of the land and water. USDA has continued
supporting their work through technical assistance and conservation programs — applying the
most effective programs in the best places to achieve the best possible result. In 2012, USDA
continued its work with more than 500,000 landowners around the United States, providing
additional efforts for producers to enter into contracts under the Conservation Reserve Program,
while reaching its 50-millionth acre enrolled under the Conservation Stewardship Program.

In America’s National Forests, USDA is hard at work reducing the risk of devastating wildfire and
improving soil and water quality. In April 2012, the Department finalized its new “National Forest
Planning” rule to help better manage more than 193 million acres of National Forest lands —
creating jobs in rural areas, while ensuring the protection of our forests for years to come.

USDA continued our record level of investment in rural America and the rural communities that
millions call home by investing in community facilities, providing loans for rural small business,
helping rural families buy or repair a home, and helping to ensure communities have access to
critical infrastructure.

The Department is leading the way for renewable energy, supporting the infrastructure we will
need in a new energy economy. And, by working directly with farmers, ranchers, and rural
homeowners, USDA is helping folks save money by implementing new energy-saving
technology. In 2012, for example, we reached an important goal of $250 million in Smart Grid
electric investments — to help rural electric cooperatives better serve their customers.

The Department ensures a safe food supply through its network of Federal inspectors in more
than 6,000 locations nationwide. In June of this year, USDA finalized rules to adopt a
zero-tolerance policy for raw beef products containing 6 additional strains of shiga-toxin
producing E. coli O157:H7.




iv     150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


In February 2011, the Government Accountability Office reported in its High-Risk Series Update
that food safety agencies have not developed a Government-wide performance plan that includes
results-oriented performance measures, which would be a leap forward with regard to measuring
our progress in preventing foodborne illness from meat, poultry, and processed egg products. In
September 2011, the Food Safety and Inspection Service (FSIS) published its strategic plan,
which includes results-oriented performance measures. For example, FSIS has gone so far as to
make attribution estimates of the total number of illnesses from meat, poultry, and processed egg
products, and develop a key corporate performance measure of our progress toward preventing
these illnesses. FSIS’ strategic plan includes 30 distinct, quantifiable performance measures that
support 8 larger goals. In support of this strategic plan and the core principles of the President’s
Food Safety Working Group, USDA-FSIS has announced several new measures to prevent
foodborne illness, empower people, and strengthen infrastructure, and understand and influence
the farm-to-table continuum.

USDA delivers critical nutrition assistance to Americans struggling to put food on the table by
providing breakfast and lunch to nearly 32 million school children each day. This year, the
Department fed these children nearly 44 million meals per day, while providing food assistance to
nearly 1 in 4 Americans. FY 2012 marks the first of 3 years in which new, healthier school meals
standards authorized under the Healthy, Hunger-Free Kids Act of 2010 are being implemented.

And, USDA continues to lead the way in America’s agricultural research. USDA researchers have
partnered with folks across the country to develop the next generation of renewable energy and find
solutions to some of America’s greatest scientific challenges.

The Department’s Office of the Chief Financial Officer continued implementing the Financial
Management Modernization Initiative (FMMI), a core financial system to replace USDA’s nine
general ledger systems. Of the 29 agencies and offices that form the Department, 28 have
implemented FMMI.

The Department’s management team continues to oversee USDA’s assessment of internal
control over its programs, operations, financial systems, and financial reporting. The
Department’s work is consistent with the provisions of the Federal Managers’ Financial Integrity
Act (FMFIA) and the Federal Financial Management Improvement Act (FFMIA). USDA’s
continuous monitoring and remediation efforts allow us to provide taxpayers with reasonable
assurance that this report is based on sound, accurate data.

Nevertheless, continued improvement is needed to remediate USDA’s existing material
weakness and financial system noncompliance. To accomplish this goal, management continues
to implement corrective action plan activities. Therefore, I provide qualified assurance that,
except for the areas in need of improvement as described in the Management Assurances section
of this report, USDA’s internal control over operations, financial systems, and financial reporting
meets the objectives of FMFIA and FFMIA. The financial and performance information
presented herein is complete and accurate, and is in accordance with law and Office of
Management and Budget guidance.




                                                     Fiscal Year 2012 Agency Financial Report         v
As we commemorate 150 years of accomplishments, USDA is looking to the future. In the years
to come, we will help address the changing needs of agriculture and rural America. We will
continue to help provide a safe, ample food supply for our Nation and the world. As we promote
innovation, we will help create jobs and support economic growth, and promote healthy families
and communities, and a stronger Nation. To meet those goals, we are working to make USDA
a more modern and effective service provider, and deliver the best possible results for all of the
American people.

Thank you for your interest in the Department. I salute USDA employees for their outstanding
work and am proud to share this information with our stakeholders. We will continue to serve the
needs of the people every day and in every way.




Thomas J. Vilsack
Secretary of Agriculture




vi     150th Anniversary | United States Department of Agriculture
SECTION 1: Management's Discussion and Analysis

Section 1: Management's Discussion
and Analysis
USDA Overview
The U.S. Department of Agriculture (USDA) was founded by President Abraham Lincoln in
1862, when more than half of the Nation’s population lived and worked on farms. The
population has increased approximately tenfold, and now exceeds 307 million people, the vast
majority of whom do not live on farms or in rural areas.

Today, USDA improves the Nation’s economy and quality of life by touching the lives of almost
every person in America, every day. Nearly 100,000 employees deliver more than $144 billion in
public services through the Department’s more than 300 programs worldwide.

Because America’s food and fiber producers operate in a global, technologically advanced,
rapidly diversifying, and highly competitive business environment, USDA is constantly helping
agricultural producers meet the needs of the Nation.



Mission Statement
We provide leadership on food, agriculture, natural resources, rural development, nutrition, and
related issues based on sound public policy, the best available science, and efficient management.



Vision Statement
To expand economic opportunity through innovation, helping rural America to thrive; to
promote agriculture production sustainability that better nourishes Americans while also helping
feed others throughout the world; and to preserve and conserve our Nation’s natural resources
through restored forests, improved watersheds, and healthy private working lands.




                                                    Fiscal Year 2012 Agency Financial Report         1
SECTION 1: Management's Discussion and Analysis

USDA Organization Chart




Exhibit 1: Organization Chart

Source: USDA’s Web site, September 29, 2012



This image displays the U.S. Department of Agriculture’s (USDA) Headquarters Organization,
including the Secretary, Chief Officers, Under Secretaries, and Assistant Secretaries for various
agencies within USDA. In addition to its Headquarters Organization, USDA has a network of
offices, facilities, and laboratories across the country and overseas.




2       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions



Mission Areas and Departmental Management
The U.S. Department of Agriculture’s (USDA) work is organized by mission areas, which are
collections of agencies that work together to achieve USDA’s strategic goals. Descriptions of
USDA’s seven mission areas and Departmental Management follow.

Farm and Foreign Agricultural Services
The Farm and Foreign Agricultural Services (FFAS) mission area helps keep America's farmers
and ranchers in business as they face the uncertainties of weather and markets. FFAS delivers
programs that support a sustainable and competitive U.S. agricultural system. This mission area
is comprised of the Farm Service Agency (FSA), the Foreign Agricultural Service (FAS), and the
Risk Management Agency (RMA). FSA administers and manages commodity, farm credit,
conservation, and disaster programs through a network of Federal, State, and county offices.
FSA provides administrative support for the Commodity Credit Corporation (CCC). The CCC is
a Government-owned entity which funds most of the commodity, export, and some conservation
programs of USDA. FAS works to improve international market access for U.S. products, build
new markets, improve the competitive position of domestic agriculture in the global marketplace,
and provide food aid and technical assistance to other countries. RMA helps producers manage
their business risks through effective, market-based, risk-management solutions. In addition,
RMA manages the Federal Crop Insurance Corporation to improve the economic stability of
agriculture through a sound system of crop insurance.

Food, Nutrition, and Consumer Services
The Food, Nutrition, and Consumer Services (FNCS) mission area works to harness the Nation's
agricultural abundance to reduce hunger and improve health in the United States. FNCS is
comprised of the Food and Nutrition Service (FNS) and the Center for Nutrition Policy and
Promotion (CNPP). FNS administers USDA’s 15 Federal nutrition assistance programs. CNPP
works to improve the health and well-being of Americans by developing and promoting dietary
guidance that links scientific research to the nutrition needs of consumers.

Food Safety
The Food Safety mission area ensures that the Nation's commercial supply of meat, poultry, and
processed egg products is safe, wholesome, and properly labeled and packaged. It also plays a
key role in the President’s Food Safety Working Group, a coordinated Government-wide
initiative to ensure a safe food supply for the American people for the 21st century. USDA's
partners in the working group include the U.S. Department of Health and Human Services, the
U.S. Environmental Protection Agency, and a number of other Government agencies. The Food
Safety mission area is comprised of a single agency, the Food Safety Inspection Service.

Marketing and Regulatory Programs
The Marketing and Regulatory Programs (MRP) mission area facilitates the domestic and
international marketing of U.S. agricultural products and ensures the health and care of animals
and plants. MRP is made up of the Agricultural Marketing Service (AMS), the Animal and Plant
Health Inspection Service (APHIS), and the Grain Inspection, Packers, and Stockyards


                                                    Fiscal Year 2012 Agency Financial Report         3
SECTION 1: Management's Discussion and Analysis

Administration (GIPSA). AMS administers programs that facilitate the efficient, fair marketing
of U.S. agricultural products, including food, fiber, and specialty crops. APHIS provides
leadership in ensuring the health and care of animals and plants. GIPSA facilitates the marketing
of livestock, poultry, meat, cereals, oilseeds, and related agricultural products.

Natural Resources and Environment
The Natural Resources and Environment (NRE) mission area ensures the health of the land
through sustainable management. Its agencies work to prevent damage to natural resources and
the environment, restore the resource base, and promote good land management. NRE consists of
the Forest Service (FS) and the Natural Resources Conservation Service (NRCS). FS manages
public lands in national forests and grasslands, which encompass 193 million acres. NRCS
provides leadership in a partnership effort to help America's private landowners and managers
conserve their soil, water, and other natural resources. Both agencies work in partnership with
Tribal, Federal, State, and local Governments, and community-related groups to protect soils,
watersheds, and ecosystems.

Research, Education, and Economics
The Research, Education, and Economics (REE) mission area helps create a safe, sustainable, and
competitive U.S. food and fiber system, as well as develop strong communities, families, and youth
through integrated research, analysis, and education. REE is comprised of the Agricultural Research
Service, the National Institute of Food and Agriculture, the Economic Research Service, the National
Agricultural Statistics Service, and the National Agricultural Library.

Rural Development
The Rural Development (RD) mission area helps improve the economy and quality of life in all
of rural America. RD provides financial support for the development of essential public facilities
and services such as water and sewer systems, housing, health clinics, emergency service
facilities, and electric and telephone services. It also promotes economic development by
providing direct loans and loan guarantees to businesses through private sector financial
institutions. In addition, RD provides grants, loan guarantees, and payments to farmers, ranchers,
and rural small businesses to develop renewable energy systems and make energy efficiency
improvements. RD is comprised of the Rural Business-Cooperative Service, the Rural Housing
Service, and the Rural Utilities Service.

Departmental Management
Departmental Management’s (DM) mission ensures that USDA administrative programs,
policies, advice, and counsel meet the needs of USDA program organizations, consistent with
laws and mandates, and provide safe and efficient facilities and services to customers. DM is
comprised of the following offices: Office of Administrative Law Judges; Office of Advocacy
and Outreach; Office of the Chief Financial Officer; Office of the Chief Information Officer;
Office of the Executive Secretariat; Office of Homeland Security and Emergency Coordination;
Office of Human Resources Management; Office of the Judicial Officer; Office of Operations;
Office of Procurement and Property Management; and Office of Small and Disadvantaged
Business Utilization.


4      150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions



Performance Goals, Objectives, and Results
Agency Priority Goals
USDA is pursuing three Agency Priority Goals for fiscal year (FY) 2012 and FY 2013.
Performance data will be available at the end of the calendar year and published in the Annual
Performance Report, which will be released in February 2013. A synopsis of the goals is
provided below.

Agency Priority Goal 1: Further improve payment accuracy in the Supplemental Nutrition
Assistance Program (SNAP).
This program puts healthy food on the table for millions of low-income people in America every
month. The program supplements their budgets by providing benefits via an electronic benefit
card, which is used like a debit card at most food retailers. Through nutrition education partners,
the program helps clients learn how to make healthy eating and active lifestyle choices. Finally,
SNAP also provides a significant boost to local economies. For every $5 in SNAP benefit
spending, $9.20 is generated in total economic activity.
In 2011, payment accuracy reached an all-time high of 96.20 percent. This reflects 2.99 percent
in overpayments and 0.81 percent in underpayments for a total of 3.80 percent in improper
payments. The size of the SNAP program means that even small additional improvements to
payment accuracy yield substantial savings. In 2012, USDA’s Food and Nutrition Service (FNS)
has continued to work to improve payment accuracy through partnerships with States and by
rewarding exemplary performance while holding low-performing States accountable. FNS uses
an early detection system to target States that may be experiencing a higher incidence of
payment errors. FNS then intervenes to address situations identified in individual States. FNS
provides technical assistance and knowledge to State agencies to improve payment accuracy, as
well as shares best practices among States. FNS encourages business process improvements and
reengineering for SNAP administration by States. These initiatives have been shown to increase
efficiency and improve program accountability.

Agency Priority Goal 2: Expand U.S. agricultural exports to at least $150 billion by
September 2013, up from a level of $137.4 billion in FY 2011.
For every $1 billion of agricultural exports, an estimated 8,400 jobs are supported and an
additional $1.34 billion in economic activity is generated. USDA worked to boost agricultural
exports in FY 2012 by supporting access to international markets through market development
programs and trade shows, which lead to direct sales by connecting exporters with foreign
buyers. USDA continues to resolve technical barriers to trade and unjustified sanitary and
phytosanitary measures, and tracks the trade preserved, initiated, or restored by these efforts.
Supporting negotiation of market-expanding trade agreements for U.S. agricultural products was
a strong focus in 2012 with free trade agreements (FTAs) signed with South Korea, Colombia,
and Panama. The South Korea FTA took effect on March 15, 2012, and will expand annual
agricultural exports by an estimated $1.9 billion. The Colombia FTA took effect on
May 15, 2012, and is expected to expand annual agricultural exports by more than $370 million.
USDA continued to support Trans Pacific Partnership (TPP) negotiations. Invitations to join TPP
were extended to Canada and Mexico, bringing the number of participating countries to eleven.
Many external factors influence agricultural exports: global economic uncertainty, slower global


                                                     Fiscal Year 2012 Agency Financial Report         5
SECTION 1: Management's Discussion and Analysis

economic growth, and the relative strength of the U.S. dollar could impact our ability to achieve
this goal.

Agency Priority Goal 3: Accelerate the protection of clean, abundant water resources by
advancing USDA’s capacity to measure the effectiveness of conservation investments in
addressing water resource concerns.
With 87 percent of America’s surface supply of drinking water originating on land that USDA
programs impact in some way, the Department has a key role in addressing water quality
challenges. While the agricultural and forestry communities have made progress in contributing
to improvements in water quality, challenges remain, and accelerating progress on improving
water quality is critical. Better tools are needed to measure the outcome of efforts to improve
water quality, identify the most effective approaches, and measure achievements. USDA is
developing and implementing an interagency outcome-focused metric in two pilot watersheds to
quantify water quality improvements. This metric would also subsequently be used in other
regions of the country. In 2012, USDA formed a cross-agency working group, which established
criteria for choosing the pilot watersheds. The group selected the St. Joseph’s River watershed in
Indiana and La Cienega watershed in Arizona. USDA has developed project plans for the pilots
and expects to implement the pilots in FY 2013. USDA is also continuing to track a secondary
goal: implementing high-impact targeted practices to improve water quality on 4 million acres
within critical and/or impaired watersheds in FY 2013.

Strategic Goals, Objectives, and Annual Performance Goals
The Performance Summary information in Exhibit 2, organized by the U.S. Department of
Agriculture’s strategic goals and objectives, provides a summary of the Department’s
performance results. Of the 42 performance measures contained in USDA’s FY 2012 Annual
Performance Plan, 38 were met or exceeded, 3 were unmet, and 1 was deferred. The
Department’s Annual Performance Report, to be released on February 15, 2013, will contain
additional analysis of these results, including the historical performance trend data.

Agency Strategic Goals
Strategic Goal 1:      Assist Rural Communities to Create Prosperity So They are Self-
                       Sustaining, Repopulating, and Economically Thriving.

Strategic Goal 2:      Ensure Our National Forests and Private Working Lands are Conserved,
                       Restored, and Made More Resilient to Climate Change, While Enhancing
                       Our Water Resources.

Strategic Goal 3:      Help America Promote Agricultural Production and Biotechnology
                       Exports as America Works to Increase Food Security.

Strategic Goal 4:      Ensure That All of America’s Children Have Access to Safe, Nutritious,
                       and Balanced Meals.




6      150th Anniversary | United States Department of Agriculture
                                     USDA: Managing for Results in Performing Its Many Vital Public Functions


Exhibit 2: Performance Summary

                                  PERFORMANCE SUMMARY FOR FY 2012
      Strategic Objectives                            Annual Performance Goals                          Result
                     Strategic Goal 1: Assist Rural Communities to Create Prosperity So
                     They are Self Sustaining, Repopulating, and Economically Thriving
1.1   Enhance Rural Prosperity       1.1.1 Number of jobs created or saved through USDA financing       Exceeded
                                           of businesses
                                     1.1.2 Number of borrowers/subscribers receiving new or improved     Unmet
                                           telecommunication services (millions)
1.2   Create Thriving Communities    1.2.1 Number of borrowers/subscribers receiving new or improved    Exceeded
                                           service from agency-funded water facility (millions)
                                     1.2.2 Homeownership Opportunities Provided                           Met
                                     1.2.3 Percentage of customers who are provided access to new
                                           and/or improved essential community facilities
                                             Health Facilities                                           Met
                                             Safety Facilities                                           Met
                                             Educational Facilities                                      Met
                                     1.2.4 Number of borrowers/subscribers receiving new and/or           Met
                                           improved electric facilities (millions)
1.3   Support a Sustainable and      1.3.1 Percentage of beginning farmers, racial and ethnic           Exceeded
      Competitive Agricultural             minority farmers, and women farmers financed by the
      System                               Farm Service Agency
                                     1.3.2 Maintain or increase percentage of Farm Service Agency         Met
                                           program delivery applications at USDA Service Centers that
                                           are Web enabled
                                     1.3.3 Value of trade preserved annually through USDA staff         Exceeded
                                           interventions leading to resolution of barriers created by
                                           Sanitary/Phytosanitary or Technical Barriers to Trade
                                           measures ($billions)
                                     1.3.4 Value of Federal Crop Insurance Corporation (FCIC) risk      Exceeded
                                           protection coverage provided through FCIC-sponsored
                                           insurance ($billions)
                                     1.3.5 Normalized value of FCIC risk protection coverage provided   Exceeded
                                           through FCIC-sponsored insurance ($billions)
                                     1.3.6 Percent of industry compliance with the Packers and          Exceeded
                                           Stockyards Act




                                                             Fiscal Year 2012 Agency Financial Report              7
SECTION 1: Management's Discussion and Analysis

    Strategic Goal 2: Ensure Our National Forests and Private Working Lands are Conserved, Restored, and
                Made More Resilient to Climate Change, While Enhancing Our Water Resources
    2.1   Restore and Conserve the          2.1.1 Conservation Reserve Program: Restored wetland acreage          Exceeded
          Nation’s Forests, Farms,                (millions of acres)
          Ranches, and Grasslands           2.1.2 Consevation Technical Assistance: Cropland with
                                                  conservation applied to improve soil quality (millions of         Met
                                                  acres)
                                            2.1.3 Environmental Quality Incentives Program: Cropland with           Met
                                                  conservation applied to improve soil quality (millions of
                                                  acres)
                                            2.1.4 Conservation Technical Assistance: Grazing land and forest        Met
                                                  land with conservation applied to protect and improve the
                                                  resource base (millions of acres)
                                            2.1.5 Environmental Quality Incentives Program: Grazing land
                                                  and forest land with conservation applied to protect and          Met
                                                  improve the resource base (millions of acres)
                                            2.1.6 Farm and Ranch Lands Protection Program: Prime,
                                                  unique, or important farmland protected from conversion           Met
                                                  to non-agricultural uses by conservation easements
                                                  (thousands of acres)
                                            2.1.7 Wildlife Habitat Incentive Program: Non-Federal land with
                                                  conservation applied to improve fish and wildlife habitat       Exceeded
                                                  quality (thousands of acres)
                                            2.1.8 Environmental Quality Incentives Program: Non-Federal
                                                  land with conservation applied to improve fish and wildlife     Exceeded
                                                  habitat quality (millions of acres)
                                            2.1.9 Acres protected from conversion through easements and fee-
                                                  simple purchases (thousands of acres)                             Met
    2.2   Protect and Enhance               2.2.1 Conservation Technical Assistance: Land with conservation         Met
          America’s Water Resources               applied to improve water quality (millions of acres)
                                            2.2.2 Environmental Quality Incentives Program: Land with
                                                  conservation applied to improve water quality (millions of       Unmet
                                                  acres)
                                            2.2.3 Wetlands Reserve Program: Wetlands created, restored or           Met
                                                  enhanced (thousands of acres)

    2.3   Reduce Risk from                  2.3.1 Acres of Wildland Urban Interface fuels treated to reduce         Met
          Catastrophic Wildfire and               the risk of catastrophic fire (millions of acres)
          Restore Fire to its Appropriate   2.3.2 Percentage of acres treated in the Widland Urban Interface
          Place on the Landscape                  that have been identified in Community Wildfire Protection      Exceeded
                                                  Plans
                                            2.3.3 Cumulative Acres in the National Forest System that are in a      Met
                                                  desired condition relative to fire regime (millions of acres)

                         Strategic Goal 3: Help America Promote Agricultural Production and
                          Biotechnology Exports as America Works to Increase Food Security
    3.1   Enhance America's Ability to      3.1.1 Cumulative number of genetically engineered plant lines         Exceeded
          Develop and Trade Agricultural          reviewed by the U.S. Department of Agriculture and found
          Products Derived from New               safe for use in the environment
          Technologies




8          150th Anniversary | United States Department of Agriculture
                                                USDA: Managing for Results in Performing Its Many Vital Public Functions


                                    Strategic Goal 4: Ensure That All of America’s Children
                                      Have Access to Safe, Nutritious, and Balanced Meals
    4.1       Increase Access to Nutritious     4.1.1 Participation rates for the major Federal nutrition assistance      Met
              Foods                                   programs (millions per month): Supplemental Nutrition
                                                      Assistance Program
                                                4.1.2 SNAP payment accuracy rate (percent)                                Met
                                                4.1.3 Participation levels for the major Federal nutrition assistance
                                                      programs (millions per day):
                                                                                                                          Met
                                                        National School Lunch Program
                                                        School Breakfast Program                                         Met
                                                4.1.4 Participation levels for the major Federal nutrition assistance
                                                      programs (millions per month): The Special Supplemental             Met
                                                      Nutrition Program for Women, Infants and Children (average)
    4.2       Promote Healthy Diet and          4.2.1 Application and usage level of nutrition guidance tools           Exceeded
              Physical Activity Behavior              (billions of pieces of nutrition guidance distributed)

    4.3       Protect Public Health by          4.3.1 Percent of broiler plants passing the carcass Salmonella          Exceeded
              Ensuring Food is Safe                   Verification Testing Standard
                                                4.3.2 Total illnesses from all Food Safety and Inspection
                                                      Service products                                                   Unmet
                                                4.3.3 Percent of establishments with a functional food defense plan     Exceeded

    4.4       Protect Agricultural Health by    4.4.1 Value of damage prevented and mitigated annually as a             Deferred*
              Minimizing Major Diseases and           result of selected plant and animal health monitoring and
              Pests, Ensuring Access to Safe,         surveillance efforts ($billions)
              Plentiful, and Nutritious Food
                      Management Initiative VIII: Enhance the USDA Human Resources Process to
                     Recruit and Hire Skilled, Diverse Individuals to Meet the Program Needs of USDA
    Increasing Diversity in the USDA             8.1.1 Percent of all new hires who are veterans                          Met
    Workforce                                    8.1.2 Percentage of new hires who are minorities                         Met
*
 Fourth-quarter data are not available. Results will be reported in the Annual Performance Report to be issued on
February 15, 2013.

Future Demands, Risks, Uncertainties, Events, Conditions, and Trends
Farmers and ranchers operate in highly competitive markets, both domestically and internationally.
Rapid shifts in consumer demands associated with quality, convenience, taste, and nutrition dictate
that farming, ranching, and marketing infrastructures become more fluid and responsive.

National security is a significant, ongoing priority for the Department. The U.S. Department of
Agriculture (USDA) is working with the U.S. Department of Homeland Security to help protect
agriculture from intentional and accidental acts that might impact America’s food supply or
natural resources.

External factors that challenge USDA’s ability to achieve its goals include the following:

              Weather-related hardships and other uncontrollable events domestically and abroad;
              Domestic and international macroeconomic factors, including consumer purchasing
               power, the strength of the U.S. dollar, and political changes abroad that could impact
               domestic and global markets greatly at any time;
              Sharp fluctuations in farm prices, interest rates, and unemployment that could impact the
               ability of farmers, other rural residents, communities, and businesses to qualify for credit
               and manage their debts;


                                                                          Fiscal Year 2012 Agency Financial Report                  9
SECTION 1: Management's Discussion and Analysis

        The impact of future economic conditions and actions by a variety of Federal, State, and
         local Governments that could influence the sustainability of rural infrastructure;
        The increased movement of people and goods, which provides the opportunity for crop
         and animal pests and diseases, such as avian influenza and bovine spongiform
         encephalopathy, to move quickly across domestic and international boundaries;
        Potential exposure to hazardous substances, which may threaten human health and the
         environment, and the ability of the public and private sectors to collaborate effectively on
         food safety, security, and related emergency preparedness efforts; and
        The risk of catastrophic fire, depending on weather, drought conditions, and the
         expanding number of communities in the wildland-urban interface.




10       150th Anniversary | United States Department of Agriculture
                                    USDA: Managing for Results in Performing Its Many Vital Public Functions


Financial Statement Highlights
Budgetary Resources
The U.S. Department of Agriculture (USDA) receives most of its funding from appropriations
authorized by Congress and administered by the U.S. Department of the Treasury. Total budgetary
resources consist of the balance at the beginning of the year, appropriations received during the
year, spending authority from offsetting collections, and other budgetary resources. The following
exhibit presents fiscal year (FY) 2012 total budgetary resources by mission area.

Exhibit 3: FY 2012 Total Budgetary Resources by Mission Area ($billions)




                                                     1%     1%
                              7%              1%                 1%

                      13%      0%
                                                                                     56%

               20%




         Food Nutrition and Consumer Services        $126         Farm and Foreign Agriculture Services    $45
         Rural Development    $29                                 Natural Resouces and Environment    $15
         Research Education and Economics       $4                Marketing and Regulatory Programs       $3
         Departmental Management         $2                       Food Safety   $1




Total budgetary resources were $225 billion for FY 2012 compared to $214 billion in FY 2011, an
increase of $11 billion, or 5 percent.




                                                            Fiscal Year 2012 Agency Financial Report             11
SECTION 1: Management's Discussion and Analysis

The following exhibit presents significant changes in total budgetary resources by mission area.

Exhibit 4: Significant Changes in Total Budgetary Resources by Mission Area ($billions)

     12
                                                                                      $11
     10

         8

         6

         4
                                                         $3
         2

     -

     (2)

     (4)                  -$3
             Farm and Foreign Agriculture         Rural Development        Food Nutrition and Consumer
                      Services                                                       Services

Obligations Incurred
Obligations incurred were $187 billion for FY 2012, compared to $184 billion in FY 2011, an
increase of $3 billion, or 2 percent. The following exhibit presents significant changes in
obligations incurred.

Exhibit 5: Significant Changes in Obligations Incurred ($billions)
 4
                                                                      $3                    $3
 3
 2
 1
 0
-1
                                            -$1
-2
-3
                  -$2
             Commodity Credit      Farm Service Agency        Risk Management       Food and Nutrition
               Corporation                                         Agency                Service


There were increases at Food and Nutrition Service (FNS) for the Supplemental Nutrition
Assistance (SNAP) and at Risk Management Agency (RMA) for Crop Insurance; the increases
were offset by decreases at Farm Service Agency (FSA) for Disaster Relief Trust and Farm
Loans and at the Commodity Credit Corporation (CCC) for Price Support.




12           150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


Net Outlays
Net Outlays were $144 billion for FY 2012, compared to $146 billion in FY 2011, a decrease of
$2 billion or -1 percent. The following exhibit presents significant changes in net outlays.

Exhibit 6: Significant Changes in Net Outlays ($billions)
 5
 4
                                                                                      $4
 3
 2
 1
 0
-1
-2
                             -$1               -$1                 -$1
-3         -$2
     Risk Management    Farm Service       Commodity             Rural            Food and
          Agency          Agency             Credit           Development      Nutrition Service
                                           Corporation

There were decreases at RMA for Crop Insurance; at FSA for Disaster Relief Trust, Salaries and
Expense and Agriculture Disaster Transition Assistance; at CCC for Price Support; at Rural
Development (RD) for Electric, Water, and Enviromental; these decreases were offset by an
increase at FNS for SNAP.




                                                     Fiscal Year 2012 Agency Financial Report        13
SECTION 1: Management's Discussion and Analysis

Balance Sheet
Total Assets
Total assets for FY 2012 were $193 billion as of September 30, 2012, compared to $178 billion
for FY 2011, an increase of $15 billion, or 8 percent. The following exhibit presents FY 2012
total assets.

Exhibit 7: Total Assets ($billions)


                              5%         1%

                                                               50%       Direct Loan and
                                                                         Loan Guarantees, Net       $96
     44%

                                                                         Fund Balance with Treasury $85



                                                                         Accounts Receivable, Net   $9




                                                                         General Property, Plant,   $3
                                                                         and Equipment, Net




Direct Loan and Loan Guarantees, Net, is the single largest asset on the USDA Balance Sheet. RD
offers both direct and guaranteed loan products for rural housing and rural business infrastructure.
These products represent 87 percent of the total Department loan programs. Loan programs
administered by FSA represent 8 percent of the total. FSA supports farmers who are temporarily
unable to obtain private, commercial credit. The remaining 5 percent represents commodity loans
and credit programs administered by the CCC. Their loans are used to improve economic stability
and provide an adequate supply of agricultural commodities. CCC credit programs provide
international food assistance, expand international markets, and provide domestic low-cost financing
to protect farm income and prices. The following exhibit presents significant changes in total assets.

Exhibit 8: Significant Changes in Assets ($billions)




14         150th Anniversary | United States Department of Agriculture
                                  USDA: Managing for Results in Performing Its Many Vital Public Functions


Total Liabilities
Total liabilities for FY 2012 were $153 billion as of September 30, 2012, compared to $136 billion
for FY 2011, an increase of $17 billion, or 13 percent. The following exhibit presents total liabilities.

Exhibit 9: Total Liabilities ($billions)


                    3% 3%            0%                                    Debt                       $94

   33%
                                                           61%             Other                      $49




                                                                           Loan Guarantee Liability   $4




                                                                           Benefits Due and Payable   $4



                                                                           Accounts Payable           $2




Debt is the single largest liability on USDA’s balance sheet. It represents amounts owed primarily
to Treasury by CCC and RD. For CCC, the debt primarily represents financing to support direct
and counter-cyclical, crop disaster, and loan deficiency programs. For RD, the debt primarily
represents financing to support electric and housing loan programs. The following exhibit presents
significant changes in total liabilities.

Exhibit 10: Significant Changes in Total Liabilities ($billions)




                                                      Fiscal Year 2012 Agency Financial Report             15
SECTION 1: Management's Discussion and Analysis

Net Cost of Operations
Net cost of operations for FY 2012 was $151 billion as of September 30, 2012, compared to
$149 billion for FY 2011, an increase of $2 billion, or 1 percent. The following exhibit presents net
cost of operations by strategic goal.

Exhibit 11: FY 2012 Net Cost of Operations by Strategic Goals ($billions)


                                                             Goal 1 $27
                                                               18%
                                                                          Goal 2 $12
                                                                             8%

     Goal 4 $109
        72%                                                                     Goal 3 $3
                                                                                   2%




Strategic Goal 1:      Assist Rural Communities to Create Prosperity So They are Self-
                       Sustaining, Repopulating, and Economically Thriving.

Strategic Goal 2:      Ensure Our National Forests and Private Working Lands are Conserved,
                       Restored, and Made More Resilient to Climate Change, While Enhancing
                       Our Water Resources.

Strategic Goal 3:      Help America Promote Agricultural Production and Biotechnology
                       Exports as America Works to Increase Food Security.

Strategic Goal 4:      Ensure That All of America’s Children Have Access to Safe, Nutritious,
                       and Balanced Meals.




16     150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


The following exhibit presents significant changes in net cost of operations by strategic goal.

Exhibit 12: Significant Changes in FY 2012 Net Cost of Operations by Strategic Goals ($billions)

  5
                                                                                        $4
  4
                                                                         $3
  3
  2
  1
  0
 -1
           -$1            -$1            -$1            -$1
 -2
      Farm Service    Commodity      Agricultural      Rural          Risk           Food and
        Agency          Credit        Marketing     Development    Management        Nutrition
                      Corporation      Service                       Agency          Services

There were increases at FNS for SNAP and at RMA for Crop Insurance; these increases were
offset by decreases at RD for Rural Electric; at AMS for Commodity Purchases; at CCC for
Direct and Counter Cyclical Payments; at FSA for Agriculture Disaster Transition Assistance
and Disaster Relief Trust.

Stewardship Investments
Stewardship investments are substantial investments made by the Federal Government for the
benefit of the Nation but are not physical assets owned by the Federal Government. When
incurred, they are treated as expenses in determining the net cost of operations. However, these
items merit special treatment so that users of Federal financial reports know the extent of
investments that are made for long-term benefit. Such investments are measured in terms of
expenses incurred for non-Federal physical property, human capital, and research and
development. The following exhibit presents a comparison of stewardship investments.

Exhibit 13: Comparison of Stewardship Investments ($millions)




                                                    Fiscal Year 2012 Agency Financial Report         17
SECTION 1: Management's Discussion and Analysis

Analysis of Systems, Controls, and Legal Compliance
Management Assurances
Statement of Assurance
The U.S. Department of Agriculture (USDA) is providing a qualified
statement of assurance that its management has established and
maintained effective internal controls over financial reporting and
financial management systems. These controls meet the objectives of the
Federal Managers’ Financial Integrity Act (FMFIA) and the Federal
Financial Management Improvement Act (FFMIA), with the exception of
one material weakness in internal controls over financial reporting, one financial system
non-conformance, and two noncompliances with laws and regulations. Management is providing
reasonable assurance that the internal controls over operations are effective. The details of the
exceptions are provided in the FMFIA, FFMIA, and Summary of Financial Statement Audit and
Management Assurances sections of this report.

USDA assessed its financial management systems and internal controls over the effectiveness
and efficiency of operations and compliance with applicable laws and regulations as of
September 30, 2012, and financial reporting as of June 30, 2012. The assessment included the
safeguarding assets and compliance with applicable laws and regulations, in accordance with the
requirements of Office of Management and Budget Circular No. A-123, “Management’s
Responsibility for Internal Control.”

Other than the exceptions noted, USDA financial management systems conform substantially
with the objectives of FMFIA, internal controls were operating effectively, and no other material
weaknesses were found in the design or operation of the internal control over (1) the
effectiveness and efficiency of operations and compliance with applicable laws and regulations
as of September 30, 2012, and (2) financial reporting as of June 30, 2012.




Thomas J. Vilsack
Secretary of Agriculture
November 15, 2012




18     150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


Federal Managers’ Financial Integrity Act Report on Management Control
Background
The Federal Managers’ Financial Integrity Act (FMFIA) requires ongoing evaluations of internal
controls and financial management systems. These evaluations lead to an annual statement of
assurance that:

      Obligations and costs comply with applicable laws and regulations;
      Federal assets are safeguarded against fraud, waste, abuse, and mismanagement;
      Transactions are accounted for and properly recorded; and
      Financial management systems conform to standards, principles, and other requirements
       to ensure that Federal managers have timely, relevant, and consistent financial
       information for decisionmaking purposes.

The U.S. Department of Agriculture (USDA) annually evaluates its internal controls over
financial reporting in accordance with Office of Management and Budget (OMB) Circular
No. A-123, “Management’s Responsibility for Internal Control,” Appendix A, “Internal Control
over Financial Reporting” (OMB Circular No. A-123, Appendix A).

The Department operates a comprehensive internal control program. This program ensures
compliance with the requirements of FMFIA and other laws, and OMB Circular No. A-123,
Appendix A, and A-127, “Financial Management Systems.” All USDA managers must ensure that
their programs operate efficiently and effectively, and comply with relevant laws. They must also
ensure that financial management systems conform to applicable laws, standards, principles, and
related requirements. In conjunction with the Office of Inspector General and the Government
Accountability Office, USDA’s management works aggressively to determine the root causes of its
material weaknesses so that it can direct resources to focus on their remediation.

USDA remains committed to reducing and eliminating the risks associated with its deficiencies.
It also strives to efficiently and effectively operate its programs in compliance with FMFIA.

Fiscal Year 2012 Results
The Department had two existing material weaknesses in Information Technology and Financial
Reporting — unliquidated obligations and one system non-conformance in Funds Control
Management. However, the results of various agencies’ and OIG’s testing of the controls for
review of unliquidated obligations support a downgrade from a material weakness to a
significant deficiency for the Department. We will continue to monitor remediation activities at
the Natural Resources Conservation Service in FY 2013 until their material weakness is
resolved. Additionally, the Forest Service identified a materially significant noncompliance with
laws and regulations related to its grants-management program. The Food and Nutrition Service,
the Farm Service Agency, the Risk Management Agency, the Natural Resources Conservation
Service, and Rural Development reported materially significant noncompliance with laws and
regulations under the Improper Payments Information Act of 2002 and the Improper Payments
Elimination and Recovery Act of 2010. Thus, the Secretary’s Statement of Assurance provides
qualified assurance that USDA’s system of internal controls complies with the Federal


                                                   Fiscal Year 2012 Agency Financial Report         19
SECTION 1: Management's Discussion and Analysis

Managers’ Financial Integrity Act (FMFIA) objectives. For additional details on the results
reported in USDA’s Consolidated Financial Statements Audit Report, see the Summary of
Financial Statement Audit and Management Assurances section of this report.

Summary of Outstanding Material Weaknesses
The following exhibit provides fiscal year (FY) 2012 accomplishments and FY 2013 planned
actions toward resolving the Department’s outstanding material weaknesses.


Exhibit 14: Summary of Outstanding Material Weaknesses

                                   1. USDA Information               Overall Estimated
                                                                                                            FY 2013
                                      Technology (IT)                Completion Date
     Material Weakness
         Existing                Pervasive internal control design and operating effectiveness deficiencies occurred in two
                                 areas: logical access controls/personnel security and configuration management. These
                                 deficiencies represent an overall IT material weakness. (Department)
               FY 2012 Accomplishments:                                          FY 2013 Planned Actions:
 Office of the Chief Information Officer (OCIO):                  OCIO will:
       Realigned its internal structure to streamline and            Revise an existing Department Regulation to reflect
        strengthen its organizational capability to effectively        National Institute of Standards and Technology
        manage the overall IT security program. OCIO has               (NIST) SP800-37 and the current USDA process for
        created a new policy directorate to allow for an               the Risk Management Framework;
        OCIO-wide view of IT policy challenges and                    Complete revision and publication of updated (NIST-
        consistency in the approach to the many IT                     compliant) IT Security policies;
        management challenges faced by the Department. In             Continue implementation of ICAM/HSPD-12 and use
        addition, the Associate CIO for Security Operations            of the personal identity verification card for logical
        has been designated as the Chief Information Security          and physical access enterprise-wide;
        Officer for the Department and assumed the
        accreditation and authorization program                       Develop a plan to establish a continuous monitoring
        responsibilities;                                              program that will automate the risk assessment at the
                                                                       enterprise level and provide more timely and
       Continued implementation and operations of                     actionable information; and
        enterprise level security monitoring devices; and
                                                                      Implement a new version of the Cyber Security
       Continued implementation of the Identity                       Assessment and Management tool, which will provide
        Credentialing and Access Management                            enhanced monitoring and reporting capabilities of
        (ICAM/HSPD-12) program for logical and physical                Departmental control failures.
        access control.




20       150th Anniversary | United States Department of Agriculture
                                       USDA: Managing for Results in Performing Its Many Vital Public Functions


Summary of Outstanding System Non-conformance
The following exhibit provides fiscal year (FY) 2012 accomplishments and FY 2013 planned
actions toward resolving the Department’s outstanding system non-conformance.


Exhibit 15: Summary of Outstanding System Non-conformances

                                    1. Funds Control             Overall Estimated
                                                                                                       FY 2014
       System Non-                    Management                 Completion Date
       Conformance             System improvements needed in recording obligations at the transactions level. (Commodity
         Existing              Credit Corporation (CCC))
                               Noncompliance with Federal Financial Management Improvement Act of 1996. (CCC and NRCS)
               FY 2012 Accomplishments:                                      FY 2013 Planned Actions:
 CCC:                                                         CCC will:
     Completed software modifications to most program            Identify program and financial applications that are
      applications to send obligation transactions to the          not system compliant;
      Electronic Funds Management System (eFMS) at the            Collaborate with Information Technology Services
      transaction level; and                                       Division and Deputy Administrator Farm Programs to
     Identified all material programs subject to funds            develop and execute a project plan to complete software
      control that are not currently controlled using the          modifications for the identified program applications to
      eFMS system.                                                 send obligations transactions to eFMS at the transaction
                                                                   level;
 NRCS:                                                            Develop and implement reconciliation policies and
                                                                   procedures to ensure: (1) budget authority in CCC’S
     Converted from FFIS to FMMI to enhance internal              Core Accounting System (CORE) agrees with budget
      controls at the transaction level and improve                authority in eFMS, Standard Form No. 132.
      compliance with the U.S. Government Standard                 Apportionment and Reapportionment Schedules and
      General Ledger;                                              CCC/Farm Service Agency’s Apportionment Control
     Hired director for corporate accounting responsible          Log; and (2) unliquidated obligations (ULOs) in
      for accounting operations and financial reporting,           CORE agree with ULOs in eFMS;
      Deputy Chief Financial Officer responsible for              Perform clean-up of existing unliquidated obligations;
      corporate accounting, and additional staff with
      experience in financial statement preparation and           Modify the existing quarterly review and certification
      reporting;                                                   of the unliquidated obligations process;
     Initiated asset valuation reviews to improve property       Perform data mining and aging analysis of existing
      and deferred maintenance reporting;                          ULOs to identify and adjust invalid and/or inaccurate
                                                                   balances; and
     Improved stewardship reporting including easements;
                                                                  Develop and implement performance
     Began to implement a more robust internal control            measurements/metrics for management to monitor
      program;                                                     progress in the timely deobligation of invalid ULOs.
     Implemented an agency-wide compliance review
      program to ensure compliance with applicable laws,
      regulations, and policies; and                          NRCS will:
     Performed testing and monitoring of open obligations        Verify property data in the Corporate Property
      to ensure validity.                                          Automated Information Systems;
                                                                  Continue to perform asset valuation reviews to
                                                                   improve property and deferred maintenance reporting;
                                                                  Develop a comprehensive strategy for determining all
                                                                   needed policies and procedures;
                                                                  Continue improving stewardship land monitoring and
                                                                   reporting;
                                                                  Implement recommendations from a review of period
                                                                   13 adjustments;
                                                                  Perform internal control testing for the financial
                                                                   reporting cycle; and
                                                                  Continue remediation efforts until material weakness
                                                                   is resolved.




                                                              Fiscal Year 2012 Agency Financial Report                   21
SECTION 1: Management's Discussion and Analysis

Compliance with Laws and Regulations
Background
The Department identified an agency specific deficiency in the Forest Service’s (FS) Grants
Management Program. Results of evaluations and audits of its program concluded that material
deficiencies exist in the award and recipient management processes. Outstanding initiatives to
achieve compliance are depicted in Exhibit 16. To achieve compliance, FS needs to ensure that
grantees’ financial systems comply with applicable standards, and that disbursements are
allowable, accurate, and fully supported. Specifically, we determined that FS was not compliant
with the following requirements of the Code of Federal Regulations (CFR):

        2 CFR 225.35. Establishes principles and standards to provide a uniform approach for
         determining costs, and promote effective program delivery, efficiency, and better
         relationships between governmental units and the Federal Government. The principles
         are for determining allowable costs only. “Agencies are responsible for administering
         programs that involve cost reimbursement contracts, grants, and other agreements with
         governmental units and shall issue regulations to implement the provisions of this part
         and its appendices;” and
        7 CFR 3016.20. Requires agencies to:
           I.    Ensure that State grantees expand and account for grant funds in accordance with
                 State laws and procedures for expending and accounting for its own funds. Fiscal
                 control and accounting procedures of the State, as well as its sub-grantees and
                 cost-type contractors must be sufficient to:
                 a. Permit preparation of required reports; and
                 b. Permit the tracing of funds to a level of expenditures adequate to establish that
                    such funds have not been used in violation of the restrictions and prohibitions
                    of applicable statutes.
          II.    Ensure that the financial management systems of other (non-State) grantees and
                 sub-grantees meet the following standards:
                 a. Financial reporting. Accurate, current, and complete disclosure of the
                    financial results;
                 b. Accounting records. Maintain records which adequately identify source and
                    application of funds;
                 c. Internal control. Effective control and accountability must be maintained for
                    all grant and sub-grant cash, real and personal property, and other assets;
                 d. Budget control. Actual expenditures or outlays must be compared with
                    budgeted amounts for each grant;
                 e. Allowable cost. Applicable OMB cost principles, agency program regulations,
                    and the terms of grant agreements must be followed in determining
                    allowability and allocability of costs;




22       150th Anniversary | United States Department of Agriculture
                              USDA: Managing for Results in Performing Its Many Vital Public Functions


              f. Source documentation. Accounting records must be supported by such
                 source documentation as cancelled checks, paid bills, time and attendance
                 records, etc.; and
              g. Cash management. Procedures for minimizing the time elapsing between the
                 transfer of funds from the U.S. Treasury and disbursement by grantees and
                 sub-grantees must be followed whenever advance payment procedures are used.
In addition, the Office of Inspector General (OIG) found that U.S. Department of Agriculture
(USDA) agencies did not fully comply with four of seven Improper Payment Elimination and
Recovery Act of 2010 (IPERA) requirements. Specifically, OIG determined that some USDA
programs were not compliant with the following requirements of IPERA:

   1. Publish improper payment estimates for all high-risk programs and activities;
   2. Publish programmatic corrective action plans in the Performance and Accountability
      Report (PAR) or Agency Financial Report (AFR);
   3. Publish and meet annual reduction targets for each program assessed to be at risk and
      measured for improper payments; and
   4. Report a gross improper payment rate of less than 10 percent for each program and activity
      for which an improper payment estimate was obtained and published in the PAR or AFR.




                                                  Fiscal Year 2012 Agency Financial Report         23
SECTION 1: Management's Discussion and Analysis

Exhibit 16: Outstanding Initiatives to Achieve Compliance


                       OUTSTANDING INITIATIVES TO ACHIEVE COMPLIANCE
                                                                                                                  Target
                                                                    Section of                                  Completion
                      Initiative                                  Noncompliance                    Agency          Date
 Grants Management                                       2 CFR 225.35, “Cost Principles for      Forest         12/31/2013
                                                         State, Local, and Indian Tribal         Service (FS)
                                                         Governments”
                                                         7 CFR 3016.20, “Standards for
                                                         Financial Management Systems”
 Improper Payments Elimination and Recovery              Publish improper payment                Food and        9/30/2017
 Act of 2010                                             estimates for all high-risk programs    Nutrition
                                                         and activities                          Service
                                                                                                 (FNS)
                                                         Publish programmatic corrective         FNS             9/30/2012
                                                         action plans in the Performance
                                                         and Accountability Report (PAR)         Farm Service    9/30/2012
                                                         or Agency Financial Report (AFR)        Agency
                                                                                                 (FSA)
                                                                                                 Natural         9/30/2012
                                                                                                 Resources
                                                                                                 Conservation
                                                                                                 Service
                                                                                                 (NRCS)
                                                                                                 Rural           9/30/2012
                                                                                                 Development
                                                                                                 (RD)
                                                                                                 Risk            9/30/2012
                                                                                                 Management
                                                                                                 Agency
                                                                                                 (RMA)
                                                         Publish and meet annual reduction       FNS             9/30/2017
                                                         targets for each program assessed
                                                                                                 FSA             9/30/2013
                                                         to be at risk and measured for
                                                         improper payments                       NRCS            9/30/2012*
                                                                                                 RD              9/30/2013
                                                                                                 RMA             9/30/2012*
                                                         Report a gross improper payment         FNS             9/30/2017
                                                         rate of less than 10 percent for each
                                                         program and activity for which an
                                                         improper payment estimate was
                                                         obtained and published in the PAR
                                                         or AFR
*NRCS and RMA met their reduction targets in FY 2012; however, there are more actions that they must take to continue
achieving their reduction targets. These actions are described in Exhibit 17.




24        150th Anniversary | United States Department of Agriculture
                                        USDA: Managing for Results in Performing Its Many Vital Public Functions


The following chart provides information on the status of corrective actions already completed
and FY 2013 planned corrective actions related to the deficiency.

Exhibit 17: Summary of Corrective Actions/Noncompliance with Laws and Regulations

                            SUMMARY OF CORRECTIVE ACTIONS
                     FOR NONCOMPLIANCES WITH LAWS AND REGULATIONS
                                   Grants Management                 Overall Estimated                      FY 2014
   Grants Management                                                 Completion Date
                                 Pre-award noncompliance issues. Forest Service (FS)
           FY 2012 Accomplishments:                                        FY 2013 Planned Actions:
 FS:                                                  FS will:
        Established two Grants Management                 Conduct training for program managers, grants and agreement
         Oversight Teams (GMOT): The Internal                specialists, and GMOT staff;
         Compliance Review Team (ICRT) and the             Develop a “Grants Management Handbook” for all recipients;
         External Performance Review Team                    and
         (EPRT). ICRT will ensure: (1) internal            Continue GMOT review including 24 grant recipients and 4
         controls are operating effectively and in           regional offices.
         compliance with “Forest Service
         Handbook” (FSH) guidance; and (2) FSH
         considers all applicable laws and
         regulations. EPRT will (1) conduct annual
         performance programmatic audits over
         grant recipients; and (2) provide training
         and recommendations to recipients to
         ensure compliance with applicable laws and
         regulations;
        GMOTs reviewed three States and
         completed three desk audits;
        Initiated revisions for grants and
         agreements policy; and
        Conducted training to mitigate the
         deficiency and raise awareness of laws and
         requirements: Office of Inspector General
         provided training to all State recipients
         while FS provided training for acquisition
         management awareness.
    Improper Payment                       IPERA                     Overall Estimated                     FY 2017
     Elimination and                                                 Completion Date
   Recovery Act of 2010          IPERA noncompliance issues. (Food and Nutrition Service (FNS), Farm Service Agency
        (IPERA)                  (FSA), Natural Resources Conservation Service (NRCS), Rural Development (RD), and Risk
                                 Management Agency (RMA))
                FY 2012 Accomplishments:                                        FY 2013 Planned Actions:
 FNS:                                                            FNS will:
     Included milestones or completion dates and results of          Provide milestones or completion dates and results of
      past corrective actions in its corrective actions plans;         past corrective actions in its corrective action plans;
     Issued a policy memo detailing the school district’s            Obtain contract for technical assistance to States
      ability and responsibilities to verify National School           administering NSLP/SBP that need improvement in
      Lunch Program (NSLP)/School Breakfast Program                    the area of direct certification, which includes sharing
      (SBP) applications beyond the required sample size if            best State and local education agencies practices; and
      needed; and                                                     Conduct a feasibility evaluation test (Child and Adult
     NSLP and Supplemental Nutrition Assistance                       Care Food Program Improper Payment Meal Claim
      Program met their FY 2012 reduction target.                      Assessment) to develop an estimate of meal
                                                                       counting/claiming errors.




                                                                 Fiscal Year 2012 Agency Financial Report                     25
SECTION 1: Management's Discussion and Analysis

                             SUMMARY OF CORRECTIVE ACTIONS
                      FOR NONCOMPLIANCES WITH LAWS AND REGULATIONS
      Improper Payment                         IPERA                    Overall Estimated                      FY 2017
       Elimination and                                                  Completion Date
     Recovery Act of 2010           IPERA noncompliance issues. (FNS, FSA, NRCS, RD, and RMA)
          (IPERA)
                 FY 2012 Accomplishments:                                          FY 2013 Planned Actions:
 FSA:                                                               FSA will:
     Included measurable milestones or completion dates                 Provide measureable milestones or completion dates
      and results of past corrective actions in its corrective            and results of past corrective actions in its corrective
      action plans;                                                       action plans;
     Conservation Reserve Program, Marketing Assistance                 Develop comprehensive internal control and quality
      Loan (MAL) Program, and Miscellaneous Diaster                       assurance processes and systems as outlined in its FY
      Program met their FY 2012 reduction targets; and                    2012-2016 Strategic Plan; and
     Provided notices and conducted training on program                 Increase county office review efforts targeting the
      and administrative policies and procedures.                         MAL program.
 NRCS:                                                              NRCS will:
     Included measurable milestones or completion dates                Provide milestones or completion dates and results of
      and results of past corrective actions in its corrective           past corrective actions in its corrective action plans;
      actions plan; and                                                 Develop specific language regarding the prevention,
     Published and has met annual reduction target for its              identification and recovery of improper payments to
      high-risk program.                                                 be included in the FY 2013 performance plans of
                                                                         State Conservationists;
                                                                        Conduct programmatic quality assurance reviews to
                                                                         identify and correct deficiencies and provide follow
                                                                         up training; and
                                                                        Publish and meet annual reduction targets.
 RD:                                                                RD will:
        Included measurable milestones or completion dates             Provide milestones or completion dates and results of
         and results of past corrective actions in its corrective         past corrective actions in its corrective action plans;
         actions plan; and                                              Include a performance element and standard related to
        Included testing of the payment process as part of its           IPERA performance in the performance plan of
         annual statistical sample of the Rental Assistance               officials managing the RAP; and
         Program (RAP) program.                                         Conduct reviews of appropriate documentation from
                                                                          borrowers and property managers, and follow up with
                                                                          tenants and income verification.
 RMA:                                                               RMA will:
     Included measurable milestones or completion dates               Provide milestones or completion dates and results of
      and results of past corrective actions in its corrective          past corrective actions in its corrective action plans;
      actions plan;                                                    Implement common land unit measurement to reduce
     Met Federal Crop Insurance Corporation Program                    improper payments associated with acreage errors
      Fund’s FY 2012 reduction target; and                              over the next 5 years;
     Published and has met annual reduction target for its            Finalize a plan to implement proposed changes to the
      high-risk program.                                                crop insurance program over the next 5 years to
                                                                        maintain producer historical data to reduce errors; and
                                                                       Publish and meet annual reduction targets.




26        150th Anniversary | United States Department of Agriculture
                                        USDA: Managing for Results in Performing Its Many Vital Public Functions


Federal Financial Management Improvement Act Report on Financial
Management Systems
Background
The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial
and program managers’ accountability, provide better information for decision-making, and
improve the efficiency and effectiveness of Federal programs. FFMIA requires that financial
management systems provide reliable, consistent disclosure of financial data in accordance with
generally accepted accounting principles and standards. These systems must also comply
substantially with: (1) Federal Financial Management System (FFMS) requirements; (2)
applicable Federal accounting standards; and (3) the U.S. Standard General Ledger (USSGL) at
the transaction level.

Additionally, the Federal Information Security Management Act (FISMA) requires that there be
no significant weaknesses in information security policies, procedures, or practices to be
substantially compliant with FFMIA. Detailed information on the status of corrective actions
planned and to be completed to comply with FISMA is provided in the Response to Management
Challenges section of this report, Challenge 3: Information Technology Security Needs
Continuing Improvements. The following exhibit contains the outstanding initiatives to achieve
compliance.

Exhibit 18: Initiatives to Be Completed

                OUTSTANDING INITIATIVES TO ACHIEVE FFMIA COMPLIANCE
                                                                                                               Target
                                                         Section of                                          Completion
             Initiative                                Noncompliance                          Agency            Date
 Information Technology¹              Federal Financial Management System                   Multiple          9/30/2013
                                      requirements, and Information security policies,
                                      procedures, and/or practices.
 Funds Control Management             Federal Financial Management System                    NRCS            11/30/2013
                                      requirements, Federal Accounting Standards, and
                                      U.S. Standard General Ledger (USSGL) at the
                                      transaction level.
                                      USSGL at the transaction level.                         CCC             9/30/2014
¹ The information technology material weakness, which is reported in the Federal Managers’ Financial Integrity Act Report on
Management Control, is comprised of two issues: logical access controls/personnel security and configuration management.



Fiscal Year 2012 Results
During fiscal year (FY) 2012, the U.S. Department of Agriculture (USDA) evaluated its financial
management systems to assess substantial compliance with the act. In assessing FFMIA
compliance, the Department considered auditors’ opinions on component agencies’ financial
statements, and progress made in addressing the material weaknesses identified in the
FY 2011 Performance and Accountability Report. The Department is not compliant with FFMS
requirements, Federal accounting standards, and the USSGL at the transaction level.
Additionally, as reported in the FMFIA section of this report, USDA continues to have


                                                                 Fiscal Year 2012 Agency Financial Report                  27
SECTION 1: Management's Discussion and Analysis

weaknesses in information technology controls that result in noncompliance with the FISMA
requirement. As part of its financial systems strategy, USDA agencies continue working to meet
FFMIA and FISMA objectives.

The Foreign Agricultural Service (FAS) worked with the Office of the Chief Financial Officer and
made great progress in improving its internal controls. Animal and Plant Health Inspection Service
provided financial management operations services to FAS and completed a review of
management controls under Office of Management and Budget Circular A-123, “Management’s
Responsibility for Internal Control,” Appendix A, “Financial Reporting.” As a result, FAS was
able to assure that its financial management systems provide reliable, consistent disclosure of
financial data in accordance with generally accepted accounting principles and standards as of
September 30, 2012.

Financial Management Systems Strategy
The Financial Management Modernization Initiative (FMMI) Project was initiated to modernize
USDA’s outdated financial system technology. FMMI is replacing the Corporate Financial
Management System, including the mainframe-based Foundation Financial Information System,
with Systems, Applications, and Products Enterprise Resource Planning 6.0, migrating the
current distributed, multi-instance mainframe system to a Federally compliant, and consolidated,
single-instance Web-based system. FMMI is operational and nearly complete.

FMMI has the following key attributes:
        Integration with eGovernment Travel Services, ePayroll, Grants.gov, and eLoans,
         corporate solutions for which results must be reflected in the budgetary and general
         ledger accounts of the Department (e.g., asset management and procurement), and
         program-specific systems that support the general ledger; and
        Integration with performance management and budgeting, allowing USDA to meet
         management’s objectives and Government Performance and Results Act requirements, and
         compliance with FFMIA, including Federal financial management system requirements,
         applicable Federal accounting standards, and USSGL.

The FMMI project addresses the need for improved financial performance through a modern
financial system that provides maximum support to the mission and USDA’s financial
management objectives, including:

        Ensuring that financial management systems support data integrity, reliability, and
         consistency across the Department and for the community of direct users;
        Providing online, on-demand querying capabilities and access to reports for financial
         managers and, ultimately, program managers (new users);
        Ensuring that information and reports are clearly communicated and organized in a
         format that promotes understanding, and is directly relevant to the needs of end users;
        Providing technology that supports future growth and changes in requirements;




28       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


      Promoting USDA’s credibility and trust with Congress, the Executive Office of the
       President, and the public by demonstrating full compliance with financial laws, regulations,
       and Federal financial standards, including maintaining an unqualified audit opinion;
      Ensuring that the investment advances the Department’s strategic plan, including its
       responsiveness to the fulfillment of mandates such as Federal core financial management
       system requirements;
      Demonstrating the strategic use of USDA’s human capital by supporting the realignment
       from internally focused positions to decision support or citizen-facing roles, and
       enhancing workplace desirability for current and future financial employees;
      Demonstrating the strategic use of the Department’s information technology (IT) by
       leveraging IT within USDA and across the Government to facilitate streamlining and
       unification of services; and
      Demonstrating good stewardship of public funds by securing the best performance and
       highest measure of accountability in the use of taxpayer dollars.

The Office of the Chief Financial Officer (OCFO) is partnering with the Farm Service Agency
(FSA) on the Modernize and Innovate the Delivery of Agriculture Systems (MIDAS) initiative.
MIDAS is designed to improve the delivery of FSA farm program benefits and services through
the re-engineering of farm program business processes and the adoption of enhanced and
modernized information technology.

MIDAS generates customer and business transactions (such as applications, agreements, and
acreage reports) via its customer relationship management component. Activities and
transactions in MIDAS trigger corresponding system accounting documents, which are passed to
FMMI. This handoff triggers several financial processes and transactions to occur in FMMI
(such as recording of fees and invoices, disbursements, loan receivables). In turn, as related
activities and transactions are conducted in FMMI, notifications and updates are regularly passed
back to MIDAS. This process allows the systems to stay closely in sync. It also ensures that field
employees will have visibility into key loan and producer financial standing.

Other Management Information, Initiatives, and Issues
Federal Financial Management System Requirements
Commodity Credit Corporation (CCC)
CCC has completed the development of a fully integrated funds control system, the Electronic
Funds Management System (eFMS), within the Farm Service Agency (FSA)/CCC core financial
management system. This system is integrated with CCC’s general ledger system at the
transaction level. eFMS provides management with timely information to monitor and control
the status of budgetary resources recorded in the general ledger. Work continues to implement
programs into eFMS for full funds control at a transaction level.

In fiscal year (FY) 2012, CCC converted additional programs into eFMS for transaction level
obligations.



                                                   Fiscal Year 2012 Agency Financial Report         29
SECTION 1: Management's Discussion and Analysis

CCC is not in substantial compliance with Funds Control Management. The agency plans to
correct the deficiency by FY 2014. Of total FSA funds obligated, 85 percent are obligated
through eFMS. An additional 8 percent are electronically controlled at the payment level, not at
the transactional level. The balance (7 percent) will be migrated to eFMS or administratively
controlled due to the age of the systems or cost considerations.

Transactions equaling $1 billion of a total of $14.2 billion are not processed through the funds
control system; they are processed through manual journal entries at period end. The following is
the current condition of those programs not in eFMS (dollar estimates are approximate):

        $435 million or 44 percent of the $1 billion relates to the Conservation Reserve Program;
        $300 million or 30 percent relates to the Price Support Program;
        $147 million or 15 percent relates to the Brazilian Cotton Program; and
        The remaining 11 percent represents various programs including aspects of the Biomass
         Crop Assistance Program.

While significant progress has been made towards complete funds control, the lack of the
financial system functionality to record all obligations at the transaction level at the time the
transaction occurs increases the risk that funds could be disbursed or obligations incurred with no
or insufficient budget authority to fund the expense or obligation. Although CCC implemented
detective manual controls to compensate for the system’s inherent limitation, the controls may be
inadequate to reduce the risks of an Anti-Deficiency Act violation occurring. They also may not
prevent or detect violations timely. CCC has plans to correct the deficiency by FY 2014 with the
migration to the Department's enterprise solution under FMMI. Interface assessments for the
program areas have begun. While the FMMI team has completed some significant tasks toward
implementation, continued efforts for the system migration will require and are dependent upon
additional funding to meet the current target date.

Natural Resources Conservation Service (NRCS)
NRCS had disclosed instances where its financial management systems did not substantially
comply with Federal Financial Management System (FFMS) requirements, applicable Federal
accounting standards, the U.S. Standard General Ledger at the transaction level, and information
security, policies, procedures, and practices.

NRCS continues working to mitigate auditor-identified deficiencies and substantially comply
with FFMIA. These deficiencies were found:

        FFMS Requirements, NRCS’ systems were unable to:
             o Provide timely extracts for audit purposes;
             o Allow for the authority beyond 10 years of availability; and
             o Prevent the recording of invalid upward and downward adjustments.
        Applicable Federal accounting standards: deficiencies on net position balances,
         current-year activity, leases, real and personal property, undelivered orders, downward


30       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


       adjustments for prior year obligations, stewardship land, and advances to others were not
       recorded in accordance with Federal accounting standards;
      Information security policies procedures and practices: deficiencies in application access
       controls, configuration management support systems access, and user-access
       management; and
      U.S. Standard General Ledger at the transaction level: deficiencies in recoveries of prior
       year obligations paid and unpaid.

In FY 2012, NRCS accomplishments included:

      Reviewed and enhanced internal controls for accrued expenses;
      Installed anti-virus software on Linux servers;
      Developed and implemented a process to remediate, assign, and document critical
       vulnerabilities; and
      Established quarterly access review processes for Fund Manager, WebTCAS,
       ProTRACTS, Active Directory, and Virtual Private Network (VPN).

In FY 2013, NRCS will:

      Establish and maintain a formal procedure for account creation, modification, removal,
       review, and monitoring;
      Enhance security controls over user access by installing VPN clients and LincPass card
       readers on remote user machines; and
      Improve internal control over real and personal property.




                                                   Fiscal Year 2012 Agency Financial Report         31
SECTION 1: Management's Discussion and Analysis

American Recovery and Reinvestment Act Activities
The American Recovery and Reinvestment Act of 2009 (ARRA) provided funding for several
U.S. Department of Agriculture (USDA) programs. As of fiscal year (FY) 2012, USDA had
obligated $43.4 billion and disbursed $41 billion. Some of this funding was to entitlement
programs, which are open-ended and subject to increases based on economic factors. Due to
adverse economic conditions, the demand for the Supplemental Nutrition Assistance Program
(SNAP) was very high. SNAP, formerly known as the Food Stamps Program, issued more than
$36 billion in benefits, more than the original appropriated amount of $19.8 billion. USDA also
made more than $17.5 billion in direct and guaranteed loans in rural America for rural housing,
broadband, community facilities, and rural businesses (see Exhibit 19). ARRA funds have been
used to:

        Combat hunger and improve the nutrition and health of children, individuals, and families;
        Rebuild the infrastructure of rural communities;
        Provide decent housing opportunities in rural areas;
        Ensure that individuals and companies in rural areas have access to the latest in
         technology through expanded broadband;
        Provide farmers funds to operate and mitigate losses that occur when natural disasters
         cause a catastrophic loss of crop production or prevent planting;
        Reduce the risk of wildfires, improve forest health, and maintain forest roads and facilities;
        Rehabilitate aging flood control structures, improve water quality, increase water supply,
         decrease soil erosion, and improve fish and wildlife habitat; and
        Meet critical maintenance needs of USDA facilities.

For direct access to extensive reports and data, visit: Recovery.gov

Exhibit 19: Total ARRA Obligations and Outlays ($billions)




32       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


Eliminating Improper Payments
In accordance with the Improper Payments Information Act of 2002 (IPIA), as amended by the
Improper Payments Elimination and Recovery Act of 2010 (IPERA), and as implemented by the
Office of Management and Budget (OMB) Circular No. A-123, Appendix C, “Requirements for
Effective Measurement and Remediation of Improper Payments,” U.S. Department of Agriculture
(USDA) reviews its programs susceptible to significant improper payments, and takes measures to
reduce the amount and number of improper payments.

USDA first reported on improper payments in 2004 and currently has 16 programs considered at
risk for significant improper payments (high-risk programs).

IPIA requires that agencies measure their improper payments annually, establish reduction
targets and corrective action plans and track the results annually to ensure that the corrective
actions are effective. USDA continues to make progress in accurately measuring and reporting
improper payments, developing and implementing corrective actions, and reducing and
recovering improper payments.

The following demonstrate that USDA improper payment rates are being reduced and progress is
being made:

      The USDA improper payment rate decreased from 5.37 percent for fiscal year (FY) 2011
       to 5.11 percent for FY 2012. Outlays for the high-risk programs increased $6.7 billion
       from FY 2011 to FY 2012, though USDA was able to decrease the improper payment
       rate. The increase in outlays was largely attributable to the increase in demand for food
       and nutrition assistance due to the economy;
      Eight USDA high-risk programs reported improper payment rates for FY 2012 that were
       less than the programs’ improper payment rates reported for FY 2011; and
      Eight USDA high-risk programs reported improper payment rates for FY 2012 that met
       or were less than the programs’ reduction targets for FY 2012.

Significant actions taken by USDA during FY 2012 to address improper payments include:

      Awarded a payment recapture/recovery auditing (PRRA) services contract to a private
       sector recovery auditing contractor and initiated a phased implementation approach to the
       PRRA initiative with three USDA programs; and
      Submitted the final Departmental plan to OMB for implementing the “Do Not Pay” initiative.

USDA’s goal is to continue to reduce improper payments and expand the implementation of the
PRRA initiative during FY 2013. In addition to meeting the requirements of the IPIA/IPERA,
USDA will continue to implement the requirements of Executive Order 13520, “Reducing
Improper Payments and Eliminating Waste in Federal Programs,” and the Presidential
Memorandum, “Enhancing Payment Accuracy through a ‘Do Not Pay’ list.” IPIA/IPERA
reporting details are provided in the Improper Payments section of this report.




                                                   Fiscal Year 2012 Agency Financial Report         33
SECTION 1: Management's Discussion and Analysis

Debt Management
The U.S. Department of Agriculture (USDA) is one of the Federal Government’s largest
providers of direct loans with a receivables portfolio of approximately $117 billion. This
represents about 13 percent of the non-tax debt owed to the Federal Government. In fiscal
year (FY) 1996, Congress passed the Debt Collection Improvement Act. As of June 30, 2012,
USDA’s $4.5 billion in delinquent receivables represent a 49-percent decrease from the
$8.8 billion in delinquencies reported for FY 1996. Of this $4.5 billion, only $1.7 billion is
eligible for referral to the Department of the Treasury (Treasury) for collection. The remaining
delinquent debt is ineligible due to such statutory or administrative requirements as bankruptcy,
litigation, or debt owed by international/sovereign entities (approximately $2.3 billion of
delinquent debt is international debt). As of June 30, 2012, USDA referred 99 percent of the
eligible delinquent debt to the Treasury Offset Program and Cross-Servicing Program. During
the 12-month period ending June 30, 2012, USDA collected $1.15 billion in delinquent debt, a
13-percent increase over the previous 12-month period.

Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515(b), “Financial
Statements of Agencies.”

While the statements have been prepared from the books and records of the entity in accordance
with generally accepted accounting principles for Federal entities and the formats prescribed by
Office of Management and Budget, the statements are in addition to the financial reports used to
monitor and control budgetary resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




34     150th Anniversary | United States Department of Agriculture
SECTION 2: Financial Information

Section 2: Financial Information
Message from the Deputy Chief Financial Officer
As Deputy Chief Financial Officer for the U.S. Department of Agriculture (USDA), I am pleased
to present our Agency Financial Report (AFR) for fiscal year (FY) 2012. This report summarizes
the Department’s financial management information and reflects the progress made to provide
fiscally sound, cost-effective program delivery. We believe the information found here will be
helpful to taxpayers who want to understand Agriculture spending.

Starting in FY 2012, the Department will communicate the effectiveness of its programs. It also
will provide the high-quality financial information that fully documents financial activities
through the publication of the AFR and the Annual Performance Report in lieu of the
Performance and Accountability Report. With this approach, the Office of the Chief Financial
Officer will be at the forefront of the U.S. Office of Management and Budget’s (OMB) new
requirements established in OMB Circular No. A-11, “Preparation, Submission, and Execution
of the Budget,” Part 6, “Preparation and Submission of Strategic Plans, Annual Performance
Plans, and Annual Program Performance Reports.” This circular will require agencies to prepare
and submit strategic plans, annual performance plans, and annual program performance reports
beginning with the FY 2015 budget submission.

The purpose of the FY 2012 AFR is to provide factual data that clearly characterizes our
accomplishments in managing USDA resources with maximum efficiency. The report includes
detailed information regarding:

      Management’s Discussion and Analysis;
      Financial Information; and
      Other Accompanying Information.

Because we are accountable to the American taxpayer, we strive for peak performance in all
facets of our work. We continually monitor our processes, and, when necessary, adjust our
operations to ensure the best possible service to the American people. Through the collaborative
leadership efforts of USDA managers, employees, business partners, and stakeholders, we have
made significant strides in advancing the Department’s impressive record of excellence in
financial management during FY 2012. Highlights of this progress include:

      Received another clean financial audit opinion;
      Implemented the Financial Management Modernization Initiative, a core financial system
       to replace USDA’s 9 general ledger systems, for 28 of the 29 agencies and offices that
       form the Department;
      Completed the assessment of internal control over financial reporting as required by
       OMB Circular No. A-123, “Management’s Responsibility for Internal Control,”
       Appendix A, “Internal Control over Financial Reporting.” As a result of testing, USDA
       identified 353 new control deficiencies, 161 related to business processes and 192 related


                                                  Fiscal Year 2012 Agency Financial Report     35
SECTION 2: Financial Information

         to general computer controls. In FY 2012, the Department also closed 31 business-
         process corrective action plans and 94 general computer control plans of action and
         milestones from prior years’ assessments;
        Reduced the improper payment rate from 5.37 percent for FY 2011 to 5.11 percent for
         FY 2012;
        Increased the collection of delinquent debt by 13.6 percent from $1.012 billion for the
         12-month period ending June 30, 2011, compared to $1.150 billion for the same period in
         2012; and
        Provided cost-effective and secure payroll and other administrative services reliably and
         accurately Government-wide through our National Finance Center.

Though we are continually making progress in financial management, we cannot yet give
unqualified assurance of compliance with the Federal Managers’ Financial Integrity Act, nor
with the financial systems requirements of the Federal Financial Management Improvement Act.
We will continue to focus on these efforts in the coming year.

We are proud of the accomplishments of our hard-working employees at USDA. All of us are
committed to the sound management of resources under our stewardship. We remain steadfast
and committed to making greater financial management improvements in FY 2013. Ultimately
our efforts will result in setting the highest achievable standard of excellence in managing
taxpayers' dollars.




Jon M. Holladay
Deputy Chief Financial Officer
November 15, 2012




36       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


                               Consolidated Balance Sheet
                             As of September 30, 2012 and 2011
                                        (In Millions)
                                                                                    2012          2011
Assets (Note 2):
Intragovernmental:
     Fund Balance with Treasury (Note 3)                                        $    84,670   $    74,126
     Investments (Note 5)                                                               143           138
     Accounts Receivable, Net (Note 6)                                                  309           224
     Other (Note 11)                                                                      -             2
  Total Intragovernmental                                                            85,122        74,490

  Cash and Other Monetary Assets (Note 4)                                               183           248
  Investments (Note 5)                                                                    3             3
  Accounts Receivable, Net (Note 6)                                                   8,660         8,001
  Direct Loan and Loan Guarantees, Net (Note 7)                                      95,513        92,042
  Inventory and Related Property, Net (Note 8)                                           14            51
  General Property, Plant, and Equipment, Net (Note 9)                                3,037         3,050
  Other (Note 11)                                                                       197           243

Total Assets                                                                        192,729       178,128

  Stewardship PP&E (Note 10)

Liabilities (Note 12):
  Intragovernmental:
     Accounts Payable                                                                    25            21
    Debt (Note 13)                                                                   93,880        89,583
     Other (Note 15)                                                                 12,434        11,052
  Total Intragovernmental                                                           106,339       100,656

  Accounts Payable                                                                    1,978           709
  Loan Guarantee Liability (Note 7)                                                   4,471         3,621
  Federal Employee and Veteran Benefits                                                 944           904
  Environmental and Disposal Liabilities (Note 14)                                       10             9
  Benefits Due and Payable                                                            3,837         3,500
  Other (Notes 15 & 16)                                                              35,555        26,853
  Total Liabilities                                                                 153,134       136,252

  Commitments and Contingencies (Note 17)

Net Position:
 Unexpended Appropriations - Earmarked Funds (Note 18)                                   97            74
 Unexpended Appropriations - Other Funds                                             34,925        30,395
 Cumulative Results of Operations - Earmarked Funds (Note 18)                           944         1,730
 Cumulative Results of Operations - Other Funds                                       3,629         9,677
 Total Net Position                                                                  39,595        41,876

Total Liabilities and Net Position                                              $ 192,729     $ 178,128




                     1.1       Consolidated Financial Statements
                        The accompanying notes are an integral part of these statements.




                                                          Fiscal Year 2012 Agency Financial Report          37
SECTION 2: Financial Information

                            Consolidated Statement of Net Cost
                      For the Years Ended September 30, 2012 and 2011
                                        (In Millions)

                                                                                    2012          2011

      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
       Gross Costs                                                              $    37,192   $    36,398
       Less: Earned Revenue                                                          10,500         8,450
           Net Costs                                                                 26,692        27,948

      Ensure Our National Forests and Private Working Lands Are
      Conserved, Restored, and Made More Resilient to Climate Change,
      While Enhancing Our Water Resources:
       Gross Costs                                                                   13,480        12,997
       Less: Earned Revenue                                                           1,006           869
         Net Costs                                                                   12,474        12,128

      Help America Promote Agricultural Production and
      Biotechnology Exports as America Works to Increase Food Security:
        Gross Costs                                                                   3,188         3,397
        Less: Earned Revenue                                                            618           294
          Net Costs                                                                   2,570         3,103

      Ensure that All of America's Children Have Access
      to Safe, Nutritious, and Balanced Meals:
        Gross Costs                                                                 110,148       106,551
        Less: Earned Revenue                                                            938           883
          Net Costs                                                                 109,210       105,668


      Total Gross Costs                                                             164,008       159,343
      Less: Total Earned Revenue                                                     13,062        10,496

      Net Cost of Operations (Note 19)                                           $ 150,946    $ 148,847




                           The accompanying notes are an integral part of these statements.




38    150th Anniversary | United States Department of Agriculture
                                         USDA: Managing for Results in Performing Its Many Vital Public Functions


                   Consolidated Statement of Changes in Net Position
                                  For The Year Ended September 30, 2012
                                               (In Millions)

                                                         Earmarked
                                                           Funds               All Other                     Consolidated
                                                          (Note 18)             Funds        Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                      $     1,730       $        9,677     $         -    $    11,407

 Budgetary Financing Sources:
     Other Adjustments (recissions, etc.)                         -                  (155)              -           (155)
     Appropriations Used                                        (11)              137,216               -        137,205
     Non-exchange Revenue                                         -                    (7)              -             (7)
     Donations and Forfeitures of Cash and Equivalents            1                     -               -              1
     Transfers In (Out) without Reimbursement                   223                 7,161               -          7,384
 Other Financing Sources (Non-Exchange):
     Transfers In (Out) without Reimbursement                   (18)                  104               -             86
     Imputed Financing                                           50                 3,019          (2,156)           913
     Other                                                       77                (1,392)              -         (1,315)
 Total Financing Sources                                        322               145,946          (2,156)       144,112

 Net Cost of Operations                                       (1,108)            (151,994)         2,156         (150,946)

 Net Change                                                     (786)              (6,048)              -          (6,834)

    Cumulative Results of Operations                            944                 3,629               -          4,573

Unexpended Appropriations:
 Beginning Balances                                               74               30,395               -         30,469

 Budgetary Financing Sources:
   Appropriations Received                                        12              152,099               -         152,111
   Appropriations Transferred In (Out)                             -                   25               -              25
   Other Adjustments                                               -              (10,378)              -         (10,378)
    Appropriations Used                                           11             (137,216)              -        (137,205)
 Total Budgetary Financing Sources                                23                4,530               -           4,553

   Unexpended Appropriations                                      97               34,925               -         35,022

 Net Position                                            $     1,041       $       38,554     $         -    $    39,595




                                The accompanying notes are an integral part of these statements.




                                                                  Fiscal Year 2012 Agency Financial Report                   39
SECTION 2: Financial Information

                     Consolidated Statement of Changes in Net Position
                                    For The Year Ended September 30, 2011
                                                 (In Millions)


                                                              Earmarked
                                                                Funds            All Other                      Consolidated
                                                               (Note 18)          Funds        Eliminations        Total
     Cumulative Results of Operations:
      Beginning Balances                                      $    1,795     $        9,428    $           -    $    11,223

      Budgetary Financing Sources:
          Other Adjustments (recissions, etc.)                         -               (205)               -           (205)
          Appropriations Used                                        312            139,266                -        139,578
          Non-exchange Revenue                                         -                 21                -             21
          Donations and Forfeitures of Cash and Equivalents            1                  -                -              1
          Transfers In (Out) without Reimbursement                 1,834              7,067                -          8,901
      Other Financing Sources (Non-Exchange):
          Transfers In (Out) without Reimbursement                   (67)               212                -            145
          Imputed Financing                                           59              4,409           (2,744)         1,724
          Other                                                       65             (1,199)               -         (1,134)
      Total Financing Sources                                      2,204            149,571           (2,744)       149,031

      Net Cost of Operations                                       (2,269)         (149,322)          2,744         (148,847)

      Net Change                                                      (65)              249                -            184

         Cumulative Results of Operations                          1,730              9,677                -         11,407

     Unexpended Appropriations:
      Beginning Balances                                             375             35,886                -         36,261

      Budgetary Financing Sources:
        Appropriations Received                                       11            142,475                -         142,486
        Appropriations Transferred In (Out)                            -                 10                -              10
        Other Adjustments                                              -             (8,710)               -          (8,710)
         Appropriations Used                                        (312)          (139,266)               -        (139,578)
      Total Budgetary Financing Sources                             (301)            (5,491)               -          (5,792)

        Unexpended Appropriations                                     74             30,395                -         30,469

      Net Position                                            $    1,804     $       40,072    $           -    $    41,876




                                   The accompanying notes are an integral part of these statements.




40     150th Anniversary | United States Department of Agriculture
                                                       USDA: Managing for Results in Performing Its Many Vital Public Functions


                                     Combined Statement of Budgetary Resources
                                      For The Years Ended September 30, 2012 and 2011
                                                       (In Millions)
                                                                                                     2012                                 2011
                                                                                                         Non-Budgetary                        Non-Budgetary
                                                                                                          Credit Reform                        Credit Reform
                                                                                                            Financing                            Financing
                                                                                      Budgetary             Accounts      Budgetary              Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1:                                     $     25,238         $     5,604     $    28,420          $     8,297
Recoveries of prior year unpaid obligations                                                 3,533               1,819           4,036                  964
Other changes in unobligated balance (+ or -)                                              (3,593)             (4,442)         (5,443)              (6,124)
Unobligated balance from prior year budget authority, net                                  25,178               2,981          27,013                3,137
Appropriations (discretionary and mandatory)                                              149,916                   -         136,591                    2
Borrowing authority (discretionary and mandatory)                                          11,667              11,631          11,593               10,927
Spending authority from offsetting collections (discretionary and mandatory)               16,502               7,107          16,992                8,217
Total budgetary resources                                                                 203,263              21,719         192,189               22,283

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                            169,937              16,565         166,951               16,679
Unobligated balance, end of year:
Apportioned                                                                                 9,978               2,334           9,935                4,596
Exempt from apportionment                                                                   1,124                   5           1,736                    9
Unapportioned                                                                              22,224               2,815          13,567                  999
Total unobligated balance, end of year                                                     33,326               5,154          25,238                5,604
Total budgetary resources                                                                 203,263              21,719         192,189               22,283

Change in Obligated Balances:
Unpaid obligations, brought forward, October 1 (gross)                                     36,637               28,532          37,540               30,194
Uncollected customer payments from Federal sources, brought forward, October 1 (-)         (2,019)                (947)         (1,730)              (1,083)
Obligated balance, start of year (net), before adjustments (+ or -)                        34,618               27,585          35,810               29,111
Obligations incurred                                                                      169,937               16,565         166,951               16,679
Outlays (gross) (-)                                                                      (163,225)             (17,007)       (163,818)             (17,377)
Change in uncollected customer payments from Federal sources (+ or -)                        (557)                (129)           (290)                 136
Recoveries of prior year unpaid obligations (-)                                            (3,533)              (1,819)         (4,036)                (964)
Obligated balance, end of year:
Unpaid obligations, end of year (gross)                                                    39,816              26,270          36,637               28,532
Uncollected customer payments from Federal sources, end of year (-)                        (2,576)             (1,075)         (2,019)                (947)
Obligated balance, end of year (net)                                                       37,240              25,195          34,618               27,585

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                     178,085               18,738        165,176                19,146
Actual offsetting collections (discretionary and mandatory) (-)                           (21,481)             (12,665)       (22,336)              (11,315)
Change in uncollected customer payments from Federal sources
   (discretionary and mandatory) (+ or -)                                                    (557)                (129)          (290)                 136
Budget authority, net (discretionary and mandatory)                                       156,047                5,944        142,550                7,967

Outlays, gross (discretionary and mandatory)                                              163,225               17,007        163,818                17,377
Actual offsetting collections (discretionary and mandatory) (-)                           (21,481)             (12,665)       (22,336)              (11,315)
Outlays, net (discretionary and mandatory)                                                141,744                4,342        141,482                 6,062
Distributed offsetting receipts (-)                                                          (723)              (1,310)          (686)               (1,353)
Agency outlays, net (discretionary and mandatory)                                    $    141,021         $      3,032    $   140,796          $      4,709




                                              The accompanying notes are an integral part of these statements.




                                                                                Fiscal Year 2012 Agency Financial Report                       41
SECTION 2: Financial Information

            Notes to the Consolidated Financial Statements
                                 As of September 30, 2012 and 2011
                                              (In Millions)


Note 1. Significant Accounting Policies
Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States
and around the world. USDA is organized into seven distinct mission areas and their agencies
that execute these missions.

Listed below are the missions and the agencies within each mission including three
Government corporations:

Farm and Foreign Agricultural Services (FFAS)
        Farm Service Agency (FSA)
             o Commodity Credit Corporation (CCC)
        Foreign Agricultural Service (FAS)
        Risk Management Agency (RMA)
             o Federal Crop Insurance Corporation (FCIC)
Food, Nutrition, and Consumer Services (FNCS)
        Food and Nutrition Service (FNS)
Food Safety
        Food Safety and Inspection Service (FSIS)
Marketing and Regulatory Programs (MRP)
        Agricultural Marketing Service (AMS)
        Animal and Plant Health Inspection Service (APHIS)
        Grain Inspection, Packers and Stockyards Administration (GIPSA)
Natural Resources and Environment (NRE)
        Forest Service (FS)
        Natural Resources Conservation Service (NRCS)
Research, Education, and Economics (REE)
        Agricultural Research Service (ARS)
        National Institute of Food and Agriculture (NIFA)
        Economic Research Service (ERS)



42       150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


      National Agricultural Statistics Service (NASS)
Rural Development
      Rural Development (RD)
           o Alternative Agricultural Research and Commercialization Corporation (AARC)
Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental
activity and balances are eliminated, except for the Statement of Budgetary Resources that is
presented on a combined basis. The financial statements are prepared in accordance with
generally accepted accounting principles for the Federal Government.

Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year
presentation.

In accordance with new guidance, the Combined Statement of Budgetary Resources was reclassified
to better align with the new SF-133, Report on Budget Execution and Budgetary Resources.

RD and FSA reclassified distributed offsetting receipts of $1,128 million from the budgetary
column to the non-budgetary column on the Combined Statement of Budgetary Resources to
conform with credit reform guidance.

In FY 2011, RMA reclassified the FCIC from earmarked funds to other funds, absent explicit
authority to retain revenues and other financing sources not used in the current period for future
use, consistent with the change in accounting principle made in FY 2010. The Balance Sheet,
Statement of Changes in Net Position, and related Earmarked Funds note reflects this change.
RMA also reclassified liabilities covered by budgetary resources of $3,920 million to liabilities
not covered by budgetary resources as a result of this change.

In FY 2011, CCC reclassified other financing sources of $250 million on the Statement of
Changes in Net Position and related Reconciliation of Budgetary Resources Obligated to Net
Cost of Operations note to comply with Treasury General Fund Receipt Account Guide, Scenario
6 - Collection of Downward Reestimate of Subsidy Expense.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions
that affect the amounts reported in the financial statements and accompanying notes. Actual
results could differ from those estimates.

Revenue from exchange transactions is recognized when persuasive evidence of an arrangement
exists, delivery has occurred or services have been rendered, sales price is fixed or determinable,
and collection is reasonably assured. In certain cases, the prices charged by the Department are
set by law or regulation, which for program and other reasons may not represent full cost. Prices
set for products and services offered through the Department’s working capital funds are
intended to recover the full costs incurred by these activities. Revenue from non-exchange


                                                    Fiscal Year 2012 Agency Financial Report         43
SECTION 2: Financial Information

transactions is recognized when a specifically identifiable, legally enforceable claim to resources
arises, to the extent that collection is probable and the amount is reasonably estimable.
Appropriations are recognized as a financing source when used. An imputed financing source is
recognized for costs subsidized by other Government entities.

Investments
The Department is authorized to invest certain funds in excess of its immediate needs in
Treasury securities. Investments in non-marketable par value Treasury securities are classified as
held to maturity and are carried at cost. Investments in market-based Treasury securities are
classified as held to maturity and are carried at amortized cost. The amortized cost of securities is
based on the purchase price adjusted for amortization of premiums and accretion of discounts
using the straight-line method over the term of the securities.

Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible
accounts. The adequacy of the allowance is determined based on past experience and age of
outstanding balances.

Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the
present value of the net cash-flows estimated over the life of the loan or guarantee. The
difference between the outstanding principal of the loans and the present value of their net cash
inflows is recognized as a subsidy cost allowance; the present value of estimated net cash
outflows of the loan guarantees is recognized as a liability for loan guarantees. The subsidy
expense for direct or guaranteed loans disbursed during the year is the present value of estimated
net cash outflows for those loans or guarantees. A subsidy expense also is recognized for
modifications made during the year to loans and guarantees outstanding and for reestimates
made as of the end of the year to the subsidy allowances or loan guarantee liability for loans and
guarantees outstanding.

Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using the
present-value method. Under the present-value method, the outstanding principal of direct loans
is reduced by an allowance equal to the difference between the outstanding principal and the
present value of the expected net cash flows. The liability for loan guarantees is the present value
of expected net cash outflows due to the loan guarantees.

Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for
a fee are valued on the basis of historical cost using a first-in, first-out method. Commodities are
valued at the lower of cost or net realizable value using a weighted average method. Barter
Delivery Obligations (BDO) are valued at the net sales proceeds. BDO are exchanged for food
products to be utilized in domestic and export food programs.




44     150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation.
Depreciation is determined using the straight-line method over the estimated useful lives of the
assets. Useful lives for PP&E are disclosed in Note 9. Capitalization thresholds for personal
property and real property are $25,000 and $100,000 for internal use software. There are no
restrictions on the use or convertibility of PP&E.

Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is
recognized at the time the employees’ services are rendered. The expense is equal to the actuarial
present value of benefits attributed by the pension plan’s benefit formula, less the amount
contributed by the employees. An imputed cost is recognized for the difference between the
expense and contributions made by and for employees.

Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is
recognized when a future outflow or other sacrifice of resources is probable and measurable on
the basis of events occurring on or before the reporting date. The liability for long-term other
post-employment benefits is the present value of future payments.

Earmarked Funds
In accordance with SFFAS 27, Identifying and Reporting Earmarked Funds, the Department has
reported the earmarked funds for which it has program management responsibility when the
following three criteria are met: (1) a statute committing the Federal Government to use
specifically identified revenues and other financing sources only for designated activities,
benefits or purposes; (2) explicit authority for the earmarked fund to retain revenues and other
financing sources not used in the current period for future use to finance the designated activities,
benefits or purposes; and (3) a requirement to account for and report on the receipt, use, and
retention of the revenues and other financing sources that distinguishes the earmarked fund from
the Government’s general revenues.

Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a
future outflow or other sacrifice of resources is probable, and the future outflow or sacrifice of
resources is measurable.

Allocation Transfers
The Department is a party to allocation transfers with other federal agencies as both a
transferring (parent) entity and/or a receiving (child) entity. Allocation transfers are legal
delegations by one department of its authority to obligate budget authority and outlay funds to
another department. A separate fund account (allocation account) is created in the U.S. Treasury
as a subset of the parent fund account for tracking and reporting purposes. All allocation
transfers of balances are credited to this account, and subsequent obligations and outlays incurred



                                                    Fiscal Year 2012 Agency Financial Report         45
SECTION 2: Financial Information

by the child entity are charged to this allocation account as they execute the delegated activity on
behalf of the parent entity.

The Department allocates funds, as the parent, to the Department of Transportation, Department
of the Interior, Department of Defense, Department of Housing and Urban Development, U.S.
Agency for International Development and the Small Business Administration. The Department
receives allocation transfers, as the child, from the Department of Labor, Department of
Transportation, Department of the Interior, Economic Development Administration, Appalachian
Regional Commission and the Delta Regional Authority.

Inter-Entity Costs
Each entity’s full cost should incorporate the full cost of goods and services that it receives from
other entities. The entity providing the goods or services has the responsibility to provide the
receiving entity with information on the full cost of such goods or services either through billing
or other advice.

Recognition of inter-entity costs that are not fully reimbursed is limited to material items that (1)
are significant to the receiving entity, (2) form an integral or necessary part of the receiving
entity’s output, and (3) can be identified or matched to the receiving entity with reasonable
precision. Broad and general support services provided by an entity to all or most other entities
should not be recognized unless such services form a vital and integral part of the operations or
output of the receiving entity.

Fiduciary Activities
Fiduciary activities are the collection or receipt, and the management, protection, accounting,
investment and disposition by the Federal Government of cash or other assets in which non-
Federal individuals or entities have an ownership interest that the Federal Government must
uphold. Fiduciary assets are not assets of the Federal Government and are not recognized on the
balance sheet.




46     150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


Note 2. Non-Entity Assets
Non-entity assets include proceeds from the sale of timber payable to Treasury, timber contract
performance bonds, employer contributions and payroll taxes withheld for agencies serviced by
the National Finance Center, rural housing escrow, interest, fines and penalties.

                                                                 FY 2012               FY 2011
Intragovernmental:
  Fund balance with Treasury                                $              121     $         176
  Accounts Receivable                                                      20                  23
Subtotal Intragovernmental                                                 141               199

With the Public:
  Accounts receivable                                                      96                  73
Subtotal With the Public                                                   96                  73

Total non-entity assets                                                    237               272

Total entity assets                                                   192,492            177,856

Total Assets                                                $         192,729      $     178,128



Note 3. Fund Balance with Treasury
Other Fund Types include deposit and clearing accounts. Borrowing Authority not yet Converted
to Fund Balance represents un-obligated and obligated amounts recorded at year-end that will be
funded by future borrowings. Non-Budgetary Fund Balance with Treasury includes special fund
receipt accounts; and clearing and suspense account balances awaiting disposition or
reclassification. Unprocessed Intragovernmental Payment and Collection (IPAC) transactions
were not reported to Treasury at the end of FY 2012 and FY 2011 because the proper Treasury
Account Symbol was unknown which reduced Fund Balance with Treasury by $50 million and
$52 million, respectively.




                                                   Fiscal Year 2012 Agency Financial Report         47
SECTION 2: Financial Information

                                                                               FY 2012               FY 2011
Fund Balances:
     Trust Funds                                                           $           439       $          550
     Special Funds                                                                   18,786             17,777
     Revolving Funds                                                                 16,371             12,397
     General Funds                                                                   48,961             43,294
     Other Fund Types                                                                  113                  108
Total                                                                                84,670             74,126


Status of Fund Balance with Treasury:
Unobligated Balance:
     Available                                                                       13,441             16,276
     Unavailable                                                                     25,039             14,690
Obligated Balance not yet Disbursed                                                  62,252             61,956
Borrowing Authority not yet Converted to Fund Balance                            (33,832)               (35,133)
Non-Budgetary Fund Balance with Treasury                                             17,770             16,337
Total                                                                      $         84,670      $      74,126




Note 4. Cash and Other Monetary Assets
In FY 2012 and FY 2011, cash mostly consists of Federal crop insurance escrow amounts of
$183 million and $247 million respectively.

                                                                       FY 2012                FY 2011


 Cash                                                             $            183       $            248




48       150th Anniversary | United States Department of Agriculture
                                          USDA: Managing for Results in Performing Its Many Vital Public Functions


Note 5. Investments

FY 2012                                                                       Amortized                                                   Market
                                Amortization                                  (Premium)             Interest         Investments,          Value
                                     Method               Cost                Discount             Receivable            Net             Disclosure
Intragovernmental:
  Non-marketable
    Par value                                         $            -      $               -    $                -    $           -   $            -
    Market-based                    Straight Line                143                     (1)                    1              143              143
Total                                                 $          143      $              (1)   $                1    $         143   $          143


With the Public:
  AARC                                                $           3       $               -    $                -    $          3    $             3
Total                                                 $           3       $               -    $                -    $          3    $             3


FY 2011                                                                       Amortized                                                   Market
                                Amortization                                  (Premium)             Interest         Investments,          Value
                                     Method               Cost                Discount             Receivable            Net             Disclosure
Intragovernmental:
  Non-marketable
    Par value                                         $            -      $               -    $                -    $           -   $                -
    Market-based                    Straight Line                135                     (1)                    4              138              138
Total                                                 $          135      $              (1)   $                4    $         138   $          138


With the Public:
  AARC                                                $           3       $               -    $                -    $          3    $             3
Total                                                 $           3       $               -    $                -    $          3    $             3




Note 6. Accounts Receivable, Net
                   FY 2012
                                                      Accounts                 Allowance for                      Accounts
                                                    Receivable,                 Uncollectible                   Receivable,
                                                       Gross                     Accounts                           Net
                Intragovernmental                   $       309                $             -                  $       309
                With the Public                           8,727                           (67)                        8,660
                Total                               $     9,036                $          (67)                  $     8,969

                   FY 2011
                                                      Accounts                 Allowance for                      Accounts
                                                    Receivable,                 Uncollectible                   Receivable,
                                                       Gross                     Accounts                           Net
                Intragovernmental                   $       224                $             -                  $       224
                With the Public                           8,049                           (48)                        8,001
                Total                               $     8,273                $          (48)                  $     8,225




Note 7. Direct Loans and Guarantees, Non-Federal Borrowers
Direct Loans
Direct loan obligations or loan guarantee commitments made pre-1992 and the resulting direct
loans or loan guarantees are reported at net present value.


                                                                       Fiscal Year 2012 Agency Financial Report                           49
SECTION 2: Financial Information

Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit
Reform Act of 1990 as amended governs the resulting direct loan or loan guarantees. The Act
requires agencies to estimate the cost of direct loans and loan guarantees at present value for the
budget. Additionally, the present value of the subsidy costs (i.e. interest rate differentials, interest
subsidies, delinquencies and defaults, fee offsets and other cash flows) associated with direct
loans and loan guarantees are recognized as a cost in the year the loan or loan guarantee is
disbursed. The net present value of loans or defaulted guaranteed loans receivable at any point in
time is the amount of the gross loan or defaulted guaranteed loans receivable less the present
value of the subsidy at that time.

The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative
of the proceeds that might be expected if these loans were sold on the open market.

Direct Loan and Loan Guarantees, Net at the end of FY 2012 was $95,513 million compared to
$92,042 million at the end of FY 2011. Loans exempt from the Federal Credit Reform Act of
1990 represent $400 million of the total compared to $338 million in FY 2011. Table 1 illustrates
the overall composition of the Department’s credit program balance sheet portfolio by mission
area and credit program for FY 2012 and FY 2011.

For the first time since the inception of the Rural Utilities Cushion of Credit (CoC) program,
advance payments have surpassed the loans receivable balance in the liquidating fund. The Rural
Electrification Act of 1936 authorized the accumulation of CoC in the liquidating fund.
Borrowers may make advance payments up to their liquidating and financing total Rural Utilities
Service debt; however, the funds must remain in the liquidating fund. This year, due to the
increased volume of advance payments, the liquidating fund loans receivable shows a negative
value of assets in Table 1.

During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is
adjusted by the value of the subsidy cost allowance held against those loans. Current year
subsidy expense, modifications and reestimates all contribute to the change of the subsidy cost
allowance throughout the year. The subsidy cost allowance moved from $6,017 million to $6,118
million during FY 2012, an increase of $101 million. Table 2 shows the reconciliation of subsidy
cost allowance balances from FY 2011 to FY 2012.

Total direct loan subsidy expense is a combination of subsidy expense for new direct loans
disbursed in the current year, modifications to existing loans, and interest rate and technical
reestimates to existing loans. Total direct loan subsidy expense in FY 2012 was $237 million
compared to $539 million in FY 2011. Table 3 illustrates the breakdown of total subsidy expense
for FY 2012 and FY 2011 by program.

Direct loan volume decreased from $11,147 million in FY 2011 to $11,071 million in FY 2012.
Volume distribution between mission area and program is shown in Table 4.

Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up
to 95 percent of the principal loan amount. Under the guaranteed loan programs, the lender is



50      150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


responsible for servicing the borrower’s account for the life of the loan. The Department,
however, is responsible for ensuring borrowers meet certain qualifying criteria to be eligible and
monitoring the lender’s servicing activities. Borrowers interested in guaranteed loans must apply
to a conventional lender, which then arranges for the guarantee with a Department agency.
Estimated losses on loan and foreign credit guarantees are reported at net present value as Loan
Guarantee Liability. Defaulted guaranteed loans are reported at net present value as Loans
Receivable and Related Foreclosed Property, Net.

Guaranteed loans outstanding at the end of FY 2012 were $103,587 million in outstanding
principal and $92,667 million in outstanding principal guaranteed, compared to $89,317 million
and $79,858 million, respectively at the end of FY 2011. Table 5 shows the outstanding balances
by credit program.

During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan
guarantee liability held against those loans. Current year subsidy expense, modification and
reestimates all contribute to the change of the loan guarantee liability through the year. The loan
guarantee liability is a combination of the liability for losses on pre-1992 guarantees and post-
1991 guarantees. Table 6 shows that total liability moved from $3,621 million to $4,471 million
during FY 2012, an increase of $850 million. Table 7 shows the reconciliation of total loan
guarantee liability.

Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed
loans disbursed in the current year, modifications to existing loans, and interest rate and technical
reestimates to existing loans. Total guaranteed loan subsidy expense in FY 2012 was
$926 million compared to $721 million in FY 2011. Table 8 illustrates the breakdown of total
subsidy expense for FY 2012 and FY 2011 by program.

Guaranteed loan volume increased from $23,664 million in FY 2011 to $27,170 million in FY
2012. Volume distribution between mission area and program is shown in Table 9.

Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude
direct Federal administrative expenses. Administrative expenses for FY 2012 and FY 2011 are
shown in Table 10.

Subsidy Rates
Subsidy rates are used to compute each year’s subsidy expenses. The subsidy rates disclosed in
Tables 11 and 12 pertain only to the FY 2012 cohorts. These rates cannot be applied to the direct
and guaranteed loans disbursed during the current reporting year to yield the subsidy expense.
The subsidy expense for new loans reported in the current year could result from disbursements
of loans from both current year cohorts and prior-year cohorts. The subsidy expense reported in
the current year also includes reestimates.

Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission
area through the FSA and the CCC, and in the RD mission area.


                                                    Fiscal Year 2012 Agency Financial Report         51
SECTION 2: Financial Information

The Farm and Foreign Agricultural Services Mission Area
The FFAS mission area helps keep America’s farmers and ranchers in business as they face the
uncertainties of weather and markets. FFAS delivers commodity, credit, conservation, disaster
and emergency assistance programs that help strengthen and stabilize the agricultural economy.
FFAS contributes to the vitality of the farm sector with programs that encourage the expansion
of export markets for U.S. agriculture.

FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private,
commercial credit and nonprofit entities that are engaged in the improvement of the nation’s
agricultural community. Often, FSA borrowers are beginning farmers who cannot qualify for
conventional loans due to insufficient financial resources. Additionally, the agency helps
established farmers who have suffered financial setbacks from natural disasters, or have limited
resources to maintain profitable farming operations. FSA officials also provide borrowers with
supervision and credit counseling.

FSA’s mission is to provide supervised credit. FSA works with each borrower to identify
specific strengths and weaknesses in farm production and management, and provides alternatives
to address weaknesses. FSA is able to provide certain loan servicing options to assist borrowers
whose accounts are distressed or delinquent. These options include reamortization, restructuring,
loan deferral, lowering interest rate, acceptance of easements, and debt write-downs. The
eventual goal of FSA’s farm credit programs is to graduate its borrowers to commercial credit.

CCC’s foreign programs provide economic stimulus to both the U.S. and foreign markets, while
also giving humanitarian assistance to the most-needy people throughout the world. CCC offers
both credit guarantee and direct credit programs for buyers of U.S. exports, suppliers, and
sovereign countries in need of food assistance.

CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The
Club is an internationally recognized organization under the leadership of the French Ministry of
Economics and Finance. Its sole purpose is to assess, on a case-by-case basis, liquidity problems
faced by economically disadvantaged countries. The general premise of the Club’s activities is to
provide disadvantaged nations short-term liquidity relief to enable them to re-establish their
credit worthiness. The Departments of State and Treasury lead the U.S. Delegation and
negotiations for all U.S. Agencies.

CCC also provides loans for Farm and Sugar Storage Facilities (FSFL). FSFL provides low-
interest financing for producers to build or upgrade farm storage and handling facilities. The
2008 Farm Bill added hay and renewable biomass as eligible FSFL commodities, extended the
maximum loan term to 12 years and increased the maximum loan amount to $500,000.




52     150th Anniversary | United States Department of Agriculture
                                 USDA: Managing for Results in Performing Its Many Vital Public Functions


Farm and Foreign Agricultural Service List of Programs

                        Farm Service Agency             Commodity Credit Corporation
                  Direct Farm Ownership                 General Sales Manager Guarantee
                  Direct Farm Operating                 Credit Program
                  Direct Emergency Loans                Facility Program Guarantee
                  Direct Indian Land Acquisition        P.L. 480 Title 1 Program
                  Direct Boll Weevil Eradication        Direct Farm Storage Facility
                  Direct Seed Loans to Producers        Direct Sugar Storage Facilities
                  Direct Conservation
                  Guaranteed Farm Operating
                  Subsidized/Unsubsidized
                  Agricultural Resource Demonstration
                  Fund
                  Bureau of Reclamation Loan Fund
                  Guaranteed Farm Ownership
                  Unsubsidized
                  Guaranteed Conservation
                  American Recovery and Reinvestment
                  Fund


The Rural Development Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or
improve the quality of rural housing. To leverage the impact of its programs, RD is working with
State, local and Indian tribal Governments, as well as private and not-for-profit organizations and
user-owned cooperatives.

Through its rural housing loan and grant programs, RD provides affordable housing and essential
community facilities to rural communities. Rural housing programs help finance new or
improved housing for moderate, low, and very low-income families each year. The programs
also help rural communities finance, construct, enlarge or improve fire stations, libraries,
hospitals and medical clinics, industrial parks, and other community facilities.

The Rural Business Program goal is to promote a dynamic business environment in rural
America. RD partners with the private sector and community-based organizations to provide
financial assistance and business planning. It also provides technical assistance to rural
businesses and cooperatives, conducts research into rural economic issues, and provides
cooperative educational materials to the public.

The Rural Utilities Program helps to improve the quality of life in rural America through a
variety of loan programs for electric energy, telecommunications, and water and environmental
projects. This program leverages scarce Federal funds with private capital for investing in rural
infrastructure, technology and development of human resources.

RD programs provide certain loan servicing options to borrowers whose accounts are distressed
or delinquent. These options include reamortization, restructuring, loan deferral, lowering




                                                        Fiscal Year 2012 Agency Financial Report      53
SECTION 2: Financial Information

interest rate, acceptance of easements and debt write-downs. The choice of servicing options
depends on the loan program and the individual borrower.

Rural Development List of Programs
        Rural Housing Program                Rural Business Program                 Rural Utilities Program
 Single Family Housing Direct Loans       Business and Industry Direct Loans   Water and Environmental Direct Loans
 Single Family Housing Guaranteed Loans   Business and Industry Guaranteed     Water and Environmental Guaranteed
 Self Help Housing Direct Loans           Loans                                Loans
 Single Family Housing Credit Sales       Intermediary Relending Program       Electric Direct Loans
                                          Direct Loans                         Electric Guaranteed Loans
 Farm Labor Housing Direct Loans
                                          Rural Economic Development           Telecommunications Direct Loans
 Multi-Family Housing Direct Loans        Direct Loans
 Multi-Family Housing Guaranteed Loans                                         Federal Financing Bank-Electric
                                          Biorefinery Guaranteed Loans
 Multi-Family Housing-Credit Sales                                             Federal Financing Bank-Telephone
                                          Renewable Energy Guaranteed
 Multi-Family Housing Relending Program   Loans                                Distance Learning and Telemedicine
                                                                               Direct
 Multi-Family Housing Revitalization      Rural Microenterprise Direct
 Program                                  Loans                                Broadband Telecommunications
                                                                               Services
 Community Facilities Direct Loans
 Community Facilities Guaranteed Loans


Events and Changes Having a Significant and Measurable Effect on Subsidy Rates,
Subsidy Expense, and Subsidy Reestimates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary
accounting treatment of direct and guaranteed loans. The long-term cost to the Government for direct
loans or loan guarantees is referred to as “subsidy cost.” Under the act, subsidy costs for loans
obligated beginning in FY 1992 are recognized at the net present value of projected lifetime costs in
the year the loan is disbursed. Subsidy costs are revalued annually. Components of subsidy include
interest subsidies, defaults, fee offsets, and other cash flows.

The annual reestimate process updates the budget assumptions with actual portfolio performance,
interest rates and updated estimates for future loan performance. The FY 2012 reestimate process
resulted in a $72 million decrease in the post 1991 estimated cost of the direct loan portfolio and a
$914 million increase in the post 1991 estimated cost of the guaranteed loan portfolio, primarily
comprised of the following programs:

Direct Loans
The Water and Environmental Program had a downward reestimate of $256 million due to a slight
increase in the difference between the weighted average borrower rates and Treasury rates.

The Housing Programs had an overall net upward reestimate of $324 million. The majority of the
$324 million upward reestimate related to a reduced assumption for future prepayments, and the
related assumptions for payment assistance recapture. Unlike the guaranteed housing program, the
payment assistance provided under the direct housing programs mitigates the traditional incentive to
refinance mortgage loans in a declining interest rate environment. The direct loan program’s
historical experience includes a significant number of cash out refinances rather than interest rate
refinances, which have declined following the housing crisis and are not expected to rebound in the
near future. The Community Facility Program is one of RD’s fastest growing programs. The


54      150th Anniversary | United States Department of Agriculture
                                 USDA: Managing for Results in Performing Its Many Vital Public Functions


Community Facility Program had a downward reestimate of $152 million, which reflected two
year’s worth of revisions in projected cash flows, as the program did not calculate a reestimate in FY
2011. The majority of the adjustment was caused by a higher interest rate differential.

The Electric Programs had an overall net upward reestimate of $102 million. The Federal Financing
Bank (FFB) Electric Program lent funds to Electric utilities at reduced rates through borrowings
provided by the FFB. The difference between the weighted average loan rate and the FFB debt costs
increased slightly, resulting in lower projected costs for the program and a net downward reestimate
of $88 million. The Electric Underwriting Program developed subsidy rates for specific projects due
to unique project attributes. This program had a $188 million upward reestimate because of lower
discount rates.

Guaranteed Loans
The Single Family Housing Guaranteed Programs had a sizeable upward reestimate of $761 million
because of an increase in forecasted loss settlements, caused by the housing crisis. Actual loss
settlements for FY 2012 were $220 million higher than previously forecasted. RD management
made manual adjustments to the default assumptions, which better indicate expected performance in
the continuing wake of the crisis.

Business and Industry Programs had total upward reestimate of $128 million because of continued
high levels of loss settlements due to current economic conditions.

Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference
between the budgeted and actual interest for both borrower and Treasury remain the key components
for the subsidy formulation and reestimate rates of many USDA direct programs. USDA uses the
Governmentwide interest rate projections provided by the OMB in order to do its calculations and
analysis.

In accordance with the General Fund Receipt Account Guide, a liability for non-entity assets is
accrued for downward reestimate of subsidy. When more subsidy was collected than is necessary to
fund future net cash outflows, the financing fund must transfer the excess subsidy, with interest, to a
designated general fund receipt account in the following year.

Loan Modifications
A modification is any Government action different from the baseline assumptions that affects the
subsidy cost, such as a change in the terms of the loan contract. The cost of a modification is the
difference between the present value of the cash flows before and after the modification.

Multiple-family housing direct loan program modifications related to the revitalization project, which
began in FY 2006, continued throughout FY 2012. The revitalization project is used to rehabilitate
ailing housing developments. In this program, RD determines whether the development owner
should be offered a financial restructuring plan and what type of incentives, if any, should be offered
to the owner to rehabilitate an ailing housing development and to provide affordable rents for tenants.

In 2011, the Home Affordable Modification Program (HAMP) and the Helping Families Save Their
Homes Act of 2009 were initiated as a joint effort of Rural Development and the U. S. Department of


                                                     Fiscal Year 2012 Agency Financial Report         55
SECTION 2: Financial Information

Treasury. These enactments will assist the Agency in preventing the destructive impact of
foreclosures on families, communities, and the national economy. As a part of this legislation, the
Rural Housing Service (RHS) is amending its regulations to add new servicing options to the Single
Family Housing Guaranteed Loan program. Lenders may utilize these servicing options while still
maintaining the loan guarantee. Additionally, the Agency will allow lenders to extend loans for up to
40 years from the date of modification. The Agency will also allow lenders to advance funds, on
behalf of borrowers, in the amounts necessary to bring defaulted loans current. These advances can
be up to 30 percent of the loan’s unpaid principal balance. The intended effect is to allow new
servicing options so that Guaranteed Single Family Housing borrowers can better afford their loan
payments resulting in reduced mortgage foreclosures.

The Debt Reduction Fund is used to account for CCC’s “modified debt.” Debt is considered to be
modified if the original debt has been reduced or the interest rate of the agreement changed. In
contrast, when debt is "rescheduled," only the date of payment is changed. Rescheduled debt is
carried in the original fund until paid. With one exception, all outstanding CCC modified debt is
carried in the Debt Reduction Fund and is governed by the Federal Credit Reform Act of 1990 as
amended. The $21 million increase in adjusted loan modifications in FY 2012 is due to a receipt of
subsidy from the Treasury for bilateral implementation of Democratic Republic of Congo 100% debt
cancelation.

Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties
associated with loans are reported at their market value at the time of acquisition. The projected
future cash flows associated with acquired properties are used in determining the related allowance
(at present value).

As of September 30, 2012 and 2011, foreclosed property consisted of 1,375 and 1,253 rural single-
family housing dwellings, with an average holding period of 15 months and 16 months, respectively.
As of September 30, 2012 and 2011, FSA-Farm Loan Program properties consist primarily of 77 and
67 farms, respectively. The average holding period for these properties in inventory for FY 2012 and
FY 2011 was 44 and 51 months, respectively. Certain properties can be leased to eligible individuals.

Other Information
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on
rescheduling agreements until such time two consecutive payments have been made following the
rescheduling. When RD, FSA and CCC calculate loan interest income, however, the recognition of
revenue is deferred. Late interest is accrued on arrears.

Approximately $18,600 million and $19,100 million of RHS unpaid loan principal as of September
30, 2012, and 2011 were receiving interest credit, respectively. If those loans receiving interest credit
had accrued interest at the full-unreduced rate, interest income would have been approximately $935
million and $963 million higher for FY 2012 and FY 2011 respectively.

At the end of FY 2012 and FY 2011, the RD portfolio contained approximately 67,900 and 69,500
restructured loans with an outstanding unpaid principal balance of $2,700 million and $2,600 million,
respectively . At the end of FY 2012 and FY 2011, the farm loan portfolio contained approximately


56      150th Anniversary | United States Department of Agriculture
                                 USDA: Managing for Results in Performing Its Many Vital Public Functions


19,123 and 19,959 restructured loans with an outstanding unpaid principal balance of $1,143 million
and $1,177 million, respectively. Direct credit and credit guarantee principal receivables in the food
aid and export programs under rescheduling agreements as of September 30, 2012 and 2011, were
$2,203 million and $2,667 million, respectively.




                                                     Fiscal Year 2012 Agency Financial Report         57
SECTION 2: Financial Information

Table 1. Direct Loan and Loan Guarantees, Net
FY 2012                                        Loans                                  Present       Value of Assets
Direct Loans                                 Receivable,    Interest    Foreclosed     Value          Related to
                                               Gross       Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                       $       692   $      47    $      12    $       (48)   $          703
  Export                                               -           -            -              -                 -
  Food Aid                                         3,167         824            -         (2,362)            1,629
  Housing                                          8,619          78           32         (3,831)            4,898
  Electric                                           459         157            -         (1,087)             (471)
  Telecommunications                                 221           1            -             (1)              221
  Water and Environmental                            845           7            -            (40)              812
  Business and Industry                                -           -            -              -                 -
  Economic Development                                25           -            -             (8)               17
Pre-1992 Total                                    14,028       1,114           44         (7,377)            7,809

Obligated Post-1991
  Farm                                             7,982         193           10           (472)            7,713
  Export                                               -           -            -              -                 -
  Food Aid                                         1,302          62            -           (521)              843
  Housing                                         22,401         189           62         (2,945)           19,707
  Electric                                        42,896         253            -           (759)           42,390
  Telecommunications                               4,374           4            -             99             4,477
  Water and Environmental                         11,280          97            -           (551)           10,826
  Business and Industry                               32           -            -             30                62
  Economic Development                               542           2            -           (144)              400
Post-1991 Total                                   90,809         800           72         (5,263)           86,418
Total Direct Loan Program Receivables            104,837       1,914          116        (12,640)           94,227
Defaulted Guarantee Loans
 Pre-1992
    Farm                                              -            -            -              -                 -
    Export                                          109          207            -           (264)               52
    Food Aid                                          -            -            -              -                 -
    Housing                                           -            -            -              -                 -
    Electric                                          -            -            -              -                 -
    Telecommunications                                -            -            -              -                 -
    Water and Environmental                           -            -            -              -                 -
    Business and Industry                             1            -            -              -                 1
    Economic Development                              -            -            -              -                 -
 Pre-1992 Total                                     110          207            -           (264)               53
  Post-1991
    Farm                                             137           -            -           (136)                1
    Export                                           814          20            -           (266)              568
    Food Aid                                           -           -            -              -                 -
    Housing                                          443           -            -           (416)               27
    Electric                                           -           -            -              -                 -
    Telecommunications                                 -           -            -              -                 -
    Water and Environmental                            -           -            -              -                 -
    Business and Industry                            269           4            -            (36)              237
    Economic Development                               -           -            -              -                 -
  Post-1991 Total                                  1,663          24            -           (854)              833
Total Defaulted Guarantee Loans                    1,773         231            -         (1,118)              886

Loans Exempt from Credit Reform Act:
  Commodity Loans                                   397            3            -              -               400
  Other Foreign Receivables                           -            -            -              -                 -
Total Loans Exempt                                  397            3            -              -               400

Total Direct Loan and Loan Guarantees, Net                                                          $       95,513




58     150th Anniversary | United States Department of Agriculture
                                  USDA: Managing for Results in Performing Its Many Vital Public Functions


Table 1. Direct Loan and Loan Guarantees, Net (cont’d)
FY 2011                                        Loans                                    Present       Value of Assets
Direct Loans                                 Receivable,      Interest    Foreclosed     Value          Related to
                                               Gross         Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                       $       855      $     58    $      13    $       (51)   $            875
  Export                                               -             -            -              -                   -
  Food Aid                                         3,820            11            -         (2,026)              1,805
  Housing                                          9,036            78           33         (4,284)              4,863
  Electric                                         2,178            41            -         (1,467)                752
  Telecommunications                                 420             1            -            (21)                400
  Water and Environmental                          1,000             9            -           (111)                898
  Business and Industry                                -             -            -              -                   -
  Economic Development                                27             -            -            (12)                 15
Pre-1992 Total                                    17,336           198           46         (7,972)              9,608

Obligated Post-1991
  Farm                                             7,664           194            9           (471)            7,396
  Export                                               -             -            -              -                 -
  Food Aid                                         1,387             -            -           (478)              909
  Housing                                         21,485           134           56         (2,939)           18,736
  Electric                                        40,071            28            -           (672)           39,427
  Telecommunications                               4,031             2            -             59             4,092
  Water and Environmental                         10,871           105            -           (731)           10,245
  Business and Industry                               33             -            -            (11)               22
  Economic Development                               550             2            -           (154)              398
Post-1991 Total                                   86,092           465           65         (5,397)           81,225
Total Direct Loan Program Receivables            103,428           663          111        (13,369)           90,833
Defaulted Guarantee Loans
 Pre-1992
    Farm                                              -              -            -              -                  -
    Export                                          124              1            -            (75)                50
    Food Aid                                          -              -            -              -                  -
    Housing                                           -              -            -              -                  -
    Electric                                          -              -            -              -                  -
    Telecommunications                                -              -            -              -                  -
    Water and Environmental                           -              -            -              -                  -
    Business and Industry                             1              -            -              -                  1
    Economic Development                              -              -            -              -                  -
 Pre-1992 Total                                     125              1            -            (75)                51
  Post-1991
    Farm                                             115             -            -           (113)                 2
    Export                                           870             7            -           (286)               591
    Food Aid                                           -             -            -              -                  -
    Housing                                          192             -            -           (177)                15
    Electric                                           -             -            -              -                  -
    Telecommunications                                 -             -            -              -                  -
    Water and Environmental                            -             -            -              -                  -
    Business and Industry                            255             -            -            (43)               212
    Economic Development                               -             -            -              -                  -
  Post-1991 Total                                  1,432             7            -           (619)               820
Total Defaulted Guarantee Loans                    1,557             8            -           (694)               871

Loans Exempt from Credit Reform Act:
  Commodity Loans                                   337              1            -              -                338
  Other Foreign Receivables                           -              -            -              -                  -
Total Loans Exempt                                  337              1            -              -                338

Total Direct Loan and Loan Guarantees, Net                                                            $       92,042




                                                           Fiscal Year 2012 Agency Financial Report         59
SECTION 2: Financial Information

Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances
(Post-1991) Direct Loans

                                                                                   FY 2012        FY 2011

Beginning balance of the subsidy cost allowance                                $    6,017     $    5,576
Add: Subsidy expense for direct loans disbursed during the year by component
  Interest rate differential costs                                                    142             93
  Default costs (net of recoveries)                                                   196            208
  Fees and other collections                                                          (18)            (8)
  Other subsidy costs                                                                 (36)            58
Total subsidy expense prior to adjustments and reestimates                            284            351

Adjustments
  Loan modifications                                                                    25            11
  Fees received                                                                         48            54
  Loans written off                                                                 (1,136)         (464)
  Subsidy allowance amortization                                                      (112)         (141)
  Other                                                                              1,064           453
Total subsidy cost allowance before reestimates                                      6,190         5,840

Add or subtract subsidy reestimates by component
  Interest rate reestimate                                                             51           (412)
  Technical/default reestimate                                                       (123)           589
Total reestimates                                                                     (72)           177
Ending balance of the subsidy cost allowance                                   $    6,118     $    6,017




60     150th Anniversary | United States Department of Agriculture
                                                                                     USDA: Managing for Results in Performing Its Many Vital Public Functions


Table 3. Subsidy Expense for Direct Loans by Program and Component

FY 2012
                                     Interest                 Fees and Other            Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                    Differential   Defaults     Collections    Other    Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
Direct Loan Programs
 Farm                               $       18     $  89      $          (1)   $ (17)    $  89      $         -    $       (91)    $       43    $      (48)   $         41
 Export                                      -         -                  -        -         -               21              -             10            10              31
 Food Aid                                    -         -                  -        -         -                -              -              -             -               -
 Housing                                    43        54                  -       14       111                4             58            114           172             287
 Electric                                  (56)       21                (17)     (19)      (71)               -            147            (45)          102              31
 Telecommunications                         (1)       26                  -       (7)       18                -            (20)            11            (9)              9
 Water and Environmental                   127         6                  -       (7)      126                -           (142)          (115)         (257)           (131)
 Business and Industry                       1         -                  -        -         1                -            (18)           (20)          (38)            (37)
 Economic Development                       10         -                  -        -        10                -            117           (121)           (4)              6
Total Direct Loan Subsidy Expense   $      142     $ 196      $         (18)   $ (36)    $ 284     $         25    $        51     $     (123)   $      (72)   $        237




FY 2011
                                     Interest                 Fees and Other            Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                    Differential   Defaults     Collections    Other    Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
Direct Loan Programs
 Farm                               $        3     $ 106      $          (1)   $ (10)    $  98      $         -    $       (60)    $      126    $       66    $        164
 Export                                      -         -                  -        -         -                -              8              5            13              13
 Food Aid                                    -         -                  -        -         -                -              -              -             -               -
 Housing                                     5        58                 (1)      93       155               11            135            192           327             493
 Electric                                  (60)       19                 (6)     (16)      (63)               -           (268)           160          (108)           (171)
 Telecommunications                         (3)       18                  -       (4)       11                -            (22)            13            (9)              2
 Water and Environmental                   136         7                  -       (5)      138                -            (81)           (30)         (111)             27
 Business and Industry                       1         -                  -        -         1                -              4              4             8               9
 Economic Development                       11         -                  -        -        11                -           (128)           119            (9)              2
Total Direct Loan Subsidy Expense   $       93     $ 208      $          (8)   $ 58      $ 351     $         11    $      (412)    $      589    $      177    $        539
                                                                                 .




                                                                                                            Fiscal Year 2012 Agency Financial Report                 61
SECTION 2: Financial Information

Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

                                                                    FY 2012    FY 2011
                         Direct Loan Programs
                           Farm                                     $ 1,921    $ 1,929
                           Export                                          -          -
                           Food Aid                                        -          -
                           Housing                                     1,914      2,138
                           Electric                                    5,144      4,967
                           Telecommunications                            780        749
                           Water and Environmental                     1,264      1,311
                           Business and Industry                           7          8
                           Economic Development                           41         45
                         Total Direct Loans Disbursed               $ 11,071   $ 11,147




62    150th Anniversary | United States Department of Agriculture
                                                             USDA: Managing for Results in Performing Its Many Vital Public Functions


Table 5. Guaranteed Loans Outstanding

                                     Pre - 1992   Post - 1991       Total        Pre - 1992     Post - 1991      Total
                                    Outstanding   Outstanding    Outstanding    Outstanding     Outstanding   Outstanding
          FY 2012
                                     Principal,    Principal,     Principal,     Principal,      Principal,    Principal,
                                    Face Value    Face Value     Face Value     Guaranteed      Guaranteed    Guaranteed
       Loan Guarantee Programs
         Farm                       $       13    $    12,903    $    12,916    $         12    $   11,613    $   11,625
         Export                               -         6,195          6,195                -        6,071         6,071
         Food Aid                             -              -              -               -             -             -
         Housing                             2         76,995         76,997               2        69,284        69,286
         Electric                           96            193            289              96           193           289
         Telecommunications                   -              -              -               -             -             -
         Water and Environmental              -            85             85                -           74            74
         Business and Industry               5          7,100          7,105               3         5,319         5,322
         Economic Development                 -              -              -               -             -             -
       Total Guarantees Disbursed   $      116    $   103,471    $   103,587    $        113    $   92,554    $   92,667


                                     Pre - 1992   Post - 1991       Total        Pre - 1992     Post - 1991      Total
                                    Outstanding   Outstanding    Outstanding    Outstanding     Outstanding   Outstanding
          FY 2011
                                     Principal,    Principal,     Principal,     Principal,      Principal,    Principal,
                                    Face Value    Face Value     Face Value     Guaranteed      Guaranteed    Guaranteed
       Loan Guarantee Programs
         Farm                       $       17    $   12,484     $   12,501     $         15    $   11,230    $   11,245
         Export                               -        6,115          6,115                 -        5,992         5,992
         Food Aid                             -             -              -                -             -             -
         Housing                             3        63,275         63,278                3        56,923        56,926
         Electric                          132           199            331              132           199           331
         Telecommunications                   -             -              -                -             -             -
         Water and Environmental             7            62             69                6            54            60
         Business and Industry               2         7,021          7,023                1         5,303         5,304
         Economic Development                 -             -              -                -             -             -
       Total Guarantees Disbursed   $      161    $   89,156     $   89,317     $        157    $   79,701    $   79,858




                                                                                    Fiscal Year 2012 Agency Financial Report      63
SECTION 2: Financial Information

Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992
Guarantees)

                                            Liabilities for   Liabilities for Loan
                                             Losses on          Guarantees on
         FY 2012
                                              Pre-1992            Post-1991
                                            Guarantees           Guarantees          Total Liabilities for
                                           Present Value        Present Value        Loan Guarantees
     Loan Guarantee Programs
       Farm                                $             -    $              183      $             183
       Export                                            -                   174                    174
       Food Aid                                          -                     -                      -
       Housing                                           -                 3,201                  3,201
       Electric                                          -                     -                      -
       Telecommunications                                -                     -                      -
       Water and Environmental                           -                     -                      -
       Business and Industry                             -                   913                    913
       Economic Development                              -                     -                      -
     Total Liability for Loan Guarantees   $             -     $           4,471      $           4,471



                                            Liabilities for   Liabilities for Loan
                                             Losses on          Guarantees on
         FY 2011
                                              Pre-1992            Post-1991
                                            Guarantees           Guarantees          Total Liabilities for
                                           Present Value        Present Value        Loan Guarantees
     Loan Guarantee Programs
       Farm                                $             -    $              209      $             209
       Export                                            -                   115                    115
       Food Aid                                          -                     -                      -
       Housing                                           -                 2,452                  2,452
       Electric                                          -                     -                      -
       Telecommunications                                -                     -                      -
       Water and Environmental                           -                     -                      -
       Business and Industry                             1                   844                    845
       Economic Development                              -                     -                      -
     Total Liability for Loan Guarantees   $             1     $           3,620      $           3,621




64     150th Anniversary | United States Department of Agriculture
                                 USDA: Managing for Results in Performing Its Many Vital Public Functions


Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                      FY 2012         FY 2011
Beginning balance of the loan guarantee liability                                    $   3,620       $   2,857
Add:Subsidy expense for guaranteed loans disbursed during the year by component
  Interest supplement costs                                                                  (9)                  4
  Default costs (net of recoveries)                                                          95                 665
  Fees and other collections                                                                (75)               (531)
  Other subsidy costs                                                                         1                   3
Total of the above subsidy expense components                                                12                 141

Adjustments
 Loan guarantee modifications                                                                -                   (8)
 Fees received                                                                             515                  608
 Interest supplements paid                                                                 (26)                 (29)
 Claim payments to lenders                                                                (129)                (275)
 Interest accumulation on the liability balance                                             85                   66
 Other                                                                                    (520)                (328)
Ending balance of the subsidy cost allowance before reestimates                          3,557                3,032

Add or subtract subsidy reestimates by component:
  Interest rate reestimate                                                                 181                  110
  Technical/default reestimate                                                             733                  478
Total of the above reestimate components                                                   914                  588
Ending balance of the loan guarantee liability                                       $   4,471       $        3,620




                                                      Fiscal Year 2012 Agency Financial Report           65
SECTION 2: Financial Information

Table 8. Subsidy Expense for Loan Guarantees by Program and Component


 FY 2012
                                                                                                                                                 Total
                                          Interest          Fees and Other                    Total      Interest Rate Technical    Total      Subsidy
 Loan Guarantee Programs                Supplement Defaults   Collections   Other Subtotal Modifications Reestimates Reestimates Reestimates   Expense
   Farm                                  $        - $ 25     $         (11)  $ -   $ 14     $         -     $       5  $     (26) $     (21)    $    (7)
   Export                                         -      -               -     -       -              -            (4)        35         31          31
   Food Aid                                       -      -               -     -        -             -             -          -          -            -
   Housing                                      (9)    40              (60)    -     (29)             -          169        607        776          747
   Electric                                       -      -               -     -        -             -             -          -          -            -
   Telecommunications                             -      -               -     -        -             -             -          -          -            -
   Water and Environmental                        -      -               -     -        -             -             -          -          -            -
   Business and Industry                          -    30               (4)    1      27              -           11        117        128          155
   Economic Development                           -      -               -     -        -             -             -          -          -            -
 Total Loan Guarantee Subsidy Expense    $      (9) $ 95     $         (75) $1     $ 12     $         -    $     181   $    733   $    914     $ 926

 FY 2011
                                                                                                                                                 Total
                                          Interest          Fees and Other                    Total      Interest Rate Technical    Total      Subsidy
 Loan Guarantee Programs                Supplement Defaults   Collections   Other Subtotal Modifications Reestimates Reestimates Reestimates   Expense
   Farm                                  $       7  $ 63     $         (27)  $ -   $ 43     $         -     $      (9) $     (70) $     (79)   $    (36)
   Export                                         -     (1)              1     -        -             -           14          48         62          62
   Food Aid                                       -      -               -     -        -             -             -          -          -            -
   Housing                                      (3)   448            (463)     -      (18)           (8)          62        308        370          344
   Electric                                       -      -               -     -        -             -             -          -          -            -
   Telecommunications                             -      -               -     -        -             -             -          -          -            -
   Water and Environmental                        -      -               -     -        -             -             -          -          -            -
   Business and Industry                          -   155              (42)    3     116              -           43        192        235          351
   Economic Development                           -      -               -     -        -             -             -          -          -            -
 Total Loan Guarantee Subsidy Expense    $       4  $ 665    $       (531)  $3     $ 141    $       (8)    $     110   $    478   $    588     $ 721




66      150th Anniversary | United States Department of Agriculture
                                    USDA: Managing for Results in Performing Its Many Vital Public Functions

Table 9. Guaranteed Loans Disbursed

                                                       FY 2012                         FY 2011
                                             Principal,       Principal,       Principal,    Principal,
                                            Face Value       Guaranteed       Face Value    Guaranteed
                                             Disbursed        Disbursed        Disbursed     Disbursed
Loan Guarantee Programs
    Farm                                    $     2,649         $    2,384       $    3,060   $    2,753
    Export                                        4,399              4,306            3,497        3,427
    Food Aid                                          -                  -                -            -
    Housing                                      19,042             17,133           15,283       13,750
    Electric                                          -                  -                -            -
    Telecommunications                                -                  -                -            -
    Water and Environmental                          26                 23                4            3
    Business and Industry                         1,054                820            1,820        1,439
    Economic Development                              -                  -                -            -
Total Guaranteed Loans Disbursed            $    27,170         $   24,666    $      23,664   $   21,372




Table 10. Administrative Expenses
                                                              FY 2012          FY 2011
              Direct Loan Programs                          $       489      $       535
              Guaranteed Loan Programs                              417              432
            Total Administrative Expenses                   $       906      $       967




                                                          Fiscal Year 2012 Agency Financial Report         67
SECTION 2: Financial Information

Table 11. Subsidy Rates for Direct Loans (percentage)

                                                                                Fees and
       FY 2012                                        Interest                   Other
                                                     Differential   Defaults   Collections    Other    Total
     Direct Loan Programs
       Farm Ownership                                      2.14        4.92            -      (2.26)     4.80
       Farm Operating                                      0.97        5.09            -      (0.44)     5.62
       Emergency Disaster                                 (3.62)       8.84            -      (0.21)     5.01
       Indian Tribe Land Acquisition                     (13.89)        -              -        -      (13.89)
       Boll Weevil Eradication                            (1.81)       0.02            -      (0.37)    (2.16)
       Indian Highly Fractionated Land                    (8.78)      11.42            -      (0.71)     1.93
       Farm Storage Facility Loan Program                 (1.97)       0.02          (0.27)   (0.08)    (2.30)
       Sugar Storage Facility Loan Program                (0.20)       0.02            -      (0.16)    (0.34)
       Multi-Family Housing Relending Demo                36.84         -              -        -       36.84
       Multi-Family Housing Revitalization Seconds        61.66        0.11            -      (0.03)    61.74
       Multi-Family Housing Revitalization Zero           54.28        0.10            -      (0.09)    54.29
       Community Facility Loans                           (4.13)       2.13            -      (1.04)    (3.04)
       Section 502 Single-Family Housing                   1.69        3.89            -      (0.85)     4.73
       Section 515 Multi-Family Housing                   35.29        0.17            -      (1.34)    34.12
       Section 504 Housing Repair                         19.79       (0.06)           -      (5.53)    14.20
       Section 514 Farm Labor Housing                     34.80        0.11            -      (0.76)    34.15
       Section 523 Self-Help Housing                      (1.01)        -              -        -       (1.01)
       Single-Family Housing Credit Sales                (22.70)       3.47            -       2.37    (16.86)
       Intermediary Relending Program                     34.60        0.21            -      (0.93)    33.88
       Rural Economic Development Loans                   13.03        0.01            -      (0.05)    12.99
       Water and Waste Disposal Loans                     11.60        0.10            -      (2.12)     9.58
       Electric Hardship Loans                           (15.52)       0.03            -       1.10    (14.39)
       FFB Electric Loans                                 (2.01)       0.09            -      (2.08)    (4.00)
       Telecommunication Hardship Loans                  (14.23)       0.04            -       0.41    (13.78)
       Treasury Telecommunication Loans                     -          0.37            -      (1.55)    (1.18)
       FFB Telecommunications Loans                        3.08        0.15            -      (6.87)    (3.64)
       FFB Guaranteed Underwriting                        (3.38)       1.40          (4.35)     -       (6.33)
       Broadband Treasury Loans                             -          4.48            -      (0.94)     3.54




68       150th Anniversary | United States Department of Agriculture
                                         USDA: Managing for Results in Performing Its Many Vital Public Functions

Table 12. Subsidy Rates for Loan Guarantees (percentage)

                                                                                  Fees and
 FY 2012                                             Interest                      Other
                                                    Differential      Defaults   Collections    Other   Total
Guaranteed Loan Programs
 Farm Ownership—Unsubsidized                                -            1.31          (1.32)     -     (0.01)
 Farm Operating—Unsubsidized                                -            3.09          (1.35)     -      1.74
 Conservation—Guaranteed                                    -            1.31          (1.32)     -     (0.01)
 GSM 102                                                    -            0.06          (0.74)     -     (0.68)
 Export Guarantee Program—Facilities                        -            0.15          (4.78)     -     (4.63)
 Community Facility Loan Guarantees                         -            5.61          (0.87)     -      4.74
 Guaranteed 538 Multi-Family Housing                        -            6.97          (7.03)     -     (0.06)
 Guaranteed 502 Single-Family Housing                       -            3.68          (3.71)     -     (0.03)
 Business and Industry Loan Guarantees                      -            8.74          (3.16)     -      5.58
 Renewable Energy Loan Guarantees                           -           27.31          (1.11)     -     26.20
 Section 9003 Loan Guarantees                               -           28.31          (2.80)    1.29   26.80
 Water and Waste Disposal Loans                             -            2.43          (0.85)     -      1.58




                                                    =              Fiscal Year 2012 Agency Financial Report      69
SECTION 2: Financial Information

Note 8. Inventory and Related Property, Net
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing emergency food assistance in
developing countries and providing price support and stabilization.

                                                               FY 2012                                                                                                                                                     FY 2012
                                                        Beginning Inventory             Acquisitions                      Sales                              Donations                        Other                  Ending Inventory
Commodities:                       Unit of Measure     Quantity        Value       Quantity        Value       Quantity                Value           Quantity       Value        Quantity           Value        Quantity        Value
Corn Meal                         Pounds                         - $          -           103 $           23               -       $           -             (103) $        (23)              -   $           -              - $          -
Blended Foods                     Pounds                       16             5           177             57               -                   -             (190)          (61)              -               -             2             1
Dry Edible Beans                   Cwt.                          -            3             -             13               -                   -                 -          (16)              -               -              -            -
Dry Whole Peas                     Cwt.                          -            9             2             64               -                   -                (2)         (73)              -               -              -            -
Emergency Food Ration Bars         Pounds                        2            4             3              6               -                   -                (4)          (7)              -               -             1             3
Grain Sorghum                      Bushels                       1            5            14            105               -                   -              (14)         (110)              -               -              -            -
Lentils Dry                        Cwt.                          -            -             1             20               -                   -                (1)         (20)              -               -              -            -
Nonfat Dry Milk                    Pounds                        -            -             -              -               -                   -                (1)          (1)              1               1              -            -
Rice Products                      Cwt., Pounds                  -            -             3             81               -                   -                (3)         (79)              -               -              -            2
Meat                               Pounds                        -            -             -              -               -                   -                 -            -               -               -              -            -
Vegetable Oil                      Pounds                       33           24           210            150               -                   -             (232)         (166)              -               -            12             8
Wheat Products                    Bushels, Pounds                -            -           225            263               -                   -             (225)         (263)              -               -              -            -
Other                             Various                        -            -            94             31               -                   -              (95)          (32)              1               1              -            -
Total Commodities                                       XXXX       $         50     XXXX       $         813    XXXX               $           -        XXXX        $      (851)    XXXX          $           2     XXXX       $         14
Allowance for losses                                                                                                                                                                                                                      -
Barter Delivery Obligations (BDO)                                                                                                                                                                                                         -
Total Inventory and Related Property, Net                                                                                                                                                                                      $         14




                                                                FY 2011                                                                                                                                                    FY 2011
                                                         Beginning Inventory            Acquisitions                       Sales                             Donations                        Other                  Ending Inventory
Commodities:                         Unit of Measure    Quantity        Value       Quantity       Value        Quantity               Value           Quantity       Value        Quantity           Value        Quantity        Value
Corn Meal                           Pounds                       2 $           -           142 $          26                   -   $               -         (144) $        (26)              -   $            -             - $          -
Blended Foods                       Pounds                      16             4           100            12                   -                   -         (100)          (11)              1                -           16             5
Dry Edible Beans                    Cwt.                          -            2              -            7                   -                   -             -           (6)              -                -             -            3
Dry Whole Peas                      Cwt.                          -            -              3           47                   -                   -            (3)         (38)              -                -             -            9
Emergency Food Ration Bars          Pounds                        -            -              -            -                   -                   -             2            4               -                -            2             4
Grain Sorghum                       Bushels                       -            -            10            45                   -                   -            (9)         (40)              -                -            1             5
Lentils Dry                         Cwt.                          -            -              -            4                   -                   -             -           (4)              -                -             -            -
Nonfat Dry Milk                     Pounds                       7             6              -            -                   -                   -            (6)          (9)              -                3             -            -
Rice Products                       Cwt., Pounds                  -            5              2           45                   -                   -            (2)         (51)              -                1             -            -
Meat                                Pounds                        -            -             34           78                   -                   -          (34)          (78)              -                -             -            -
Vegetable Oil                       Pounds                       5             3           333           150                   -                   -         (309)         (132)              4                3           33            24
Wheat Products                      Bushels, Pounds             12             2           288           167                   -                   -         (312)         (172)             13                3             -            -
Other                               Various                       -            -           231           162                   -                   -       (1,210)         (179)            979               17             -            -
Total Commodities                                        XXXX       $         22     XXXX       $        743     XXXX              $               -    XXXX        $      (742)     XXXX         $           27    XXXX       $         50
Allowance for losses                                                                                                                                                                                                                     (2)
Barter Delivery Obligations (BDO)                                                                                                                                                                                                         3
Total Inventory and Related Property, Net                                                                                                                                                                                      $         51




70         150th Anniversary | United States Department of Agriculture
                                          USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 9. General Property, Plant, and Equipment, Net
During FY 2012, ARS transferred $696 million from construction-in-progress to buildings and
other structures.
FY 2012                                               Useful                                              Net
                                                       Life                         Accumulated          Book
   Category                                          (Years)           Cost         Depreciation         Value

Land and Land Rights                                               $         77     $          -     $         77
Improvements to Land                                 10 - 50                751             (668)              83
Construction-in-Progress                                                    330                -              330
Buildings, Improvements and Renovations              15 - 30              2,796           (1,548)           1,248
Other Structures and Facilities                      15 - 50              1,816           (1,472)             344
Equipment                                             5 - 20              1,617           (1,219)             398
Assets Under Capital Lease                            3 - 20                 64              (44)              20
Leasehold Improvements                                 10                    75              (57)              18
Internal-Use Software                                 5-8                   650             (501)             149
Internal-Use Software in Development                                        370                -              370
    Total                                                          $      8,546     $     (5,509)    $      3,037

FY 2011                                               Useful                                              Net
                                                       Life                         Accumulated          Book
   Category                                          (Years)           Cost         Depreciation         Value

Land and Land Rights                                               $         77     $          -     $         77
Improvements to Land                                 10 - 50                738             (650)              88
Construction-in-Progress                                                  1,045                -            1,045
Buildings, Improvements and Renovations              15 - 30              2,039           (1,377)             662
Other Structures and Facilities                      15 - 50              1,789           (1,436)             353
Equipment                                             5 - 20              1,630           (1,248)             382
Assets Under Capital Lease                            3 - 20                 69              (45)              24
Leasehold Improvements                                 10                    69              (48)              21
Internal-Use Software                                 5-8                   618             (436)             182
Internal-Use Software in Development                                        216                -              216
    Total                                                          $      8,290     $     (5,240)    $      3,050




Note 10. Stewardship PP&E
Stewardship PP&E consist of assets whose physical properties resemble those of General PP&E that
are traditionally capitalized in the financial statements. Due to the nature of these assets however,
valuation would be difficult and matching costs with specific periods would not be meaningful.
Stewardship PP&E include heritage assets and stewardship land.

Heritage Assets
Heritage assets are unique and are generally expected to be preserved indefinitely. Heritage assets may
be unique because they have historical or natural significance, are of cultural, educational or artistic
importance, or have significant architectural characteristics. The assets are reported in terms of
physical units rather than cost, fair value, or other monetary values. No amounts are shown on the
balance sheet for heritage assets, except for multi-use heritage assets in which the predominant use of
the asset is in general government operations. The costs of acquisition, betterment, or reconstruction of
multi-use heritage assets is capitalized as general PP&E and depreciated. The costs of acquiring,
constructing, improving, reconstructing, or renovating heritage assets, other than multi-use is
considered an expense in the period incurred when determining the net cost of operations. Heritage


                                                     =         Fiscal Year 2012 Agency Financial Report          71
SECTION 2: Financial Information

assets consist of collection type, such as objects gathered and maintained for exhibition, for example
library collections; and non-collection-type, such as memorials, monuments and buildings.

National Forests, National Grasslands and Other Sites—FS manages its heritage assets by site.
Sites include National Forests, National Grasslands, other Forest Service-managed sites, and non
Forest Service- managed sites such as museums and university laboratories. The mission of the FS is to
sustain the health, diversity, and productivity of the Nation’s forests and grasslands to meet the needs
of present and future generations. The FS strives to achieve quality land management under the
sustainable multiple-use management concept to deliver the necessary products and services that are
essential for enhancing natural resource stewardship and to meet the diverse needs of people.

Heritage Asset categories can include the following:

Priority Heritage Assets (PHA): Heritage assets of distinct public value that are, or should be, actively
maintained, and meet one or more of the following criteria:

        The property is recognized through an official designation; such as a listing on the National
         Register of Historic Places, State register, etc.
        The property is recognized through prior investment in preservation, interpretation, and use. Any
         improvement to a PHA that meets real property designation criteria is considered real property.
        The property is recognized in an agency-approved management plan.
        The property exhibits critical deferred maintenance needs, and those needs have been documented.

Other Heritage Assets: Assets that may have potential important historical or cultural significance, but
lack formal listing and the demonstrated need for active maintenance.

Assemblage Assets: Any grouping of artifacts or archival materials aggregated through donation,
agency events, site-specific or other field collection, other acquisition method, or combination therein.

Research Centers—ARS conducts research at centers nationwide to develop and transfer solutions to
agricultural problems of high national priority and provides information access and dissemination to
ensure high-quality, safe food and other agricultural products; assess the nutritional needs of
Americans; sustain a competitive agricultural economy; enhance the natural resource base and the
environment; and provide economic opportunities for rural citizens, communities, and society as a
whole. NRCS currently owns one heritage asset, the Tucson Plant Materials Center (TPMC) which is
included in general PP&E as a multi-use asset. It was listed in the National Register of Historic Places
(NRHP) on July 2, 1997. The TPMC develops and evaluates native plants and addresses an array of
resource issues in the areas of rangeland, mined land, urban lands, cropland riparian areas, and desert
lands. The TPMC provides technical assistance to NRCS field offices, Resource Conservation and
Development (RC&D) groups, conservation districts, Federal, State, and Tribal agencies, and private
landowners through the greater Southwest. Research centers are considered heritage assets because one
or more buildings or structures at these centers is on the National Register of Historic Places or have
been identified as eligible for inclusion on the National Register.

Library Collections—The National Agricultural Library (NAL) as a whole is the largest collection of
materials devoted to agriculture in the world. The collections are in constant use to support the
research activities of USDA, departmental operations and to answer citizen inquiries. NAL houses and


72       150th Anniversary | United States Department of Agriculture
                                       USDA: Managing for Results in Performing Its Many Vital Public Functions

provides access to millions of books and periodicals. The overwhelming number of these items were
published more than 25 years ago and almost all of them are out-of-print and unavailable for purchase.
By statute, NAL is the primary depository of publications and information concerning the research and
other activities of USDA. Included in the collection are government documents and many items that
are unique and irreplaceable. NAL collects, preserves and provides access to manuscripts, rare books,
photographs, posters, oral histories and other unique materials. Collection concentrations include the
fields of agriculture, horticulture, entomology, poultry sciences, botany, natural history and agricultural
history. Although focused primarily on American agriculture and related sciences, NAL holds
numerous items of international origin.

Acquisition and Withdrawal of Heritage Assets— The FS generally does not construct heritage
assets, although in some circumstances important site-structural components may be rehabilitated or
reconstructed into viable historic properties to provide forest visitors with use and interpretation.
Heritage assets may be acquired through the procurement process, but this rarely occurs. Normally,
heritage assets are part of the land acquisition and inventory process. Withdrawal occurs through land
exchange or natural disasters. Most additions occur through inventory activities where previously
undocumented sites are discovered and added to the total.

Stewardship Land
Stewardship land is land and land rights not acquired for or in connection with items of general PP&E.
Land is defined as the solid surface of the earth, excluding natural resources. Stewardship land is
valued for its environmental resources, recreational and scenic value, cultural and paleontological
resources, vast open spaces, and resource commodities and revenue provided to the Federal
government, states, and counties. These assets are reported in terms of physical units rather than cost,
fair value, or other monetary values. No asset amount is shown on the balance sheet for stewardship
land. The acquisition cost of stewardship land is considered an expense in the period acquired when
determining the net cost of operations. Stewardship land consists primarily of the national forests and
grasslands owned by the FS and conservation easements purchased by NRCS.

National Forests—National forests are formally established and permanently set aside and reserved
for national forest purposes, including National Wilderness, National Primitive, National Wild and
Scenic River, National Recreation, National Scenic Research, National Game Refuges and Wildlife
Preserve, and National Monument areas.

National Grasslands—National grasslands are designated by the Secretary of Agriculture and
permanently held by the USDA under Title III of the Bankhead-Jones Farm Tenant Act.

Research and Experimental Areas—Research and experimental areas are reserved and dedicated by
the Secretary of Agriculture for forest and range research experimentation. Areas reported are located
outside the exterior boundaries of a national forest or national grassland.

National Preserves and Other Areas—National preserves are units established to protect and
preserve scientific, scenic, geologic, watershed, fish, wildlife, historic, cultural and recreational values;
and provide for multiple use and sustained yield of its renewable resources. Other areas include areas
administered by the FS that are not included in one of the above groups.

Conservation Easements— NRCS’s mission objectives in administering the conservation easement
programs are to provide landowners with financial and technical assistance in return for maintaining


                                                   =       Fiscal Year 2012 Agency Financial Report         73
SECTION 2: Financial Information

and improving high quality productive soils, clean and abundant water, healthy plant and animal
communities, clean air, an adequate energy supply, and working farm and ranch land.

NRCS’s objectives in managing, monitoring and enforcing the terms and conditions of easement deeds
are to ensure that: (1) taxpayer investments are properly used in accordance with the intent of the
program; (2) the agency is a good steward of the land; and (3) the land is properly maintained. The
specific uses for the land are identified under each program. Landowners are not allowed to withdraw
from the program; however termination or expiration may occur.

Stewardship resources involve substantial investment in order to gain long-term benefits for the
American public and help the Agency satisfy its mission. The purpose of purchasing easements is to
restore or enhance wetlands, protect farmland, restore and protect grassland, restore and protect forest
ecosystems, and restore, protect, maintain, and enhance the functions of floodplains.

NRCS, on behalf of USDA, administers and owns conservation easements on private lands through
five different programs. For the purpose of stewardship asset reporting, all easements where NRCS is
the grantee of the easement are included as stewardship land. Also included are easements that are
administered by NRCS on behalf of other USDA agencies.

Acquisition and Withdrawal of Stewardship Lands— The Land and Water Conservation Fund
(L&WCF) Land Acquisition Program acquires land for the FS NFS. The program coordinates with a
variety of partners, including State, local, and Tribal governments, and private landowners through
statewide planning for development of a land-adjustment strategy.

The Land Acquisition Program preserves, develops, and maintains access to NFS lands and waters for
the public and provides permanent access to public lands for recreation, commodity production,
resource management, public safety, and community economic viability.

The L&WCF statutory authority specifically defines the purpose to also include protecting the quality
of scientific, scenic, historical, ecological, environmental, air and atmospheric, water resource,
archeological values, as well as food and habitat for fish and wildlife, and managing the public lands
for minerals, food, timber and fiber.

From these several allowable uses of program funding, the program concentrates on protecting habitat
for priority species identified in the national forest and grassland’s Land Management Plans and
enhancing recreational opportunities for areas with high demand for recreation. The program focuses
acquisitions on inholdings and areas adjacent to existing NFS lands.




74     150th Anniversary | United States Department of Agriculture
                                         USDA: Managing for Results in Performing Its Many Vital Public Functions



                                             FY 2012              Additions            Withdrawals       FY 2011
  Heritage Assets
    National Forests                                154                        -                (1)            155
    National Grasslands                              20                        -                 -              20
    Other Sites                                     168                       19               (18)            167
    Research Centers                                 36                        -                 -              36
    Library Collections                               1                        -                 -               1
  Total                                             379                       19               (19)            379

  Stewardship Land
    National Forests                                 154                    -                    (1)           155
    National Grasslands                               20                    -                     -             20
    Research and Experimental Areas                    3                    -                     -              3
    National Preserves and Other Areas                 3                    -                     -              3
    Conservation Easements                        14,736                  759                     -         13,977
  Total                                           14,916                  759                    (1)        14,158




                                             FY 2011              Additions            Withdrawals       FY 2010
  Heritage Assets
    National Forests                                155                        -                  -            155
    National Grasslands                              20                        -                  -             20
    Other Sites                                     167                       18                 (6)           155
    Research Centers                                 36                        -                  -             36
    Library Collections                               1                        -                  -              1
  Total                                             379                       18                 (6)           367

  Stewardship Land
    National Forests                                 155                     -                    -            155
    National Grasslands                               20                     -                    -             20
    Research and Experimental Areas                    3                     -                    -              3
    National Preserves and Other Areas                 3                     -                    -              3
    Conservation Easements                        13,977                 2,892                    -         11,085
  Total                                           14,158                 2,892                    -         11,266




Note 11. Other Assets
In FY 2012 and FY 2011, other assets include investments in trust for loan asset sales of $35 million.

                                                               FY 2012                 FY 2011
                     Intragovernmental:
                       Advances to Others                  $              -        $                 2
                     Subtotal Intragovernmental                           -                          2

                     With the Public:
                       Advances to Others                            160                       206
                       Other Assets                                   37                        37
                     Total Other Assets                    $         197           $           245




                                                       =          Fiscal Year 2012 Agency Financial Report           75
SECTION 2: Financial Information

Note 12. Liabilities Not Covered By Budgetary Resources
In FY 2012 and FY 2011, other intragovernmental liabilities not covered by budgetary resources
include accruals for Federal Employee Compensation Act (FECA) of $167 million and $167 million,
contract disputes claims payable to Treasury’s Judgment Fund of $23 million and $20 million,
unemployment compensation of $25 million and $24 million, and custodial of $3 million and $5
million, respectively. In FY 2011, deposit funds and clearing accounts was $41 million.
In FY 2012 and FY 2011, other liabilities with the public not covered by budgetary resources include,
Tobacco Transition Payment Program of $1,906 million and $2,857 million, future funded indemnity
costs of $18,193 million and $9,284 million, unfunded leave of $615 million and $640 million,
Payments to States $346 million and $357 million, contingent liabilities of $74 million and $1,162
million, and estimated program delivery costs to reinsurer of $92 million and $54 million, respectively.
In FY 2012, Black Farmer Discrimination Lawsuit, also known as Pigford II was $50 million, and
unapplied collections were $16 million. In FY 2011, underwriting gain on crop insurance was $1,007
million and deposit funds and clearing accounts was $16 million.

                                                                         FY 2012           FY 2011
      Intragovernmental:
        Other                                                        $         218     $         257
      Subtotal Intragovernmental                                               218               257
      With the Public:
        Accounts Payable                                                           -                 2
        Federal employee and veterans' benefits                                944               904
        Environmental and disposal liabilities                                     8                 8
       Other                                                                21,291            15,376
      Subtotal With the Public                                              22,243            16,290

      Total liabilities not covered by budgetary resources                  22,461            16,547

      Total liabilities covered by budgetary resources                     130,673           119,705

      Total Liabilities                                              $     153,134     $     136,252




76     150th Anniversary | United States Department of Agriculture
                                           USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 13. Debt
                                                              Beginning                            Ending
        FY 2012
                                                               Balance        Net Borrowing        Balance
        Intragovernmental
           Debt to the Treasury                           $       55,357      $        431     $      55,788
           Debt to the Federal Financing Bank                     34,226             3,866            38,092
        Total Intragovernmental                                   89,583             4,297            93,880

        Agency Debt:
          Held by the Public                                              -               -                  -

        Total Debt                                        $       89,583      $      4,297     $      93,880

                                                              Beginning                            Ending
        FY 2011
                                                               Balance        Net Borrowing        Balance
        Intragovernmental
           Debt to the Treasury                           $       56,599      $      (1,242)   $      55,357
           Debt to the Federal Financing Bank                     31,316              2,910           34,226
        Total Intragovernmental                                   87,915              1,668           89,583

        Agency Debt:
          Held by the Public                                              -               -                  -

        Total Debt                                        $       87,915      $      1,668     $      89,583




Note 14. Environmental and Disposal Liabilities
The Department is subject to the Comprehensive Environmental Response, Compensation, and
Liability Act, the Clean Water Act, and the Resource Conservation and Recovery Act for cleanup of
hazardous waste. In FY 2012, CCC and FS estimate the liability for total cleanup costs for sites known
to contain hazardous waste to be $8 million and $2 million, respectively, based on actual cleanup costs
at similar sites. In FY 2011, the liability was $8 million and $1 million, respectively. These estimates
will change as new sites are discovered, remedy standards change and new technology is introduced.

Note 15. Other Liabilities
In FY 2012, other liabilities with the public include estimated losses on crop insurance claims of
$17,068 million, estimated underwriting gains on crop insurance of $1,666 million, crop insurance
premium subsidy deficiency reserve of $1,126 million, Pigford II of $1,200 million, Payments to
States of $346 million, estimated program delivery cost to reinsurer of $92 million, credit reform
programs of $18 million, unapplied collections of $16 million, loans paid in advance for multi-family
housing of $12 million, and purchaser road credits of $1 million.

In FY 2011, other liabilities with the public include estimated losses on crop insurance claims of
$8,034 million, estimated underwriting gains on crop insurance of $1,007 million, crop insurance
premium subsidy deficiency reserve of $1,250 million, Payments to States of $357 million, Brazilian
Cotton Industry of $146 million, estimated program delivery cost to reinsurer of $54 million, credit
reform programs of $14 million, loans paid in advance for multi-family housing of $11 million, and
purchaser road credits of $1 million.




                                                      =             Fiscal Year 2012 Agency Financial Report     77
SECTION 2: Financial Information


        FY 2012                                                    Non-Current       Current         Total
        Intragovernmental:
           Other Accrued Liabilities                           $           21    $       72    $       93
          Employer Contributions and Payroll Taxes                          -           108           108
          Unfunded FECA Liability                                           -           167           167
          Other Unfunded Employment Related Liability                       -            25            25
          Advances from Others                                              -            87            87
          Liability for Deposit Funds, Clearing Accounts                    -           (14)          (14)
          Liability for Subsidy Related to Undisbursed Loans                -            64            64
          Resources Payable to Treasury                                     -        11,845        11,845
          Custodial Liability                                               -            57            57
          Other Liabilities                                                 -             2             2
        Subtotal Intragovernmental                                         21        12,413        12,434

        With the Public:
         Other Accrued Liabilities                                          -        11,817        11,817
         Accrued Funded Payroll and Leave                                   -           465           465
         Unfunded Leave                                                     -           615           615
         Advances from Others                                               -           137           137
         Deferred Credits                                                   -           741           741
         Liability for Deposit Funds, Clearing Accounts                     -           138           138
         Contingent Liabilities                                             -            74            74
         Capital Lease Liability                                           16             6            22
         Custodial Liability                                                -             -             -
         Other Liabilities                                                 22        21,524        21,546
        Subtotal With the Public                                           38        35,517        35,555

        Total Other Liabilities                                $           59    $   47,930    $   47,989


       FY 2011                                                     Non-Current       Current         Total
       Intragovernmental:
         Other Accrued Liabilities                             $           20    $       56    $       76
         Employer Contributions and Payroll Taxes                           -           109           109
         Unfunded FECA Liability                                            -           167           167
         Other Unfunded Employment Related Liability                        -            24            24
         Advances from Others                                               -            80            80
         Liability for Deposit Funds, Clearing Accounts                     -           (32)          (32)
         Liability for Subsidy Related to Undisbursed Loans                 -            44            44
         Resources Payable to Treasury                                      -        10,516        10,516
         Custodial Liability                                                -            64            64
         Other Liabilities                                                  -             4             4
       Subtotal Intragovernmental                                          20        11,032        11,052

       With the Public:
        Other Accrued Liabilities                                           -        12,453        12,453
        Accrued Funded Payroll and Leave                                    -           500           500
        Unfunded Leave                                                      -           640           640
        Advances from Others                                                -           117           117
        Deferred Credits                                                    -           821           821
        Liability for Deposit Funds, Clearing Accounts                      -           175           175
        Contingent Liabilities                                              -         1,237         1,237
        Capital Lease Liability                                            19             8            27
        Custodial Liability                                                 -            (1)           (1)
        Other Liabilities                                                  22        10,862        10,884
       Subtotal With the Public                                            41        26,812        26,853

       Total Other Liabilities                                 $           61    $   37,844    $   37,905




78    150th Anniversary | United States Department of Agriculture
                                                   USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 16. Leases
USDA activities based in the Washington D.C. area are located in General Services Administration
(GSA) leased facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten
Building, and South Building) is a government owned facility, which is part of the GSA Federal
Buildings Inventory. As the result of a 1998 Agreement between GSA and USDA, a moratorium was
placed on the rental billings for the Headquarters complex beginning in FY 1999.

At current market rate, the estimated yearly rental payment for the above mentioned space would be
$64 million. This agreement is still in effect and as a result, USDA activities located in the
Headquarter complex are not billed for rental costs.

FY 2012
Capital Leases:
 Summary of Assets Under Capital Leases
   Land and Building                                       $              64
   Machinery and Equipment                                                 -
   Accumulated Amortization                                              (44)

  Future Payments Due:
                                                                                Machinery &
                                                            Land & Buildings                          Other       Totals
                                                                                 Equipment
    Fiscal Year
    2013                                                                  11                  -               -            11
    2014                                                                  10                  -               -            10
    2015                                                                   9                  -               -             9
    2016                                                                   8                  -               -             8
    2017                                                                   6                  -               -             6
    After 5 Years                                                         21                  -               -            21
Total Future Lease Payments                                               65                  -               -            65
Less: Imputed Interest                                                    30                  -               -            30
Less: Executory Costs                                                     13                  -               -            13
Less: Lease Renewal Options                                                -                  -               -             -
Net Capital Lease Liability                                               22                  -   $           -            22

Lease liabilities covered by budgetary resources                          22

Operating Leases:
 Future Payments Due:
                                                                                Machinery &
                                                            Land & Buildings                          Other       Totals
    Fiscal Year                                                                  Equipment
    2013                                                                 125                  1               1            127
    2014                                                                 109                  -               1            110
    2015                                                                  98                  -               -             98
    2016                                                                  85                  -               -             85
    2017                                                                  76                  -               -             76
    After 5 Years                                                        325                  -               1            326
  Total Future Lease Payments                              $             818    $             1   $           3   $        822




                                                               =         Fiscal Year 2012 Agency Financial Report           79
SECTION 2: Financial Information
FY 2011
Capital Leases:
 Summary of Assets Under Capital Leases
   Land and Building                               $              69
   Machinery and Equipment                                         -
   Accumulated Amortization                                      (45)

  Future Payments Due:
                                                                        Machinery &
                                                    Land & Buildings                          Other       Totals
                                                                         Equipment
    Fiscal Year
    2012                                                          12                  -               -            12
    2013                                                          11                  -               -            11
    2014                                                          10                  -               -            10
    2015                                                           9                  -               -             9
    2016                                                           8                  -               -             8
    After 5 Years                                                 27                  -               -            27
Total Future Lease Payments                                       77                  -               -            77
Less: Imputed Interest                                            34                  -               -            34
Less: Executory Costs                                             16                  -               -            16
Less: Lease Renewal Options                                        -                  -               -             -
Net Capital Lease Liability                                       27                  -   $           -            27

Lease liabilities covered by budgetary resources                  27

Operating Leases:
 Future Payments Due:
                                                                        Machinery &
                                                    Land & Buildings                          Other       Totals
    Fiscal Year                                                          Equipment
    2012                                                         119                  1               1            121
    2013                                                         102                  -               1            103
    2014                                                          91                  -               1             92
    2015                                                          81                  -               -             81
    2016                                                          72                  -               -             72
    After 5 Years                                                339                  -               1            340
  Total Future Lease Payments                      $             804    $             1   $           4   $        809




Note 17. Commitments and Contingencies
The Department is subject to various claims and contingencies related to lawsuits as well as
commitments under contractual and other commercial obligations.
For cases in which payment has been deemed probable and for which the amount of potential liability
has been estimated, $74 million and $1,237 million has been accrued in the financial statements as of
September 30, 2012 and 2011, respectively.
No amounts have been accrued in the financial statements for claims where the amount is uncertain or
where the probability of judgment against USDA is remote. The Department’s potential liability for
claims where a judgment against the Department is reasonably possible ranges from $734 million to
$1,544 million as of September 30, 2012, compared to $747 million to $1,493 million as of
September 30, 2011.
CRP rental payments are estimated to be $1,800 million annually through FY 2016. Commitments to
extend loan guarantees are estimated to be $5,983 million and $5,949 million in FY 2012 and
FY 2011, respectively.
Note 18. Earmarked Funds
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other financing
sources are required by statute to be used for designated activities, benefits or purposes and must be
accounted for separately from the Government’s general revenues.


80        150th Anniversary | United States Department of Agriculture
                                      USDA: Managing for Results in Performing Its Many Vital Public Functions

Financial information for all significant earmarked funds follows the descriptions of each fund’s purpose
shown below.
Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods
and other necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize
markets. The fund is permanently financed by statutory transfer of an amount equal to 30 percent of
customs receipts collected during each calendar year and is automatically appropriated for expanding
outlets for perishable, non-price supported commodities. An amount equal to 30 percent of receipts
collected on fishery products is transferred to the Food and Nutrition Service and is used to purchase
commodities under section 6 of the National School Lunch Act and other authorities specified in the
child nutrition appropriation. Funds are available under section 32 of the Act of August 24, 1935, as
amended (7 U.S.C. 612c).
Expenses and Refunds, Inspection and Grading of Farm Products
The commodity grading programs provide grading, examination, and certification services for a wide
variety of fresh and processed food commodities using federally approved grade standards and purchase
specifications. This fund is financed by the collection of fees charged to producers of various food
commodities who request, on a voluntary basis, inspection and grading of agricultural food commodities.
This program is authorized by the Agricultural Marketing Act of 1946 (7 U.S.C. 1621-1627).

Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report expenditures and revenue associated with operating Agricultural
Quarantine Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the
Federal Agriculture Improvement and Reform Act of 1996, gave the Animal and Plant Health
Inspection Service (APHIS) the authority to charge user fees for AQI services, and to use the revenue
to fund AQI activities. In March of 2003, a portion of the AQI program was transferred to the
Department of Homeland Security (DHS); however, APHIS retained the authority to collect AQI
revenue. APHIS transfers a portion of the revenue to DHS periodically throughout the year to fund
their expenditures. The revenue in the fund is collected from airlines, air passengers, vessels, trucks,
and railroad cars that are subject to AQI inspection at ports of entry. These user fees are an inflow of
revenue from the public that is used to fund AQI inspections that are required by APHIS and DHS.
The authority is codified in 21 U.S.C. 136(a).

Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions
of the agreement between the cooperator and the Forest Service. Cooperators include timber
purchasers, not-for-profit organizations, and local hunting and fishing clubs. The governing authorities
are the Cooperative Funds Act of June 30, 1914 (16 U.S.C. 498), and the Knutson-Vandenberg Act.

Land Acquisition
Each fiscal year this fund receives a transfer of recreation user fees from the Department of the
Interior’s Land and Water Conservation Fund, to be used for the acquisition of land or waters, or


                                                 =        Fiscal Year 2012 Agency Financial Report         81
SECTION 2: Financial Information

interest therein, including administrative expenses, to carry out the provisions of the Land and Water
Conservation Fund Act of 1965, as amended (16 U.S.C. 460l-4-11), pertaining to the preservation of
watersheds. The Land Acquisition program is authorized by the Interior and Related Agencies
Appropriations Act of December 30, 1982 (96 Stat. 1983, Public Law 97-394).

Payments to States, National Forest Fund
The Act of May 23, 1908, as amended (16 U.S.C. 500), commonly known as “Payments to States”,
requires with a few exceptions, that 25.0 percent of all monies received from the national forests and
deposited into the National Forest Fund during a fiscal year from timber, grazing, special-use permits,
power and mineral leases, and admission and user fees be paid to the States in which the national
forests are located, for public schools and public roads in the county or counties in which the national
forests are situated. The Secure Rural Schools and Community Self-Determination Act of 2000 (P.L.
106-393) as amended by § 601 of The Emergency Economic Stabilization Act of 2008, (H.R. 1424)
(P.L. 110-343), provides stabilized education and road maintenance funding through predictable
payments to counties, job creation in those counties, and other opportunities associated with the
restoration, maintenance, and stewardship of Federal lands.

State, Private, and International Forestry, Land and Water Conservation Fund
The Fiscal Year 2004 Department of the Interior and Related Agencies Appropriation Act (Public
Law 108-108) authorizes the Forest Service to receive a transfer of receipts from the Department of
the Interior’s Land and Water Conservation Fund to finance the existing Forest Legacy Program,
funded previously by State and Private Forestry general appropriation. To accommodate the new
financing arrangement and at OMB’s request, the U.S. Department of Treasury established a new
special fund, “State, Private and International Forestry Land and Water Conservation Fund”. The
program expenditures include grants and an occasional land purchase, but no real property will be
procured or constructed.

Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from
projects that are part of the Recreation Fee Demonstration Program. These monies are retained and
used for backlog repair and maintenance of recreation areas, sites or projects. These funds are also
used for interpretation, signage, habitat or facility enhancement, resource preservation, annual
operation, maintenance, and law enforcement related to public use of recreation areas and sites. The
Recreation Fee Demonstration Program is authorized by 16 U.S.C. 4601-6(a).

Restoration of Forest Lands and Improvements
The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) states any monies
received by the United States with respect to lands under the administration of the Forest Service (a) as
a result of the forfeiture of a bond or deposit by a permittee or timber purchaser for failure to complete
performance of improvement, protection, or rehabilitation work required under the permit or timber
sale contract or (b) as a result of a judgment, compromise, or settlement of any claim, involving
present or potential damage to lands or improvements, shall be deposited into the United States
Treasury and are appropriated and made available until expended to cover the cost to the United States
of any improvement, protection, or rehabilitation work on lands under the administration of the Forest
Service rendered necessary by the action which led to the forfeiture, judgment, compromise, or
settlement: Provided, that any portion of the monies received in excess of the amount expended in


82     150th Anniversary | United States Department of Agriculture
                                      USDA: Managing for Results in Performing Its Many Vital Public Functions

performing the work necessitated by the action which led to their receipt shall be transferred to
miscellaneous receipts.

Payments to Counties, National Grasslands
Payments to Counties, Title III, Bankhead-Jones Farm Tenant Act (Act) authorizes national grassland
or land utilization project receipts to be shared through grants with local governments for the purposes
stated in the Act. At the end of each calendar year twenty-five percent of the net revenues from each
national grassland or land utilization project are paid to the counties in which such lands are located.
These payments are not in lieu of taxes. Receipts from the Act designated as either national grasslands
or land utilization projects are to be credited to a special account.

Acquisition of Lands to Complete Land Exchanges
As authorized by 7 statutes, this program is funded annually by congressional appropriation action,
with forest revenues generated by the occupancy of public land or from the sale of natural resources
other than minerals. All funds appropriated that remain unobligated at the end of the fiscal year are
returned to the receipts of the affected national forests. These funds are used to purchase land and for
related expenditures such as title search, escrow, recording, and personnel costs when the purchase is
considered necessary to minimize soil erosion and flood damage. This appropriation is available for
land acquisition within the exterior boundaries of the national forests.

National Institute of Food and Agriculture (NIFA)
Native American Institutions Endowment Fund
The Native American Institutions Endowment Fund was authorized by Public Law 103-382, and
provided an initial installment to establish an endowment to benefit the 1994 land grant institutions.
The public law states that “This program will enhance educational opportunities for Native Americans
by building educational capacity at these institutions in the areas of student recruitment and retention,
curricula development, faculty preparation, instruction delivery systems, and scientific instrumentation
for teaching.” While the principal (corpus) of the fund cannot be used, the interest that is earned on the
endowment fund investments in Treasury instruments can be used for the purposes described above.
After the close of a fiscal year, the income is distributed after making adjustments for the cost of
administering the fund.

Farm Service Agency
A gr icultur al Disaster A ssistance T r ansition – R ecover y Act and A gr icultur al Disaster R elief
T r ust F und
The Agricultural Disaster Assistance Transition – Recovery Act and the Agricultural Disaster Relief
Trust Fund shall make amounts available for the purpose of expenditures to meet the obligations of the
United States incurred under section 901 or section 531 of the Federal Crop Insurance Act. The trust
funds will be used to make payments to farmers and ranchers under seven disaster assistance
programs: (1) Supplemental Revenue Assistance Payments (SURE) Program, (2) Livestock Feed
Program (LFP), (3) Livestock Indemnity Program (LIP), (4) Tree Assistance Program (TAP), (5)
Emergency Assistance for Livestock, Honey Bees, and Farm-Raised Fish Program (ELAP), (6)
Recovery Act for the Supplemental Revenue Assistance Payments Program, and (7) Recovery Act for
the Tree Assistance Program. The funds are appropriated an amount equivalent to 3.08 percent of the
amounts received in the general fund of the Treasury of the United States during fiscal years 2008


                                                 =        Fiscal Year 2012 Agency Financial Report         83
SECTION 2: Financial Information

through 2011 attributable to the duties collected on articles entered, or withdrawn from warehouse, for
consumption under the Harmonized Tariff Schedule of the United States.

Other
Financial information is summarized for all other earmarked funds with total assets less than $50
million listed below.

Agricultural Marketing Service
Perishable Agricultural Commodities Act
Wool Research, Development and Promotion Trust Fund

Animal Plant Health Inspection Service
Miscellaneous Contributed Funds

Forest Service
National Forest Fund Receipts
Roads and Trails for States, National Forest Fund
Reforestation Trust Fund
Timber Sales Pipeline Restoration Fund
Operation and Maintenance of Forest Service Quarters
Timber Roads, Purchaser Elections
Expenses, Brush Disposal
Range Betterment Fund
Acquisition of Lands for National Forests, Special Acts
Construction of Facilities or Land Acquisition
Recreation Fees for Collection Costs
Payment to Minnesota (Cook, Lake and Saint Louis Counties)
Licensee Program
Tongass Timber Supply Fund
Resource Management Timber Receipts
Quinault Special Management Area
MNP Rental Fee Account
Midewin National Tallgrass Prairie Restoration Fund
Land Between the Lakes Management Fund
Administration of Rights-of-Way and Other Land Uses Fund
Valles Caldera Fund
Hardwood Technology Transfer and Applied Research Fund
Stewardship Contracting Product Sales
Mount Saint Helens Highway
Gifts, Donations and Bequests for Forest and Rangeland Research
Land Between the Lakes Trust Fund
Timber Salvage Sales
Gifts and Bequests

Natural Resources Conservation Service
Miscellaneous Contributed Funds

84      150th Anniversary | United States Department of Agriculture
                                     USDA: Managing for Results in Performing Its Many Vital Public Functions

Agricultural Research Service
Concessions Fees and Volunteer Services
Gifts and Bequests
Miscellaneous Contributed Funds

Rural Development
Alternative Agricultural Research and Commercialization Revolving Fund

Foreign Agricultural Service
Miscellaneous Contributed Funds
Gifts and Bequests

Grain Inspection, Packers and Stockyards Administration
Inspection and Weighing Services

Food Safety and Inspection Service
Expenses and Refunds, Inspection of Farm Products

Office of the Inspector General
Inspector General Assets Forfeiture, Department of Justice
Inspector General Assets Forfeiture, Department of Treasury

National Agricultural Statistics Service
Miscellaneous Contributed Funds

Economic Research Service
Miscellaneous Contributed Funds

Departmental Offices
Gifts and Bequests




                                                =        Fiscal Year 2012 Agency Financial Report         85
SECTION 2: Financial Information
 Earmarked Funds


                                                 AMS                 AMS                APHIS                 FS                 FS                  FS                  FS
                                                                                                                                                                    State, Private,
                                                                 Expenses and                                                                                      and International
                                               Funds for            Refunds,          Agricultural                                                                  Forestry, Land
                                             Strengthening       Inspection and       Quarantine                                                Payments to           and Water
                                           Markets, Income,     Grading of Farm    Inspection User                                            States, National       Conservation
 Balance Sheet As of September 30, 2012       and Supply            Products         Fee Account        Cooperative Work   Land Acquisition     Forests Fund             Fund
                                                12X5209             12X8015            12X5161              12X8028           12X5004             12X5201              12X5367
 Fund Balance with Treasury                $             247    $             94   $             141    $            213   $             14   $            186     $            130
 Investments                                                -                  -                   -                   -                  -                   -                    -
 Other Assets                                            429                  26                 136                  19                 46                  3                    1
 Total Assets                                            676                 120                 277                 232                 60                189                  131

 Other Liabilities                                         2                 65                  85                  85                  1                 319                  31
 Total Liabilities                                         2                 65                  85                  85                  1                 319                  31

 Unexpended Appropriations                                 -                  -                   -                   -                  -                   -                   -
 Cumulative Results of Operations                        674                 55                 192                 147                 59                (130)                100

 Total Liabilities and Net Position                      676                120                 277                 232                 60                 189                 131




 Statement of Net Cost For the Period
 Ended September 30, 2012
 Gross program costs                                     696                188                  189                 98                 48                 114                  47
 Less Earned Revenue                                       -                152                  555                 92                  -                 107                   -
 Net Cost of Operations                                  696                 36                 (366)                 6                 48                   7                  47




 Statement of Changes in Net Position
 For the period Ended September 30, 2012
 Net Position Beginning of Period                        569                 53                 175                 313                 74                (123)                 94

 Other Financing Sources                                 801                 38                 (349)              (160)                33                    -                  53
 Net Cost of Operations                                 (696)               (36)                 366                 (6)               (48)                  (7)                (47)

 Change in Net Position                                  105                  2                  17                (166)               (15)                  (7)                  6

 Net Position End of Period                $             674    $            55    $            192     $           147    $            59    $           (130)    $           100




86        150th Anniversary | United States Department of Agriculture
                                                                                                               USDA: Managing for Results in Performing Its Many Vital Public Functions

Earmarked Funds


                                                 FS                  FS                  FS                 FS                     NIFA                 FSA



                                                                Restoration of      Payments to        Acquisition of     Native American
                                           Recreation Fee        Forest Lands         Counties,          Lands to           Institutions            Agricultural
                                           Demonstration             and              National        Complete Land         Endowment              Disaster Relief
Balance Sheet As of September 30, 2012        Program           Improvements         Grasslands         Exchanges               Fund                 Trust Fund            Other          Total
                                              12X5268              12X5215             125896            12X5216              12X5205                 12X5531
Fund Balance with Treasury                $             68     $           135     $           138    $            36     $              19       $            193     $       328    $       1,942
Investments                                               -                    -                 -                    -                143                         -             3              146
Other Assets                                             5                    2                  -                 41                     -                        8            42              758
Total Assets                                            73                 137                 138                 77                  162                     201             373            2,846

Other Liabilities                                        5                    1                 (1)                  1                      -                 1,096            115            1,805
Total Liabilities                                        5                    1                 (1)                  1                      -                 1,096            115            1,805

Unexpended Appropriations                                -                    -                 -                    -                    96                      -              1                 97
Cumulative Results of Operations                        68                  136               139                   76                    66                   (895)           257                944

Total Liabilities and Net Position                      73                  137               138                   77                    162                   201            373            2,846




Statement of Net Cost For the Period
Ended September 30, 2012
Gross program costs                                     71                   18                  -                   5                      -                   678            275            2,427
Less Earned Revenue                                     67                   64                 (1)                  5                      2                     -            276            1,319
Net Cost of Operations                                   4                  (46)                 1                   -                     (2)                  678             (1)           1,108




Statement of Changes in Net Position
For the period Ended September 30, 2012
Net Position Beginning of Period                        72                  170                62                   76                    148                  (203)           324            1,804

Other Financing Sources                                   -                 (80)               78                     -                   12                    (14)           (67)             345
Net Cost of Operations                                   (4)                 46                (1)                    -                    2                   (678)             1           (1,108)

Change in Net Position                                   (4)                (34)               77                     -                   14                   (692)           (66)               (763)

Net Position End of Period                $             68     $            136    $          139     $             76    $               162     $            (895)   $       258    $       1,041




                                                                                                                               =                 Fiscal Year 2012 Agency Financial Report                 87
SECTION 2: Financial Information
 Earmarked Funds


                                                 AMS                  AMS                APHIS                 FS                 FS                   FS                 FS                FS
                                                                                                                                                                                       State, Private,
                                                                  Expenses and                                                                                                        and International
                                               Funds for             Refunds,          Agricultural                                                                                    Forestry, Land
                                             Strengthening        Inspection and       Quarantine                                                 Payments to                            and Water
                                           Markets, Income,      Grading of Farm    Inspection User                                             States, National    Timber Salvage      Conservation
 Balance Sheet As of September 30, 2011       and Supply             Products         Fee Account        Cooperative Work   Land Acquisition      Forests Fund          Sales               Fund
                                                12X5209              12X8015            12X5161              12X8028           12X5004              12X5201            12X5204            12X5367
 Fund Balance with Treasury                $             283     $            101   $             128    $            376   $             29    $            207    $           51    $            123
 Investments                                                -                   -                   -                   -                  -                    -                 -                   -
 Other Assets                                            288                   16                 126                  18                 46                   3                 2                    -
 Total Assets                                            571                  117                 254                 394                 75                 210                53                 123

 Other Liabilities                                          2                 64                  79                  81                  1                  333                 4                 29
 Total Liabilities                                          2                 64                  79                  81                  1                  333                 4                 29

 Unexpended Appropriations                                 -                   -                   -                   -                  -                    -                 -                  -
 Cumulative Results of Operations                        569                  53                 175                 313                 74                 (123)               49                 94

 Total Liabilities and Net Position                      571                 117                 254                 394                 75                  210                53                123




 Statement of Net Cost For the Period
 Ended September 30, 2011
 Gross program costs                                   1,184                 194                  177                101                 39                   48                24                 42
 Less Earned Revenue                                       1                 150                  537                 88                  -                  116                26                  -
 Net Cost of Operations                                1,183                  44                 (360)                13                 39                  (68)               (2)                42




 Statement of Changes in Net Position
 For the period Ended September 30, 2011
 Net Position Beginning of Period                        623                  53                 134                 326                 80                 (191)               47                 83

 Other Financing Sources                                1,129                 44                 (319)                 -                 33                    -                 -                  53
 Net Cost of Operations                                (1,183)               (44)                 360                (13)               (39)                  68                 2                 (42)

 Change in Net Position                                   (54)                  -                 41                 (13)                 (6)                 68                 2                 11

 Net Position End of Period                $             569     $            53    $            175     $           313    $            74     $           (123)   $           49    $            94




88        150th Anniversary | United States Department of Agriculture
                                                                                                          USDA: Managing for Results in Performing Its Many Vital Public Functions

Earmarked Funds


                                                 FS                 FS                  FS                 FS                    NIFA               FSA



                                                               Restoration of      Payments to        Acquisition of     Native American
                                           Recreation Fee       Forest Lands         Counties,          Lands to           Institutions         Agricultural
                                           Demonstration            and              National        Complete Land         Endowment           Disaster Relief
Balance Sheet As of September 30, 2011        Program          Improvements         Grasslands         Exchanges               Fund              Trust Fund             Other            Total
                                              12X5268             12X5215             125896            12X5216              12X5205              12X5531
Fund Balance with Treasury                $             72    $           170     $            62    $            37     $              9     $            500      $       334      $       2,482
Investments                                               -                   -                 -                    -                139                      -              3                142
Other Assets                                             6                   2                  -                 39                    -                      3             31                580
Total Assets                                            78                172                  62                 76                  148                  503              368              3,204

Other Liabilities                                        6                   2                  -                    -                    -                 706                 93           1,400
Total Liabilities                                        6                   2                  -                    -                    -                 706                 93           1,400

Unexpended Appropriations                                -                   -                 -                    -                    74                   -               -                 74
Cumulative Results of Operations                        72                 170                62                   76                    74                (203)            275              1,730

Total Liabilities and Net Position                      78                 172                62                   76                   148                 503             368              3,204




Statement of Net Cost For the Period
Ended September 30, 2011
Gross program costs                                     91                  19                  -                   8                    10               1,125             425              3,487
Less Earned Revenue                                     66                  19                  2                   9                     5                   -             199              1,218
Net Cost of Operations                                  25                   -                 (2)                 (1)                    5               1,125             226              2,269




Statement of Changes in Net Position
For the period Ended September 30, 2011
Net Position Beginning of Period                        97                 171                41                   75                   140                  (16)           507              2,170

Other Financing Sources                                  -                  (1)               19                    -                   13                   938             (6)             1,903
Net Cost of Operations                                 (25)                  -                 2                    1                   (5)               (1,125)          (226)            (2,269)

Change in Net Position                                 (25)                 (1)               21                    1                    8                 (187)           (232)                 (366)

Net Position End of Period                $             72    $            170    $           62     $             76    $              148   $            (203)    $       275      $       1,804




                                                                                                                             =          Fiscal Year 2012 Agency Financial Report                         89
SECTION 2: Financial Information

Note 19. Suborganization Program Costs/Program Costs by Segment
      FY 2012                                                                            FSA                                  CCC                                  FAS
                                                                          Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
      Gross Costs                                                         $            926    $        1,551   $            993     $       4,919   $            224    $         177
      Less: Earned Revenue                                                             186               213                 10               102                 89               (3)
      Net Costs                                                                        740             1,338                983             4,817                135              180

      Ensure Our National Forests and Private Working Lands Are
      Conserved, Restored, and Made More Resilient to Climate Change,
      While Enhancing Our Water Resources:
      Gross Costs                                                                      112              187                 460             1,694                   -                -
      Less: Earned Revenue                                                              22               26                  36                 2                   -                -
      Net Costs                                                                         90              161                 424             1,692                   -                -

      Help America Promote Agricultural Production and
      Biotechnology Exports as America Works to Increase Food Security:
      Gross Costs                                                                         -                -                 132            2,379                 64               50
      Less: Earned Revenue                                                                -                -                 298              404                 25               (1)
      Net Costs                                                                           -                -                (166)           1,975                 39               51

      Ensure that All of America's Children Have Access
      to Safe, Nutritious, and Balanced Meals:
      Gross Costs                                                                         -                -                   -                -                   -                -
      Less: Earned Revenue                                                                -                -                   -                -                   -                -
      Net Costs                                                                           -                -                   -                -                   -                -

      Total Gross Costs                                                               1,038            1,738               1,585            8,992                288              227
      Less: Total Earned Revenue                                                        208              239                 344              508                114               (4)
      Net Cost of Operations                                              $             830   $        1,499   $           1,241    $       8,484   $            174    $         231




90    150th Anniversary | United States Department of Agriculture
                                                                                                             USDA: Managing for Results in Performing Its Many Vital Public Functions

FY 2012                                                                            RMA                                  FNS                                   FSIS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public    Intragovernmental   With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             73    $       19,907   $               -       $         -   $               -    $            -
Less: Earned Revenue                                                               -             5,909                   -                 -                   -                 -
Net Costs                                                                         73            13,998                   -                 -                   -                 -

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                   -                 -                   -                 -
Less: Earned Revenue                                                                -                -                   -                 -                   -                 -
Net Costs                                                                           -                -                   -                 -                   -                 -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                 -                   -                 -
Less: Earned Revenue                                                                -                -                   -                 -                   -                 -
Net Costs                                                                           -                -                   -                 -                   -                 -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                528            106,125                 380              901
Less: Earned Revenue                                                                -                -                  2                 67                   3              180
Net Costs                                                                           -                -                526            106,058                 377              721

Total Gross Costs                                                                 73            19,907                528            106,125                 380              901
Less: Total Earned Revenue                                                         -             5,909                  2                 67                   3              180
Net Cost of Operations                                              $             73    $       13,998   $            526        $   106,058   $             377    $         721




                                                                                                                             =       Fiscal Year 2012 Agency Financial Report        91
SECTION 2: Financial Information
      FY 2012                                                                            AMS                                 APHIS                                GIPSA
                                                                          Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
      Gross Costs                                                         $             25    $         517    $             48    $         140    $             33    $          62
      Less: Earned Revenue                                                               1              104                   9               84                   1               39
      Net Costs                                                                         24              413                  39               56                  32               23

      Ensure Our National Forests and Private Working Lands Are
      Conserved, Restored, and Made More Resilient to Climate Change,
      While Enhancing Our Water Resources:
      Gross Costs                                                                         -                -                 22               66                    -                -
      Less: Earned Revenue                                                                -                -                  4               40                    -                -
      Net Costs                                                                           -                -                 18               26                    -                -

      Help America Promote Agricultural Production and
      Biotechnology Exports as America Works to Increase Food Security:
      Gross Costs                                                                         -                -                 21               61                    -                -
      Less: Earned Revenue                                                                -                -                  4               37                    -                -
      Net Costs                                                                           -                -                 17               24                    -                -

      Ensure that All of America's Children Have Access
      to Safe, Nutritious, and Balanced Meals:
      Gross Costs                                                                       25              510                 266              780                    -                -
      Less: Earned Revenue                                                               1              103                  49              471                    -                -
      Net Costs                                                                         24              407                 217              309                    -                -

      Total Gross Costs                                                                 50             1,027                357             1,047                 33               62
      Less: Total Earned Revenue                                                         2               207                 66               632                  1               39
      Net Cost of Operations                                              $             48    $          820   $            291    $          415   $             32    $          23




92    150th Anniversary | United States Department of Agriculture
                                                                                                             USDA: Managing for Results in Performing Its Many Vital Public Functions

FY 2012                                                                             FS                                 NRCS                                  ARS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $               -   $            -   $               -       $        -   $             82    $         340
Less: Earned Revenue                                                                -                -                   -                -                 23               13
Net Costs                                                                           -                -                   -                -                 59              327

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                     1,411            5,530                638             3,592                 51              211
Less: Earned Revenue                                                              132              708                163                 -                 14                8
Net Costs                                                                       1,279            4,822                475             3,592                 37              203

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                 37              156
Less: Earned Revenue                                                                -                -                   -                -                 10                6
Net Costs                                                                           -                -                   -                -                 27              150

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                124              515
Less: Earned Revenue                                                                -                -                   -                -                 34               19
Net Costs                                                                           -                -                   -                -                 90              496

Total Gross Costs                                                               1,411            5,530                638             3,592                294             1,222
Less: Total Earned Revenue                                                        132              708                163                 -                 81                46
Net Cost of Operations                                              $           1,279   $        4,822   $            475        $    3,592   $            213    $        1,176




                                                                                                                             =       Fiscal Year 2012 Agency Financial Report      93
SECTION 2: Financial Information
      FY 2012                                                                            NIFA                                  ERS                                 NASS
                                                                          Intragovernmental   With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
      Gross Costs                                                         $              27    $         730    $             16    $          20    $             67    $         127
      Less: Earned Revenue                                                               16                -                   1                -                  19               (5)
      Net Costs                                                                          11              730                  15               20                  48              132

      Ensure Our National Forests and Private Working Lands Are
      Conserved, Restored, and Made More Resilient to Climate Change,
      While Enhancing Our Water Resources:
      Gross Costs                                                                         7              185                   6                8                    -               1
      Less: Earned Revenue                                                                4                -                   -                -                    -               -
      Net Costs                                                                           3              185                   6                8                    -               1

      Help America Promote Agricultural Production and
      Biotechnology Exports as America Works to Increase Food Security:
      Gross Costs                                                                        12              331                  11               14                    -                -
      Less: Earned Revenue                                                                7                -                   1                -                    -                -
      Net Costs                                                                           5              331                  10               14                    -                -

      Ensure that All of America's Children Have Access
      to Safe, Nutritious, and Balanced Meals:
      Gross Costs                                                                         6              165                  11               14                   2                4
      Less: Earned Revenue                                                                4                -                   1                -                   1                -
      Net Costs                                                                           2              165                  10               14                   1                4

      Total Gross Costs                                                                  52             1,411                 44               56                  69              132
      Less: Total Earned Revenue                                                         31                 -                  3                -                  20               (5)
      Net Cost of Operations                                              $              21    $        1,411   $             41    $          56    $             49    $         137




94    150th Anniversary | United States Department of Agriculture
                                                                                                              USDA: Managing for Results in Performing Its Many Vital Public Functions

FY 2012                                                                             RD                                    DO                                  Total
                                                                    Intragovernmental  With the Public    Intragovernmental  With the Public   Intragovernmental    With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $           4,088   $        3,241    $             187    $        327    $            6,789   $       32,058
Less: Earned Revenue                                                              431            3,432                  314               2                 1,100            9,890
Net Costs                                                                       3,657             (191)                (127)            325                 5,689           22,168

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 126              219                 2,833           11,693
Less: Earned Revenue                                                                -                -                 211                2                   586              786
Net Costs                                                                           -                -                 (85)             217                 2,247           10,907

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  13               23                  290             3,014
Less: Earned Revenue                                                                -                -                  22                -                  367               446
Net Costs                                                                           -                -                  (9)              23                  (77)            2,568

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                  169             297                 1,511          109,311
Less: Earned Revenue                                                                -                -                  284               2                   379              842
Net Costs                                                                           -                -                 (115)            295                 1,132          108,469

Total Gross Costs                                                               4,088            3,241                  495             866               11,423           156,076
Less: Total Earned Revenue                                                        431            3,432                  831               6                2,432            11,964
Net Cost of Operations                                              $           3,657   $         (191)   $            (336)   $        860    $           8,991    $      144,112




                                                                                                                           =         Fiscal Year 2012 Agency Financial Report         95
SECTION 2: Financial Information
      FY 2012                                                             Intradepartmental
                                                                             Eliminations      Grand Total




      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
      Gross Costs                                                         $          (1,655)   $     37,192
      Less: Earned Revenue                                                             (490)         10,500
      Net Costs                                                                      (1,165)         26,692

      Ensure Our National Forests and Private Working Lands Are
      Conserved, Restored, and Made More Resilient to Climate Change,
      While Enhancing Our Water Resources:
      Gross Costs                                                                    (1,046)         13,480
      Less: Earned Revenue                                                             (366)          1,006
      Net Costs                                                                        (680)         12,474

      Help America Promote Agricultural Production and
      Biotechnology Exports as America Works to Increase Food Security:
      Gross Costs                                                                      (116)          3,188
      Less: Earned Revenue                                                             (195)            618
      Net Costs                                                                          79           2,570

      Ensure that All of America's Children Have Access
      to Safe, Nutritious, and Balanced Meals:
      Gross Costs                                                                      (674)        110,148
      Less: Earned Revenue                                                             (283)            938
      Net Costs                                                                        (391)        109,210

      Total Gross Costs                                                              (3,491)        164,008
      Less: Total Earned Revenue                                                     (1,334)         13,062
      Net Cost of Operations                                              $          (2,157)   $    150,946




96    150th Anniversary | United States Department of Agriculture
                                                                                                             USDA: Managing for Results in Performing Its Many Vital Public Functions

FY 2011                                                                            FSA                                  CCC                                  FAS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $           1,603   $        2,241   $           1,110       $    5,466   $            256    $         169
Less: Earned Revenue                                                              173              222                  15              121                 85                1
Net Costs                                                                       1,430            2,019               1,095            5,345                171              168

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                      203              284                 467             1,907                   -                -
Less: Earned Revenue                                                              22               28                  39                 1                   -                -
Net Costs                                                                        181              256                 428             1,906                   -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  79            2,815                 65               43
Less: Earned Revenue                                                                -                -                 192              167                 22                -
Net Costs                                                                           -                -                (113)           2,648                 43               43

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                   -                -
Less: Earned Revenue                                                                -                -                   -                -                   -                -
Net Costs                                                                           -                -                   -                -                   -                -

Total Gross Costs                                                               1,806            2,525               1,656           10,188                321              212
Less: Total Earned Revenue                                                        195              250                 246              289                107                1
Net Cost of Operations                                              $           1,611   $        2,275   $           1,410       $    9,899   $            214    $         211




                                                                                                                             =       Fiscal Year 2012 Agency Financial Report      97
SECTION 2: Financial Information
      FY 2011                                                                            RMA                                  FNS                                  FSIS
                                                                          Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental   With the Public




      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
      Gross Costs                                                         $             68    $       14,888   $               -   $            -   $               -    $            -
      Less: Earned Revenue                                                               -             3,660                   -                -                   -                 -
      Net Costs                                                                         68            11,228                   -                -                   -                 -

      Ensure Our National Forests and Private Working Lands Are
      Conserved, Restored, and Made More Resilient to Climate Change,
      While Enhancing Our Water Resources:
      Gross Costs                                                                         -                -                   -                -                   -                 -
      Less: Earned Revenue                                                                -                -                   -                -                   -                 -
      Net Costs                                                                           -                -                   -                -                   -                 -

      Help America Promote Agricultural Production and
      Biotechnology Exports as America Works to Increase Food Security:
      Gross Costs                                                                         -                -                   -                -                   -                 -
      Less: Earned Revenue                                                                -                -                   -                -                   -                 -
      Net Costs                                                                           -                -                   -                -                   -                 -

      Ensure that All of America's Children Have Access
      to Safe, Nutritious, and Balanced Meals:
      Gross Costs                                                                         -                -                856           102,385                 383              956
      Less: Earned Revenue                                                                -                -                  1                56                   2              169
      Net Costs                                                                           -                -                855           102,329                 381              787

      Total Gross Costs                                                                 68            14,888                856           102,385                 383              956
      Less: Total Earned Revenue                                                         -             3,660                  1                56                   2              169
      Net Cost of Operations                                              $             68    $       11,228   $            855    $      102,329   $             381    $         787




98    150th Anniversary | United States Department of Agriculture
                                                                                                             USDA: Managing for Results in Performing Its Many Vital Public Functions

FY 2011                                                                            AMS                                 APHIS                                GIPSA
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $            123    $         922    $             48       $      126    $             36    $          66
Less: Earned Revenue                                                               2              148                   5               77                   1               49
Net Costs                                                                        121              774                  43               49                  35               17

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 33               86                    -                -
Less: Earned Revenue                                                                -                -                  3               53                    -                -
Net Costs                                                                           -                -                 30               33                    -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 20               52                    -                -
Less: Earned Revenue                                                                -                -                  2               32                    -                -
Net Costs                                                                           -                -                 18               20                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                       60              449                 303              792                    -                -
Less: Earned Revenue                                                               1               72                  32              487                    -                -
Net Costs                                                                         59              377                 271              305                    -                -

Total Gross Costs                                                                183             1,371                404             1,056                 36               66
Less: Total Earned Revenue                                                         3               220                 42               649                  1               49
Net Cost of Operations                                              $            180    $        1,151   $            362       $       407   $             35    $          17




                                                                                                                            =       Fiscal Year 2012 Agency Financial Report       99
SECTION 2: Financial Information
      FY 2011                                                                             FS                                 NRCS                                  ARS
                                                                          Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
      Gross Costs                                                         $            269    $        1,068   $             11    $          62    $             91    $         336
      Less: Earned Revenue                                                              23               133                  3                -                  23               12
      Net Costs                                                                        246               935                  8               62                  68              324

      Ensure Our National Forests and Private Working Lands Are
      Conserved, Restored, and Made More Resilient to Climate Change,
      While Enhancing Our Water Resources:
      Gross Costs                                                                     1,172            4,651                664             3,744                 57              213
      Less: Earned Revenue                                                              100              577                171                 3                 14                7
      Net Costs                                                                       1,072            4,074                493             3,741                 43              206

      Help America Promote Agricultural Production and
      Biotechnology Exports as America Works to Increase Food Security:
      Gross Costs                                                                         -                -                  1                5                  42              155
      Less: Earned Revenue                                                                -                -                  -                -                  10                5
      Net Costs                                                                           -                -                  1                5                  32              150

      Ensure that All of America's Children Have Access
      to Safe, Nutritious, and Balanced Meals:
      Gross Costs                                                                         -                -                   -                -                136              506
      Less: Earned Revenue                                                                -                -                   -                -                 34               18
      Net Costs                                                                           -                -                   -                -                102              488

      Total Gross Costs                                                               1,441            5,719                676             3,811                326             1,210
      Less: Total Earned Revenue                                                        123              710                174                 3                 81                42
      Net Cost of Operations                                              $           1,318   $        5,009   $            502    $        3,808   $            245    $        1,168




100   150th Anniversary | United States Department of Agriculture
                                                                                                              USDA: Managing for Results in Performing Its Many Vital Public Functions

FY 2011                                                                            NIFA                                  ERS                                 NASS
                                                                    Intragovernmental   With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $              29    $         740    $             16    $          21    $             60    $         140
Less: Earned Revenue                                                               24                -                   -                -                  23                2
Net Costs                                                                           5              740                  16               21                  37              138

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         7              174                   6                8                    -               1
Less: Earned Revenue                                                                6                -                   -                -                    -               -
Net Costs                                                                           1              174                   6                8                    -               1

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         6              153                  11               14                    -                -
Less: Earned Revenue                                                                5                -                   -                -                    -                -
Net Costs                                                                           1              153                  11               14                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         8              205                  11               15                   3                8
Less: Earned Revenue                                                                7                -                   -                -                   1                -
Net Costs                                                                           1              205                  11               15                   2                8

Total Gross Costs                                                                  50             1,272                 44               58                  63              149
Less: Total Earned Revenue                                                         42                 -                  -                -                  24                2
Net Cost of Operations                                              $               8    $        1,272   $             44    $          58    $             39    $         147




                                                                                                                          =         Fiscal Year 2012 Agency Financial Report        101
SECTION 2: Financial Information
      FY 2011                                                                             RD                                   DO                                  Total
                                                                          Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental    With the Public




      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
      Gross Costs                                                         $           4,053   $        3,654   $             201    $        375    $            7,974   $       30,274
      Less: Earned Revenue                                                              460            3,300                 324               6                 1,161            7,731
      Net Costs                                                                       3,593              354                (123)            369                 6,813           22,543

      Ensure Our National Forests and Private Working Lands Are
      Conserved, Restored, and Made More Resilient to Climate Change,
      While Enhancing Our Water Resources:
      Gross Costs                                                                         -                -                118              219                 2,727           11,287
      Less: Earned Revenue                                                                -                -                190                5                   545              674
      Net Costs                                                                           -                -                (72)             214                 2,182           10,613

      Help America Promote Agricultural Production and
      Biotechnology Exports as America Works to Increase Food Security:
      Gross Costs                                                                         -                -                 11               19                  235             3,256
      Less: Earned Revenue                                                                -                -                 17                1                  248               205
      Net Costs                                                                           -                -                 (6)              18                  (13)            3,051

      Ensure that All of America's Children Have Access
      to Safe, Nutritious, and Balanced Meals:
      Gross Costs                                                                         -                -                 169             315                 1,929          105,631
      Less: Earned Revenue                                                                -                -                 272               5                   350              807
      Net Costs                                                                           -                -                (103)            310                 1,579          104,824

      Total Gross Costs                                                               4,053            3,654                 499             928               12,865           150,448
      Less: Total Earned Revenue                                                        460            3,300                 803              17                2,304             9,417
      Net Cost of Operations                                              $           3,593   $          354   $            (304)   $        911    $          10,561    $      141,031




102   150th Anniversary | United States Department of Agriculture
                                                                                                        USDA: Managing for Results in Performing Its Many Vital Public Functions

FY 2011                                                             Intradepartmental
                                                                       Eliminations      Grand Total




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $          (1,850)   $     36,398
Less: Earned Revenue                                                             (442)          8,450
Net Costs                                                                      (1,408)         27,948

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                    (1,017)         12,997
Less: Earned Revenue                                                             (350)            869
Net Costs                                                                        (667)         12,128

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                       (94)          3,397
Less: Earned Revenue                                                             (159)            294
Net Costs                                                                          65           3,103

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                    (1,009)        106,551
Less: Earned Revenue                                                             (274)            883
Net Costs                                                                        (735)        105,668

Total Gross Costs                                                              (3,970)        159,343
Less: Total Earned Revenue                                                     (1,225)         10,496
Net Cost of Operations                                              $          (2,745)   $    148,847




                                                                                                                  =        Fiscal Year 2012 Agency Financial Report         103
SECTION 2: Financial Information


Note 20. Cost of Stewardship PP&E
The acquisition cost of stewardship land in FY 2012 and FY 2011 was $521 million and $678
million, respectively.

Note 21. Terms of Borrowing Authority Used
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for
the purpose of discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized
losses and debt related to foreign assistance programs. The permanent indefinite borrowing authority
includes both interest bearing and non–interest bearing notes. These notes are drawn upon daily when
disbursements exceed deposits. Notes payable under the permanent indefinite borrowing authority
have a term of one year. On January 1 of each year, USDA refinances its outstanding borrowings,
including accrued interest, at the January borrowing rate.

In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export
credit programs to finance disbursements on post-credit reform, direct credit obligations, and credit
guarantees. In accordance with the Federal Credit Reform Act of 1990 as amended, USDA borrows
from Treasury on October 1, for the entire fiscal year, based on annual estimates of the difference
between the amount appropriated (subsidy) and the amount to be disbursed to the borrower.
Repayment under this agreement may be, in whole or in part, prior to maturity by paying the principal
amount of the borrowings plus accrued interest to the date of repayment. Interest is paid on these
borrowings based on weighted average interest rates for the cohort, to which the borrowings are
associated. Interest is earned on the daily balance of uninvested funds in the credit reform financing
funds maintained at Treasury. The interest income is used to reduce interest expense on the underlying
borrowings.

USDA has authority to borrow from the Federal Financing Bank (FFB) in the form of Certificates of
Beneficial Ownership (CBO) or loans executed directly between the borrower and FFB with an
unconditional USDA repayment guarantee. CBO’s outstanding with the FFB are generally secured by
unpaid loan principal balances. CBO’s outstanding are related to pre-credit reform loans and no longer
are used for program financing.

FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans.
Borrowings made to finance loans directly between the borrower and FFB mature and are repaid as the
related group of loans become due. Interest rates on the related group of loans are equal to interest
rates on FFB borrowings, except in those situations where an FFB funded loan is restructured and the
terms of the loan are modified.

Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made
on FFB CBO’s, without a penalty.

Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient
amount of its borrowing authority to purchase, at any time, all notes and other obligations evidencing
loans made by agencies and others. All bonds, notes, debentures, and similar obligations issued by the
Department are subject to approval by the Secretary of the Treasury. Reservation of borrowing
authority for these purposes has not been required for many years.


104    150th Anniversary | United States Department of Agriculture
                                       USDA: Managing for Results in Performing Its Many Vital Public Functions

Note 22. Available Borrowing Authority, End of Period
Available borrowing authority at September 30, 2012 and 2011 was $33,693 million and $35,016
million, respectively.

Note 23. Apportionment Categories of Obligations Incurred: Direct vs.
Reimbursable Obligations
FY 2012
                                                          Direct             Reimbursable          Total
Apportionment by Fiscal Quarter                       $     41,597       $           2,372     $     43,969
Apportionment for Special Activities                       122,359                  19,330          141,689
Exempt from Apportionment                                      843                      1                  844
Total Obligations Incurred                            $    164,799       $          21,703     $    186,502


FY 2011
                                                          Direct             Reimbursable          Total
Apportionment by Fiscal Quarter                       $     36,418       $           2,456     $     38,874
Apportionment for Special Activities                       122,306                  21,444          143,750
Exempt from Apportionment                                    1,005                      1             1,006
Total Obligations Incurred                            $    159,729       $          23,901     $    183,630



Note 24. Undelivered Orders at the End of the Period
Budgetary resources obligated for undelivered orders as of September 30, 2012 and 2011 was $49,077
million and $51,654 million, respectively.

Note 25. Permanent Indefinite Appropriations
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit
reform programs, 2) certain costs of the crop insurance program, 3) certain commodity program costs
and 4) certain costs associated with FS programs.

The permanent indefinite appropriations for credit reform are mainly available to finance any
disbursements incurred under the liquidating accounts. These appropriations become available pursuant
to standing provisions of law without further action by Congress after transmittal of the Budget for the
year involved. They are treated as permanent the first year they become available, as well as in
succeeding years. However, they are not stated as specific amounts but are determined by specified
variable factors, such as cash needs for liquidating accounts, and information about the actual
performance of a cohort or estimated changes in future cash flows of the cohort in the program accounts.

The permanent indefinite appropriation for the crop insurance program is used to cover premium
subsidy, delivery expenses, losses in excess of premiums and research and delivery costs.

The permanent indefinite appropriation for commodity program costs is used to encourage the
exportation of agricultural commodities and products, to encourage domestic consumption of agricultural
products by diverting them, and to reestablish farmers’ purchasing power by making payments in
connection with the normal production of any agricultural commodity for domestic consumption.



                                                 =        Fiscal Year 2012 Agency Financial Report           105
SECTION 2: Financial Information

The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs,
Brush Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and
Improvements, Roads and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections,
Timber Salvage Sales and Operations, and Maintenance of Quarters. Each of these permanent indefinite
appropriations is funded by receipts made available by law, and is available until expended.

Note 26. Legal Arrangements Affecting Use of Unobligated Balances
Unobligated budget authority is the difference between the obligated balance and the total unexpended
balance. It represents that portion of the unexpended balance unencumbered by recorded obligations.
Appropriations are provided on an annual, multi-year, and no-year basis. An appropriation expires on
the last day of its period of availability and is no longer available for new obligations. Unobligated
balances retain their fiscal-year identity in an expired account for an additional five fiscal years. The
unobligated balance remains available to make legitimate obligation adjustments, i.e., to record
previously unrecorded obligations and to make upward adjustments in previously underestimated
obligations for five years. At the end of the fifth year, the authority is canceled. Thereafter, the
authority is not available for any purpose.

Any information about legal arrangements affecting the use of the unobligated balance of budget
authority is specifically stated by program and fiscal year in the appropriation language or in the
alternative provisions section at the end of the appropriations act.

Note 27. E xplanation of Differ ences B etween the SB R and the B udget of the
US G over nment
The differences between the FY 2011 Statement of Budgetary Resources and the FY 2011 actual
numbers presented in the FY 2013 Budget of the United States Government (Budget) are
summarized below.

The Budget excludes expired accounts that are no longer available for new obligations.

Adjustments were made prior to the Budget submission as follows:

CCC excluded distributed offsetting receipts for Export Guaranteed Financing and Farm Storage
Facility Direct Loan Financing accounts.

FSA included upward and downward adjustments on obligated balances transferred from the child to
the parent account for Disaster Assistance.

The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market
Administrators participate in the Federal retirement system, though these funds are not available for
use by the Department.




106    150th Anniversary | United States Department of Agriculture
                                              USDA: Managing for Results in Performing Its Many Vital Public Functions


                                                                                               Distributed
                                                                  Budgetary    Obligations     Offsetting
         FY 2011                                                  Resources     Incurred        Receipts             Net Outlays

         Combined Statement of Budgetary Resources                $ 214,472    $ 183,630       $       2,039         $ 147,544
          Reconciling items:
          Expired accounts                                          (10,223)         (1,190)               -                  -
          CCC Export Guaranteed Financing and
          Farm Storage Facility Direct Loan Finanacing                    -            -                  41                 -
          FSA Disaster Assistance                                      (184)        (184)                  -                 -
          Milk Market Orders Fund                                        53           53                   -                 -
          Other                                                          11           13                   5                (5)
         Budget of the United States Government                   $ 204,129    $ 182,322       $       2,085         $ 147,539



A comparison between the FY 2012 Statement of Budgetary Resources and the FY 2012 actual
numbers presented in the FY 2014 Budget cannot be performed as the FY 2014 Budget is not yet
available. The FY 2014 Budget is expected to be published in February 2013 and will be available
from the Government Printing Office.

In FY 2012, FSA returned $769 million of indefinite budget authority that was not obligated to
Treasury from its Disaster Assistance account. The transfer was backdated to coincide with the legal
period of availability of the appropriation available at the time. Also, OMB restored $3,000 million of
FY 2011 Supplemental Nutrition Assistance Program (SNAP) contingency funds withdrawn with a
backdated warrant. Consequently, the budget reflects these adjustments to the prior year even though
the actions taken occurred in the current year.

Note 28. Incidental Custodial Collections
Custodial collections represent National Forest Fund receipts from the sale of timber and other forest
products, miscellaneous general fund receipts such as collections on accounts receivable related to
canceled year appropriations, civil monetary penalties and interest, and commercial fines and penalties.
Custodial collection activities are considered immaterial and incidental to the mission of the
Department.


         Revenue Activity:                                                         FY 2012         FY 2011
              Sources of Collections:
              Miscellaneous                                                    $         38        $           84
         Total Cash Collections                                                          38                    84
         Accrual Adjustments                                                             (4)                   (2)
         Total Custodial Revenue                                                         34                    82
         Disposition of Collections:
         Transferred to Others:
              Treasury                                                                  (26)               (77)
              States and Counties                                                         -                  -
         ( Increase )/Decrease in Amounts Yet to be Transferred                          (8)                (5)
         Net Custodial Activity                                                $          -        $         -




                                                           =         Fiscal Year 2012 Agency Financial Report                      107
SECTION 2: Financial Information

Note 29. Fiduciary Activities
Rural Housing Insurance Fund (RHIF) was established by Public Law 89-117 pursuant to section 517
of title V of the Housing Act of 1949, which authorized RD to collect escrow payments on behalf of
new and existing Single Family Housing borrowers. Other fiduciary activities by RD include but are
not limited to collections from borrowers, interest paid on escrow accounts, payments to insurance
agencies and taxing authorities.


                                         Schedule of Fiduciary Activity
                            For the Years Ended September 30, 2012 and 2011


                                                                      Rural Housing                  Rural Housing
                                                                              Insurance                  Insurance
                                                                                  Fund                     Fund
                                                                                  2012                     2011
  Fiduciary net assets, beginning of year                                 $              107         $            100
      Fiduciary revenues                                                                   -                         -
      Contributions                                                                      376                      480
      Investment earnings                                                                  -                         -
      Gain (Loss) on disposition of investments, net                                       -                         -
      Administrative and other expenses                                                    -                         -
      Disbursements to and on behalf of beneficiaries                                (376)                     (473)
  Increases/(Decrease) in fiduciary net assets                                             -                         7
  Fiduciary net assets, end of year                                       $              107         $            107




                                     Fiduciary Net Assets
                               As of September 30, 2012 and 2011


                                                             Rural Housing         Rural Housing
                                                               Insurance             Insurance
                                                                   Fund                  Fund
                                                                   2012                  2011
  Fiduciary Assets
      Cash and cash equivalents                                $          6          $          4
      Investments                                                     101                      103
      Other assets                                                            -                  -
  Fiduciary Liabilities
      Less: Liabilities                                                       -                  -
  Total Fiduciary Net Assets                                   $      107            $         107




Note 30. R econciliation of B udgetar y R esour ces Obligated to Net C ost of Oper ations
Budgetary and proprietary accounting information are inherently different because of the types of
information and the timing of their recognition. The reconciliation of budgetary resources obligated

108        150th Anniversary | United States Department of Agriculture
                                      USDA: Managing for Results in Performing Its Many Vital Public Functions

and the net cost of operations provides a link between budgetary and proprietary accounting
information. It serves not only to explain how information on net obligations relates to the net cost of
operations but also to assure integrity between budgetary and proprietary accounting.

Net obligations and the net cost of operations are different because (1) the net cost of operations may
be financed by non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary
resources used may finance activities which are not components of the net cost of operations; and (3)
the net cost of operations may contain components which do not use or generate resources in the
current period.




                                                =        Fiscal Year 2012 Agency Financial Report         109
SECTION 2: Financial Information
                                                                                                             2012         2011
Resources Used to Finance Activities:
Budgetary Resources Obligated -
   Obligations Incurred                                                                                    $ 186,502    $ 183,630
   Less: Spending authority from offsetting collections and recoveries                                        40,179       38,805
   Obligations net of offsetting collections and recoveries                                                  146,323      144,825
   Less: Distributed Offsetting receipts                                                                       2,033        2,039
   Net Obligations                                                                                           144,290      142,786

Other Resources -
   Transfers in(out) without reimbursement                                                                        86          145
   Imputed financing from costs absorbed by others                                                               913        1,724
   Other                                                                                                      (1,315)      (1,134)
   Net other resources used to finance activities                                                               (316)         735

      Total resources used to finance activities                                                             143,974      143,521

Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in undelivered orders                                                                                2,571        2,958
   Resources that fund expenses recognized in prior periods                                                   (4,033)      (3,495)
   Budgetary offsetting collections and receipts that do not affect net cost of operations -
     Credit program collections which increase liabilities for loan guarantees or allowances for subsidy      16,192       15,047
     Change in Unfilled Customer Orders                                                                        2,116        1,771
     Decrease in exchange revenue receivable from public                                                       3,071        6,229
     Other                                                                                                      (235)         806
   Resources that finance the acquisition of assets                                                          (21,771)     (22,924)
   Other resources or adjustments to net obligated resources that do not affect net cost of operations        (1,359)      (2,488)

      Total resources used to finance items not part of the net cost of operations                            (3,448)      (2,096)

      Total resources used to finance the net cost of operations                                             140,526      141,425

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods -
   Increase in annual leave liability                                                                              5            7
   Increase in environmental and disposal liability                                                                1            1
   Upward/Downward reestimates of credit subsidy expense                                                       2,009        1,624
   Increase in exchange revenue receivable from the public                                                         -            -
   Other                                                                                                       7,675        4,767
   Total components of Net Cost of Operations that will require or generate
     resources in future periods                                                                               9,690        6,399

Components not Requiring or Generating Resources -
   Depreciation and amortization                                                                                408          230
   Revaluation of assets or liabilities                                                                           4           39
   Other Components not Requiring or Generating Resources:
     Bad Debt Expense                                                                                         (1,102)         (79)
     Cost of Goods Sold                                                                                            -          488
   Other                                                                                                       1,420          345
   Total components of Net Cost of Operations that will not require or generate resources                        730        1,023

      Total components of Net Cost of Operations that will not require or generate
        resources in the current period                                                                       10,420        7,422

      Net Cost of Operations                                                                               $ 150,946    $ 148,847




110        150th Anniversary | United States Department of Agriculture
                                                USDA: Managing for Results in Performing Its Many Vital Public Functions




Required Supplementary Stewardship Information
Stewardship Investments (Unaudited)


                                                         FY 2012     FY 2011    FY 2010    FY 2009      FY 2008
                                                         Expense     Expense    Expense    Expense      Expense
Non-Federal Physical Property:
Food and Nutrition Service
    Supplemental Nutrition Assistance Program            $    38     $   40     $   41      $   55     $     32
    Special Supplemental Nutrition Program                    13         17         17          15           10
National Institute of Foods and Agriculture
    Extension 1890 Facilities Program                         20         19         19          17           17
Total Non-Federal Property                               $    71     $   76     $   77      $   87     $     59

Human Capital:
National Institute of Foods and Agriculture
    Higher Education and Extension Programs              $    536    $   547    $   559     $   547    $    521
Food and Nutrition Service
    Supplemental Nutrition Assistance Program                 53         45         63          19           36
Agricultural Research Service
    National Agricultural Library                             21         21         24          23           22
Risk Management Agency
    Risk Management Education                                  13         10          6           6          10
Total Human Capital                                      $    623    $   623    $   652     $   595    $    589




                                                          =         Fiscal Year 2012 Agency Financial Report        111
SECTION 2: Financial Information
                                                       FY 2012     FY 2011    FY 2010   FY 2009   FY 2008
                                                       Expense     Expense    Expense   Expense   Expense
      Research and Development:

      Basic Research:
      Agricultural Research Service
          Human Nutrition                               $    43    $     43   $    45   $    43   $     42
          Collaborative Research Program                      -           -         -         2          2
          Product Quality/Value Added                        50          52        56        54         51
          Livestock Production                               37          41        44        43         42
          Crop Production                                   114         116       119       102         99
          Food Safety                                        53          53        53        53         51
          Livestock Protection                               38          40        45        42         40
          Crop Protection                                    97         102       103       100         96
          Environmental Stewardship                          94         101       103       112        109
      National Institute of Foods and Agriculture
          Land-grant University System                      249         274       283       256        245
      Forest Service                                         80          91        94        87         82
      Economic Research Service
          Economic and Social Science                        7           8         8         8           8
      National Agricultural Statistics Service
          Statistical                                         3           3         3         3          3
      Total Basic Research                              $   865    $    924   $   956   $   905   $    870

      Applied Research:
      Agricultural Research Service
          Human Nutrition                               $   34     $    34    $   35    $   34    $     35
          Collaborative Research Program                      -           -         -        1           2
          Product Quality/Value Added                       40          42        44        43          43
          Livestock Production                              30          33        35        34          35
          Crop Production                                   91          93        96        82          82
          Food Safety                                       42          43        43        42          43
          Livestock Protection                              31          32        36        33          34
          Crop Protection                                   77          81        82        81          80
          Environmental Stewardship                         75          80        83        90          92
      National Institute of Foods and Agriculture
          Land-grant University System                      424         467       461       435        418
      Forest Service                                        207         220       227       220        207
      Economic Research Service
          Economic and Social Science                       71          74        74        71          69
      National Agricultural Statistics Service
          Statistical                                         4          4          4         5           5
      Total Applied Research                            $ 1,126    $ 1,203    $ 1,220   $ 1,171   $   1,145

      Development:
      Agricultural Research Service
          Human Nutrition                               $    8     $     9    $    9    $    8    $      8
          Product Quality/Value Added                       10          11        11        11          11
          Livestock Production                               8           8         9         9           8
          Crop Production                                   23          23        24        20          20
          Food Safety                                       11          11        11        11          10
          Livestock Protection                               7           7         9         8           8
          Crop Protection                                   19          20        20        20          20
          Environmental Stewardship                         19          20        21        23          22
      Forest Service                                         32          16        17        16         15
      Total Development                                 $   137    $    125   $   131   $   126   $    122


      Total Research and Development                    $ 2,128    $ 2,252    $ 2,307   $ 2,202   $   2,137




112       150th Anniversary | United States Department of Agriculture
                                      USDA: Managing for Results in Performing Its Many Vital Public Functions

Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by
State and local governments for the purpose of administering the SNAP. The total SNAP expense for
ADP Equipment & Systems has been reported as of the date of FNS’ financial statements. FNS’ non-
Federal physical property also consists of computer systems and other equipment obtained by the State
and local governments for the purpose of administering the Special Supplemental Nutrition Program
for Women, Infants and Children.

National Institute of Food and Agriculture
The Extension 1890 facilities program supports the renovation of existing buildings and the
construction of new facilities that permit faculty, students, and communities to benefit fully from the
partnership between USDA and the 1890 Land-Grant Universities.

Human Capital
National Institute of Food and Agriculture
The Higher Education programs include graduate fellowship grants, competitive challenge grants,
Secondary/2-year Post Secondary grants, Hispanic serving institutions education grants, a multicultural
scholars program, a Native American institutions program, a Native American institutions endowment
fund, an Alaska Native Serving and Native Hawaiian Serving institutions program, a resident
instruction grant program for insular areas, and a capacity building program at the 1890 institutions.
These programs enable universities to broaden their curricula, increase faculty development and
student research projects, and increase the number of new scholars recruited in the food and agriculture
sciences. NIFA also supports extension-related work at 1862 and 1890 land-grant institutions
throughout the country through formula and competitive programs.

Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the SNAP. The E&T program
requires recipients of SNAP benefits to participate in an employment and training program as a
condition to SNAP eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’
E&T program has placed 701,721 work registrants subject to the 3 - month SNAP participant limit and
1,670,958 work registrants not subject to the limit in either job-search, job-training, job-workfare,
education, or work experience.

Agricultural Research Service
As the Nation’s primary source for agricultural information, the National Agricultural Library (NAL)
has a mission to increase the availability and utilization of agricultural information for researchers,
educators, policymakers, consumers of agricultural products, and the public. The NAL is one of the
world’s largest and most accessible agricultural research libraries and plays a vital role in supporting
research, education, and applied agriculture.

The NAL was created as the departmental library for USDA in 1862 and became a national library in
1962. One of four national libraries of the U.S. (with the Library of Congress, the National Library of


                                                =        Fiscal Year 2012 Agency Financial Report         113
SECTION 2: Financial Information

Medicine, and the National Library of Education), it is also the coordinator for a national network of
State land-grant and USDA field libraries. In its international role, the NAL serves as the U.S. center
for the international agricultural information system, coordinating and sharing resources and enhancing
global access to agricultural data. The NAL collection of over 50 million items and its leadership role
in information services and technology applications combine to make it the foremost agricultural
library in the world.

Risk Management Agency
FCIC has formed partnerships with NIFA, the Commodity Futures Trading Commission, the USDA
National Office of Outreach, the ERS, and private industry to leverage the Federal Government’s
funding of its Risk Management Education (RME) program by using both public and private
organizations to help educate their members in agricultural risk management. RME expanded State and
Regional education partnerships; encouraged the development of information and technology-based
decision aids; facilitated local crop insurance education and risk management training workshops
throughout the nation through Cooperative Agreements with educational institutions and community-
based outreach organizations.

During fiscal years 2012 and 2011, the RME program worked toward its goals by funding risk
management sessions, most of which directly target producers. The number of producers reached
through these sessions is approximately 81,000 in fiscal year 2012 and 79,500 in fiscal year 2011. In
addition to reaching producers, some training sessions helped those who work with producers (such as
lenders, agricultural educators, and other agricultural professionals) to better understand those areas of
risk management with which they may be unfamiliar. Total RME obligations incurred by FCIC were
approximately $12.6 million and $9.6 million in fiscal years 2012 and 2011, respectively.



                        (dollars in millions)                  2012     2011     2010     2009     2008
              RME Obligations                              $   12.6     9.6      6        6        10

              Number of producers attending RME sessions       81,000   79,500   47,100   20,000   49,000



Research and Development
Agricultural Research Service
The ARS mission is to conduct research to develop and transfer solutions to agricultural problems of
high national priority and provide information access and dissemination to: ensure high quality, safe
food, and other agricultural products; assess the nutritional needs of Americans; sustain a competitive
agricultural economy; enhance the natural resource base and the environment; and provide economic
opportunities for rural citizens, communities, and society as a whole. ARS’ programs are aligned under
the Department’s priorities as follows:

USDA Strategic Goal 1: Assist Rural Communities to Create Prosperity So They Are Self-
Sustaining, Repopulating, and Economically Thriving
Product Quality/Value Added – Many agricultural products are marketed as low value commodities
and harvested commodities often suffer losses due to spoilage or damage during shipping, storage, and
handling. Healthy foods are often not convenient and/or are not widely accepted by many consumers.


114    150th Anniversary | United States Department of Agriculture
                                     USDA: Managing for Results in Performing Its Many Vital Public Functions

Biobased product represent small fraction of the market for industrial products and their performance
is often uncertain. Biofuels and some biobased products are not yet economically competitive with
petroleum-based products.

ARS has active research programs directed toward: 1) improving the efficiency and reducing the cost
for the conversion of agricultural products into biobased products and biofuels; 2) developing new and
improved products to help establish them in domestic and foreign markets; and 3) providing higher
quality, healthy foods that satisfy consumer needs in the United States and abroad. Note: Some of
ARS’ Livestock and Crop Production research is carried out under this Strategic Goal and Strategic
Goal 3.

National Agricultural Library — The Library, the world’s largest library serving agriculture,
delivered more than 106.7 million direct customer service transactions in FY 2012, a 9.4 percent
increase from the FY 2011 level.

Buildings and Facilities —ARS has approximately 99 laboratory locations, primarily located
throughout the United States. ARS’ facilities programs are designed to meet the needs of its scientists
and support personnel to accomplish the agency’s mission.

USDA Strategic Goal 2: Ensure Our National Forests and Private Working Lands Are Conserved,
Restored, and Made More Resilient to Climate Change, While Enhancing Our Water Resources
Environmental Stewardship — ARS’ research programs in environmental stewardship support
scientists at seventy locations. Emphasis is given to developing technologies and systems that support
profitable production and enhance the Nation’s vast renewable natural resource base.

ARS is currently developing the scientific knowledge and technologies needed to meet the challenges
and opportunities facing U.S. agriculture in managing water resource quality and quantity under
different climatic regimes, production systems, and environmental conditions. ARS’ air resources
research is developing measurements, prediction, and control technologies for emissions of greenhouse
gases, particulate matter, ammonia, hydrogen sulfide, and volatile organic compounds affecting air
quality and land-surface climate interactions. The agency is a leader in developing measurement and
modeling techniques for enhancing the health and productivity of soils, including developing
predictive tools to assess the sustainability of alternative land management practices. Finding
mechanisms to aid agriculture in adapting to changes in atmospheric composition and climatic
variations are also important components of ARS’ research program.

ARS’ grazing and range land research includes the conservation and restoration of the Nation’s range
land and pasture ecosystems and agroecosystems through improved management of fire, invasive
weeds, grazing, global change, and other agents of ecological change. ARS is currently developing
improved grass and forage legume germplasm for livestock, conservation, bioenergy, and bioproduct
systems as well as grazing-based livestock systems that reduce risk and increase profitability. In
addition, the agency is developing whole system of management strategies to reduce production costs
and risks.

USDA Strategic Goal 3: Help America Agricultural Production and Biotechnology Exports As
America Works to Increase Food Security
Livestock Production — ARS’ livestock production program is directed toward: 1) safeguarding and
utilizing animal genetic resources, associated genetic and genomic databases, and bioinformatics tools;

                                               =        Fiscal Year 2012 Agency Financial Report         115
SECTION 2: Financial Information

2) developing a basic understanding of the physiology of livestock and poultry; and 3) developing
information, tools, and technologies that can be used to improve animal production systems. The
research is heavily focused on the development and application of genomics technologies to increase
the efficiency and product quality of beef, dairy, swine, poultry, aquaculture, and sheep systems.

Current areas of emphasis include increasing efficiency of nutrient utilization; increasing animal well
being and reducing stress in production systems; increasing reproductive rates and breeding animal
longevity; developing and evaluating non-traditional production systems (e.g., organic, natural); and
evaluating and conserving animal genetic resources.

Crop Production — ARS’ crop production program focuses on developing and improving ways to
reduce crop losses while protecting and ensuring a safe and affordable food supply. The research
program concentrates on effective production strategies that are environmentally friendly, safe to
consumers, and compatible with sustainable and profitable crop production systems. Research
activities are directed at safeguarding and utilizing plant genetic resources and their associated genetic,
genomic, and bioinformatics databases that facilitate selection of varieties and/or germplasm with
significantly improved traits.

Current research activities attempt to minimize the impacts of crop pests while maintaining healthy
crops and safe commodities that can be sold in markets throughout the world. ARS is conducting
research to discover and exploit naturally occurring and engineered genetic mechanisms for plant pest
control; develop agronomic germplasm with durable defensive traits, and transfer genetic resources for
commercial use. ARS is also providing taxonomic information on invasive species that strengthen
prevention techniques, aid in detection/identification of invasives, and increase control through
management tactics which restore habitats and biological diversity.

USDA Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe, Nutritious,
and Balanced Meals
Food Safety — Assuring that the United States has the highest levels of affordable, safe food requires
that the food system be protected at each stage from production through processing and consumption
from pathogens, toxins, and chemical contaminants that cause diseases in humans. The U.S. food
supply is very diverse, extensive, easily accessible, and thus vulnerable to the introduction of
biological and chemical contaminants through natural processes, intentional means, or by global
commerce.

ARS’ current food safety research is designed to yield science-based knowledge on the safe
production, storage, processing, and handling of plant and animal products, and on the detection and
control of toxin producing and/or pathogenic bacteria and fungi, parasites, chemical contaminants, and
plant toxins. ARS’ research activities involve a high degree of cooperation and collaboration both
within the USDA-REE agencies as well as with USDA’s FSIS and the APHIS, and with other entities,
including the Food and Drug Administration, the Centers for Disease Control, the Department of
Homeland Security, and the Environmental Protection Agency. ARS also collaborates in international
research programs to address and resolve global food safety issues.

Specific research efforts are directed toward developing new technologies that assist ARS stakeholders
and customers, that is, regulatory agencies, industry, and commodity and consumer organizations in
detecting, identifying, and controlling foodborne diseases that affect human health.


116    150th Anniversary | United States Department of Agriculture
                                      USDA: Managing for Results in Performing Its Many Vital Public Functions

Livestock Protection — ARS’ animal health program is directed at protecting and ensuring the safety
of the Nation’s agriculture and food supply through improved disease detection, prevention, control,
and treatment. Basic and applied research approaches are used to solve animal health problems of high
national priority. Emphasis is given to methods and procedures to control animal diseases.

The research program has ten strategic objectives: 1) establish ARS’ laboratories into a fluid, highly
effective research network to maximize use of core competencies and resources; 2) access specialized
high containment facilities to study zoonotic and emerging diseases; 3) develop an integrated animal
and microbial genomics research program; 4) establish centers of excellence in animal immunology; 5)
launch a biotherapeutic discovery program providing alternatives to animal drugs; 6) build a
technology driven vaccine and diagnostic discovery research program; 7) develop core competencies
in field epidemiology and predictive biology; 8) develop internationally recognized expert
collaborative research laboratories; 9) establish a best in class training center for our Nation’s
veterinarians and scientists; and 10) develop a model technology transfer program to achieve the full
impact of ARS’ research discoveries.

ARS’ current animal research program includes eight core components: 1) biodefense research, 2) animal
genomics and immunology, 3) zoonotic diseases, 4) respiratory diseases, 5) reproductive and neonatal
diseases, 6) enteric diseases, 7) parasitic diseases, and 8) transmissible spongiform encephalopathies.

Crop Protection – ARS research on crop protection is directed toward epidemiological investigations
to understand pest and disease transmission mechanisms, and to identify and apply new technologies
that increase our understanding of virulence factors and host defense mechanisms.

Currently, ARS’ research priorities include: 1) identification of genes that convey virulence traits in
pathogens and pests; 2) factors that modulate infectivity, gene functions, and mechanisms; 3) genetic
profiles that provide specified levels of disease and insect resistance under field conditions, and 4)
mechanisms that facilitate the spread of pests and infectious diseases.

ARS is developing new knowledge and integrated pest management approaches to control pest and
disease outbreaks as they occur. Its research will improve the knowledge and understanding of the
ecology, physiology, epidemiology, and molecular biology of emerging diseases and pests. This
knowledge will be incorporated into pest risk assessments and management strategies to minimize
chemical inputs and increase production. Strategies and approaches will be available to producers to
control emerging crop diseases and pest outbreaks.

Human Nutrition – Maintenance of health throughout the lifespan along with prevention of obesity
and chronic diseases via food-based recommendations are the major emphasis of ARS’ human
nutrition research program. These health-related goals are based on the knowledge that deficiency
diseases are no longer the most important public health concerns. Excessive consumption has become
the primary nutrition problem in the American population. This is reflected by increased emphasis on
prevention of obesity from basic science through intervention studies to assessments of large
populations. ARS’ research programs also actively study bioactive components of foods that have no
known requirement but have health promotion activities.

Four specific areas of research are currently emphasized: 1) nutrition monitoring and the food supply,
e.g., a national diet survey and the food composition databank; 2) dietary guidance for health
promotion and disease prevention, i.e., specific foods, nutrients, and dietary patterns that maintain


                                                =        Fiscal Year 2012 Agency Financial Report         117
SECTION 2: Financial Information

health and prevent diseases; 3) prevention of obesity and related diseases, including research as to why
so few of the population do not follow the Dietary Guidelines for Americans; and 4) life stage nutrition
and metabolism, in order to better define the role of nutrition in pregnancy, growth of children, and for
healthier aging.

National Institute of Food and Agriculture
NIFA participates in a nationwide land-grant university system of agriculture related research and
program planning and coordination between State institutions and USDA. It assists in maintaining
cooperation among the State institutions, and between the State institutions and their Federal research
partners. NIFA administers grants and formula payments to State institutions to supplement State and
local funding for agriculture research.

Forest Service
Forest Service R&D has an integrated portfolio that supports achievement of the agency’s strategic
goals. The Forest Service R&D structure has two components: Priority Research Areas and Strategic
Program Areas (SPAs).

The Priority Research Areas address urgent needs in seven areas: Forest Disturbances, Forest
Inventory and Analysis, Watershed Management and Restoration, Bioenergy and Biobased Products,
Urban Natural Resources Stewardship, Nanotechnology, and Localized Needs Research.

The SPAs are the long-term programs from which Priority Research Areas are funded; the SPAs are:

Wildland Fire and Fuels - R&D provides managers with the knowledge and tools to reduce negative
impacts, while enhancing the beneficial effects of wildland fire, as a natural process. This knowledge
and these tools are critical to understanding the human process of fire and fuels management on society
and the environment.

Research focuses on understanding and modeling fundamental fire processes; interactions of fire with
ecosystems; and the environmental, social, and economic aspects of fire, as well as evaluating the
integrated management strategies and disturbance interactions at multiple scales and the application of
fire research to address management problems.

Invasive Species - R&D provides the scientific information, methods, and technology to reduce or
eliminate the introduction, spread, and impact of invasive species and to restore or improve the
functionality of ecosystems affected by invasives species.

Research focuses on non-native plants, animals, fish, insects, diseases, invertebrates, and other species
whose introduction is likely to cause economic or environmental harm to an ecosystem.

Water, Air, and Soil - R&D enables the sustainable management of these essential resources by
providing clear air and safe drinking water, by protecting lives and property from wildlife fire and
smoke, and through adapting to climate variability and change.

The program features ecosystem services with a high level of integration between water, air, and soil
research, such as the effects of climate variability and change on water budgets or carbon sequestration
metrics from an ecosystem perspective.


118    150th Anniversary | United States Department of Agriculture
                                       USDA: Managing for Results in Performing Its Many Vital Public Functions

Wildlife and Fish - R&D relies upon interdisciplinary research to inform policy initiatives affecting
wildlife and fish habitat on private and public lands, and the recovery of threatened or endangered species.

Scientists investigate the complex interactions among species, ecosystem dynamics and processes, land
use and management, and any emerging broadscale threats, including global climate change, loss of
open space, invasive species, and disease.

Resource Management and Use - R&D provides the scientific and technology base to sustainably
manage and use forest resources and forest fiber-based products.

Research focuses on the plant sciences, soil sciences, social sciences, silviculture, productivity, forest
and range ecology management, harvesting and operations, forest and biomass products and
utilization, economics, urban forestry, and climate change.

Outdoor Recreation - R&D promotes human and ecological sustainability by researching
environmental management, activities, and experiences that connect people with the natural world.

Research in outdoor recreation is interdisciplinary, focusing on nature-based recreation and the
changing trends in American society; connections between recreation visitors, communities, and the
environment; human benefits and consequences of recreation and nature contact; the effectiveness of
recreation management and decisionmaking; and sustaining ecosystems affected by recreational use.

Inventory and Monitoring - R&D provides the resource data, analysis, and tools needed to monitor
vulnerable forest ecosystems to rapid change due to threats from fire, insects, disease, natural
processes, or management actions. From their research, scientists determine the status and trend of the
health of the Nation’s forests and grasslands, and the potential impact from climate change.

Their research integrates the development and use of science, technology, and remotely sensed data to
better understand the incidences of forest fragmentation over time from changes in land use or from
insects, disease, fire, and extreme weather events.

A representative summary of FY 2012 accomplishments include the following:

      32 new interagency agreements and contracts
      12 interagency agreements and contracts continued
      3,049 articles published in journals
      650 articles published in all other publications
      8 patents granted
      3 patent licenses executed

Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions
on agriculture, food, natural resources, and rural America. Research results and economic indicators on
these important issues are fully disseminated through published and electronic reports and articles;
special staff analyses, briefings, presentations, and papers; databases; and individual contacts. ERS’
objective information and analysis helps public and private decision makers attain the goals that


                                                 =        Fiscal Year 2012 Agency Financial Report         119
SECTION 2: Financial Information

promote agricultural competitiveness, food safety and security, a well-nourished population,
environmental quality, and a sustainable rural economy.

National Agricultural Statistics Service
Statistical research is conducted to improve the statistical methods and related technologies used in
developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS
estimation program through development of better estimators at lower cost and with less respondent
burden. This means greater efficiency in sampling and data collection coupled with higher quality data
upon which to base the official estimates. Two additional high priority items are significance editing,
or cleaning of the respondent data; and research on quality operations for the new National Operations
Center. The significance editing has potential to enhance the quality of survey data and reduce manual
operations in preparing the survey responses for summary. While the research on quality process
increases data quality through the processes of the National Operations Center. In addition, products
for data users are being improved using technologies such as remote sensing and geographic
information systems. Continued service to users will be increasingly dependent upon methodological
and technological efficiencies.




120    150th Anniversary | United States Department of Agriculture
                                     USDA: Managing for Results in Performing Its Many Vital Public Functions


Required Supplementary Information
Deferred Maintenance and Repairs (Unaudited)
Deferred maintenance and repairs is maintenance and repair activity that was not preformed when it
should have been or was scheduled to be to and which is put off or delayed to a future period.

Maintenance and repairs are activities directed toward keeping fixed assets in an acceptable condition.
Activities include preventive maintenance; replacement of parts, systems, components; and other
activities needed to preserve or maintain the asset. Maintenance and repairs, as distinguished from
capital improvements, exclude activities directed towards expanding the capacity of an asset or
otherwise upgrading it to serve needs different from, or significantly greater than, its current use.

Forest Service
                                              Cost to Return to     Cost of Critical   Cost of Non-critical
        FY 2012
                                             Acceptable Condition    Maintenance         Maintenance


  Asset Class
      Bridges                                $                190    $          35     $              155
      Buildings                                             1,173               84                  1,089
      Dam                                                      22                8                     14
      Minor Constructed Features                              103                -                    103
      Fence                                                   268              268                      -
      Handling Facility                                        22               22                      -
      Heritage                                                 20                3                     17
      Road                                                  3,761              376                  3,385
      Trail Bridge                                              9                3                      6
      Wastewater                                               34               16                     18
      Water                                                   102               56                     46
      Wildlife, Fish, TES                                       7                5                      2
      Trails                                                  314                6                    308
      General Forest Area                                       -                -                      -
  Total Forest Service                       $              6,025    $         882     $            5,143


                                              Cost to Return to     Cost of Critical   Cost of Non-critical
        FY 2011
                                             Acceptable Condition    Maintenance         Maintenance
  Asset Class
      Bridges                                $                185    $          34     $              151
      Buildings                                             1,064               83                    981
      Dam                                                      23                8                     15
      Minor Constructed Features                              109                -                    109
      Fence                                                   293              293                      -
      Handling Facility                                        22               22                      -
      Heritage                                                 26                7                     19
      Road                                                  3,333              333                  3,000
      Trail Bridge                                             10                3                      7
      Wastewater                                               36               19                     17
      Water                                                   109               61                     48
      Wildlife, Fish, TES                                       7                5                      2
      Trails                                                  296                6                    290
      General Forest Area                                       -                -                      -
  Total Forest Service                       $              5,513    $         874     $            4,639




                                                 =      Fiscal Year 2012 Agency Financial Report              121
SECTION 2: Financial Information

Deferred maintenance is reported for general Property, Plant, and Equipment (PP&E), heritage assets,
and stewardship land. It is also reported separately for critical and noncritical amounts of maintenance
needed to return each class of asset to its acceptable operating condition. Critical maintenance is
defined as a serious threat to public health or safety, a natural resource, or the ability to carry out the
mission of the organization. Noncritical maintenance is defined as a potential risk to the public or
employee safety or health (e.g., compliance with codes, standards, or regulations) and potential adverse
consequences to natural resources or mission accomplishment.

The FS uses condition surveys to estimate deferred maintenance on all major classes of its PP&E. Over
the past decade, the FS has implemented a national effort to collect detailed data on infrastructure
condition and maintenance and improvement needs. No deferred maintenance exists for fleet vehicles
as they are managed through the agency’s working capital fund. Each fleet vehicle is maintained
according to schedule. The cost of maintaining the remaining classes of equipment is expensed.

The agency is committed to sustaining a manageable level of infrastructure—disinvesting in
infrastructure that can no longer be managed to appropriate standards, rightsizing its asset portfolio,
and eliminating the substantial backlog of deferred maintenance.

Deferred maintenance estimates for most assets—except bridges—are based on condition surveys
performed on a 5-year maximum revolving schedule. The bridge class is on a 2-year maximum
revolving schedule. To date, surveys of all administrative buildings, dams, bridges, roads open to
passenger cars, and recreation sites have been accomplished. The agency’s deferred maintenance for
National Forest System (NFS) roads is determined annually from random sample surveys, providing an
80-percent level of confidence.

The overall condition of major asset classes range from poor to good depending on the location, age,
and type of property. The standards for acceptable operating condition for various classes of general
PP&E, stewardship, and heritage assets are as follows.

Conditions of roads and bridges within the National Forest System (NFS) road system are measured by
various standards:

         Federal Highway Administration regulations for the Federal Highway Safety Act;
         Best management practices for the nonpoint source provisions of the Clean Water Act from
          Environmental Protection Agency and States;
         Road management objectives developed through the National Forest Management Act forest
          planning process; and
         Forest Service directives—Forest Service Manual (FSM) 7730, Operation and Maintenance
          (August 25, 2005, amendment was superseded with October 1, 2008, revision); Forest Service
          Handbook (FSH) 7709.56a, Road Preconstruction, and FSH 7709.56b, Transportation
          Structures Handbook.

Dams shall be managed according to FSM 7500, Water Storage and Transmission, and FSH 7509.11,
Dams Management Handbook. The condition of a dam is acceptable when the dam meets current
design standards and does not have any deficiencies that threaten the safety of the structure or public.
For dams to be rated in acceptable condition, the agency needs to restore the dams to the original
functional purpose, correct unsightly conditions, or prevent more costly repairs.

122       150th Anniversary | United States Department of Agriculture
                                      USDA: Managing for Results in Performing Its Many Vital Public Functions

Buildings shall comply with the National Life Safety Code, the Forest Service Health and Safety
Handbook, and the Occupational Safety Health Administration as determined by condition surveys.
These requirements are found in FSM 7310, Buildings and Related Facilities, revised November 19,
2004. The condition of administrative facilities ranges from poor to good, with approximately 35
percent needing major repairs or renovations; approximately 14 percent in fair condition; and 51
percent of the facilities in good condition.

The agency is currently developing an integrated strategy to realign our administrative facility
infrastructure to meet current organizational structure and to reduce the maintenance liability for
unneeded buildings, free up land for use by local communities and private enterprise, and provide
added funds for infrastructure maintenance and development. Forest Service anticipates maximum
benefits from a combination of appropriations, facility conveyance receipts, and decommissioning of
unneeded facilities.

Recreation facilities include developed recreation sites, general forest areas, campgrounds, trailheads,
trails, water and wastewater systems, interpretive facilities, and visitor centers. These components are
included in several asset classes of the deferred maintenance exhibit. All developed sites are managed
in accordance with Federal laws and regulations (Code of Federal Regulations (CFR) 36).

Detailed management guidelines are contained in FSM 2330, Publicly Managed Recreation
Opportunities, and forest- and regional-level user guides. Quality standards for developed recreation
sites were established as Meaningful Measures for health and cleanliness, settings, safety and security,
responsiveness, and the condition of the facility.

The condition assessment for range structures (fences and stock handling facilities) is based on (1) a
determination by knowledgeable range specialists or other district personnel of whether the structure
would perform the originally intended function, and (2) a determination through the use of a protocol
system to assess conditions based on age. A long-standing range methodology is used to gather this data.

Heritage assets include archaeological sites that require determinations of National Register of Historic
Places status, National Historic Landmarks, and significant historic properties. Some heritage assets
may have historical significance, but their primary function in the agency is as visitation or recreation
sites and, therefore, may not fall under the management responsibility of the heritage program.

Trails and trail bridges are managed according to Federal law and regulations (CFR 36). More specific
direction is contained in FSM 2350, Trail, River, and Similar Recreation Opportunities, and the FSH
2309.18, Trails Management Handbook.

Deferred maintenance of structures for wildlife, fish, and threatened and endangered species is
determined by field biologists using their professional judgment. The deferred maintenance is
considered critical if resource damage or species endangerment would likely occur if maintenance
were deferred much longer.

Condition of Heritage Assets and Stewardship Lands
Heritage Assets
Heritage professionals are responsible for documenting and maintaining cultural resource condition
assessments to standard. Periodic monitoring and condition assessments are the basis for applying


                                                =        Fiscal Year 2012 Agency Financial Report         123
SECTION 2: Financial Information

protective measures and treatments to vulnerable, deteriorating, or threatened cultural resources. The
condition of heritage assets depends on the type of asset and varies from poor to fair.

Stewardship Land
The condition of NFS lands varies by purpose and location. The FS monitors the condition of its
stewardship lands based on information compiled by two national inventory and monitoring
programs—Forest Inventory and Analysis and Forest Health Monitoring.

Although most of the estimated 193 million acres of stewardship lands continue to produce valuable
benefits – clean air and water, habitat for wildlife, and products for human use – significant portions
are at risk to pest outbreaks or catastrophic fires.

There are 25 million acres of NFS forest lands at risk to future mortality from insects and diseases,
based on the 2006 publication of Mapping Risk from Forest Insects and Diseases. Invasive species of
insects, diseases, and plants continue to affect our native ecosystems by causing mortality to, or
displacement of, native vegetation.

The FY 2012 accomplishments on NFS and State and Private Forestry lands include treatment of
925,475 acres for invasives and 282,071 acres for native pests. These numbers should be considered
preliminary, with final amounts of acres treated for invasives and native pests on NFS lands available
in February 2013 at www.fs.fed.us.

Agricultural Research Service

                                            FY 2012        FY 2011
  Asset Class
     Buildings                             $     271      $     261
     Structures                                   19             21
     Heritage                                     90             95
  Total Agricultural Research Service      $     380      $     377



Deferred Maintenance (DM) includes work needed to meet laws, regulations, codes and other legal
direction as long as the original intent or purpose of the fixed asset is not changed. Also includes work
performed to bring an asset up to present environmental standards or correction of safety problems.
Critical DM is DM that is identified for critical systems including HVAC, electrical, roofing, and
plumbing tasks. Non-critical DM is all other systems. DM is reported for buildings, structures and
heritage assets.

Executive Order (EO) 13327 requires all Federal agencies to assess the condition of their facilities and
plan for their full life cycle management. The Condition Index (CI) is a general measure of the
constructed asset’s condition at a specific point in time. It is calculated as the ration of repair needs, or
DM, to plant replacement value (PRV). PRV can be calculated systematically and without much effort.
The condition of the constructed asset is a more difficult figure to determine. A repair need is the
amount necessary to ensure a constructed asset is restored to a condition substantially equivalent to the
originally intended and designed capacity, efficiency or capability. Ideally, with enough money and
time, repair needs would be determined for each asset by inspection, evaluation of the repairs required,
and consistent estimating of the repairs throughout ARS. ARS does not have available manpower in-


124    150th Anniversary | United States Department of Agriculture
                                     USDA: Managing for Results in Performing Its Many Vital Public Functions

house to complete this type of inspection and estimating, nor the funding to contract. ARS looked at
approaches to model ARS assets and evaluate the results for management purposes.

Whitestone Research is a company that estimates DM based on the age of the facility, geographic
location, typical major components and size of the structure. Whitestone first inspected a sample of
1,160 buildings from 38 ARS sites (roughly 53 percent of the total inventory) and used parametric
models to estimate DM and PRV. The Whitestone Report only addresses Existing Active – Real
Property and excludes excess and inactive property. The results were generalized to the entire
population of ARS facilities. Assuming a PRV of $4 billion, the CI ratio (1 - $DM/PRV) is 92.7
percent, an outcome commonly classified as “adequate.




                                               =        Fiscal Year 2012 Agency Financial Report         125
SECTION 2: Financial Information

Statement of Budgetary Resources (Unaudited)



FY 2012                                                                                         FSA                        CCC                 FAS           RMA            FNS            FSIS           AMS           APHIS
                                                                                               Non-Budgetary              Non-Budgetary
                                                                                                 Financing                  Financing
                                                                                     Budgetary    Accounts      Budgetary   Accounts       Budgetary     Budgetary     Budgetary       Budgetary      Budgetary     Budgetary

Budgetary Resources:
Unobligated balance, brought forward, October 1:                                     $   2,780 $       1,053    $    1,870 $        656    $      455    $      565    $    10,726     $       17     $      126    $       324
Unobligated balance brought forward, October 1, as adjusted                              2,780         1,053         1,870          656           455           565         10,726             17            126            324
Recoveries of prior year unpaid obligations                                                215            85         1,199           29            48             3            817             11             19             39
Other changes in unobligated balance (+ or -)                                              (85)         (922)          (50)        (437)          (90)           (1)        (3,262)            (1)            (2)            (4)
Unobligated balance from prior year budget authority, net                                2,910           216         3,019          248           413           567          8,281             27            143            359
Appropriations (discretionary and mandatory)                                             1,003             -         2,504            -           370         7,681        117,370          1,015          1,123          1,103
Borrowing authority (discretionary and mandatory)                                          400         1,970        11,267          220             -             -              -              -              -              -
Spending authority from offsetting collections (discretionary and mandatory)               468           639         5,716          283           365         5,000            117            171            115            202
Total budgetary resources                                                                4,781         2,825        22,506          751         1,148        13,248        125,768          1,213          1,381          1,664

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                           3,035         2,298        21,292         410           569         12,681        107,404          1,173          1,254          1,310
Unobligated balance, end of year:
Apportioned                                                                                425           240           200         217            157           564          5,581             18             86             47
Exempt from apportionment                                                                  769             -           355           5              -             -              -              -              -              -
Unapportioned                                                                              552           287           659         119            422             3         12,783             22             41            307
Total unobligated balance, end of year                                                   1,746           527         1,214         341            579           567         18,364             40            127            354
Total budgetary resources                                                                4,781         2,825        22,506         751          1,148        13,248        125,768          1,213          1,381          1,664

Change in Obligated Balances:
Unpaid obligations, brought forward, October 1 (gross)                                      652          438          9,925         210           235           460           6,661            185           222            422
Uncollected customer payments from Federal sources, brought forward, October 1 (-)         (125)         (22)           (53)       (158)         (336)            -               -            (28)           (5)           (75)
Obligated balance, start of year (net), before adjustments (+ or -)                         527          416          9,872          52          (101)          460           6,661            157           217            347
Obligated balance, start of year (net), as adjusted                                         527          416          9,872          52          (101)          460           6,661            157           217            347
Obligations incurred                                                                      3,035        2,298         21,292         410           569        12,681         107,404          1,173         1,254          1,310
Outlays (gross) (-)                                                                      (3,048)      (2,277)       (18,659)       (418)         (556)       (9,888)       (106,052)        (1,163)       (1,215)        (1,270)
Change in uncollected customer payments from Federal sources (+ or -)                        63            3            (81)          -          (244)            -               -             (3)          (11)           (64)
Actual transfers, unpaid obligations (net)(+ or -)                                            -            -              -           -             -             -               -              -             -              -
Recoveries of prior year unpaid obligations (-)                                            (215)         (85)        (1,199)        (29)          (48)           (3)           (817)           (11)          (19)           (39)
      Obligated balance, end of year:
Unpaid obligations, end of year (gross)                                                    425          372         11,358          173           199         3,251          7,196            184           242             423
Uncollected customer payments from Federal sources, end of year (-)                        (62)         (18)          (134)        (157)         (580)            -              -            (31)          (15)           (139)
Obligated balance, end of year (net)                                                       363          354         11,224           16          (381)        3,251          7,196            153           227             284

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                    1,871         2,609        19,486          503           735        12,681        117,488          1,186          1,238          1,305
Actual offsetting collections (discretionary and mandatory) (-)                           (711)       (2,032)       (9,437)        (562)         (120)       (5,001)          (116)          (167)           (78)          (137)
Change in uncollected customer payments from Federal sources                                63             3           (81)           -          (244)            -              -             (3)           (11)           (64)

Anticipated offsetting collections (discretionary and mandatory) (+ or -)                    -             -             -            -             -             -            -                -              -              -
Budget authority, net (discretionary and mandatory)                                      1,223           580         9,968          (59)          371         7,680      117,372            1,016          1,149          1,104
Outlays, gross (discretionary and mandatory)                                             3,048         2,277        18,659          418           556         9,888      106,052            1,163          1,215          1,270
Actual offsetting collections (discretionary and mandatory) (-)                           (711)       (2,032)       (9,437)        (562)         (120)       (5,001)        (116)            (167)           (78)          (137)
Outlays, net (discretionary and mandatory)                                               2,337           245         9,222         (144)          436         4,887      105,936              996          1,137          1,133
Distributed offsetting receipts (-)                                                          -          (209)            -          (74)          (26)            -            1              (11)          (147)            (9)
Agency outlays, net (discretionary and mandatory)                                    $   2,337 $          36    $    9,222 $       (218)   $      410    $    4,887    $ 105,937       $      985     $      990    $     1,124




126          150th Anniversary | United States Department of Agriculture
                                                                                                                                                         USDA: Managing for Results in Performing Its Many Vital Public Functions



FY 2012                                                                                  GIPSA         FS            NRCS           ARS           NIFA           ERS                 NASS                RD                   DO                 TOTAL
                                                                                                                                                                                                         Non-Budgetary                            Non-Budgetary
                                                                                                                                                                                                           Financing                                Financing
                                                                                     Budgetary     Budgetary     Budgetary      Budgetary     Budgetary      Budgetary           Budgetary     Budgetary   Accounts       Budgetary     Budgetary   Accounts

Budgetary Resources:
Unobligated balance, brought forward, October 1:                                     $       20    $   1,907     $    1,873     $       57    $      277     $          4        $       5      $    4,032 $     3,895    $     200     $    25,238 $     5,604
Unobligated balance brought forward, October 1, as adjusted                                  20        1,907          1,873             57           277                4                5           4,032       3,895          200          25,238       5,604
Recoveries of prior year unpaid obligations                                                   1          131            463             28           157                5               15             317       1,705           65           3,533       1,819
Other changes in unobligated balance (+ or -)                                                (1)          (2)           (12)            (4)           (6)              (2)               -             (64)     (3,083)          (7)         (3,593)     (4,442)
Unobligated balance from prior year budget authority, net                                    20        2,036          2,324             81           428                7               20           4,285       2,517          258          25,178       2,981
Appropriations (discretionary and mandatory)                                                 38        5,296          4,485          1,125         1,347               78              159           4,685           -          534         149,916           -
Borrowing authority (discretionary and mandatory)                                             -            -              -              -             -                -                -               -       9,441            -          11,667      11,631
Spending authority from offsetting collections (discretionary and mandatory)                 50          757            231            143            41                2               22           2,052       6,185        1,050          16,502       7,107
Total budgetary resources                                                                   108        8,089          7,040          1,349         1,816               87              201          11,022      18,143        1,842         203,263      21,719

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                               91        6,698          4,602          1,284         1,575               84              200           5,102      13,857        1,583         169,937      16,565
Unobligated balance, end of year:
Apportioned                                                                                  12          800            425             48           244                1                -           1,153       1,877          217           9,978       2,334
Exempt from apportionment                                                                     -            -              -              -             -                -                -               -           -            -           1,124           5
Unapportioned                                                                                 5          591          2,013             17            (3)               2                1           4,767       2,409           42          22,224       2,815
Total unobligated balance, end of year                                                       17        1,391          2,438             65           241                3                1           5,920       4,286          259          33,326       5,154
Total budgetary resources                                                                   108        8,089          7,040          1,349         1,816               87              201          11,022      18,143        1,842         203,263      21,719

Change in Obligated Balances:
Unpaid obligations, brought forward, October 1 (gross)                                       10         2,771          4,254           494          2,136           40                   44          7,664      27,884           462          36,637     28,532
Uncollected customer payments from Federal sources, brought forward, October 1 (-)           (5)         (485)          (159)         (154)          (118)          (6)                  (7)           (15)       (767)         (448)         (2,019)      (947)
Obligated balance, start of year (net), before adjustments (+ or -)                           5         2,286          4,095           340          2,018           34                   37          7,649      27,117            14          34,618     27,585
Obligated balance, start of year (net), as adjusted                                           5         2,286          4,095           340          2,018           34                   37          7,649      27,117            14          34,618     27,585
Obligations incurred                                                                         91         6,698          4,602         1,284          1,575           84                  200          5,102      13,857         1,583         169,937     16,565
Outlays (gross) (-)                                                                         (88)       (6,781)        (3,878)       (1,294)        (1,425)         (82)                (188)        (6,157)    (14,312)       (1,481)       (163,225)   (17,007)
Change in uncollected customer payments from Federal sources (+ or -)                        (2)          (46)          (147)          (26)           (14)           -                    1             (5)       (132)           22            (557)      (129)
Actual transfers, unpaid obligations (net)(+ or -)                                            -             -              -             -              -            -                    -              -           -             -               -          -
Recoveries of prior year unpaid obligations (-)                                              (1)         (131)          (463)          (28)          (157)          (5)                 (15)          (317)     (1,705)          (65)         (3,533)    (1,819)
      Obligated balance, end of year:
Unpaid obligations, end of year (gross)                                                      12        2,557          4,514            457         2,128               38               42           6,292      25,725          498          39,816      26,270
Uncollected customer payments from Federal sources, end of year (-)                          (7)        (531)          (306)          (180)         (131)              (7)              (6)            (20)       (900)        (427)         (2,576)     (1,075)
Obligated balance, end of year (net)                                                          5        2,026          4,208            277         1,997               31               36           6,272      24,825           71          37,240      25,195

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                        88        6,053          4,716          1,268         1,388               80              181           6,737      15,626         1,584        178,085      18,738
Actual offsetting collections (discretionary and mandatory) (-)                             (48)        (712)           (85)          (117)          (28)              (2)             (24)         (3,627)    (10,071)       (1,071)       (21,481)    (12,665)
Change in uncollected customer payments from Federal sources                                 (2)         (46)          (147)           (26)          (14)               -                1              (5)       (132)           22           (557)       (129)

Anticipated offsetting collections (discretionary and mandatory) (+ or -)                     -            -              -              -             -                -                -               -           -             -            -             -
Budget authority, net (discretionary and mandatory)                                          38        5,295          4,484          1,125         1,346               78              158           3,105       5,423           535      156,047         5,944
Outlays, gross (discretionary and mandatory)                                                 88        6,781          3,878          1,294         1,425               82              188           6,157      14,312         1,481      163,225        17,007
Actual offsetting collections (discretionary and mandatory) (-)                             (48)        (712)           (85)          (117)          (28)              (2)             (24)         (3,627)    (10,071)       (1,071)     (21,481)      (12,665)
Outlays, net (discretionary and mandatory)                                                   40        6,069          3,793          1,177         1,397               80              164           2,530       4,241           410      141,744         4,342
Distributed offsetting receipts (-)                                                           -         (529)            12            (30)           (4)               1                -               1      (1,027)           18         (723)       (1,310)
Agency outlays, net (discretionary and mandatory)                                    $       40    $   5,540     $    3,805     $    1,147    $    1,393     $         81        $     164      $    2,531 $     3,214    $      428    $ 141,021 $       3,032




                                                                                                                                                                             =                 Fiscal Year 2012 Agency Financial Report                            127
SECTION 2: Financial Information
FY 2011                                                                                         FSA                        CCC                 FAS           RMA            FNS            FSIS           AMS           APHIS
                                                                                               Non-Budgetary              Non-Budgetary
                                                                                                 Financing                  Financing
                                                                                     Budgetary    Accounts      Budgetary   Accounts       Budgetary     Budgetary     Budgetary       Budgetary      Budgetary     Budgetary

Budgetary Resources:
Unobligated balance, brought forward, October 1:                                     $   1,427 $       3,245    $    2,287 $      1,110    $      584    $      563    $    14,579     $       50     $      115    $       288
Recoveries of prior year unpaid obligations                                                516            91           828           38            40             6          1,237             12             36            285
Other changes in unobligated balance (+ or -)                                              (54)       (3,067)          (78)        (217)          (82)           (1)        (5,036)             -             (4)            (3)
Unobligated balance from prior year budget authority, net                                1,889           269         3,037          931           542           568         10,780             62            147            570
Appropriations (discretionary and mandatory)                                             3,927             -         2,310            -           413         6,698        103,732          1,019          1,325          1,147
Borrowing authority (discretionary and mandatory)                                          400         1,477        11,193          116             -             -              -              -              -              -
Spending authority from offsetting collections (discretionary and mandatory)               464         1,864         8,561          443           257         3,148            138            139             63            210
Total budgetary resources                                                                6,680         3,610        25,101        1,490         1,212        10,414        114,650          1,220          1,535          1,927

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                           3,900         2,557        23,231         834           757          9,849        103,924          1,203          1,409          1,603
Unobligated balance, end of year:
Apportioned                                                                                644           274           526          537           118           562          4,179              7            114            304
Exempt from apportionment                                                                  600             -         1,136            9             -             -              -              -              -              -
Unapportioned                                                                            1,536           779           208          110           337             3          6,547             10             12             20
Total unobligated balance, end of year                                                   2,780         1,053         1,870          656           455           565         10,726             17            126            324
Total budgetary resources                                                                6,680         3,610        25,101        1,490         1,212        10,414        114,650          1,220          1,535          1,927

Change in Obligated Balances:
Unpaid obligations, brought forward, October 1 (gross)                                    1,046          541          9,895         238           182           230           6,272            194           181            438
Uncollected customer payments from Federal sources, brought forward, October 1 (-)          (15)         (19)          (247)       (158)         (271)            -               -            (44)           (2)           (23)
Obligated balance, start of year (net), before adjustments (+ or -)                       1,031          522          9,648          80           (89)          230           6,272            150           179            415
Obligated balance, start of year (net), as adjusted                                       1,031          522          9,648          80           (89)          230           6,272            150           179            415
Obligations incurred                                                                      3,900        2,557         23,231         834           757         9,849         103,924          1,203         1,409          1,603
Outlays (gross) (-)                                                                      (3,778)      (2,570)       (22,373)       (823)         (663)       (9,613)       (102,299)        (1,199)       (1,333)        (1,334)
Change in uncollected customer payments from Federal sources (+ or -)                      (110)          (3)           193           1           (65)            -               -             16            (3)           (52)
Actual transfers, unpaid obligations (net)(+ or -)                                            -            -              -           -             -             -               -              -             -              -
Recoveries of prior year unpaid obligations (-)                                            (516)         (91)          (828)        (38)          (40)           (6)         (1,237)           (12)          (36)          (285)
      Obligated balance, end of year:
Unpaid obligations, end of year (gross)                                                    652          437          9,925          211           235          460           6,660            185           222            422
Uncollected customer payments from Federal sources, end of year (-)                       (125)         (22)           (53)        (158)         (336)           -               -            (28)           (5)           (75)
Obligated balance, end of year (net)                                                       527          415          9,872           53          (101)         460           6,660            157           217            347

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                    4,791         3,341         22,064         559           670         9,846        103,870          1,158          1,388          1,357
Actual offsetting collections (discretionary and mandatory) (-)                           (554)       (1,862)       (12,213)       (569)         (192)       (3,148)          (138)          (155)           (74)          (159)
Change in uncollected customer payments from Federal sources                              (110)           (3)           193           1           (65)            -              -             16             (3)           (52)

Anticipated offsetting collections (discretionary and mandatory) (+ or -)                    -             -            -             -             -             -            -                -              -              -
Budget authority, net (discretionary and mandatory)                                      4,127         1,476       10,044            (9)          413         6,698      103,732            1,019          1,311          1,146
Outlays, gross (discretionary and mandatory)                                             3,778         2,570       22,373           823           663         9,613      102,299            1,199          1,333          1,334
Actual offsetting collections (discretionary and mandatory) (-)                           (554)       (1,862)     (12,213)         (569)         (192)       (3,148)        (138)            (155)           (74)          (159)
Outlays, net (discretionary and mandatory)                                               3,224           708       10,160           254           471         6,465      102,161            1,044          1,259          1,175
Distributed offsetting receipts (-)                                                          -          (456)           -          (225)            -             -            -              (11)          (156)            (9)
Agency outlays, net (discretionary and mandatory)                                    $   3,224 $         252    $ 10,160 $           29    $      471    $    6,465    $ 102,161       $    1,033     $    1,103    $     1,166




128          150th Anniversary | United States Department of Agriculture
                                                                                                                                                  USDA: Managing for Results in Performing Its Many Vital Public Functions



FY 2011                                                                                  GIPSA         FS            NRCS           ARS           NIFA           ERS             NASS                RD                   DO                 TOTAL
                                                                                                                                                                                                     Non-Budgetary                            Non-Budgetary
                                                                                                                                                                                                       Financing                                Financing
                                                                                     Budgetary     Budgetary     Budgetary      Budgetary     Budgetary      Budgetary       Budgetary     Budgetary   Accounts       Budgetary     Budgetary   Accounts

Budgetary Resources:
Unobligated balance, brought forward, October 1:                                     $       17    $   2,361     $    1,689     $      322    $      275     $          5    $      29     $   3,630 $       3,942    $     199     $    28,420 $     8,297
Recoveries of prior year unpaid obligations                                                   7           94            390             20           112                2            6           391           835           54           4,036         964
Other changes in unobligated balance (+ or -)                                                 -            -            (14)            (5)           (2)              (1)           -          (167)       (2,840)           4          (5,443)     (6,124)
Unobligated balance from prior year budget authority, net                                    24        2,455          2,065            337           385                6           35         3,854         1,937          257          27,013       3,137
Appropriations (discretionary and mandatory)                                                 39        5,412          4,025            933         1,351               82          157         3,515             2          506         136,591           2
Borrowing authority (discretionary and mandatory)                                             -            -              -              -             -                -            -             -         9,334            -          11,593      10,927
Spending authority from offsetting collections (discretionary and mandatory)                 50          719            174            116           103                1           17         1,857         5,910          975          16,992       8,217
Total budgetary resources                                                                   113        8,586          6,264          1,386         1,839               89          209         9,226        17,183        1,738         192,189      22,283

Status of Budgetary Resources:
Obligations Incurred (Note 23)                                                               93        6,679          4,391          1,329         1,562               85          204         5,194        13,288        1,538         166,951      16,679
Unobligated balance, end of year:
Apportioned                                                                                  18        1,194            276             41           276                1            -         1,506         3,785          169           9,935       4,596
Exempt from apportionment                                                                     -            -              -              -             -                -            -             -             -            -           1,736           9
Unapportioned                                                                                 2          713          1,597             16             1                3            5         2,526           110           31          13,567         999
Total unobligated balance, end of year                                                       20        1,907          1,873             57           277                4            5         4,032         3,895          200          25,238       5,604
Total budgetary resources                                                                   113        8,586          6,264          1,386         1,839               89          209         9,226        17,183        1,738         192,189      22,283

Change in Obligated Balances:
Unpaid obligations, brought forward, October 1 (gross)                                       10         3,072          4,242           574          1,965           46               33         8,649       29,415           511          37,540     30,194
Uncollected customer payments from Federal sources, brought forward, October 1 (-)           (6)         (310)          (144)         (142)           (62)          (5)             (30)          (14)        (906)         (415)         (1,730)    (1,083)
Obligated balance, start of year (net), before adjustments (+ or -)                           4         2,762          4,098           432          1,903           41                3         8,635       28,509            96          35,810     29,111
Obligated balance, start of year (net), as adjusted                                           4         2,762          4,098           432          1,903           41                3         8,635       28,509            96          35,810     29,111
Obligations incurred                                                                         93         6,679          4,391         1,329          1,562           85              204         5,194       13,288         1,538         166,951     16,679
Outlays (gross) (-)                                                                         (87)       (6,885)        (3,989)       (1,388)        (1,279)         (88)            (187)       (5,787)     (13,984)       (1,536)       (163,818)   (17,377)
Change in uncollected customer payments from Federal sources (+ or -)                         1          (175)           (15)          (13)           (57)          (1)              24            (1)         138           (32)           (290)       136
Actual transfers, unpaid obligations (net)(+ or -)                                            -             -              -             -              -            -                -             -            -             -               -          -
Recoveries of prior year unpaid obligations (-)                                              (7)          (94)          (390)          (20)          (112)          (2)              (6)         (391)        (835)          (54)         (4,036)      (964)
      Obligated balance, end of year:
Unpaid obligations, end of year (gross)                                                      10        2,771          4,254            495         2,136               40           44         7,664        27,884          462          36,637      28,532
Uncollected customer payments from Federal sources, end of year (-)                          (5)        (485)          (159)          (154)         (118)              (6)          (7)          (15)         (767)        (448)         (2,019)       (947)
Obligated balance, end of year (net)                                                          5        2,286          4,095            341         2,018               34           37         7,649        27,117           14          34,618      27,585

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                        89        6,131          4,199          1,049         1,454               83          174          5,372       15,246        1,481         165,176      19,146
Actual offsetting collections (discretionary and mandatory) (-)                             (51)        (545)          (159)          (103)          (43)               -          (41)        (3,818)      (8,884)        (943)        (22,336)    (11,315)
Change in uncollected customer payments from Federal sources                                  1         (175)           (15)           (13)          (57)              (1)          24             (1)         138          (32)           (290)        136

Anticipated offsetting collections (discretionary and mandatory) (+ or -)                     -            -              -              -             -                -            -              -            -            -             -             -
Budget authority, net (discretionary and mandatory)                                          39        5,411          4,025            933         1,354               82          157          1,553        6,500          506       142,550         7,967
Outlays, gross (discretionary and mandatory)                                                 87        6,885          3,989          1,388         1,279               88          187          5,787       13,984        1,536       163,818        17,377
Actual offsetting collections (discretionary and mandatory) (-)                             (51)        (545)          (159)          (103)          (43)               -          (41)        (3,818)      (8,884)        (943)      (22,336)      (11,315)
Outlays, net (discretionary and mandatory)                                                   36        6,340          3,830          1,285         1,236               88          146          1,969        5,100          593       141,482         6,062
Distributed offsetting receipts (-)                                                           -         (467)            (3)           (31)           (5)               -            -              -         (672)          (4)         (686)       (1,353)
Agency outlays, net (discretionary and mandatory)                                    $       36    $   5,873     $    3,827     $    1,254    $    1,231     $         88    $     146     $    1,969 $      4,428    $     589     $ 140,796 $       4,709




                                                                                                                                                                   =                Fiscal Year 2012 Agency Financial Report                                   129
SECTION 2: Financial Information

Risk Assumed Information (Unaudited)
Risk assumed is generally measured by the present value of unpaid expected losses net of
associated premiums based on the risk inherent in the insurance or guarantee coverage in force.
Risk assumed information is in addition to the liability for unpaid claims from insured events
that have already occurred. The assessment of losses expected based on the risk assumed are
based on actuarial or financial methods applicable to the economic, legal and policy environment
in force at the time the assessments are made. The FCIC has estimated the loss amounts based on
the risk assumed for its programs to be $18,287 million and $8,757 million as of September 30,
2012 and 2011, respectively.




130    150th Anniversary | United States Department of Agriculture
SECTION 3: Other Accompanying Information

Section 3: Other Accompanying Information
                                                  Schedule of Spending
                                            For The Year Ended September 30, 2012
                                                          (In Millions)



                                                                                                     Non-budgetary
                                                                                                      Credit Reform
                                                                                    Budgetary      Financing Accounts
      What Money is Available to Spend?
      Total Resources                                                           $       203,263    $          21,719
      Less Amount Available but Not Agreed to be Spent                                   11,102                2,339
      Less Amount Not Available to be Spent                                              22,224                2,815
      Total Amounts Agreed to be Spent                                                  169,937               16,565

      How was the Money Spent?

      Assist Rural Communities to Create Prosperity so They Are
      Self-Sustaining, Repopulating, and Economically Thriving:
      Personnel Compensation and Benefits                                                 2,490                    -
      Contractual Services and Supplies                                                   5,978                1,560
      Acquisitions of Assets                                                              5,552               11,159
      Grants and Fixed Charges                                                           22,210                3,878
      Other                                                                                (190)                   -
      Total                                                                              36,040               16,597

      Ensure Our National Forests and Private Working Lands Are Conserved,
      Restored, and Made More Resilient to Climate Change, While
      Enhancing Our Water Resources:
      Personnel Compensation and Benefits                                                 4,391                    -
      Contractual Services and Supplies                                                   3,709                    5
      Acquisitions of Assets                                                                733                  185
      Grants and Fixed Charges                                                            4,799                   56
      Other                                                                                 213                    -
      Total                                                                              13,845                  246

      Help America Promote Agricultural Production and Biotechnology
      Exports as America Works to Increase Food Security:

      Personnel Compensation and Benefits                                                   216                    -
      Contractual Services and Supplies                                                   1,007                    -
      Acquisitions of Assets                                                                 11                    2
      Grants and Fixed Charges                                                            2,173                  163
      Other                                                                                 (78)                   -
      Total                                                                               3,329                  165

      Ensure that All of America's Children Have Access to Safe,
      Nutritious, and Balanced Meals:

      Personnel Compensation and Benefits                                                 2,253                    -
      Contractual Services and Supplies                                                   2,964                    -
      Acquisitions of Assets                                                                 72                    -
      Grants and Fixed Charges                                                          104,741                    -
      Other                                                                                 (19)                   -
      Total                                                                             110,011                    -

      Total Spending                                                                    163,225               17,008




131        150th Anniversary | United States Department of Agriculture
        SECTION 3: Other Accompanying Information

                                                Schedule of Spending (continued)
                                                     For The Year Ended September 30, 2012
                                                                   (In Millions)



                                                                                                  Non-budgetary
                                                                                                  Credit Reform
                                                                                 Budgetary     Financing Accounts

Unpaid obligations, end of year (gross)                                               39,816               26,270
Unpaid obligations, brought forward, October 1 (gross)                                36,637               28,532
Recoveries of prior year unpaid obligations                                            3,533                1,819
Amounts Remaining to be Spent                                                          6,712                 (443)

Total Amounts Agreed to be Spent                                             $       169,937   $           16,565




        132        150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions



Response to Management Challenges
The Reports Consolidation Act of 2000 requires the U.S. Department of Agriculture (USDA)
Office of Inspector General (OIG) to report annually on the most serious management challenges
USDA and its agencies face. To identify these Departmental challenges, OIG examined
previously issued audit reports where corrective actions have yet to be taken. It also assessed
ongoing investigative and audit work to ascertain significant vulnerabilities, and analyzed new
programs and activities that could pose significant challenges due to their range and complexity.
Nine challenges were included in the OIG’s report this year.

One challenge was removed from those included in last year’s report — Challenge 8, which
highlighted the need to carefully oversee the $28 billion in American Recovery and
Reinvestment Act (ARRA) funds provided to USDA agencies and programs. With spending
from the ARRA winding down, OIG is concluding its work relating to these funds and how they
were spent. It expects to issue its last reports on this topic soon.

One new challenge was added concerning the need to plan for succession and reduced staffing in
many USDA sub-agencies. For some time, the Federal Government has been anticipating the
retirement of a significant portion of its experienced workforce as employees of the “Baby
Boomer” generation reach retirement age. Given the constrained budget situation, the
Department must ensure that it has adequate staff in place to accomplish critical missions, such
as inspecting meat processing plants and overseeing billions of dollars in loans.

Finally, OIG discussed several emerging issues that may develop into significant concerns:
animal welfare, the reporting of performance measures, and duplication in USDA programs
and operations.

The following narrative summarizes the management challenges and USDA’s fiscal year
(FY) 2012 agency accomplishments and FY 2013 planned actions to address them.

CHALLENGE 1: Interagency Communication, Coordination, and Program
Integration Need Improvement
Like many departments within the Federal Government, USDA faces a challenge in coordinating
the various agencies and programs within its purview. This challenge is particularly pressing for
the Department because several of its agencies provide payments to producers for programs that
have complementary and interlocking missions. Likewise, USDA divides responsibilities for
food research among several agencies, which also requires a high degree of intradepartmental
cooperation. Department agencies must understand these interrelationships and the need to work
together to create a cohesive, integrated system of program administration. Such an approach
should increase organizational communication, streamline operations, reduce spending, and
improve program efficiency, compliance, and integrity.




                                                  Fiscal Year 2012 Agency Financial Report         133
SECTION 3: Other Accompanying Information

Farm Programs
OIG determined that:
         The Animal and Plant Health Inspection Service (APHIS) did not coordinate with the
          Risk Management Agency (RMA) to determine the amount of indemnity payments
          growers had received before calculating its payments. Federal regulations require APHIS
          to reduce its citrus canker lost production payments by the amount of any tree payments
          that growers receive from RMA; and
         APHIS did not report $290.9 million in Citrus Canker Tree Replacement Program
          (CCTRP) payments to the Internal Revenue Service (IRS) from FY 2001 through FY 2007.

Corrective Actions:
During FY 2012, APHIS recovered approximately 80 percent of the overpayments made to
growers. Several growers paid their bills in full. In addition, APHIS made the appropriate
payments to growers it underpaid. The agency plans to work with the Department to determine
what actions are needed to resolve the CCTRP payments that were not reported to IRS. It also
will continue collection activities for vendors that were overpaid and billed, but have not yet
repaid the funds provided in error. Possible action may include referring outstanding collectors to
the U.S. Department of Treasury for off-set.

RMA and the Farm Service Agency (FSA), working together, made great strides in making
acreage reporting simpler for farmers and ranchers. The Acreage Crop Reporting Streamlining
Initiative seeks to reduce the reporting burden on producers that submit data to USDA. The
agencies developed various processes in four specific areas with common definitions to support
the design of business processes that share and use common information. They reduced the
number of USDA common acreage reporting dates from more than 50 to 15 common dates. They
also developed pilot Web services that will allow producers to report their data directly to RMA
and FSA using the common acreage information online reporting tool as an alternative to
providing them to their FSA county office and RMA insurance agent. The Web services pilot is
scheduled to be available for the 2012 crop year spring-planted crops.

The agencies will continue to work together as partners to enhance and implement interagency
communication, coordination, and program integration efforts.

Agriculture-Related Research
In response to the Colony Collapse Disorder (CCD) — a disorder that interferes with honey bee
pollination and endangers $15 billion annually in added crop value — USDA led a Federal and
non-Federal collaboration that took action to better understand the disorder and mitigate the
damage to bee colonies.

OIG determined that:
The Under Secretary for Research, Education, and Economics (REE) should seek adequate
funding and facilitate communications to conduct a comprehensive survey of honey bee colony
production and health. While Department officials agree with the need to complete this survey,
they express concerns about the ability to fund it.


134       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


Corrective Actions:
The Under Secretary for REE appointed Agricultural Research Service, National Agricultural
Statistics Service, and National Institute of Food and Agriculture officials to the CCD Steering
Committee. The committee was charged with monitoring and implementing the CCD Action
Plan, and ensuring that all actions under the plan were completed.

The committee hosted a workshop in October 2012 to revise the 2007 CCD Action Plan and
update its best management practices for maintaining healthy colonies. The 2012 CCD Annual
Report has been submitted to Congress.

CHALLENGE 2: Strong, Integrated Control Systems Still Needed
USDA managers are responsible for controlling the programs they oversee through internal
control systems that bring about desired objectives, such as administering crop insurance
correctly and making payments accurately. These internal controls consist of the policies,
procedures, and organizational structures that collectively determine how a program is
implemented and how its requirements are met. In effect, internal controls are the tools managers
use to ensure that programs achieve intended results efficiently and effectively. They provide for
program integrity and proper stewardship of resources. Since systemic control flaws can yield
systemic program weaknesses — e.g., unrealized objectives and improper payments — managers
must continuously assess and improve their internal control systems. When they identify a
widespread deficiency, they must correct the problem before it undermines the program.

OIG determined that:
      RMA approved insurance providers that circumvented established procedures for
       adjusting losses;
      There were a significant number of instances where the Natural Resources Conservation
       Service (NRCS) State and local staff either did not follow established procedures or
       relied on other parties — including producers and landowners — to ensure compliance.
       This resulted in improper payments and unrealized program objectives;
      A significant risk to public safety occurred when NRCS relied on owners to volunteer
       their flood control dams for rehabilitation;
      FSA implemented the Biomass Crop Assistance Program (BCAP) without creating an
       effective system of program-specific internal controls. Instead, the agency used control
       tools from other programs (contracts, information technology (IT) support, etc.);
      NRCS did not provide its staff with adequate guidance or oversight. This led to inequitable
       treatment of program participants, improper payments, and other problems;
      FSA lacks effective controls to ensure the reasonableness of the soil rental rates used for
       payments on Conservation Reserve Program (CRP) contracts;
      FSA did not adhere to policies and regulations it established to ensure the reasonableness
       of county average rental rates, and did not use the most recent NRCS soil productivity
       factors in calculating most of the approved soil rental rates; and




                                                  Fiscal Year 2012 Agency Financial Report         135
SECTION 3: Other Accompanying Information

         APHIS has not issued regulations that pertain specifically to introducing genetically
          engineered animal or insects (through imports, interstate movement, or field release).

Corrective Actions:
RMA executed the various strategies and means outlined in the RMA Strategic Plan FY 2011-
2015, Strategic Goal Number 4, “Safeguard the Integrity of the Federal Crop Insurance
Program.” The agency worked to minimize improper payments, strengthen approved insurance
providers’ crop insurance operations, and pursue criminal, civil, or administrative sanctions to
address program violations.

Based on FSA's lessons learned, matching project-area payments were successfully issued under
the new regulation, 1-BCAP handbook, and Web-based software and forms. FSA reviewed and
recovered improper payments for Collection, Harvest, Storage, and Transportation (CHST)
matching payments. It also reviewed and issued payments for the underpaid amounts for CHST,
consulted and acted upon cases where scheme or device was suspected, and reviewed and
implemented guidance on potential conflict of interest as well as scheme and device.

FSA plans to establish performance goals and measures and conduct associated data gathering.
In addition, the agency will provide additional guidance on compliance reviews, facility
reporting requirements, verifications, spot checks, and technical assistance. It will also evaluate
impact of facility sale agreements, revise facility overview form, perform evaluations of payment
rates, evaluate eligibility of aggregators, manage multiple types and sources of biomass material,
and clarify policy and methodology for material sampling and moisture testing.

The Office of General Counsel determined the Commodity Credit Corporation (CCC) and FSA
do not have the authority to adjust the average rental rate of the contractual offer and acceptance
terms agreed to by the CRP participant and CCC. CRP contract modifications to an alternate
rental rate will be pursued. FSA will require that the States and counties submit strong evidence
to support their alternate county average rental rates for future CRP signups. Criteria for areas
with a strong cash-rent market may be different that those for areas with mainly share-rent.

NRCS has worked with State Dam Safety agencies to develop memoranda of understanding
(MOUs) to ensure that Federal and State guidelines for high-hazard dams are consistent.
Thirty-three MOUs have been signed with States to date. The agency completed 650 high-hazard
dam assessments and safety reports so that dams can be prioritized according to the Population at
Risk and Risk and Failure Indices of each particular high-hazard dam. It also funded high-hazard
dam assessments as priority and ahead of low- and significant-hazard dams. NRCS is developing
a geospatial tracking tool to better update its National Inventory of Dams. It is also piloting a
dam safety monitoring tool in Oklahoma so dam owners and dam safety officials can respond
better to natural disasters by using real-time data from other Federal agencies.

NRCS will continue its oversight function on funded Watershed Rehabilitation Program projects,
complete and deploy the geospatial tracking tool, complete the pilot of dam safety monitoring
tool, and implement the dam monitoring tool nationwide.




136       150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


For the Conservation Security Program, the Wetlands Reserve Program, and the Farm and Ranch
Lands Protection Program, NRCS has conducted assurance reviews and provided training for the
programs. NRCS will continue conducting quality reviews to ensure program policy and
program objectives are achieved.

During FY 2012, APHIS directed its Center for Plant Health and Science Technology to develop
written management controls for a work plan approval and review process that is transparent and
ensures accountability of funded projects. The agency also updated its risk assessments and
performed reviews of its laboratories that meet the requirements of Departmental Manual
9610-2, "USDA Security Policies and Procedures for Laboratories and Technical Facilities."
During FY 2013, APHIS plans to develop an action plan that includes timetables and
performance measures to ensure that its regulatory framework for genetically engineered animals
and insects is developed timely and meets the agency’s strategic goals.

CHALLENGE 3: Information Technology Security Needs
Continuing Improvement
Typically, USDA’s work is thought of in terms of the benefits and services the Department
provides, which touch almost every aspect of American life. To accomplish these missions,
USDA must manage vast amounts of data associated with its many programs and operations.
This critical information ranges from agricultural statistics that drive domestic and global
markets to data-driven inspection systems that help ensure our food is safe. Department
employees must be able to access, manipulate, and communicate this information to deliver
programs effectively. Additionally, the general public can apply for many program benefits and
other services via the Internet. It is therefore critical that the Department protect the security,
confidentiality, and integrity of its Information Technology (IT) infrastructure. Over the last
several years, however, OIG determined that USDA’s IT systems remain vulnerable in many
critical areas.

OIG determined that:
      Most significantly, the current security program does not have a solid foundation because
       the Department has not fully deployed basic analytic tools that determine accurate system
       inventories, or performed appropriate risk assessments and timely vulnerability scans;
      The Office of the Chief Information Officer (OCIO) should provide official guidance
       about using and acquiring data through cloud services;
      Devices were not adequately secured, as defined by guidance issued by the National
       Institute of Standards and Technology (NIST);
      Blackberry servers were not secured in accordance with Departmental guidance and users
       were able to disable their passwords or bypass USDA’s Internet content filters;
      The Department needs to work with all of its agencies to identify overall risks, and then
       prioritize the risks so that it will have a solid basis for a time-phased plan to
       systematically mitigate them;
      OCIO did not strategically plan, prioritize, and manage its efforts to be more effective;



                                                   Fiscal Year 2012 Agency Financial Report         137
SECTION 3: Other Accompanying Information

         OCIO needs to adequately develop oversight mechanisms, communicate and coordinate
          within OCIO, plan projects, and determine how to effectively utilize its resources; and
         USDA management did not ensure that all requirements for domain name systems were
          met and that NIST guidance was completely implemented and followed.

Corrective Actions:
OCIO realigned its internal structure to streamline and strengthen the organizational capability of
USDA to effectively manage the overall IT security program. The Department has deployed an
array of tools to conduct continuous monitoring of its network. This work has enabled USDA to
stop malicious attacks and discover abnormal data traversing the enterprise. OCIO will continue
to fine-tune the tools’ capabilities, reduce false positives, and train the supporting technical staff
on the administration and usage of all the tools’ capabilities.

Additionally, OCIO recognized that the volume of potential security events that the Security
Stack Array (SSA) was identifying daily presented an enormous challenge to manage research
and analyze in a timely manner. To address this issue, OCIO initiated efforts to develop and tune
automated security rules and conditions to handle the volume of data. It has implemented a
cross-training program with agency personnel.

In addition, USDA purchased an Enterprise Vulnerability Scanner which is currently in the pilot
phase. A Secure Sockets Layer Decryption tool is also being evaluated for deployment within the
NETWORX infrastructure. The Virtual Network Modeling and Performance or ‘OPNET’ is
operating, and efforts are focused on advancing the collection of all network assets of the agencies.

Agriculture Security Operations Center (ASOC) has realigned staffing to better utilize resources,
ensure IT equipment works property and is virus free, and concentrate on High-Value Targets
(personnel, systems and endpoints). USDA is also developing a cadre of SSA expertise by
providing instruction and hands-on training to agency IT personnel. The Department is deploying
agency subject-matter experts to assist OCIO to better understand agency data and activities.

USDA produces monthly reports from Tivoli Endpoint Manager to ensure visibility of
vulnerabilities identified via that tool. The Department then uploads the reports to its Connect
site for agencies to review. These reports also support USDA’s Continuous Monitoring strategy
to assist in making agencies aware of their security posture. ASOC has collaborated with
agencies on these reports, which has prompted swift action by the agencies to mitigate known
vulnerabilities. The Department completed a Standard Operating Procedure to outline the
procedures for meeting the OCIO mandate that all agencies deploy Tivoli on all major operating
systems to ensure an accurate inventory of devices Department-wide.

USDA uses the software company Remedy to track all identified incidents. The various tools
allow the Department to identify and block threats, and lessen the impact on its network and
missions. The ASOC SSA is designed to monitor network traffic flow and detect suspicious,
malicious, or anomalous traffic through the use of a combination of signature based and
behavioral traffic analysis. SSA also normalizes, correlates, and stores these data which are then
used to generate alerts to ASOC personnel for further analysis and incident response. In addition
to monitoring the SSA, the OCIO Monitoring and Analysis Division also responds to events


138       150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


generated by external entities (U.S. Computer Emergency Response Team (US-CERT), the
Internet Identity, and the Federal Bureau of Investigation) and from the Incident Handling
Division, which escalate Tier 3 events for further analysis. Tier 3 refers to the highest level of
support in a three-tiered technical support model responsible for handling the most difficult or
advanced problems.

In FY 2012, USDA signed a Memorandum of Agreement (MOA) with the U.S. Department of
Homeland Security (DHS) National Cyber Security Division Network Security Deployment,
which utilizes EINSTEIN first- and second-generation sensors. An aggressive scanning and
wireless security program in conjunction with the endpoint protection program better addresses
the realities of contemporary computing where mobile computing devices routinely operate
outside the network perimeter. Intrusion detection and prevention are essential at all levels of
network operations with an integrated framework that aggregates, correlates, and stores all
events at the agency and Department level.

In FY 2012, ASOC integrated communications security services into required classified cyber
intelligence functions capable of efficient communications of critical classified information
throughout the intelligence community. In addition, ASOC publishes formal USDA Early
Warning Indicators to the Government cyber security community via the several classified and
controlled collaboration mechanisms (including the US-CERT’s GFIRST Mercury Portal, the
DHS’ Data Network, Secret Internet Protocol Router Network, ASOC blog, and via direct
distribution to other Government agencies).

USDA requires all IT systems which store, process, and transmit Departmental information to
comply with Federal security requirements, including the NIST Special Publication (SP) 800-37,
“Guide for Applying the Risk Management Framework to Federal Information Systems,” and
NIST 800-53 (Rev. 3), “Recommended Security Controls for Federal Information Systems and
Organizations.” These directives require that all USDA, contractor, and cloud systems must
undergo Assessment and Authorization (formerly called Certification and Accreditation).

In FY 2012, USDA developed an overarching Departmental IT Security Plan in accordance with
NIST SP 800-100, “Information Security Handbook: a Guide for Managers.” In FY 2012, OCIO
developed a risk remediation plan based on the Federal Information Security Act audit findings
and recommendations from FY 2009-2011. The top three risk priorities for remediation are:
IT Security Policy refresh, clarification, and oversight/continuous monitoring of secure
configurations of USDA’s IT assets; full implementation of multi-factor account; and identity
management. The Department continued its implementation and operations of enterprise level
security monitoring devices and implementation of the Identity Credentialing and Access
Management and Homeland Security Presidential Directive (ICAM/HSPD-12) program for
logical and physical access control.

USDA developed an operational standard for Wireless Local Area Network (LAN) in
April 2012. This memorandum defines the minimal elements and operational standards to be met
by any Wireless LAN (802.11x) system installed in or connected to the USDA network to ensure
Department-wide interoperability.




                                                   Fiscal Year 2012 Agency Financial Report          139
SECTION 3: Other Accompanying Information

Enterprise Network Services (ENS) has completed all Domain Name System Security
Extensions (DNSSEC) project initiation documents, including the charter, scope statement, and
project plan. ENS is currently working with AT&T to set the domain name system server cutover
date, which enables the implementation of DNSSEC.

USDA efforts toward continuous monitoring will be focused on continuous vulnerability
assessment. The Department will continue to develop methods for operational baselines,
identification and analysis of security vulnerabilities, and a repeatable risk management
framework. It will continue to fine-tune the SSA through implementation of security rules
and conditions to proactively identify true attacks and compromises, and greatly reduce the
false positives.

The Department will continue to provide the highest possible levels of security and systems
availability and reliability to USDA customers throughout FY 2013. It also will develop
enterprise-wide incident handling procedures and response guidance, including classified
information, finalize deployment of a case management system to centrally track incidents, and
provide all USDA agencies with common reporting and tracking tools on an ongoing basis.

USDA will revise its existing Department Regulation, DM 3555-001, “Certification and
Accreditation Methodology,” to reflect NIST SP 800-37 and the current Department process for
the Risk Management Framework. In FY 2013, OCIO plans to complete revision and publication
of updated (NIST compliant) IT Security policies. It also will continue its coordination with the
agencies to ensure the successful implementation and operations of SSA and other monitoring
tools deployed on an enterprise level. In addition, OCIO will continue its implementation of the
HSPD-12/Personnel Identity Verification (PIV) credentialing and use of the PIV card for logical
and physical access enterprise-wide.

In FY 2013, OCIO plans to initiate specific oversight/continuous monitoring activities for the
security and management of wireless technologies within the USDA enterprise. These activities
include monthly scanning for unauthorized/unsecured BlackBerry Enterprise Servers and
wireless access points, a review and issue, as necessary, of additional guidance for the
procurement, issuance and management of wireless technologies, and review technologies to
facilitate verification and validation of security settings and configurations on USDA-owned
wireless/handheld devices issued to its employees.

The following actions will be taken during FY 2013 to meet the DNSSEC requirements:
         Domain Name System Managed through InfoBlox;
         Implement DNSSEC between .GOV and ENS root servers; and
         Implement DNSSEC between root servers and agency servers.

CHALLENGE 4: Material Control Weaknesses in Civil Rights
Should Be Mitigated
In an April 2009 memorandum to all USDA employees, the Secretary of Agriculture stated that
civil rights was one of the Department’s top priorities, emphasizing that there was significant
progress to be made. USDA has received public attention with the Pigford I and Pigford II


140       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


settlements, which stem from a series of discrimination complaints made against USDA by
African-American farmers. Similar lawsuits, known as Keepseagle, Garcia, and Love, have been
filed by Native-American, Hispanic, and female farmers. Because the Department is committed
to ensuring that its conduct is just and equitable, USDA needs to timely and efficiently address
civil rights complaints.

OIG determined that:
      The Office of the Assistant Secretary for Civil Rights (OASCR) needs to strengthen its
       procedures for settlement agreements so that it can maintain current improvements,
       support its decisions, process cases timely, and report them accurately;
      OASCR must develop a detailed, formal plan to process employment complaints in
       collaboration with USDA agencies, and establish the necessary monitoring framework to
       intervene when complaint processing exceeds timeframes; and
      The Office of Advocacy and Outreach (OAO) had not adhered to the agency’s draft
       policies and procedures, as well as the guidelines cited in the Funding Opportunity
       Announcement issued in November 2011, when selecting the FY 2012 applicants.

Corrective Actions:
OASCR developed a plan to evaluate and adjust staffing levels to ensure timely resolution of
employee and program complaints. The actions completed in FY 2012 include:

      Improving quality control procedures;
      Establishing an electronic records management system;
      Holding agency heads accountable for complaint processing; and
      Strengthening alternative dispute resolution.

OASCR has prioritized program complaints facing the statute of limitations under the Equal
Credit Opportunity Act, and reviewed the quality of every final agency decision. OASCR is
implementing the Lean Six Sigma process to identify efficiencies to reduce timeframes for
employee and program complaint resolution processes. OASCR also implemented new
management controls for resolving program complaints by developing a “stop-light” sheet to
help management identify program complaints requiring priority processing. In addition,
OASCR created a single form that USDA program participants can use to file a civil-rights
complaint that will standardize the collection of information and reduce processing time.

In FY 2013, OASCR will continue efforts to ensure data reliability of the IComplaints database
to include a comprehensive set of business rules, a data integrity tool, and a quality review
management module. OASCR will continue to conduct quality reviews each month and revise
data as needed. The IComplaints software checks whether all of the data are complete before
generating a report on employee complaints to meet the Equal Employment Opportunity
Commission’s reporting requirements. OASCR also developed and is implementing a plan to
check the accuracy of data entered for each program complaint in the Program Complaints
Management System.



                                                  Fiscal Year 2012 Agency Financial Report         141
SECTION 3: Other Accompanying Information

OAO realigned its staff to better accomplish the mission of its grant programs. The entire
applicant pool was re-evaluated and scored. Afterwards, the office ranked a new list of FY 2012
grant recipients and presented the list to the Secretary for approval. It documented the process for
review and selection of applicants and recipients. As part of the business process improvement,
all of the staff is being scheduled for additional grants training to ensure future success.

CHALLENGE 5: Proactive, Integrated Strategy Is Necessary To Increase
Agricultural Commerce and Trade
Given the importance of U.S. agriculture to the economy — in 2011, the Nation’s farms and
ranches produced $409 billion in goods — USDA has a longstanding and deeply rooted interest
in promoting the export of our commodities worldwide. Over the last several years, the monetary
total of U.S. agricultural exports has risen significantly because of several factors, including
adverse weather conditions in major agricultural areas, the U.S. dollar’s declining value, and
increased demand in countries such as India and China. In FY 2011, U.S. agricultural exports
totaled $137 billion — an increase of 27 percent from the preceding fiscal year’s $109 billion.

OIG determined that:
         USDA develop a global market strategy to increase U.S. export opportunities and
          competitiveness;
         The Department needs a coordinated, comprehensive strategy to address the challenges
          that U.S. producers face when exporting genetically engineered (GE) commodities; and
         USDA should finalize a coordinated and consolidated global market strategy, which
          includes guidelines and strategies for working with countries reluctant to import GE crops.

Corrective Actions:
The Foreign Agricultural Service (FAS) supports the export of GE agricultural products through
bilateral and multilateral engagement and capacity-building efforts intended to achieve a public
appreciation of the importance of agricultural innovation through biotechnology, and foster
international implementation of policies that (1) ensure safe use of the technology, (2) promote
dispersion of its benefits, and (3) liberalize trade in biotechnology products.

USDA’s Global Market Strategy includes market access and market development goals, activities,
and responsibilities of various agencies across categories of countries on a market development
continuum. The strategy to achieve USDA’s market access goals includes specific efforts related to
new technologies and science-based policies, and the strategy to achieve the Department’s market
development goals includes specific efforts related to new markets for high-value and processed
products.

CHALLENGE 6: Forest Service Management and Community Action
Needed to Improve Forest Health and Reduce Firefighting Costs
To care for the 193 million acres of forests and grasslands under its supervision, the
Forest Service (FS) needs to ensure that it approaches complex budgetary and human resource
management issues with the same dedication it brings to managing the Nation’s lands. As the



142       150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


logistical challenges of managing vast natural resources have become more complicated and
more expensive, the overall cost of fighting wildfires has soared to more than $1 billion per year
and already commands approximately 40 percent of the agency’s budget.

OIG determined that:
      As part of FS' efforts to improve the efficiency with which it operates, the agency could
       improve how it manages the "special use" permits it processes for a wide variety of
       purposes such as setting up communication relays, bottling spring water, and outfitting
       and guiding on Federal lands;
      Improve how it addresses issues resulting from the sale of private forest land with
       easements for residential development and commercial use — the mingling of residential
       developments and forestlands is a contributing factor to the high-costs of fighting fires;
      Assess risks, develop strategies to lessen the impacts of changing land use, and
       incorporate appropriate changes into the agency's planning rule and strategic rule;
      Make further efforts to implement the Forest Roads and Trails Act of 1969 (FRTA)
       easement amendment, which would clarify rights and responsibilities before successor
       landowners come into possession of the land, and provide sufficient guidance to local
       field staff on how to address landowner disputes once the land has already been sold;
      Work with other land management organizations and Congress to convince State and
       local Governments to enact appropriate building and zoning codes to better regulate
       developments, especially in areas that are at risk of wildfire; and
      Collaborate with other land management organizations and State and local Governments
       to reduce wildfire risk.

Corrective Actions:
FS regions evaluated its staffing, recommended program efficiencies, assessed the funding gap
for special use administrative costs, and developed action plans to resolve deficiencies. FS issued
a letter to regional foresters regarding annual adjustment of the minimum use fees for inflation.
The agency also proposed a revision to the FS Manual to clarify that regional foresters maintain
minimum fees annually.

FS released the Planning Rule, "National Forest System (NFS) Land Management Planning,"
that describes the process to assess existing conditions, including ecological, economic, social
conditions, trends, and sustainability, that includes the potential extent of changing land use
impacting NFS.

The agency will work with USDA on inclusion of fee retention in the FY 2014 budget and
continue to pursue a joint update of cost recovery rates. FS will administer Phase I of the contract
for a market survey to establish minimum fees and seek funds for Phase II, establish automatic
indexing of minimum fees in conjunction with implementation of the market survey, and
establish a data entry control with the Special Uses Data System and issue guidance.

To enhance the methods to obtain and grant rights-of-ways and easement, FS will establish or
re-establish specific goals, strategies, and timeframes for addressing the impacts of changing


                                                   Fiscal Year 2012 Agency Financial Report         143
SECTION 3: Other Accompanying Information

land use. FS will clarify the process for analyzing and addressing the issues of whether an FRTA
easement amendment should be a public process, and whether an Environmental Impact
Statement needs to be completed under National Environmental Policy Act before an easement
amendment can be finalized. FS will develop a standard road use agreement specifically for use
with homeowner associations. The agency then will implement the standard agreement whenever
circumstances warrant, and develop consistent guidelines for field staffs to follow regarding
residential successors to FRTA easements.

CHALLENGE 7: Food Safety Inspection Systems Need Improved Controls
Because foodborne pathogens and food contamination can put consumer health in jeopardy,
USDA inspection systems work to protect the safety of the U.S. food supply. The Department
provides a range of safety measures, from placing qualified inspectors in livestock and poultry
slaughtering facilities to creating comprehensive data mining systems that pinpoint likely risks in
food processing procedures. To maintain the confidence of consumers, Congress, and other
stakeholders, the Food Safety and Inspection Service (FSIS) should continue to improve its
technology systems, inspection processes, and management controls to accurately assess risk and
effectively prevent contamination.

OIG determined that:
         That current processes did not ensure that FSIS had the volume and quality of data
          necessary to select establishments posing the highest public health risk;
         Develops methods to quickly detect such improprieties before they significantly endanger
          consumer health and animal welfare; and
         Consider shifting more of its testing resources to sampling trim, instead of ground beef,
          for E. coli O157:H7.

Corrective Actions:
FSIS issued a policy that requires all non-ambulatory disabled cattle to be condemned and
appointed an ombudsman responsible for humane handling issues. It developed a report on field
personnel training completion which is used by managers to monitor training, and ensure
inspection program personnel receive the training needed to perform their duties. The agency
automated two reports in its management control system, AssuranceNet, to properly assess and
monitor whether districts/circuits are meeting established In-Plant Performance System
frequencies. It also issued instructions on reviewing, monitoring, analyzing, and responding to
AssuranceNet results. AssuranceNet management controls were updated as a result of the Public
Health Information System (PHIS) implementation to ensure that 100 percent of Hazard Analysis
and Critical Control Point, Standard Sanitation Operating Procedure, Sanitation Performance
Standard, humane handling, sanitary dressing, and zero-tolerance tasks are scheduled and
performed in accordance with established procedures. Guidance was issued regarding the agency's
expectations for trim sampling, and how to react to high event periods. Guidance also was issued in
the selection of commercial and private microbiological testing laboratories.

A Federal Register notice will be published with a plan to prioritize and perform E. coli 0157:H7
baseline studies. The notice will include a re-evaluation of the Beef Manufacturing and Trim


144       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


Sampling Program parameters, document the scientific support and rationale for the re-design,
and a detailed plan to implement a program to direct sampling and testing resources. FSIS will
hold discussions with stakeholders to determine if E. coli O157:H7 could be better utilized by
sampling beef trim instead of ground beef. The agency will evaluate the appropriateness of
current E. coli O157:H7 performance standards to determine if changes are needed, and develop
a plan for implementing changes. FSIS will revise guidance to address issues with the collection
of samples of proper weight, and that of random samples and procedures for E. coli testing. This
process will ensure that industry is not avoiding regulatory actions. FSIS will also determine how
PHIS can be used to better track and monitor appeals of humane handling noncompliance
records.

CHALLENGE 8: Efforts to Identify, Report, and Reduce Improper
Payments Need To Be Strengthened
USDA delivers approximately $189 billion in public services annually through more than
300 programs. In FY 2011, USDA reported that 16 of its programs were vulnerable to significant
improper payments ("high-risk" programs) and estimated $5.4 billion in improper payments for
that year — a 5.37-percent error rate. This rate remained the same from FY 2010, and leaves the
Department with an opportunity to realize considerable cost savings by continuing to reduce its
improper payments.

OIG determined that:
      USDA continues to struggle to fully comply with some requirements, particularly those
       involving its reporting practices and preventive measures;
      FNS did not report estimates for improper payments in one of its high-risk programs
       because it is pursuing multiple projects to develop an estimate of improper payments
       for the Family Day Care Homes Meal Claims component of the Child and Adult Care
       Food Program;
      The Department has not fully developed its reporting process to ensure that it reports all
       required information and USDA agencies meet their reduction targets;
      FSA needs to implement more effective second party reviews over the manual
       calculation process;
      NRCS must improve its Improper Payments Elimination and Recovery Act (IPERA)
       reviews, particularly in the area of eligibility, and develop a dependable and centralized
       method for recording, tracking, and monitoring improper payments; and
      USDA agencies need to identify root causes of overpayments and implement necessary
       internal controls to prevent future overpayments.

Corrective Actions:
The Office of the Chief Financial Officer awarded a contract to Accenture Federal Services,
LLC, for payment recapture/recovery auditing (PRRA) services. USDA has selected two FSA
programs and one Rural Housing Service program to begin the phased implementation of the
PRRA initiative. The Department issued revised improper payments guidance on the risk
assessments, measurement plans, and corrective action plans. The guidance was strengthened to

                                                  Fiscal Year 2012 Agency Financial Report         145
SECTION 3: Other Accompanying Information

assist agencies in complying with the Improper Payments Elimination and Recovery Act of 2010
(IPERA), the Office of Management and Budget (OMB), and OIG's requirements and
recommendations. The guidance will improve the accuracy of improper payment reporting and
completing risk assessments. USDA developed a Department-wide plan to implement the “Do
Not Pay” initiative. Departmental management is working with USDA agencies on their plans
for accessing to the “Do Not Pay” portal for checking program payments and eligibility.

USDA will continue the phased implementation of the PRRA initiative and award a contract for
Supplier Credit Recovery Auditing services to recover contract payments. The Department also
will strengthen its quality-control process and direct agencies to strengthen compliance with
IPERA requirements by including measurable milestones and completion dates for corrective
actions. In addition, USDA will evaluate reasons for unmet reduction targets and ensure all key
elements are included in the measurement process for both high- and low-risk programs. The
Department will issue revised guidance for the High-Dollar Overpayment Report which will
strengthen the reporting process and provide additional clarification as needed. USDA will
continue implementing the Department-wide “Do Not Pay” plan provided to OMB. All USDA
agencies will have access to the “Do Not Pay” portal.

During FY 2012, the Food and Nutrition Service (FNS) reported an estimated improper payment
rate for the certification component of the Special Supplemental Program for Women, Infants,
and Children (WIC). The final report was posted to the FNS Web site on April 20, 2012.

The Child and Adult Care Food Program (CACFP) Improper Payment Meal Claims Assessment
Study evaluates the feasibility of a parent-recall interview methodology. This methodology is
designed to develop improper payment estimates of the share of CACFP-participating family day
care home meals approved by providers for an incorrect level of per meal reimbursement. FNS
received OMB approval under the Paperwork Reduction Act in March 2012.

FSA conducted training sessions for State Executive Directors regarding the impact of IPERA
legislation on county offices. It briefed OMB on statistical sampling methodology and
proposed alternative methodologies in sampling FSA high-risk programs. The agency plans to
implement the PRRA initiative by pilot testing the Conservation Reserve and Noninsured Crop
Disaster Assistance Programs. FSA will conduct monthly validation of potential improper
payments and implement the “Do Not Pay” initiative.

NRCS States Offices and divisions reported improper payment recoveries to the National
Headquarters (NHQ) quarterly. NHQ reviewed the information and provided a consolidated
report to the Department quarterly. For high-dollar improper payments, NRCS reported the
dollar amounts of the improper payments, the status of recovery efforts, and strategies to prevent
the improper payment from occurring to the Department. NRCS documented the improper
payment risk of all of its programs. Samples of watershed and Farm Bill financial assistance
payment propriety have been tested. A risk assessment was prepared on the watershed programs
and a corrective action plan has been prepared. In FY 2013, NRCS plans to update the policy to
include agency policy identifying and reporting improper payments to NHQ and the Department.




146    150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


CHALLENGE 9: Planning Needed for Succession Planning
and Reduced Staffing
For some time, USDA, like most of the Federal Government, has been anticipating the
retirement of a significant portion of its experienced workforce as employees of the Baby
Boomer generation reach retirement age. As of April 2011, more than half of USDA’s senior
executive service staff were eligible to retire (155 of 304), while a third of the Department’s
higher level general schedule (GS) grade staff — GS 11 to 15 — were eligible as well (8,994 of
26,019). The potential problems inherent in this generational shift in USDA’s workforce have
been magnified by the need to trim the Federal budget and accomplish more with fewer
employees. Agencies have not always been able to hire new employees to replace those who are
retiring. Also, in some critical areas, they may be operating with too few employees to
accomplish their mission.

OIG determined that:
      Inspectors were not always able to comply with FSIS policy to visit processing
       establishments at least once per day and per operating shift, often due to factors like
       inclement weather;
      FSA needs to reconsider how it delivers its programs, possibly streamlining the approval,
       processing, and servicing of loans to include only those factors essential and training its
       employees so that they are better able to review and service loans; and
      Rural Development (RD) will need to strategize and plan wisely for succession planning
       and maintain servicing and monitoring efforts on a portfolio that has grown significantly
       while the agency’s staff has decreased.

Corrective Actions:
During FY 2012, FSIS published Notice 70-11, “Recording Inspection Tasks as Not Performed
in the Public Health Information System.” This notice implemented an expanded list of 24 codes
that inspection personnel would use when they cannot perform all scheduled inspection tasks.

FSIS will conduct an analysis to determine reasons for missed inspections to find any trends and
make informed decisions about inspection allocation and prioritization. FSIS will prepare a
notice that instructs inspection personnel to review "missed" days Sanitation Standard Operating
Procedures records, and perform a Hazard Analysis and Critical Control Point verification task to
mitigate when inspection shifts are missed. The agency will also prepare a directive and
guidance instructing supervisors to periodically review data generated in PHIS for trends. In
addition, FSIS will conduct unannounced visits to establishments to ensure inspections are being
performed appropriately.

To strengthen the oversight and accountability of the Farm Storage Facility Loan (FSFL)
program, FSA plans to issue memoranda to State Executive Directors instructing them to ensure
that corrective actions have been taken by the respective county office. FSA will also conduct
training to review FSFL program policies and procedures. In addition, the agency will issue
handbook amendments and National FSFL program notices to State and county offices providing



                                                  Fiscal Year 2012 Agency Financial Report         147
SECTION 3: Other Accompanying Information

information relating to eligibility and obligation requirements, final facility costs, release of
liability documentation, and servicing delinquent loans.

To improve FSFL administration and strengthen its oversight and accountability, FSA will receive
verification and documentation from State and county offices to support disbursement of
previously determined ones with unsupported documentation. The agency also will demand and
collect unsupported disbursements from the FSFL producer, develop a program servicing checklist
for State and county offices, release a program-servicing checklist along with instructions, inform
State offices that annual reviews will be performed along with instructions to complete annual
training, and distribute program training.

RD reduced its workforce in FY 2012 from 6,000 to approximately 5,150 employees through a
Voluntary Early Retirement Authority/Voluntary Separation Incentive Pay (VERA/VSIP).
Twelve Midwestern States have begun regionalizing their administrative functions. The Single
Family Housing (SFH) Guaranteed Loan Program began implementing the State centralization
of the guaranteed SFH delivery platform.

Beginning in 2013, RD plans to fill positions that meet the strategic objectives of the Department
and the mission area. To determine which positions are strategic imperatives, the mission area is
currently undergoing a rigorous exercise to determine new full-time employee allocations in the
State offices and agencies. Also during FY 2013, RD plans to implement strategies to decrease
the need for administrative support in States by focusing on regionalization effort. The agency
also will continue to implement the Comprehensive Loan Program, pilot test the electronic loan
applications and the development of a plan for future integration, submit the proposed rule on
Certified Loan Packager to the Office of Management and Budget, and continue exploring the
possibility of a user fee and electronic loan closing for the Guaranteed Underwriting System.




148    150th Anniversary | United States Department of Agriculture
                                      USDA: Managing for Results in Performing Its Many Vital Public Functions



Summary of Financial Statement Audit and Management
Assurances
Summary of Existing Material Weaknesses
The U.S. Department of Agriculture’s material weaknesses and financial system non-conformance,
as related to management’s assurance for the Federal Managers’ Financial Integrity Act and the
certification for the Federal Financial Management Improvement Act, are listed in Exhibits 20
and 21.

Exhibit 20: Summary of Financial Statement Audit

           Audit Opinion                                                 Unqualified
            Restatement                                                       No
                                        Beginning                                                             Ending
        Material Weakness                Balance       New     Resolved     Consolidated      Reassessed      Balance
 Improvement Needed in Overall               1                                                                      1
 Financial Management*
 Improvement Needed in Information           1                                                                      1
 Technology Security and Controls
 TOTAL MATERIAL                              2                                                                      2
 WEAKNESSES
* USDA reports “Improvements Needed in Overall Financial Management as a financial system non-conformance in Exhibit 21.



Exhibit 21: Summary of Management Assurances

  EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING (FMFIA § 2)
     Statement of
                                                                     Qualified
      Assurance
                            Beginning                                                                       Ending
  Material Weakness                           New         Resolved       Consolidated      Reassessed
                             Balance                                                                        Balance
 Information Technology           1                                                                             1
 Financial Reporting –
                                  1                                                             1               0
 Unliquidated Obligations
 TOTAL MATERIAL
                                  2                                                                             1
 WEAKNESSES

        EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)
     Statement of
                                                                  Unqualified
      Assurance
                            Beginning                                                                       Ending
  Material Weakness                           New         Resolved       Consolidated      Reassessed
                             Balance                                                                        Balance
 TOTAL MATERIAL
                                  0                                                                             0
 WEAKNESSES




                                                             Fiscal Year 2012 Agency Financial Report                   149
SECTION 3: Other Accompanying Information

                            CONFORMANCE WITH FINANCIAL MANAGEMENT
                                 SYSTEM REQUIREMENTS (FMFIA § 4)
 Statement of Assurance           Systems do not conform to financial management system requirements
                                Beginning                                                       Ending
      Material Weakness                           New   Resolved   Consolidated   Reassessed
                                 Balance                                                        Balance
 Funds Control Management          1                                                               1
 TOTAL
                                   1                                                               1
 NON-CONFORMANCES

                               COMPLIANCE WITH FEDERAL FINANCIAL
                              MANAGEMENT IMPROVEMENT ACT (FFMIA)
                                            Agency                                Auditor
 Overall Substantial
                                             No                                     No
 Compliance
 1. System Requirements                      No                                     No
 2. Accounting Standards                     No                                     No
 3. United States Standard
    General Ledger at                        No                                     No
    Transaction Level
 4. Information security
    policies, procedures,                    No                                     No
    and practices




150       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions



Improper Payments
Since fiscal year (FY) 2000, agencies have reported efforts to reduce improper payments through
the Office of Management and Budget’s (OMB) Circular No. A-11, “Preparation, Submission, and
Execution of the Budget.” Under the Improper Payments Information Act of 2002 (IPIA), as
amended by the Improper Payments Elimination and Recovery Act of 2010 (IPERA), executive
agencies must identify any of their programs that may be susceptible to significant improper
payments, estimate the annual amount of improper payments, and submit those estimates to
Congress. A program with significant improper payments (high-risk program) has both a
2.5-percent improper payment rate of the total program outlays, and at least $10 million in
improper payments. Implementing guidance for IPERA is located in OMB Circular No. A-123,
“Management’s Responsibility for Internal Control,” Appendix C, “Requirements for Effective
Measurement and Remediation of Improper Payments.”

Measuring and reporting improper payments is mandatory for 5 high-risk programs under the
former Section 57 of OMB Circular No. A-11. The U.S. Department of Agriculture (USDA) also
has identified an additional 11 high-risk programs through its risk-assessment process. This risk-
assessment process is used to review USDA programs and activities, and identify those
susceptible to significant improper payments.

Fiscal Year 2012 Results
The Department’s improper payment rate decreased from 5.37 percent for FY 2011 to
5.11 percent for FY 2012. While outlays for the high-risk programs increased $6.7 billion from
FY 2011 to FY 2012, the Department still lowered the improper payment rate. The increase in
outlays was largely attributed to the increase in demand for food and nutrition assistance. The
following FY 2012 results demonstrate that USDA has reduced improper payment rates, and that
progress is being made:

      Eight USDA high-risk programs reported improper payment rates for FY 2012 that were
       below the programs’ improper payment rates reported for FY 2011;
      Eight USDA high-risk programs reported improper payment rates for FY 2012 that met
       or were lower than the programs’ reduction targets for FY 2012;
      The Forest Service’s (FS) Wildland Fire Suppression Management Program reported an
       improper payment rate of 0.00 percent — less than the FY 2012 reduction target of
       0.02 percent;
      The Natural Resources Conservation Service’s (NRCS) Farm Security and Rural
       Investment Programs reported an improper payment rate of 0.02 percent — less than the
       FY 2012 reduction target of 0.03 percent, and less than the 0.80 percent improper
       payment rate reported for FY 2011;
      The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program
       (SNAP) reported an improper payment rate of 3.80 percent — less than the FY 2012
       reduction target of 3.81 percent, and less than the 3.81 percent improper payment rate
       reported for FY 2011. The SNAP improper payment rate is a historic low for the
       program;


                                                  Fiscal Year 2012 Agency Financial Report         151
SECTION 3: Other Accompanying Information

         The Farm Service Agency’s (FSA) Market Assistance Loan Program reported an
          improper payment rate of 0.08 percent — less than the FY 2012 reduction target of
          0.51 percent, and less than the 0.52 percent improper payment rate reported for FY 2011;
         FSA’s Noninsured Assistance Program reported an improper payment rate of
          7.00 percent — less than the 8.97 percent improper payment rate reported for FY 2011;
         FSA’s Conservation Reserve Program reported an improper payment rate of
          0.36 percent — less than FY 2012 reduction target of 0.69 percent, and less than the
          1.77 percent improper payment rate reported for FY 2011;
         FSA’s Miscellaneous Disaster Programs reported an improper payment rate of
          2.16 percent — less than FY 2012 reduction target of 2.80 percent, and less than the
          2.90 percent improper payment rate reported for FY 2011;
         Risk Management Agency’s Federal Crop Insurance Corporation Program reported an
          improper payment rate of 4.08 percent — less than the FY 2012 reduction target of
          4.40 percent and the 4.72 percent improper payment rate reported for FY 2011; and
         FNS’ National School Lunch Program (NSLP) reported an improper payment rate of
          15.53 percent, which met the FY 2012 reduction target and was less than the
          15.98 percent improper payment rate reported for FY 2011.

The root causes of USDA’s improper payments are summarized into the categories of
verification, authentication, and administrative. Verification errors relate to verifying such
recipient information as earnings, income, assets, and work status. Authentication errors relate to
authenticating the accuracy of qualifying for program specific requirements, criteria, or
conditions. Administrative errors relate to the accuracy of the program staff’s entry,
classification, or processing of information associated with applications, supporting documents,
or payments.

For FY 2012, the root causes of USDA’s improper payments were categorized as:

         More than 97 percent attributable to administrative error;
         More than 2 percent attributable to verification error; and
         Less than 1 percent attributable to authentication error.

In FY 2012, the Department took the following actions to address improper payments:

         Awarded a payment recapture/recovery auditing (PRRA) services contract to a private
          sector recovery auditing contractor to identify program overpayments;
         Initiated a phased implementation approach to the PRRA initiative, with two FSA and
          one Rural Development program selected for Phase One implementation;
         Provided its first Annual Recovery Auditing Report to Congress and USDA’s Office of
          Inspector General (OIG);
         Submitted its final plan for implementing the “Do Not Pay” initiative to OMB;




152       150th Anniversary | United States Department of Agriculture
                              USDA: Managing for Results in Performing Its Many Vital Public Functions


      Revised its High-Dollar Quarterly Report guidance to provide additional clarification and
       transparency;
      Provided semi-annual reporting of additional error measurements for USDA’s two
       high-priority programs, SNAP and NSLP;
      Provided an Annual Accountable Official Report to OIG for the USDA high-priority
       programs;
      Provided its improper payments information for the Government-wide
       PaymentAccuracy.gov Web site that includes key indicators and statistics by program; and
      Completed risk assessments for 35 programs in FY 2012 as scheduled on a 3-year cycle.
       No new programs were declared high-risk as a result of the risk assessment.
USDA plans to continue reducing improper payments and expand the implementation of the
PRRA initiative during FY 2013. In addition to meeting IPIA/IPERA requirements, the
Department will continue to implement the requirements of Executive Order 13520, “Reducing
Improper Payments and Eliminating Waste in Federal Programs,” and the June 18, 2010,
Presidential Memorandum, “Enhancing Payment Accuracy Through a ‘Do Not Pay’ List.”

USDA’s FY 2013 actions planned to address improper payments include:

      Continue Phase One implementation of the PRRA initiative to identify, prevent, and
       recover overpayments made in the applicable agency programs;
      Identify additional agency programs and gather requirements for implementation of
       future phases of the PRRA initiative;
      Award a Department-wide contract and implement the Supplier Credit Initiative to
       perform recovery auditing on administrative payments;
      Implement the Department’s plan for the “Do Not Pay” initiative to have all applicable
       agencies and staff offices granted access to the “Do Not Pay” portal, which will allow
       them to verify recipient eligibility for USDA payments;
      Create aggressive correction action plans that target the root causes of improper payments
       and address internal control issues for each program;
      Implement the USDA plan to address IPERA noncompliance and designate a senior
       agency official as an IPERA accountable official for each agency with high-risk
       programs that was determined to be noncompliant with IPERA requirements;
      Participate in interagency workgroups to assist OMB in developing Government-wide
       guidance for implementing initiatives to reduce, prevent, and recover improper
       payments; and
      Revise Departmental High-Dollar Overpayment Quarterly Report guidance to provide
       additional clarification and transparency.




                                                 Fiscal Year 2012 Agency Financial Report         153
SECTION 3: Other Accompanying Information

I. Risk Assessment.

The Office of the Chief Financial Officer (OCFO) issued detailed guidance for the risk-assessment
process, including templates, and performed extensive reviews of drafts. Programs with larger
outlays were required to perform more detailed assessments than smaller programs.

For USDA’s largest programs, the risk-assessment process includes the following:

         Amount of improper payments needed to meet the reporting standards;
         Description of the program including purpose and basic eligibility requirements;
         Definition of improper payments specific to the program;
         Program vulnerabilities linked to improper payments;
         Internal controls designed to offset the program vulnerabilities;
         Internal controls testing for selected programs;
         Listing of significant reviews and audits;
         Final determination of risk level;
         Planned future enhancements; and
         Description of how improper payments are recovered.




154       150th Anniversary | United States Department of Agriculture
                                       USDA: Managing for Results in Performing Its Many Vital Public Functions


USDA has identified the following 16 programs as susceptible to significant improper payments.

Exhibit 22: Programs Susceptible to Improper Payments

 Selection Methodology                     Agency                                        Program
 Former Section 57 of Office   Farm Service Agency (FSA),           Marketing Assistance Loan (MAL) Program
 of Management and Budget      Commodity Credit Corporation
 (OMB) Circular No. A-11,      (CCC)
 “Preparation, Submission,
 and Execution of the          Food Nutrition Service (FNS)         Supplemental Nutrition Assistance Program (SNAP)
 Budget” (Circular                                                  National School Lunch Program (NSLP)
 No. A-11).
                                                                    School Breakfast Program (SBP)
                                                                    Special Supplemental Nutrition Program for Woman,
                                                                    Infants, and Children (WIC)
 USDA Identified as            FSA, CCC                             Milk Income Loss Contract (MILC) Program
 Susceptible to Significant
                                                                    Loan Deficiency Payments (LDP)
 Improper Payments
                                                                    Direct and Counter-Cyclical Payments (DCP)
                                                                    Conservation Reserve Program (CRP)
                                                                    Miscellaneous Disaster Programs (MDP)
                                                                    Noninsured Assistance Program (NAP)
                               Food Nutrition Service (FNS)         Child and Adult Care Food Program (CACFP)
                               Forest Service (FS)                  Wildland Fire Suppression Management (WFSM)
                               Rural Development (RD)               Rental Assistance Program (RAP)
                               Risk Management Agency (RMA)         Federal Crop Insurance Corporation (FCIC)
                                                                    Program Fund
                               Natural Resources Conservation       Farm Security and Rural Investment Act Programs
                               Service (NRCS)                       (FSRIP)




                                                                Fiscal Year 2012 Agency Financial Report                155
SECTION 3: Other Accompanying Information

II. Statistical Sampling.

Following is an exhibit describing each program’s sampling process.

Exhibit 23: Program Sampling Process

       Agency            Program                                        Sampling Process
 Farm Service        Marketing           The MAL sampling process information was described in the fiscal year
 Agency              Assistance Loan     (FY) 2011 Performance and Accountability Report (PAR), which can be found
 (FSA)/Commodity     (MAL) Program       at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
 Credit
 Corporation
 (CCC)
 Food and            Supplemental        States select a statistically random sample of cases each month from a universe of
 Nutrition Service   Nutrition           all households receiving SNAP benefits for that given month. Most States draw the
 (FNS)               Assistance          samples using a constant sampling interval. There are some States which employ
                     Program (SNAP)      simple random and/or stratified sampling techniques. Required annual sample sizes
                                         range from 300 for State agencies with small SNAP populations to more than 1,000
                                         for larger States. The average is approximately 950 per State. Federal sub-samples
                                         are selected systematically by FNS from each State’s completed reviews. These
                                         sample sizes range from 150 to 400 per State.
                                         The improper payment rate calculation process was described in the FY 2011
                                         PAR, which can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
 FNS                 National School     The NSLP information reporting for FY 2012 is based on the improper payment
                     Lunch Program       rate for School Year 2010-11 times the FY 2011 outlays.
                     (NSLP)              The NSLP sampling process information was described in the FY 2011 PAR,
                                         which can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
 FNS                 School Breakfast    The SBP information reporting for FY 2012 is based on the improper payment
                     Program (SBP)       rate for School Year 2010-2011 times the FY 2011 outlays.
                                         The statistical sampling process for this program is similar to NSLP. See the
                                         NSLP description.
 FNS                 Special             WIC information reported for FY 2012 is based on two components of the program:
                     Supplemental             Vendor Error — The Vendor Error sampling process was described in the
                     Nutrition Program         FY 2011 PAR, which can be found at:
                     for Women,                http://www.ocfo.usda.gov/usdarpt/usdarpt.htm; and
                     Infants, and             Certification Error — WIC reported certification error for the first time in
                     Children (WIC)            FY 2011. This certification sampling process was described in the
                                               FY 2011 PAR, which can be found at:
                                               http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
 FNS                 Child and Adult     CACFP information reported for FY 2012 is based on FY 2011 outlays. The
                     Care Food           CACFP sampling process information was described in the FY 2011 PAR, which
                     Program (CACFP)     can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
 FSA, CCC            Milk Income Loss    FSA did not perform a statstical sample because the costs were not justified based
                     Contract (MILC)     on the low volume of outlays and low improper payment rates during previous
                     Program             years. OMB and USDA will evaluate MILC annually to determine the type of
                                         measurement and AFR reporting to be done for a specific fiscal year.
 FSA, CCC            Loan Deficiency     FSA did not perform a statistical sample because the costs were not justified
                     Payments (LDP)      based on the low volume of outlays and the low improper payment rates during
                                         previous years. OMB and USDA will evaluate LDP annually to determine the
                                         type of measurement and AFR reporting to be done for a specific fiscal year.




156      150th Anniversary | United States Department of Agriculture
                                    USDA: Managing for Results in Performing Its Many Vital Public Functions


     Agency          Program                                         Sampling Process
FSA, CCC         Direct and            The DCP sampling process information was described in the FY 2011 PAR,
                 Counter-Cyclical      which can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                 Program (DCP)         The same process was used for this program, except the statistical sample was
                                       drawn from program payments made from October 2011 through December
                                       2011, representing approximately 98 percent of the FY 2012 outlays. This
                                       alternative measurement provided results nearly one year earlier than the
                                       previous measurement methodology.
FSA, CCC         Conservation          The CRP sampling process information was described in the FY 2011 PAR,
                 Reserve Program       which can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                 (CRP)                 The same process was used for this program, except the statistical sample was
                                       drawn from program payments made from October 2011 through December
                                       2011, representing approximately 95 percent of the FY 2012 outlays. This
                                       alternative measurement provided results nearly one year earlier than the
                                       previous measurement methodology.
FSA, CCC         Miscellaneous         The MDP sampling process information was described in the FY 2011 PAR,
                 Disaster Programs     which can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                 (MDP)                 The same process was used for this program, except the statistical sample was
                                       drawn for the Livestock Forage Disaster program payments made from October
                                       2010 through September 2011, representing 63 percent of the MDP annual outlays.
                                       OMB and USDA will evaluate MDP components annually to determine if
                                       measurement and AFR reporting will be done for a specific fiscal year.
FSA, CCC         Noninsured            The NAP sampling process information was described in the FY 2011 PAR,
                 Assistance            which can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                 Program (NAP)
Forest Service   Wildland Fire         FS information reported for FY 2012 is based on FY 2011 outlays. The FS
(FS)             Suppression           sampling process information was described in the FY 2011 PAR, which can be
                 Management            found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                 (WFSM)
Rural            Rental Assistance     This report is based on a review of tenants receiving rental assistance during FY
Development      Program (RAP)         2011. The RD sampling process information was described in the FY 2011 PAR,
(RD)                                   which can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                                       This year, the agency also tested if RD’s Office of the Deputy Chief Financial
                                       Officer paid appropriately on the borrower’s request for subsidy. During FY
                                       2012, two reviews of the RAP compliance with IPIA, both OIG (in Audit Report
                                       No. 500-24-001-11, “IPERA Compliance”) and GAO (in GAO Report
                                       No. GAO-12-624, “Rural Housing Service – Efforts to Identify and Reduce
                                       Improper Rental Assistance Payments Could Be Enhanced”) recommended that
                                       RD should test the causes of any payment processing errors to gain a more
                                       accurate picture of improper payments. Therefore, the agency undertook a review
                                       of payments made on the borrower’s request for subsidy.
                                       When borrowers use the Management Interactive Connection Network (MICN),
                                       the form is generated from the tenant certifications currently on file with the
                                       agency. Once the borrower accepts the form in MICN, the information is
                                       automatically sent through the Multi-Family Housing Information System and
                                       then to the Automated Multi Housing Accounting System without any data entry
                                       by the Centralized Servicing Center. Thus, the agency’s risk for data entry errors
                                       is eliminated. In FY 2011, 93 percent of the payments were automatically
                                       processed for accuracy and conformance through MICN, which left 7 percent that
                                       might have data entry errors.
                                       The agency used the same methodology for completing the review of these
                                       7 percent of payments as was used for reviewing tenant certifications. It used
                                       statisticians to identify the sample for review. Of the 6,346 payments that were
                                       processed manually between October 2010 and September 2011, a sample of 603
                                       payments that required manual intervention was reviewed. No errors were found.




                                                          Fiscal Year 2012 Agency Financial Report                     157
SECTION 3: Other Accompanying Information

      Agency           Program                                       Sampling Process
 Risk Management   Federal Crop        RMA completed the measurement of 2008, 2009, and 2010 crop year idemnities
 Agency (RMA)      Insurance           reviewed during 2009, 2010, and 2011. For FY 2012 reporting, RMA sampled
                   Corporation         and reviewed the 2011 crop year, using those results to replace the 2008 crop
                   (FCIC) Program      year results. The RMA sampling process information was described in the FY
                   Fund                2011 PAR, which can be found at:
                                       http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
                                       While RMA and OMB have discussed changing the sampling plan to include
                                       premium discrepancies in the improper payment calculations, RMA has deferred
                                       any action to expand the current OMB-approved sampling plan unless additional
                                       resources are made available for this purpose.
 Natural           Farm Security and   NRCS information reported for FY 2012 is based on FY 2011 outlays. The
 Resources         Rural Investment    NRCS sampling process information was described in the FY 2011 PAR, which
 Conservation      Act Programs        can be found at: http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
 Service (NRCS)    (FSRIP)             In addition, each selected sample item was reviewed, based upon supporting
                                       documentation, to verify that (1) the recipient was eligible for payment; (2)
                                       payment was made to the proper recipient; (3) payments issued for goods and/or
                                       services were delivered within the appropriate period of performance; (4)
                                       payments were made for the goods and/or services that were reflected on the
                                       contract documents; (5) payment amounts are equal to or less than the contract
                                       amount (not in excess of contract amount); (6) the appropriate documentation
                                       (when applicable) contains the eligible recipient’s signature; (7) The NRCS
                                       Government official signature acknowledging receipt of goods and/or services is
                                       present; and (8) the payment amounts agree to invoice amounts.




158     150th Anniversary | United States Department of Agriculture
                                     USDA: Managing for Results in Performing Its Many Vital Public Functions


III. Corrective Actions.

Each program is required to develop a Corrective Action Plan. The following exhibit describes
actions taken and planned.

Exhibit 24: Program Corrective Action Plans

     Agency           Program                                         Corrective Actions
 Farm Service      Marketing            All of the $2.4 million in MAL improper payments were attributable to
 Agency            Assistance Loan      administrative and documentation error.
 (FSA)/Commodity   Program (MAL)        Causes of improper payments include:
 Credit
                                               The producer did not have beneficial interest; and
 Corporation
 (CCC)                                         Error in calculating farm production.
                                        Actions taken to reduce improper payments:
                                        In accordance with USDA’s effort to develop comprehensive internal controls,
                                        quality assurance processes and systems, and comply with the IPIA, FSA has
                                        incorporated the priority of reducing improper payments into its 2012-2016
                                        Strategic Plan. A notice was issued to remind field offices that Average Crop
                                        Revenue Election (ACRE) and non-ACRE production have separate Reasonable
                                        Quantity and Available Amount worksheets.
                                        Completion Date: September 30, 2012.
                                        FSA has a performance-management program designed to improve individual
                                        and organizational effectiveness in accomplishing its mission and goals. This
                                        program provides for improper payments to be included in the performance plan
                                        (in place for FY 2012).
                                        National and State office managers are held accountable for ensuring that
                                        program policies and procedures are provided to the State and county office
                                        employees accurately and timely. National office managers are also held
                                        accountable, as reflected in the performance based rating measures, for overall
                                        program administration at the national level. FSA employees’ performance
                                        elements are directly related to the agency’s strategic plan (in place for FY 2012).
                                        During FY 2012, county office employees were responsible for making payments
                                        to producers and following all administrative steps in doing so. Employees were
                                        evaluated on program delivery and their compliance with regulations, policies,
                                        and procedures through their performance plans.
                                        Actions planned to reduce improper payments:
                                        In FY 2013, FSA will:
                                               Integrate the employee’s individual performance results related to
                                                reducing improper payments into their annual performance rating.
                                               Provide training on improper payments to field personnel and educate
                                                them on the importance of control procedures as well as the potential risks
                                                of noncompliance;
                                               Issue additional National notices and handbook amendments to State and
                                                County Offices reinforcing current program policies and procedures;
                                               Improve the quality of field guidance by implementing a process whereby
                                                program directives are vetted by at least six field office employees before
                                                directives are approved and issued Nation-wide.
                                               Contact State office managers where the improper payments were
                                                identified to determine possible training and/or job aids the State and
                                                County Office staff may need to assist in compliance with program
                                                requirements;
                                               Provide notices of detailed findings discovered during the FY 2012
                                                Statistical Sample including established policy and procedure references
                                                for each finding. State Office division chiefs and specialists will be
                                                instructed to review this notice in detail to develop corrective actions, as
                                                needed, to ensure that County offices follow applicable program
                                                procedures issued through national notices and program handbooks and
                                                provide additional program training where needed for the identified



                                                           Fiscal Year 2012 Agency Financial Report                      159
SECTION 3: Other Accompanying Information

       Agency           Program                                      Corrective Actions
                                              weaknesses. District Directors will be instructed to review this notice with
                                              County Executive Directors and Program Technicians within their
                                              respective districts; and
                                            Implement numerous controls to detect, prevent or recover improper
                                              payments. These include:
                                                 o Utilization of a checklist before disbursement of proceeds; and
                                                 o Compliance reviews and spot-checks to ensure the accuracy and
                                                      integrity of program payments.
                                      Additionally, for the MAL program only, the Modernize and Innovate the
                                      Delivery of Agricultural Systems (MIDAS) is scheduled to be available to field
                                      offices in the 2013 crop year. MIDAS is a collaborative, cross functional effort
                                      within FSA to advance and streamline business processes, and to achieve
                                      compliance by oversight, management, and accountability of administering FSA
                                      programs.
                                      Completion Date: September 30, 2013.


 FNS                Supplemental      All of the $2.7 billion in SNAP improper payments were attributable to
                    Nutrition         administrative and documentation error.
                    Assistance        Causes of improper payments include:
                    Program (SNAP)
                                      An improper payment occurs when a participating household is certified for too
                                      many or too few benefits compared to the level for which it is eligible. This error
                                      can result from incomplete or inaccurate reporting of income and/or assets by
                                      participants at the time of certification, and from changes subsequent to
                                      certification, or errors in determining eligibility or benefits by caseworkers.
                                      Eligibility worker delays in action or inaction taken on client reported changes
                                      also cause improper payments. An analysis of the FY 2011 completed statistical
                                      sample revealed that approximately 72.79 percent of all variances occurred
                                      before or at the most recent certification/recertification. In addition, 69.09 percent
                                      of the errors were caused by State agencies (SAs). More than half of the errors
                                      (52.62 percent) were income related and caused by misreporting by the client or
                                      misapplying the reported income by the SAs. Misreporting or misapplying
                                      deductions was the second largest source of improper payments at 31.11 percent.
                                      Actions taken to reduce improper payments:
                                             FNS published the final regulation which codifies the current policy for
                                              the use of the Social Security Administration’s Death Master File by the
                                              SAs. This action was completed in August 2012; and
                                             FNS issued a policy memo stating that the SAs are expected to use the
                                              results of FNS retailer disqualification actions to investigate and penalize
                                              recipients for trafficking. This action was completed in October 2011.
                                      Actions planned to reduce improper payments:
                                      FNS will develop a pilot system that will allow States to detect duplicate
                                      participation in SNAP across State boundaries and within the same State.
                                      Completion Date: September 30, 2013.
                                      The SNAP information on steps that are (or will be) taken to address specific
                                      findings, and improve the overall control environment and improper payments
                                      was described in the FY 2011 PAR, which can be found at:
                                      http://www.ocfo.usda.gov/usdarpt/usdarpt.htm.
 FNS                National School   All of the $1.6 billion in NSLP improper payments were attributable to
                    Lunch Program     administrative and documentation error.
                    (NSLP)            Causes of improper payments include:
                                            Misclassification by the schools of the meal eligibility status of
                                              participating students (certification error); and
                                            Improper meal counting and meal claiming by schools and school districts
                                              (non-certification error).
                                      Actions taken to reduce improper payments:
                                            Required annual training for schools on certification and accountability
                                              issues. Completion Date: School Year 2012-2013;
                                            Awarded funding to State Agencies (SAs) in FY 2012 to perform



160      150th Anniversary | United States Department of Agriculture
                                  USDA: Managing for Results in Performing Its Many Vital Public Functions


      Agency      Program                                          Corrective Actions
                                             additional administrative reviews in local education agencies having
                                             demonstrated a high level of or at high-risk for administrative error in
                                             NSLP/SBP;
                                            FNS established the Child Nutrition (CN) Division’s State Systems
                                             Support Branch in FY 2010 that is dedicated to providing support and
                                             technical assistance to SAs to assist them in working toward successful
                                             program outcomes in the implementation of automated systems to
                                             improve: (1) CN program administration and performance; (2) access to
                                             CN program benefits through direct certification, direct verification and
                                             other automated means to establish children’s eligibility for free and
                                             reduced-price meals; and (3) Federal reporting on program outcomes;
                                            In 2012, FNS issued a policy memo detailing the school district’s ability
                                             and responsibilities to verify NSLP applications beyond the required
                                             sample size when there is cause; and
                                            As of June 2012, FNS has awarded 27 grants to 19 States that administer
                                             NSLP and have a low direct-certification rate to improve the rate of
                                             children in SNAP households who are directly certified for free meals. In
                                             addition, FNS expanded the number of States eligible to apply to any
                                             State that does not meet the 95-percent benchmark for direct certification
                                             rates with SNAP. Completion Date: School Year 2011-2012.
                                     Actions planned to reduce improper payments:
                                     Beginning with School Year 2011-2012 and after, States that do not meet the
                                     benchmarks set for direct certification rates with SNAP must develop and
                                     implement continuous improvement plans to describe the activities they will
                                     implement to improve their rates. FNS is contracting for technical assistance to
                                     States in the area of direct certification improvements, including collecting and
                                     sharing best State and local educational agency practices and developing
                                     continuous improvement plans.
                                     Beginning in FY 2013, FNS will improve the School Food Verification Summary
                                     Report by requesting additional data which will contribute to a more accurate
                                     direct certification rate. In addition, it has simplified the form’s instructions and
                                     developed a more user-friendly layout. The agency has also issued applications
                                     and other materials for households with limited English proficiency to lead to
                                     greater accuracy in application data and fewer certification errors. Currently, FNS
                                     is restructuring the request for grant applications to allow further application
                                     opportunities, streamline the application process, and focus on key improvement
                                     strategies.
FNS            School Breakfast      All of the $752 million in SBP improper payments were attributable to
               Program (SBP)         administrative and documentation error.
                                     Causes of improper payments include:
                                     The causes for this program are similar to NSLP. See the NSLP description.
                                     Actions taken and planned to reduce improper payments:
                                     The corrective actions for this program are similar to NSLP. See the NSLP
                                     description.

FNS            Special               All of the $201.6 million in WIC improper payments were attributable to
               Supplemental          administrative and documentation error.
               Nutrition Program     Causes of improper payments include:
               for Women,
                                           Participant is certified erroneously (i.e. deemed eligible though the
               Infants, and                  participant’s actual income was not within eligibility guidelines); and
               Children (WIC)
                                           Overpayments and underpayments to WIC vendors.
                                     Actions taken to reduce improper payments:
                                     In FY 2012, FNS provided training on WIC vendor management requirements
                                     and practices, including vendor selection criteria, peer group definitions and
                                     classifications, guidelines/criteria for setting competitive prices and maximum
                                     allowable reimbursement rates, and effective vendor monitoring.

                                     Actions planned to reduce improper payments:
                                     Vendor monitoring will be the priority functional area for management evaluations
                                     of WIC SAs conducted in FY 2013. Program integrity training and oversight efforts



                                                        Fiscal Year 2012 Agency Financial Report                       161
SECTION 3: Other Accompanying Information

       Agency           Program                                      Corrective Actions
                                       are designed to strengthen WIC SA vendor management weaknesses, and
                                       discourage vendor attempts to defraud or overcharge the program.
 FNS                Child and Adult    All of the $14.2 million in CACFP improper payments were attributable to
                    Care Food          administrative and documentation error.
                    Program (CACFP)    Causes of improper payments include:
                                       Family Day Care Homes (FDCH) improper payments are caused by sponsor error
                                       in determining a participating home’s reimbursement tier (tiering error), or by
                                       FDCH error in reporting the number of meals which are eligible for
                                       reimbursement (claiming error).
                                       Actions taken to reduce improper payments:
                                       During FY 2012, regional offices (ROs) will provide on-site training and
                                       technical assistance visits for State agency (SA) and local agency staff, as
                                       needed, to ensure successful implementation of targeted management evaluations
                                       (TME) corrective actions, and/or address new issues of concern which have
                                       surfaced and impact the integrity of SA CACFP operations. Monthly RO/Child
                                       Nutrition Division (CND) CACFP conference calls (facilitated by ROs) will
                                       include TME corrective actions as an agenda item to allow ROs/CND to discuss
                                       findings/corrective actions by category to promote implementation of best
                                       practices and consistency across regions.
                                       Completion date: September 30, 2012.
                                       Actions planned to reduce improper payments:
                                       The first 7 work products will be completed by December 31, 2012. The
                                       management evaluation guidance and regional office site training will be
                                       completed by September 30, 2013. FNS workgroups will draft guidance materials
                                       on the following areas:
                                              Multi-State sponsors instruction;
                                              Effective monitoring (SA level only as local monitoring guidance is in
                                               process);
                                              Serious deficiency guidance (includes SA and sponsoring organization
                                               implementation);
                                              Budget review and approval guidance;
                                              A revision of FNS Instruction 796-2, “Financial Management: Child and
                                               Adult Care Food Program;”
                                              Independent center handbook;
                                              Sponsored center handbook; and
                                              During FY 2013, regional offices (ROs) will provide on-site training and
                                               technical assistance visits for State agency (SA) and local agency staff, as
                                               needed, to ensure successful implementation of targeted management
                                               evaluations (TME) corrective actions, and/or address new issues of
                                               concern which have surfaced and impact the integrity of SA CACFP
                                               operations. Monthly RO/Child Nutrition Division (CND) CACFP
                                               conference calls (facilitated by ROs) will include TME corrective actions
                                               as an agenda item to allow ROs/CND to discuss findings/corrective
                                               actions by category to promote implementation of best practices and
                                               consistency across regions.
                                              Management evaluation guidance.
                                       Beginning in FY 2013, FNS will require sponsoring organizations to conduct
                                       periodic, unannounced site visits at not less than 3-year intervals to sponsored
                                       child and adult care and family or group day care homes, and at least 1 scheduled
                                       site visit annually at these centers and homes. The timing of unannounced
                                       reviews will be varied in such a way that the reviews will be unpredictable to
                                       sponsored facilities.
 FSA, CCC           Milk Income Loss   FSA did not perform a statstical sample because costs were not justified based on
                    Contract (MILC)    low outlays during FY 2011 and the low improper payment rates during previous
                    Program            years. OMB and USDA will evaluate MILC annually to determine the type of
                                       measurement and AFR reporting to be done for a specific fiscal year.
 FSA, CCC           Loan Deficiency    FSA did not perform a statstical sample because costs were not justified based on
                    Payments (LDP)     low outlays during FY 2011 and the low improper payment rates and FY 2011
                                       outlays during previous years. OMB and USDA will evaluate LDP annually to



162      150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


   Agency      Program                                         Corrective Actions
                                  determine the type of measurement and AFR reporting to be done for a specific
                                  fiscal year.


FSA, CCC    Direct and            All of the $18.8 million in DCP improper payments were attributable to
            Counter-Cyclical      administrative error.
            Payments (DCP)        Causes of improper payments include:
                                        Producer did not meet cash-rent tenant requirement;
                                        Required signatures and/or acreage reports were not on file; and
                                        Payment did not take into account required base acres reduction.
                                  Actions taken to reduce improper payments:
                                  In FY 2012, FSA conducted payment training to remind employees that all
                                  owners should be properly recorded in the farm records and to properly record
                                  base acre reductions where applicable.
                                  Completion date: September 30, 2012.
                                  Actions planned to reduce improper payments:
                                  For DCP planned actions, see the MAL planned actions. The same apply to this
                                  program.
FSA, CCC    Conservation          All of the $6.1 million in CRP improper payments were attributable to
            Reserve Program       administrative error.
            (CRP)                 Causes of improper payments include:
                                        Applicable payment reduction was not made;
                                        Incorrect rental rate was used; and
                                        Incorrect amount of acres in contracts.
                                  Actions taken to reduce improper payments:
                                  In FY 2012, FSA issued a notice to State and county offices providing the
                                  detailed findings discovered during the FY 2012 CRP IPIA review including
                                  established policy and procedure references for each finding.
                                  Completion date: September 30, 2012.
                                  Actions planned to reduce improper payments:
                                  For CRP planned actions, see the MAL planned actions. The same apply to this
                                  program.
FSA, CCC    Miscellaneous         All of the $10.2 million in MDP improper payments were attributable to
            Disaster Programs     administrative error.
            (MDP)                 Causes of improper payments include:
                                        Payment based on incorrect forage or livestock information;
                                        Documentation is not on file to support grazing losses occurred on eligible
                                          land;
                                        Producer did not meet Risk Management Purchase Requirements; and
                                        Not all livestock meet eligibility requirements.
                                  Actions taken to reduce improper payments:
                                  In FY 2012, a notice was issued to field offices to reinforce program policies and
                                  procedures.
                                  Completion date: September 30, 2012.
                                  Actions planned to reduce improper payments:
                                  For MDP planned actions, see the MAL planned actions. The same apply to this
                                  program.
FSA, CCC    Noninsured            All of the $4.8 million in MDP improper payments were attributable to
            Assistance            administrative error.
            Program (NAP)         Causes of improper payments include:
                                        Incorrect total production used to calculate payment;
                                        Application for payment filed late;
                                        Acreage report is not on file; and
                                        Incorrect crop acreage used to calculate payment.



                                                     Fiscal Year 2012 Agency Financial Report                    163
SECTION 3: Other Accompanying Information

      Agency           Program                                       Corrective Actions
                                       Actions taken reduce improper payments:
                                       In FY 2012, a notice was issued to field offices to reinforce current program
                                       policies and procedures. In addition, NAP payment software has been enhanced
                                       to retrieve acres from acreage reporting software.
                                       Completion date: September 30, 2012.
                                       Actions planned to reduce improper payments:
                                       For NAP planned actions, see the MAL planned actions. The same apply to this
                                       program.
 FS                Wildland Fire       FS corrective actions have reduced the potential for errors, resulting in the
                   Suppression         WFSM reporting a 0-percent improper payment rate. These actions include:
                   Management          improved internal controls; internal monitoring and reviews for potential
                   (WFSM)              improper payments; centralization of accounting functions; improved
                                       communications; and follow up prior to payment authorization.
                                       Actions planned to reduce improper payments:
                                            Management will be notified of identified improper payments and will
                                              have reduction of improper payments and recovery of improper payments
                                              included in its performance plans. Completion Date: FY 2013; and
                                            Management will be notified of improper payments and audit findings,
                                              identification of root causes, and recovery efforts. Completion Date: FY
                                              2013.
 RD                Rental Assistance   A total of $4.6 million or 12.5 percent of the $37.1 million in RAP improper
                   Program (RAP)       payments were attributable to verfication error. A total of $32.5 million or
                                       87.5 percent of the $37.1 million in RAP improper payments were attributable to
                                       administrative and documentation error.
                                       Causes of improper payments include:
                                             Insufficient file documentation; and
                                             Borrower/agent calculation errors.
                                       Actions taken to reduce improper payments:
                                       A Departmental priority is to assist borrowers and property managers in their
                                       responsibilities by obtaining access to the New Hires database provided by the
                                       U.S. Department of Health and Human Services. This access would improve
                                       income verification and subsidy documentation, thereby improving the accuracy
                                       of subsidy payments. Completion Date: USDA sent request for this legislative
                                       change to OMB in May 2012.
                                       Actions planned to reduce improper payments:
                                             RD State office staff is required to follow up on each instance of error
                                               found in the audit, and either obtain appropriate supporting documentation
                                               for the subsidy amount paid, or begin recovery of unauthorized assistance
                                               amounts. Completion Date: September 30, 2013;
                                             All State offices must conduct training for borrowers and property
                                               managers in appropriate required documentation and follow up with
                                               tenants and income-verifiers. Completion Date: September 30, 2013;
                                             RD has begun implementing its Rental Assistance Program for the
                                               Department’s recovery auditing initiative. Completion Date: September
                                               30, 2013; and
                                             RD will address recommendations provided by GAO in Audit Report
                                               “GAO-12-624 “Rural Housing Service – Efforts to Identify and Reduce
                                               Improper Rental Assistance Payments Could Be Enhanced.” Completion
                                               Date: September 30, 2013.
 RMA               Federal Crop        A total of $138.7 million or 80 percent of the $173.4 million in FCIC improper
                   Insurance           payments were attributable to verfication error. A total of $34.7 million or 20
                   Corporation         percent of the $173.4 million in FCIC improper payments were attributable to
                   (FCIC) Program      administrative and documentation error.
                   Fund                Cause of improper payments was:
                                       Producer certification.
                                       Actions planned to reduce improper payments:
                                       RMA has initiated discussions with insurance companies that would result in a
                                       historical production database for policy holders and acreage with the first phase



164     150th Anniversary | United States Department of Agriculture
                            USDA: Managing for Results in Performing Its Many Vital Public Functions


   Agency      Program                                         Corrective Actions
                                scheduled for completion in 2015. In conjunction with this corrective action,
                                RMA plans to switch land identification to “common land units” for all farm
                                programs. This collaboration could potentially reduce the number of certification
                                errors by producers and ease program complexity.
NRCS        Farm Security and   All of the $400,000 in FSRIP improper payments were attributable to
            Rural Investment    authentication errors.
            Act Programs        Cause of improper payments:
            (FSRIP)
                                Ineligible acres included in contract.
                                Actions taken to reduce improper payments:
                                A contract review checklist was developed that States use when conducting
                                quality assurance, annual contracts reviews, and second level reviews. The
                                checklist requires verification of eligible acres on the entire operation and
                                agricultural delineation. Eligible acres for program enrollment are verified to
                                ensure all acres in a contract are eligible for program enrollment. Corrective
                                actions include modifying the acres out of the contract or termination. If
                                deficiencies are found after payments have been made, the full recovery of
                                financial assistance and termination of the contract is required if the cause is
                                determined to be intentional.
                                Completion date: September 30, 2012.
                                Actions planned to reduce improper payments:
                                NRCS will provide national program roll-out training to reiterate existing
                                national policy. Completion Date: FY 2013.




                                                    Fiscal Year 2012 Agency Financial Report                       165
SECTION 3: Other Accompanying Information

IV. Improper Payment Reporting

The following exhibit shows USDA’s high-risk programs. See the notes for an explanation of the
program’s measurement period and other applicable information.

Exhibit 25: Improper Payments Reporting Results

                                Improper Payments Reporting Results ($millions)
                                                                   Results                       Results
                                                             Reported in FY 2011           Reported in FY 2012
                        Program                             Outlays    IP%     IP$       Outlays    IP%     IP$
 Marketing Assistance Loan Program, FSA/CCC [Note #3]         3,054   0.52%        16      2,878   0.08%          2
 Supplemental Nutrition Assistance Program, FNS [Note #8]    64,705   3.81%    2,465      71,813   3.80%    2,729
 National School Lunch Program, FNS [Note #1]
   Total Program                                             10,739   15.98%   1,716      10,024   15.53%   1,557
   Certification Error                                                 9.10%     977                8.65%     867
   Counting/Claiming Error                                             6.88%     739                6.88%     690
 School Breakfast Program, FNS [Note #1]
   Total Program                                              2,824   24.96%    705        2,987   25.18%    752
   Certification Error                                                 9.17%    259                 9.39%    280
   Counting/Claiming Error                                            15.79%    446                15.79%    472
 Women, Infants, and Children, FNS [Note #2]
  Total Program                                               4,648   4.13%     192        4,886   4.13%     202
  Certification Error Component                                       3.05%     142                2.98%     146
  Vendor Error Component                                              1.08%      50                1.15%      56
 Child and Adult Care Food Program, FNS [Note #2]
   Total Program                                              2,521     N/A     N/A        2,653     N/A     N/A
   FDC Homes – Tiering Decisions                                896   1.53%      14          900   1.58%      14
   FDC Homes – Meal Claims                                              N/A     N/A                  N/A     N/A
 Milk Income Loss Contract Program, FSA [Note #4]              182    2.00%          4        1      N/A     N/A
 Loan Deficiency Payments, FSA [Note #5]                        0.2     N/A     N/A          0.1     N/A     N/A
 Direct and Counter-Cyclical Payments, FSA [Note #3]          3,877   0.05%          2     3,867   0.50%         19
 Conservation Reserve Program, FSA [Note #3]                  1,605   1.77%        27      1,686   0.36%          6
 Miscellaneous Disaster Programs, FSA [Note #6]                235    2.90%          7      477    2.16%         10




166     150th Anniversary | United States Department of Agriculture
                                         USDA: Managing for Results in Performing Its Many Vital Public Functions


                                  Improper Payments Reporting Results ($millions)
                                                                     Results                             Results
                                                               Reported in FY 2011                 Reported in FY 2012
                        Program                              Outlays     IP%        IP$          Outlays     IP%         IP$
 Noninsured Assistance Program, FSA [Note #3]                       90   8.97%            8             69   7.00%             5
 Wildland Fire Suppression Management, FS [Note #9]                491   0.00%           0.0          694    0.00%          0.0
 Rental Assistance Program, RD [Note #9]                       1,020     1.48%            15       1,078     3.44%          37
 Federal Crop Insurance Corporation Program Fund, RMA          5,225     4.72%           247       4,249     4.08%         173
 [Note #7]
 Farm Security and Rural Investment Act Programs, NRCS         1,433     0.80%            11       2,088     0.02%          0.4
 [Note #9]
 USDA Total                                                  101,024     5.37%      5,428        107,696     5.11%       5,507

The following exhibit shows USDA’s high-risk programs and provides a detailed breakdown of
the annual amount of improper payments. It shows overpayments and underpayments, improper
payments due to disbursement errors, and incomplete paperwork. See the notes for an
explanation of the program’s measurement period and other applicable information.

Exhibit 26: Detailed Breakout of Improper Payments Reporting

                            Detailed Breakout of Improper Payments Reporting for FY 2012
                  Total                                                      Incorrect    Incorrect
                Improper                Over-    Over-  Under-      Under-   Disburse-    Disburse-     Incomplete   Incomplete
                Payments               Payment Payment Payment     Payment     ment         ment        Paperwork    Paperwork
                $millions      IP %    $millions  %    $millions      %      $millions       %           $millions       %
Marketing
Assistance
Loan
                       2       0.08%         2   0.08%       0.2     0.00%           2         0.08%           0.0       0.00%
Program,
FSA/CCC
[Note #3]
Supplemental
Nutrition
Assistance         2,729       3.80%     2,147   2.99%       582     0.81%       2,729         3.80%           0.0       0.00%
Program, FNS
[Note #8]
National
School Lunch
                   1,557      15.53%     1,182 11.79%        375     3.74%       1,557         15.53%          0.0       0.00%
Program, FNS
[Note #1]
School
Breakfast
                     752      25.18%       648 21.70%        104     3.48%        752          25.18%          0.0       0.00%
Program, FNS
[Note #1]
Women,
Infants, and         202       4.13%       185   3.79%        17     0.34%        202          4.13%           0.0       0.00%
Children, FNS
Child and
Adult Care
                      14       1.58%        12   1.30%         2     0.28%         14          1.58%           0.0       0.00%
Food Program,
FNS




                                                             Fiscal Year 2012 Agency Financial Report                       167
SECTION 3: Other Accompanying Information

                            Detailed Breakout of Improper Payments Reporting for FY 2012
                  Total                                                      Incorrect   Incorrect
                Improper                Over-    Over-  Under-      Under-   Disburse-   Disburse-   Incomplete   Incomplete
                Payments               Payment Payment Payment     Payment     ment        ment      Paperwork    Paperwork
                $millions      IP %    $millions  %    $millions      %      $millions      %         $millions       %
Milk Income
Loss Contract
                     N/A         N/A      N/A      N/A      N/A       N/A         N/A         N/A          N/A          N/A
Program, FSA
[Note #4]
Loan
Deficiency
                     N/A         N/A      N/A      N/A      N/A       N/A         N/A         N/A          N/A          N/A
Payments,
FSA [Note #5]
Direct and
Counter-
Cyclical              19       0.50%        19   0.50%       0.0     0.00%         19       0.50%           0.0       0.00%
Payments,
FSA [Note #3]
Conservation
Reserve
                       6       0.36%         4   0.24%         2     0.12%           6      0.36%           0.0       0.00%
Program, FSA
[Note #3]
Miscellaneous
Disaster
                      10       2.16%         7   1.53%         3     0.63%           9      1.97%             1       0.18%
Programs,
FSA [Note #6]
Noninsured
Assistance
                       5       7.00%         3   4.99%         1     2.01%           4      5.28%             2       2.72%
Program, FSA
[Note #3]
Wildland Fire
Suppression
                      0.0      0.00%       0.0   0.00%       0.0     0.00%         0.0      0.00%           0.0       0.00%
Management,
FS [Note #9]
Rental
Assistance
                      37       3.44%        35   3.22%         2     0.22%           3      0.25%            34       3.18%
Program, RD
[Note #9]
Federal Crop
Insurance
Corporation
                     173       4.08%       160   3.75%        14     0.33%        173       4.08%           0.0       0.00%
Program Fund,
RMA [Note
#7]
Farm Security
and Rural
Investment
                      0.4      0.02%       0.4   0.02%       0.0     0.00%         0.4      0.02%           0.0       0.00%
Program,
NRCS [Note
#9]
USDA Total         5,507       5.11%     4,404   4.09%     1,103     1.02%      5,470       5.08%            37       0.03%




168     150th Anniversary | United States Department of Agriculture
                                       USDA: Managing for Results in Performing Its Many Vital Public Functions


The following exhibit shows future year outlays and improper payment estimates for USDA’s
high-risk programs.

Exhibit 27: Improper Payments Reduction Outlook

                               Improper Payment Reduction Outlook ($millions)
                                FY 2013 Reporting               FY 2014 Reporting            FY 2015 Reporting
         Program             Outlays       IP%      IP$      Outlays   IP%      IP$       Outlays   IP%      IP$
 Marketing Assistance
 Loan Program, FSA/CCC          3,941       0.49%     19          28    0.48%       0.1        28    0.40%       0.1
 [Note #10]
 Supplemental Nutrition
 Assistance Program, FNS       76,030       3.81%   2,897     76,030    3.81%   2,897      76,030    3.81%   2,897
 [Note #8]
 National School Lunch
                               11,106      15.10%   1,677     11,414   14.67%   1,674      11,650   14.25%   1,660
 Program, FNS
 School Breakfast Program,
                                3,467      24.36%    845       3,617   23.57%       853     3,804   22.80%       867
 FNS
 Women, Infants, and
                                4,560       4.00%    182       5,290    3.92%       207     4,977    3.84%       191
 Children, FNS
 Child and Adult Care
                                 922        1.53%     14         951    1.48%        14       972    1.43%        14
 Food Program, FNS
 Milk Income Loss
 Contract Program, FSA           404        1.80%      7           8    1.79%       0.0         8    1.78%       0.0
 [Note #4]
 Loan Deficiency
                                  0.1       0.40%     0.0        0.0    0.38%       0.0       1.4    0.35%       0.0
 Payments, FSA [Note #5]
 Direct and Counter-
 Cyclical Payments, FSA         3,528       0.35%     12       4,958    0.33%        16     4,958    0.31%        15
 Conservation Reserve
 Program, FSA                   1,859       0.35%      7       2,202    0.34%        8      2,202    0.33%        7
 Miscellaneous Disaster
                                 700        2.10%     15       1,395    2.05%        29     1,395    2.00%        28
 Programs, FSA [Note #6]
 Noninsured Assistance
 Program, FSA                    260        4.97%     13         115    3.00%        3        115    2.50%        3
 Wildland Fire Suppression
 Management, FS
 [Note #11]                     1,239       0.02%     0.3      1,268    0.02%       0.3     1,312    0.02%       0.3
 Rental Assistance
 Program, RD                    1,189       2.50%     30       1,248    2.20%        27     1,310    1.90%        25
 Federal Crop Insurance
 Corporation Program
 Fund, RMA                      8,000       4.00%    320       8,000    3.90%       312     8,000    3.80%       304
 Farm Security and Rural
 Investment, NRCS
 [Note #12]                     2,618       0.03%      1       2,666    0.03%        1      2,774    0.03%        1

Note #1: Information has not been adjusted for interaction between the different sources of
certification error and counting/claiming error. NSLP and SBP estimated improper payment
amounts reported for FY 2012 are based on improper payment rates for School Year 2010/2011,
multiplied by the FY 2011 outlays.


                                                            Fiscal Year 2012 Agency Financial Report             169
SECTION 3: Other Accompanying Information

Note #2: WIC and CACFP currently test components of their programs measuring FY 2011
outlays for FY 2012 reporting. CACFP currently tests and reports on the FDCH tiering decision
component of the payment process. FNS continues to evaluate the measurement processes for the
CACFP meal claim component. The agency has not set a date for measurement and reporting.

Note #3: MAL and NAP information for FY 2012 reporting is based on total outlays for
FY 2011. DCP and CRP information for FY 2012 reporting is based on October 2011 through
December 2011 outlays, which represent 98.3 percent of the annual outlays for DCP and
94.7 percent of the annual outlays for CRP. The estimated improper payment dollar amounts for
MAL, DCP, CRP, and NAP may reflect variances from the relationship between the improper
payment percentage and the outlays amount. These variances result from the complex, multi-
stage statistical sampling methodology developed by the contract statistician in calculating the
independent projections of the dollars and percentages in error. The variances represent a
complex ratio estimate weighted with respect to the payments within their applicable county
stratification. They reflect the variability within the payment data and occur with a 90-percent
confidence level.

Note #4: A full statistical sample was not cost effective due to low outlays during FY 2011 and
the low improper payment rates in previous years. OMB will evaluate MILC activity annually to
determine if measurement for a specific fiscal year would be cost effective.

Note #5: A statistical sample was not performed; it was not cost effective due to low outlays
during FY 2011, and low improper payment rates in previous years. OMB will evaluate LDP
activity annually to determine if measurement for a specific fiscal year is cost effective.

Note #6: FSA measured one component of the several MDP disaster program components for
FY 2012 reporting. A full statistical sample of all MDP components was not cost effective. The
Livestock Forage Disaster Program FY 2011 outlays (63 percent of all MDP outlays) were
statistically sampled. FSA is undergoing a risk assessment of the Livestock Indemnity Program
(35 percent of MDP outlays). OMB will evaluate MDP activity annually and determine which
components to measure for a specific fiscal year.

Note #7: RMA uses a 3-year running average to calculate its improper payment rate. FY 2012 is
based on the measurement of 2009, 2010, and 2011 crop year outlays.

Note #8: SNAP FY 2012 reporting information is based on FY 2011 outlays. SNAP reduction
targets may be reduced and adjusted in consideration of increased need resulting from further
growth in the program, which has been unprecedented during the past few years, State budget
constraints, and other related factors. The SNAP improper payment rate trend line goes from
5.99 percent in FY 2007 to 3.80 percent in FY 2012. Due to the above issues, it is not realistic
and likely not achievable for SNAP to consistently have 3.80 percent or less improper payment
rate for future years.

Note #9: The FSRI, RAP, and WFSM programs’ information for FY 2012 reporting is based on
FY 2011 outlays.




170    150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


Note #10: The MAL improper payment rate trend line goes from 7.52 percent in FY 2007 to
0.08 percent in FY 2012. The 0.08 percent rate for FY 2012 is an outlier compared to rates of
the previous five years. Due to the inherent variables in the statistical sampling measurement
process, a FY 2013 reduction lower than 0.08 percent is not realistic and likely not achievable.
The MAL reduction target rates for FY 2013, FY 2014 and FY 2015 in Exhibit 27, are more
realistic and achievable in relationship to the MAL trend line from FY 2007 through FY 2011.

Note #11: The WFSM program has reported a 0.00 percent improper payment rate for the past
four years. Due to the inherent variables in the statistical sampling measurement process, it is
not realistic and likely not achievable for WFSM program to consistently have 0.00 percent
improper payment rate for future years.

Note #12: Due to the inherent variables in the statistical sampling measurement process, it is not
realistic and likely not achievable for FSRI program to consistently have 0.02 percent or less
improper payment rate for future years.

V. Recapture of Improper Payments Reporting.

During FY 2012, USDA provided its first Annual Recovery Auditing Report to Congress and
OIG. Also in FY 2012, the Department awarded a payment recapture/recovery auditing (PRRA)
services contract to a private sector contractor to identify program overpayments. Under USDA’s
phased implementation of the PRRA initiative, phase one consists of three Department programs,
the Farm Service Agency’s (FSA) Conservation Reserve and Noninsured Assistance Programs,
and Rural Development’s Rental Assistance Program. FSA and RD have been working with
contractor staff to help them understand how the programs operate and how improper payments
occur within each program. This process is crucial for implementing the PRRA initiative. It
allows the contractor to tailor its software to each program to reduce false positives and assist in
identifying overpayments made to ineligible recipients.

USDA plans to identify additional agency programs for implementation during the first quarter
of FY 2013 for phase two of the PRRA initiative. Since the initiative is in the implementation
phase and has yet to make recoveries, the Department cannot report PRRA information for
FY 2012; therefore, Exhibit 28, Payment Recapture Audit Reporting; Exhibit 29, Payment
Recapture Audit Targets; Exhibit 30, Aging of Outstanding Overpayments; and Exhibit 31,
Disposition of Recapture Funds, are not available. USDA anticipates reporting PRRA targets,
aging of outstanding overpayments, recoveries by type of payment, and disposition of recaptured
funds in the FY 2013 AFR.

The following exhibits are designed to illustrate payment recapture audit (or recovery
auditing) efforts.




                                                   Fiscal Year 2012 Agency Financial Report         171
SECTION 3: Other Accompanying Information

The following exhibit is to show how recovery payments are reported for audits.

Exhibit 28: Payment Recapture Audit Reporting

                                                            Payment Recapture Audit Reporting
  Program         Type of         Amount             Actual          Amount           Amount      % of Amount        Amount           % of Amount
 or Activity     Payment         Subject to         Amount          Identified       Recovered    Recovered out     Outstanding      Outstanding out
                (contract,       Review for         Reviewed      for Recovery         (CY)        of Amount           (CY)            of Amount
                   grant,           CY                 and            (CY)                          Identified                       Identified (CY)
               benefit, loan,    Reporting          Reported                                          (CY)
                 or other)                            (CY)
      N/A           N/A              N/A              N/A               N/A              N/A          N/A              N/A                N/A



                                                            Payment Recapture Audit Reporting
    Amount           % of Amount         Amounts               Amounts            Cumulative      Cumulative        Cumulative         Cumulative
 Determined Not     Determined Not     Identified for          Recovered           Amounts         Amounts            Amounts           Amounts
      to be              to be           Recovery                (PYs)           Identified for   Recovered         Outstanding      Determined Not
   Collectable      Collectable out       (PYs)                                    Recovery       (CY+PYs)           (CY+PYs)             to be
      (CY)            of Amount                                                   (CY+PYs)                                             Collectable
                    Identified (CY)                                                                                                    (CY+PYs)
       N/A                 N/A                N/A                 N/A                 N/A            N/A               N/A                 N/A



The following exhibit is to show how these annual targets, based on the rate of recovery, are used to drive performance.

Exhibit 29: Payment Recapture Audit Targets

                                                               Payment Recapture Audit Targets
  Program or          Type of          CY Amount            CY Amount         CY Recovery Rate         CY +1            CY + 2           CY +3
   Activity           Payment           Identified          Recovered              (Amount          Recovery Rate    Recovery Rate    Recovery Rate
                     (contract,                                               Recovered/Amount         Target           Target           Target
                   grant, benefit,                                                Identified)
                   loan, or other)
       N/A                N/A                 N/A                N/A                   N/A                 N/A           N/A               N/A




172     150th Anniversary | United States Department of Agriculture
                                                                              USDA: Managing for Results in Performing Its Many Vital Public Functions


The following exhibit is to show an aging schedule of outstanding overpayments and 6-month periods.

Exhibit 30: Aging of Outstanding Overpayments

                                                         Aging of Outstanding Overpayments
    Program or Activity         Type of Payment (contract,     CY Amount Outstanding (0        CY Amount Outstanding (6     CY Amount Outstanding
                                  grant, benefit, loan, or          – 6 months)                    months to 1 year)            (over 1 year)
                                          other)
           N/A                             N/A                              N/A                          N/A                         N/A



The following exhibit is to show a summary of how recovered amounts have been used.

Exhibit 31: Disposition of Recaptured Funds

                                                             Disposition of Recaptured Funds
  Program or     Type of Payment           Agency             Payment               Financial          Original      Office of         Returned to
   Activity      (contract, grant,       Expenses to          Recapture           Management           Purpose       Inspector          Treasury
                 benefit, loan, or      Administer the       Auditor Fees         Improvement                         General
                      other)              Program                                   Activities
     N/A                  N/A                N/A                 N/A                  N/A                N/A              N/A              N/A




                                                                                                   Fiscal Year 2012 Agency Financial Report       173
SECTION 3: Other Accompanying Information

The following exhibit includes amounts of USDA improper payments identified and recovered
by source in FY 2012, prior years, and cumulative. The prior year’s column includes recoveries
from FY 2004 through FY 2011.

Exhibit 32: Overpayments Recaptured

                           Overpayments Recaptured Outside of PRRA Initiative ($millions)
                                                                                       Cumulative     Cumulative
                                                                                       (Current &     (Current &
                                                               Prior        Prior         Prior          Prior
                                    FY 2012      FY 2012       Years        Years         Years)        Years)
                                   Amounts      Amounts      Amounts      Amounts       Amounts        Amounts
          Agency Source            Identified   Recovered    Identified   Recovered     Identified     Recovered
 Statistical Samples Under IPIA         $2.97        $0.92     $891.65       $891.65       $894.62        $892.57
 Identified Internally & Post
                                      $244.71      $229.13     $302.35       $287.09       $547.06        $516.22
 Payment Reviews
 Identified by OIG & GAO Audits         $7.62        $0.06        $2.45        $0.07        $10.07          $0.13
 Reports from the Public                $6.06        $6.00        $0.00        $0.00         $6.06          $6.00
 Other Sources                          $3.79        $3.32        $0.00        $0.00         $3.79          $3.32
 USDA Total                           $265.15      $239.43    $1,196.44    $1,178.80      $1,461.60     $1,418.24



VI.       Accountability.

The following steps were taken to ensure that agency managers are held accountable for reducing
and recovering improper payments:

Farm Service Agency
          The Farm Service Agency (FSA) operates a performance-management program designed
           to improve individual and organizational effectiveness in accomplishing its mission and
           goals. This program provides for improper payments to be included in the State
           Executive Directors Performance Plan;
          National and State office (STO) managers are held accountable for ensuring that program
           policies and procedures are provided to the STO and county office (COF) employees
           accurately and timely. National office managers are also held accountable, as reflected in
           the performance based rating measures, for overall program administration. FSA
           employees’ performance elements are directly related to its strategic plan;
          COF employees, including the county executive director, must pay producers and follow
           all administrative steps in doing so. Employees will be evaluated on program delivery,
           compliance with regulations, policies, and procedures through their performance plans;
          The Deputy Administrator of Field Operations will facilitate meetings with the program
           areas to discuss any additional action necessary for senior management to address
           accountability; and




174        150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions


      FSA has incorporated the priority of reducing improper payments into its FY 2012-2016
       Strategic Plan, in accordance with USDA’s effort to develop comprehensive internal
       controls, quality assurance processes and systems, and comply with IPIA.

Food and Nutrition Service
An agency priority is to improve stewardship of Federal funds. Within this priority are specific
goals applicable to programs at high-risk for improper payments. The goal for SNAP, WIC, and
CACFP is to reduce the improper payment rates by continuing management improvements. The
goal of NSLP and SBP is to improve the accuracy of school administration processes that certify
children for school meals. The agency goals and priorities are incorporated into each manager’s
performance plan.

Forest Service
Management will be made aware of improper payments and held accountable for reduction and
recoveries of improper payments. The agency is also exploring a tool to help in reducing
improper payments after the implementation of its new accounting system, the Financial
Management Modernization Initiative.

Dissemination of audit findings, recovery efforts and identification of root causes ensure
management’s awareness. Quarterly monitoring and corrective actions will improve
accountability, identification, and resolution of improper payments in a timely manner.

Rural Development
Rural Development (RD) State offices with improper payments develop a corrective action plan.
The plan includes procedures to train field staff, borrowers, and property managers in
appropriate required documentation and follow up with tenants and income-verifiers.

      State office directors and program managers are held accountable for ensuring that
       program policies and procedures are implemented and administratively enforced.
       National office managers are also held accountable, as reflected in the performance based
       rating measures, for overall program administration at the National level;
      Deputy Administrator of Multi-Family Housing Programs will facilitate monthly
       meetings with the State and area office program areas to discuss any additional action
       necessary for senior management to address accountability and program administration;
      The National office staff performance plan agreements contain position-corresponding
       mission-area strategic objective element goals and priorities, and are incorporated into
       each manager’s performance plan; and
      RD has a performance management program in place to improve individual and
       organizational effectiveness in accomplishing its mission and goals.

Risk Management Agency
The Risk Management Agency (RMA) revised its strategic plan to provide results to enhance
accountability. RMA also has established procedures to ensure agency management takes future
corrective actions to address program vulnerabilities. Additionally, every employee’s


                                                  Fiscal Year 2012 Agency Financial Report         175
SECTION 3: Other Accompanying Information

performance plan agreement has contained a position-corresponding strategic objective element
since FY 2005.

Natural Resources Conservation Service
The Natural Resources Conservation Service incorporated IPIA goals and objectives in the
performance standards for all senior executive service positions. These also have been included
in the Regional Assistant Chiefs’ and State Conservationists’ performance plans.

VII. Agency Information Systems and Other Infrastructure.

Although USDA is creating information systems and infrastructure to reduce improper
payments, especially for programs susceptible to significant risk, efforts in some programs are
constrained by limited resources. The Department has worked closely with the Office of
Management and Budget to develop action plans that focus available resources on the most
critical needs with regard to improper payment measurement and risk reduction.

Food and Nutrition Service
The School Breakfast, National School Lunch, and Child and Adult Care Food Programs (CACFP)
do not have administrative infrastructure or methods for producing yearly estimates of improper
payment rates and dollar values. To establish and maintain effective internal controls to reduce
improper payments, FNS needs the following:

         Training and Technical Assistance — Effective and continual training and technical
          assistance are necessary to support the CACFP oversight activities and help States
          properly administer the Child Nutrition Program to ensure they are equipped to identify
          and prevent fraud and abuse;
         Child Nutrition Payment Accuracy — FNS believes that robust Federal oversight,
          monitoring, and technical assistance are essential to the identification, prevention, and
          resolution of improper payments; and
         Coordinated Review Program — Providing training and technical assistance for State
          agencies responsible for reviewing local school food authorities that participated in the
          school meal programs. The Coordinated Review Effort helps ensure that school children
          are offered meals that meet regulatory standards and that the financial claims associated
          with those meals are appropriate.

Farm Service Agency
FSA needs the following to reduce improper payments:

         Reduce the number of manually calculated payment reductions and adjustments by
          incorporating the management of all contract activities, such as managed haying and
          grazing, into the contract software. Requirements gathering and development is underway
          for the Conservation Reserve Program (CRP) Contract Maintenance and migration, and
          implementation of this enhanced functionality is targeted for FY 2013;




176       150th Anniversary | United States Department of Agriculture
                                USDA: Managing for Results in Performing Its Many Vital Public Functions


       Develop a system that will collect improper payment data for both over and
        underpayments at the disbursing office level. These data will be used to develop
        collection goals and better identify what receivables and additional payables are directly
        related to improper payments;
       FSA must have a sufficient budget for staff, equipment, and supplies to continue to
        support software, eligibility checks, field spot checks, and compliance reviews; and
       Infrastructure improvements must include enhancements to support Web-based software
        and the necessary Federal staffing to define, design, develop, and maintain CRP
        Web-based software. These enhancements will help to ensure better compliance reviews
        and eligibility validation through mainframe centralized databases. The time savings will
        allow field office employees to review and document other manual program related
        issues in more detail.

Rural Development
The FY2013 President’s Budget included a legislative proposal to allow property owners and
management agents’ access to the Department of Health and Human Services’ New Hires
database, a resource that will enable confirmation and verification of household income reported
by property tenants. Access to the database is estimated at $1.7 million for the first year of use.
Access to the database will be through a Web-based portal managed by the U.S. Department of
Housing and Urban Development.

Risk Management Agency
While the program has seen significant growth, the Risk Management Agency’s (RMA)
administrative budget has remained relatively flat. Compliance has gained significant efficiencies
through data mining and other technology applications used to identify program vulnerabilities.
These improvements have been made without additional staff to review and recover improper
payments. Thus, progress will be restricted. Also, while RMA has effective internal controls in
place, compliance staff has been unable to perform all the work assigned based on the sheer size of
the current program. RMA is considering several options for increasing the number of compliance
staff and what would be accomplished depending on funding.

VIII.   Barriers.

Farm Service Agency/Commodity Credit Corporation
The Department of Agriculture Reorganization Act of 1994, Section 281, provides that “[E]ach
decision of a State, county, or area committee or an employee of such a committee, made in good
faith in the absence of misrepresentation, false statement, fraud, or willful misconduct shall be
final not later than 90 calendar days after the date of filing of the application for benefits, [and]
...no action may be taken...to recover amounts found to have been disbursed as a result of the
decision in error unless the participant had reason to believe that the decision was erroneous.”
This statute, commonly referred to as the “Finality Rule,” will affect the Farm Service
Agency/Commodity Credit Corporation’s ability to recover improper payments.




                                                   Fiscal Year 2012 Agency Financial Report         177
SECTION 3: Other Accompanying Information

Food and Nutrition Service
The Farm Security and Rural Investment Act of 2002 (FSRIA/2002 Farm Bill) restricts the
liability levels States can be sanctioned due to high improper payment rates and also restricts the
amount of bonus funding available to States that do a good job reducing and maintaining a low
improper payment rate. While the Healthy, Hunger-Free Kids Act provided new tools to promote
strong management and integrity in the school meals programs, statutory authority continues to
limit USDA’s ability to act in this area because of concerns about potential barriers to
participation. In many instances, the mandated goal of providing easy access to benefits must be
balanced against the goal of reducing improper payments. In addition, program administration is
highly decentralized involving a myriad of Governmental and non-Governmental organizations.
There are approximately 100,000 school meal locations at which benefits are provided. Many of
these benefit providers simply do not have the capacity to develop robust accountability processes. For
these reasons, any approach to reducing school meal improper payments must:

         Improve accuracy without compromising access for low-income families. A process that
          keeps eligible children from participating would undermine the program;
         Not unduly increase burden on schools. Many schools consider the program burdensome
          now. Adding burden could discourage schools from participating;
         Be cost effective. Improving accuracy is potentially resource intensive; and
         Answer the needs of other users of program data. Certification data are often used to
          distribute millions of dollars in other kinds of benefits to schools. As these needs contribute
          to the problem, a solution may also require new commitments from those users.

Rural Development
The Rural Development program does not have the statutory authority, similar to the
U.S. Department of Housing and Urban Development, to gain access to data from the
U.S. Department of Health and Human Services Directory of New Hires, the U.S. Internal
Revenue Service (IRS), the U.S. Social Security Administration, and the U.S. Department of
Labor to be shared with field offices and management agents. Having these resources would
better enable borrowers and management agents to confirm and verify income information from
tenants, on whose behalf rental assistance subsidy is provided.

Natural Resources Conservation Service
Verification of eligibility will be an ongoing challenge for the Natural Resources Conservation
Service (NRCS). It would be advantageous for the agency to determine adjusted gross income
eligibility on current and future FSRIA/2002 Farm Bill participants by coordinating with the
IRS. For long-term contracts, the IRS requirement for participants to maintain tax records
expires prior to the expiration of the Farm Bill contracts. This requirement limits NRCS’ ability
to independently verify eligibility.




178       150th Anniversary | United States Department of Agriculture
                               USDA: Managing for Results in Performing Its Many Vital Public Functions



Inspector General Act Amendments of 1988: Management’s
Report on Audit Follow Up
Background
The Inspector General Act Amendments of 1988 (P.L. 100-504), require that each agency head
submit semi-annual reports to Congress on the actions taken in response to Office of Inspector
General (OIG) audit, evaluation, and inspection reports. Consistent with the Reports
Consolidation Act of 2000 (P.L. 106-531), the U.S. Department of Agriculture’s (USDA) Office
of the Chief Financial Officer (OCFO) consolidates and annualizes the required semi-annual
Inspector General Act Amendments reporting elements for inclusion in the annual Agency
Financial Report.

OIG audits USDA’s programs, systems, and operations. It then recommends improvements to
management based on its findings. Management may agree or disagree with the audit’s findings
or recommendations. An agreement is reached during the management-decision process. If
management agrees with a recommendation, a written plan for corrective action with a target
completion date is developed. The plan is then submitted to OIG for concurrence. If both OIG
and management agree that the proposed corrective action will correct the weakness, then a
management decision is concluded for that recommendation.

Audit follow up ensures that prompt and responsive action is taken. USDA’s OCFO oversees
audit follow up for the Department. An audit remains open until all corrective actions for each
recommendation are completed. As agencies complete planned corrective actions and submit
closure documentation, OCFO reviews it for sufficiency and determines if final action is
completed.




                                                  Fiscal Year 2012 Agency Financial Report         179
SECTION 3: Other Accompanying Information

Fiscal Year 2012 Results
USDA agencies closed 39 audits in fiscal year (FY) 2012. OIG and USDA agencies reached
management decision on 57 audits during the year. As shown in the following exhibit, the
Department’s inventory of open audits increased in FY 2012 by 19 percent from 96 to 114.

Exhibit 33: Open Audit Inventory




Note: The FY 2011 ending balance was revised from 91 to 96 to include 5 audits transmitted from the Office of Inspector
General after the reporting period. These adjustments are also reflected in the beginning balances for audits with disallowed
costs (DC) and funds to be put to better use (FTBU) shown in Exhibit 35 and Exhibit 37, respectively.

Audit Follow Up Process
The Inspector General Act Amendments of 1988 require an annual report to Congress providing
the status of resolved audits that remain open. Resolved audits are those for which management
decision has been reached for all recommendations. Reports on resolved audits must include the
elements listed in the accompanying bullets:

         Beginning and ending balances for the number of audit reports and dollar value of
          disallowed costs (DC) and funds to be put to better use (FTBU) (see definitions below);
         The number of new management decisions reached;
         The disposition of audits with final action (see definition below);
         Resolved audits that remain open one year or more past the management decision date
          require an additional reporting element; and
         The date issued, dollar value, and an explanation of why final action has not been taken.




180       150th Anniversary | United States Department of Agriculture
                                          USDA: Managing for Results in Performing Its Many Vital Public Functions


Exhibit 34: Audit Follow Up Definitions

     Term                                                           Definition
 Disallowed         An incurred cost questioned by the Office of Inspector General (OIG) that management has agreed should
 Cost (DC)          not be chargeable to the Government.
 Final Action       To complete all actions that management has agreed will address the audit findings and recommendations.
 Funds To Be        An OIG recommendation that funds could be used more efficiently if management completes the
 Put to Better      recommendation, including:
 Use (FTBU)         •   Reductions in outlays or other savings;
                    •   De-obligation of funds from programs or operation, or withdrawal of subsidy costs on loans,
                        guarantees, or bonds; and
                    •   Implementation of recommended improvements for grants or contracts or unnecessary expenditures
                        noted in pre-award reviews of contract or grant agreements.
 Management         Agreement between management and OIG on corrective action needed to address audit findings and
 Decision           recommendations.


Beginning and Ending Inventory for Audits with Disallowed Costs and Funds
to Be Put to Better Use
Of the 39 audits that achieved final action during the fiscal year, 12 contained disallowed
costs (DC). The number of DC audits remaining in the inventory at the end of the fiscal year is
38 with a monetary value of $38,476,260. See following exhibit.

Exhibit 35: Inventory of Audits with Disallowed Costs


                 Audits with Disallowed Costs (DC)                               # of Audits               Amount ($)
 Beginning of the Period                                                              27                   $24,431,081
 Plus: New Management Decisions                                                       23                     16,710,192
 Total Audits Pending Collection of DC                                                50                     41,141,273
 Adjustments (see Exhibit 36)                                                                                   414,717
 Revised Subtotal                                                                                            40,726,556
 Less: Final Actions (Recoveries)                                                     12                      2,250,296
 Audits with DC Requiring Final Action at the End of the Period                       38                   $38,476,260
Exhibit 35 and Exhibit 37 include only those open audits with DC and FTBU, respectively. Additionally, some audits contain
both DC and FTBU amounts. For these reasons, the number of audits shown as the ending balances in Exhibit 35 and Exhibit 37
does not equal the total resolved audit inventory balance in Exhibit 33.



For DC audits that achieved final action in FY 2012, OIG and management agreed to collect
$2,665,013. Adjustments were made totaling $414,717 (16 percent of the total) (see Exhibit 35)
because of: (1) USDA agencies’ ability to provide sufficient documentation to substantiate DC
agency documentation; (2) write-offs; (3) changes in management decision; and (4) agency
discovery. Management recovered the remaining $2,250,296. See Exhibit 35.




                                                                  Fiscal Year 2012 Agency Financial Report                    181
SECTION 3: Other Accompanying Information

Exhibit 36: Distribution of Adjustments to DC

                           Category                                              Amount ($)
 Agency Documentation                                                            - $ 11,743
 Write-Offs                                                                         117,713
 Changes in Management Decision                                                      63,548
 Agency Discovery                                                                   245,199
 Total                                                                             $414,717


Final action occurred on 8 audits that involved funds to be put to better use (FTBU) amounts.
The number of FTBU audits remaining in the inventory to date is 7 with a monetary value of
$106,905,411. See the following exhibit.

Exhibit 37: Inventory of Audits with Funds To Be Put to Better Use


      Audits with Funds to be Put to Better Use (FTBU)                        # of Audits                 Amount ($)
 Beginning of the Period                                                           12                     $108,271,519
 Plus: New Management Decisions                                                     3                          778,862
 Total Audits Pending                                                              15                      109,050,381
 Less: Final Actions                                                                8                        2,144,970
 Audits with FTBU Requiring Final Action at the End of the Period                   7                      106,905,411
 Disposition of FTBU:
 FTBU Implemented                                                                                            2,144,970
 FTBU Not Implemented                                                                                                 0
 Total FTBU Amounts for Final Action Audits                                                                 $2,144,970
Exhibit 35 and Exhibit 37 include only those open audits with DC and FTBU, respectively. Additionally, some audits contain
both DC and FTBU amounts. For these reasons, the number of audits shown as the ending balances in Exhibit 35 and Exhibit 37
does not equal the total resolved audit inventory balance in Exhibit 33.



The numbers of audits open 1 or more years without final action in FY 2012 decreased from
63 to 50 audits, a 21-percent decrease. During the year, an additional 16 audits reached 1 year past
Management Decision Date (MDD) for a balance of 66 audits. USDA agencies continue to pursue
compensating controls that address many of the underlying issues identified in these older audits.




182       150th Anniversary | United States Department of Agriculture
                                             USDA: Managing for Results in Performing Its Many Vital Public Functions


Exhibit 38: Decrease in the Number of Audits Open One or More Years Past the Management
Decision Date


           Audits One Year or More Past Management Decision Date (MDD)                                       # of Audits
Beginning of the period                                                                                            63*
    Less: FY 2011 audits closed                                                                                    13
Subtotal FY 2011 Audits one year or more past MDD                                                                  50
    Plus: Audits that turned one year during FY 2011                                                               16
End of the Period*                                                                                                 66*
* End of the Period includes 1 audit in appeal not listed in Exhibit 39. In addition, one audit was omitted from the FY 2011
ending balance. An adjustment has been made to change the beginning balance FY 2012 from 62 to 63.

Agencies have completed all planned corrective actions on 16 audits that are pending collection
of associated DC. See the following exhibit.

Exhibit 39: Distribution of Audits Open One Year or More Past the Management Decision Date

                     Audits On Schedule                Audits Behind Schedule                    Audits Under Collection
  Agency       No.      DC ($)       FTBU ($)        No.      DC ($)        FTBU ($)       No.        DC ($)        FTBU ($)
 Totals         2             0          0           46      $4,205,321    $97,677,980      16      $16,885,427         $569,524



Management’s Report on Audit Follow Up
With the exception of one audit which is in appeals, audits without final action one year or more
past MDD and behind schedule are listed individually in the following exhibit. They are
categorized by the reason final action has not occurred. More detailed information on audits on
schedule, in appeals, and under collection is available from OCFO.

Exhibit 40: Audits Open One Year or More, Past the Management Decision Date, and Behind
Schedule

                                   Revised                                                             Monetary Amount
                      Date        Completion
     Audits          Issued         Date                          Audit Title                          DC$               FTBU$
                                  (29) Pending issuance of policy/guidance and legislation
 03601-17-CH         9/29/08      12/31/12        FSA Controls Over Guaranteed Farm Loan                       -                   -
                                                  Interest Rates and Interest Assistance
 04601-20-CH         9/19/11      05/31/15        RD Rural Rental Housing Program - Midwest            $152,970                    -
                                                  Apartment and Management Group, Inc.
 05601-4-KC          3/4/09       10/01/14        RMA Use of the National Agriculture                          -    $70,000,000
                                                  Statistics Service County Average Yields for
                                                  the Group Risk Protection Plans of Insurance
 08601-54-SF         3/31/10      12/31/12        FS Firefighting Succession Plans                             -    $27,500,000
 10401-2-FM          11/13/08     12/31/12        NRCS Financial Statements for FY 2008                        -                   -
 10703-1-KC          9/8/10       12/31/12        NRCS ARRA – Emergency Watershed                              -                   -
                                                  Protection Program Floodplain Easement Phase I



                                                                  Fiscal Year 2012 Agency Financial Report                     183
SECTION 3: Other Accompanying Information

                            Revised                                                       Monetary Amount
                  Date     Completion
      Audits     Issued      Date                         Audit Title                      DC$        FTBU$
                           (29) Pending issuance of policy/guidance and legislation
 11099-44-FM    12/14/06   10/31/12      Departmental Management Potential Improper               -           -
                                         Payments/Purchase Card Management System
 24601-1-CH     6/21/00    12/31/12      FSIS Laboratory Testing of Meat and Poultry              -           -
                                         Products
 24601-8-KC     3/25/10    12/31/12      FSIS National Residue Program for Cattle                 -           -
 24601-9-KC     2/24/11    12/31/12      FSIS Sampling Protocol for Testing Beef Trim             -           -
                                         for E. Coli O157:H7
 27099-49-TE    3/10/08    5/31/13       FNS Disaster Food Stamp Program for                      -           -
                                         Hurricanes Katrina and Rita, Louisiana,
                                         Mississippi, and Texas
 27601-16-AT    3/31/08    12/31/12      FNS Food Stamp Employment and Training                   -           -
 33002-4-SF     5/14/10    12/31/12      APHIS Inspection of Problematic Dealers                  -   $177,980
 33601-2-KC     9/30/10    12/03/12      APHIS Administration of the Horse                        -           -
                                         Protection Program and the Slaughter Horse
                                         Transport Program
 33601-3-CH     2/20/03    11/30/13      APHIS Safeguards to Prevent Entry of                     -           -
                                         Prohibited Pests and Diseases into the United
                                         States
 33601-7-CH     8/14/07    11/30/13      APHIS Review of Customs and Border                       -           -
                                         Protection Inspection Activities
 33601-10-CH    4/13/10    12/31/12      APHIS Controls over Licensing of                         -           -
                                         Animal Exhibitions
 33601-11-CH    8/13/10    12/31/12      APHIS USDA's Controls over Animal                        -           -
                                         Import Centers
 34099-2-AT     9/14/01    11/30/12      RD, RBCS Business and Industry Loan             $4,052,351           -
                                         Program, OMNIVEST Resources, Inc. – Fort
                                         Gaines, Georgia
 34601-4-AT     1/10/03    11/30/12      RD, RBCS Lender Servicing of Business and                -           -
                                         Industry Guaranteed Loans in Georgia
 34601-15-TE    9/30/03    11/30/12      RD, RBCS National Report on the Business                 -           -
                                         and Industry Loan Program
 50401-65-FM    11/14/08   11/30/12      Office of the Chief Financial Officer (OCFO)             -           -
                                         USDA Consolidated Financial Statements FY
                                         2007 and FY 2006
 50401-67-FM    11/16/09   11/30/12      OCFO USDA Consolidated Financial                         -           -
                                         Statements FY 2009 and FY 2008
 50401-70-FM    8/16/10    11/30/12      OCFO USDA Consolidated Financial                         -           -
                                         Statements FY 2010 and FY 2009
 50601-6-HY     7/15/09    12/31/13      FSIS’s Assessment of USDA’s Controls to                  -           -
                                         Ensure Compliance with Beef Export
                                         Requirements
 50601-8-TE     1/28/05    04/30/13      APHIS Controls Over Issuance of Genetically              -           -
                                         Engineered Organism Release Permits
 50601-10-AT    3/8/04     9/30/13       ARS Follow Up Report on the Security of                  -           -
                                         Biological Agents at U.S. Department of
                                         Agriculture Laboratories




184      150th Anniversary | United States Department of Agriculture
                                      USDA: Managing for Results in Performing Its Many Vital Public Functions


                            Revised                                                           Monetary Amount
                 Date      Completion
   Audits       Issued       Date                           Audit Title                       DC$          FTBU$
                           (29) Pending issuance of policy/guidance and legislation
50601-16-TE    5/31/11     11/30/13        APHIS Controls over Genetically Engineered                 -              -
                                           Animal and Insect Research
50601-17-TE    12/12/08    12/31/12        ARS Control over Importation of Transgenic                 -              -
                                           Plant and Animals
 (7) Pending completion of IT system security weaknesses, systems development, implementation,
or enhancement
24601-7-HY     9/28/06     12/31/12        FSIS Issues Impacting the Development of                   -              -
                                           Risk-Based Inspection at Meat and Poultry
                                           Processing Establishments
24601-8-CH     8/23/07     12/31/14        FSIS Egg Products Processing Inspection                    -              -
24601-8-HY     8/24/08     12/31/12        FSIS Follow up Review of FSIS’ Controls                    -              -
                                           Over Imported Meat and Poultry Products
33601-1-HY     2/14/05     12/31/12        FSIS Oversight of the Importation of Beef                  -              -
                                           Products from Canada
50501-1-IT     8/15/11     9/30/13         Office of the Chief Information Officer (OCIO)             -              -
                                           USDA’s Management and Security Over
                                           Wireless Handheld Devices
50501-2-IT     11/19/10    9/30/13         OCIO FY 2010 Federal Information Security                  -              -
                                           Management Act
50501-15-FM    11/18/09    9/30/13         OCIO FY 2009 Federal Information Security                  -              -
                                           Management Act
(2) Pending results of internal monitoring or program review
04099-212-TE   8/25/09     10/31/13        RD, Rural Housing Service Multi–Family                     -              -
                                           Housing Loans in Texas
10401-3-FM     11/4/09     11/30/13        NRCS Financial Statements for FY 2009                      -              -
(2) Conclusion of external action
50099-11-HY    3/31/05     12/31/12        Research Education and Economics                           -              -
                                           Implementation of Federal Research
                                           Misconduct Policy in the U.S. Department of
                                           Agriculture
50601-6-TE     3/4/04      12/31/12        ARS Controls Over Plant Variety Protection                 -              -
                                           and Germplasm Storage
(6) Pending administrative action
01601-4-HY     8/18/11     12/30/12        AMS Implementation of Country of                           -              -
                                           Origin Labeling
02601-1-CH     9/30/05     12/31/12        ARS Adequacy of Controls to Prevent the                    -              -
                                           Improper Transfer of Sensitive Technology
03601-11-AT    11/17/05    12/31/12        FSA Minority Participation in FSA’s Programs               -              -
06401-20-FM    11/9/05     09/30/14        Commodity Credit Corporation’s Financial                   -              -
                                           Statements for FYs 2005 and 2004
06401-24-FM    11/12/09    3/31/13         Commodity Credit Corporation’s Financial                   -              -
                                           Statements for FYs 2009 and 2008
50601-15-KC    8/1/2011    12/31/12        FSA, NASS Establishment of Average Yields                  -              -
Total Number Audits (46)                   Total                                            $ 4,205,321   $ 97,677,980




                                                            Fiscal Year 2012 Agency Financial Report               185
Acronyms

Acronyms

 A
 A&A—Assessment and Authorization                        AMS—Agricultural Marketing Service
 AARC—Alternative Agricultural Research and              APHIS—Animal and Plant Health Inspection Service
 Commercialization Corporation                           APR—Annual Performance Report
 ACRE—Average Crop Revenue Election                      ARRA—American Reinvestment and Recovery Act of 2009
 ACRSI—Acreage Crop Reporting Streamlining Initiative    ARS—Agricultural Research Service
 AFR—Agency Financial Report                             ASOC—Agriculture Security Operations Center


 B
 BCAP—Biomass Crop Assistance Program                    BDO—Barter Delivery Obligation


 C
 C&A—Certification and Accreditation                     CM—Continuous Monitoring
 CACFP—Child and Adult Care Food Program                 CN—Child Nutrition
 CAP—Corrective Action Plan                              CND—Child Nutrition Division
 CBO—Certificates of Beneficial Ownership                CNPP—Center for Nutrition Policy and Promotion
 CCC—Commodity Credit Corporation                        CoC—Cushion of Credit
 CCD—Colony Collapse Disorder                            COF—County Office
 CCTRP—Citrus Canker Tree Replacement Program            ComSec—Communications Security
 CFR—Code of Federal Regulations                         CORE—Core Accounting System
 CHST—Collection, Harvest, Storage, and Transportation   CRP—Conservation Reserve Program
 CI—Condition Index
 D
 DAFO—Deputy Administrator of Field Operations           DM—Deferred Maintenance
 DC—Disallowed Costs                                     DM—Departmental Management
 DCP—Direct and Counter-Cyclical Payments                DNSSEC—Domain Name System Security Extensions
 DHS—United States Department of Homeland Security
 E
 E&T—Employment and Training                             EPAS—Economic Policy and Analysis
 eFMS—Electronic Funds Manaement System                  EPRT—External Performance Review Team
 ENS—Enterprise Network Services                         ERS—Economic Research Service




186     150th Anniversary | United States Department of Agriculture
                                    USDA: Managing for Results in Performing Its Many Vital Public Functions




F
FAS—Foreign Agricultural Service                        FNS—Food and Nutrition Service
FCIC—Federal Crop Insurance Corporation                 FRTA—Forest Roads and Trails Act of 1969
FDCH—Family Day Care Homes                              FS—Forest Service
FFAS—Farm and Foreign Agricultural Services             FSA—Farm Service Agency
FFB—Federal Financing Bank                              FSFL—Farm Storage Facility Loan
FFIS—Foundation Financial Information System            FSH—Forest Service Handbook
FFMIA—Federal Financial Management Improvement Act      FSIS—Food Safety and Inspection Service
FFMS—Federal Financial Management System                FSM—Forest Service Manual
FISMA—Federal Information Security Management Act       FSRIA—Farm Security and Rural Investment Act
FMFIA—Federal Managers’ Financial Integrity Act         FTA—Free Trade Agreement
FMMI—Financial Management Modernization Initiative      FTBU—Funds To Be Put to Better Use
FNCS—Food, Nutrition, and Consumer Services             FY—Fiscal Year


G
GAO—Government Accountability Office                    GMOT—Grants Management Oversight Team
GE—Genetically Engineered                               GS—General Schedule
GIPSA—Grain Inspection, Packers, and Stockyards         GSA—General Services Administration
Administration


H
HAACP—Hazard Analysis and Critical Control Point        HVT—High Value Target
HSPD-12—Homeland Security Presidential Directive 12


I
ICAM—Identity Credentialing and Access Management       IPERA—Improper Payments Elimination and Recovery Act
ICRT—Internal Compliance Review Team                    of 2010
IHD—Incident Handling Division                          IPIA—Improper Payments Information Act of 2002
IID—Internet Identity                                   IRS—Internal Revenue Service
                                                        IT—Information Technology

L
L&WCF—The Land and Water Conservation Fund              LDP—Loan Deficiency Payment
LAN—Local Area Network


M
MAL—Marketing Assistance Loan                           MILC—Milk Income Loss Contract
MDD—Management Decision Date                            MOA—Memorandum of Agreement
MDP—Miscellaneous Disaster Programs                     MOU—Memorandum of Understanding
MICN—Management Interactive Connection Network          MRP—Marketing and Regulatory Programs
MIDAS—Modernize and Innovate the Delivery of
Agricultural Systems




                                                       Fiscal Year 2012 Agency Financial Report           187
Acronyms


 N
 NAL—National Agricultural Library                         NIFA—National Institute of Food and Agriculture
 NAP—Noninsured Assistance Program                         NIST—National Institute of Standards and Technology
 NASS—National Agricultural Statistics Service             NRCS—Natural Resources Conservation Service
 NEPA—National Environmental Policy Act                    NRE—Natural Resources and Environment
 NFS—National Forest System                                NSLP—National School Lunch Program
 NHQ—National Headquarters


 O
 OALJ—Office of Administrative Law Judges                  OHSEC—Office of Homeland Security and Emergency
 OAO—Office of Advocacy and Outreach                       Coordination
 OASCR—Office of the Assistant Security for Civil Rights   OIG—Office of Inspector General
 OCFO—Office of the Chief Financial Officer                OJO—Office of the Judicial Officer
 OCIO—Office of the Chief Information Officer              OMB—Office of Management and Budget
 OES—Office of the Executive Secretariat                   OO—Office of Operations
 OHRM—Office of Human Resources Management                 OPPM—Office of Procurement and Property Management
                                                           OSDBU—Office of Small and Disadvantaged Business
                                                           Utilization


 P
 PAR—Performance and Accountability Report                 PP&E—Property, Plant, and Equipment
 PHA—Priority Heritage Assets                              PRRA—Payment Recapture/Recovery Auditing
 PHIS—Public Health Information System                     PRV—Plant Replacement Value
 PIV—Personal Identity Verification


 R
 R&D—Research and Development                              RHS—Rural Housing Service
 RAP—Rental Assistance Program                             RHIF—Rural Housing Insurance Fund
 RBS—Rural Business and Cooperative Service                RMA—Risk Management Agency
 RD—Rural Development                                      RME—Risk Management Education
 REE—Research, Education, and Economics                    RO—Regional Office
                                                           RUS—Rural Utilities Service
 S
 SA—State Agency                                           SPA—Special Program Area
 SBP—School Breakfast Program                              SPFI—Summary of Performance and Financial Information
 SER—Single Effective Rate                                 SPS—Sanitation Performance Standard
 SFH—Single Family Housing                                 SSA—Security Stack Array
 SFHG—Single Family Housing Guaranteed                     SSFL—Sugar Storage Facility Loan
 SNAP—Supplemental Nutrition Assistance Program            SSL—Secure Socket Layer
 SOP—Standard Operating Procedure                          SSOP—Standard Sanitation Operating Procedure
 SOS—Schedule of Spending                                  STO—State Office
 SP—Special Publication




188     150th Anniversary | United States Department of Agriculture
                                    USDA: Managing for Results in Performing Its Many Vital Public Functions




T
TME—Target Management Evaluations
TPMC—Tucson Plant Materials Center
TPP—Trans Pacific Partnership


U
UEWI—USDA Early Warning Indicators                        US-CERT—The United States Computer Emergency
ULO—Unliquidated Obligations                              Response Team
                                                          USDA—United States Department of Agriculture

V
VERA/VSIP—Voluntary Early Reitrement Authority/           VPN—Virtual Private Network
Voluntary Suspension Incentive Pay


W
WebTCAS—Web-based Total Cost Accounting System
WFSM—Wildland Fire Suppression Management
WIC—Special Supplemental Program for Women, Infants, and Children




                                                         Fiscal Year 2012 Agency Financial Report        189
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
